<html>
<title> - GLOBAL CHALLENGES AND U.S. NATIONAL SECURITY STRATEGY</title>
<body><pre>[Senate Hearing 114-485]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-485

    GLOBAL CHALLENGES, U.S. NATIONAL SECURITY STRATEGY, AND DEFENSE 
                              ORGANIZATION

=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                  JANUARY 21, 27, 29; OCTOBER 22, 2015
                  
                  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                 

                               __________

         Printed for the use of the Committee on Armed Services
        Available via the World Wide Web: http://www.fdsys.gov/
        
        
                               ____________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
22-944 PDF                   WASHINGTON : 2016                     

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcaddc2edced8ded9c5c8c1dd83cec2c083">[email&#160;protected]</a>  


  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  
                           C O N T E N T S

                               __________

                            january 21, 2015

                                                                   Page

Global Challenges and U.S. National Security Strategy............     1

Scowcroft, Brent, President, The Scowcroft Group and Former U.S. 
  National Security Advisor......................................     5
Brzezinski, Dr. Zbigniew K., Counselor and Trustee, Center for 
  Strategic and International Studies and Former U.S. National 
  Security Advisor...............................................     7

                            january 27, 2015

Global Challenges and U.S. National Security Strategy............    37

Mattis, General James N., USMC (Ret.), Former Commander, United 
  States Central Command.........................................    41
Keane, General John M., USA (Ret.), Former Vice Chief of Staff of 
  the Army.......................................................    50
Fallon, Admiral William J., USN (Ret.), Former Commander, United 
  States Central Command.........................................    58

                            january 29, 2015

Global Challenges and U.S. National Security Strategy............   105

Albright, Dr. Madeleine K., Chair, National Democratic Institute 
  and Former Secretary of State..................................   107
Shultz, Dr. George P.; Thomas W. and Susan B. Ford Distinguished 
  Fellow, Hoover Institution, Stanford University and Former 
  Secretary of State.............................................   112
Kissinger, Dr. Henry A., Chairman of Kissinger Associates and 
  Former Secretary of State......................................   131

                            october 22, 2015

Global Challenges and U.S. National Security Strategy, and 
  Defense Organization...........................................   149

Cohen, Professor Eliot A.; Robert E. Osgood Profession Of 
  Strategic Studies, Johns Hopkins School of Advanced 
  International Studies..........................................   152
Mahnken, Professor Thomas G., Senior Research Professor and 
  Director of the Advanced Strategy Program, Johns Hopkins School 
  of Advanced International Studies..............................   160
Mead, Professor Walter Russell, Distinguished Scholar in American 
  Strategy, The Hudson Institute.................................   166
Hicks, Dr. Kathleen, Senior Vice President; Henry A. Kissinger 
  Chair; Director, International Security Program, Center for 
  Strategic and International Studies............................   176

                                 (iii)

 
         GLOBAL CHALLENGES AND U.S. NATIONAL SECURITY STRATEGY

                              ----------                              


                      WEDNESDAY, JANUARY 21, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Sessions, 
Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, Tillis, 
Sullivan, Graham, Reed, Nelson, McCaskill, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, and 
Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The committee hearing will 
come to order.
    To start with, I would like to welcome our new members, 
Senator Tom Cotton, Senator Joni Ernst, Senator Thom Tillis, 
Senator Dan Sullivan, Senator Mike Rounds, and Senator Martin 
Heinrich. For the benefit of our new members and all, this 
committee has a long tradition of working in a bipartisan 
fashion, of which we are very proud.
    I have had the opportunity of working with Senator Reed for 
many years. Despite his lack of quality education, he has done 
an outstanding job here as a ranking member of the committee 
[laughter].
    For those who are political trivia experts, my staff tells 
me this is the first time that we have had a chairman and 
ranking member from the two oldest service academies, and so I 
welcome the opportunity of working closely, as I have for many 
years, with the Senator from Rhode Island.
    Today, the Senate Armed Services Committee (SASC) begins a 
series of hearings on global challenges to U.S. national 
security strategy. I am pleased to have as our first witnesses 
two of America's most respected strategic thinkers and public 
servants, General Brent Scowcroft and Dr. Zbigniew Brzezinski. 
Each served as National Security Advisor to the President of 
the United States, their collective experiences of laying 
critical foundations for the United States-China relationship, 
confronting the ayatollahs in Iran, negotiating arms treaties 
with Moscow, and making tough choices on United States strategy 
in the Middle East, have clear salience for this committee 
today.
    We are grateful to each of you for allowing us to draw on 
your wisdom.
    Four decades ago, Secretary of State Dean Acheson titled 
his memoir on the construction of the post-World War II order, 
``Present at the Creation''. Looking out at the state of that 
order today, it is fair to ask if we are now present at the 
unraveling.
    For 7 decades, Republican and Democratic leaders alike have 
committed America's indispensable leadership and strength to 
defending a liberal world order, one that cherishes the rule of 
law, maintains free markets and free trade, provides peaceful 
means for the settlement of disputes, and relegates wars of 
aggression to their rightful place in the bloody past.
    America has defended this order because it is as essential 
to our identity and purpose as it is to our safety and 
prosperity.
    But the liberal world order is imperiled like never before. 
In a speech riddled with unrealistic, wishful thinking, 
President Obama told the Nation last night that the shadow of 
crisis has passed. That news came as quite a surprise to anyone 
who has been paying attention to what has been happening around 
the world.
    A revisionist Russia has invaded and annexed the territory 
of a sovereign European state, the first time that has occurred 
since the days of Hitler and Stalin.
    A rising China is forcefully asserting itself in historical 
and territorial disputes, and alarming its neighbors, all the 
while investing billions of dollars in military capabilities 
that appear designed to displace and erode United States power 
in the Asia-Pacific.
    A theocratic Iran is seeking a nuclear weapon, which could 
unleash a nuclear arms race in the Middle East and collapse the 
global nonproliferation regime.
    A vicious and violent strain of radical Islamist ideology 
continues to metastasize across the Middle East and North 
Africa.
    In its latest and potentially most virulent form, the 
Islamic State, this evil has the manpower and resources to 
dissolve international borders, occupy wide swaths of sovereign 
territory, destabilize one of our most strategically important 
parts of the world, and possibly threaten our Homeland.
    In Yemen, the country President Obama once hailed as a 
successful model for his brand of counterterrorism, al Qaeda 
continues to facilitate global terrorism, as we saw in the 
barbaric attacks in Paris. Iranian-backed Houthi rebels have 
pushed the country to the brink of collapse.
    All the while, American allies are increasingly questioning 
whether we will live up to our commitments, and our adversaries 
seem to be betting that we won't.
    It does not have to be this way. Working together, this 
Congress and the President can immediately begin to restore 
American credibility by strengthening our common defense. 
American military power has always been vital to the 
sustainment of the liberal world order. It enhances our 
economic power, adds leverage to our diplomacy, reassures our 
allies, and deters our adversaries.
    Yet despite the growing array of complex threats to our 
security, we are on track to cut $1 trillion out of America's 
defense budget by 2021. Readiness is cratering across the 
Services. Army and Marine Corps end-strength is falling 
dangerously low. The Air Force's aircraft inventory is the 
oldest in its history. The Navy's fleet is shrinking to pre-
World War I levels. Top Pentagon officials and military 
commanders are warning that advances by China, Russia, Iran, 
and other adversaries mean United States military technological 
superiority can no longer be taken for granted.
    This state of affairs is dangerous and unacceptable, and 
represents a failure to meet our most basic constitutional 
responsibility to provide for the common defense. We must have 
a strategy-driven budget, and not a budget-driven strategy. We 
must have a strategy based on a clear-eyed assessment of the 
threats we face, and a budget that provides the resources 
necessary to confront them.
    But crafting a reality-based national security strategy is 
simply impossible under the mindless mechanism of 
sequestration. There would be no clearer signal that America 
intends to commit to the defense of our National interests and 
the international system that protects them than its immediate 
repeal.
    I would hasten to add, while a larger defense budget is 
essential, it will be meaningless without the continued pursuit 
of defense reform, rethinking how we build, posture, and 
operate our forces in order to maintain our technological edge 
and prevail in long-term competition with determined 
adversaries who seek to undermine the economic and security 
architecture we have long championed.
    This hearing will be the first in a series on how we build 
a national security strategy that can sustain the American 
power and influence required to defend the international order 
that has produced an extended security, prosperity, and liberty 
across the globe.
    I am pleased we have with us such a distinguished panel of 
American statesmen to help us begin that conversation.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    First, let me join you in welcoming our new members and our 
colleagues who have returned.
    Also, let me congratulate and commend you, Mr. Chairman, on 
your leadership role. I think the committee is in very strong 
and very capable hands, and I look forward to working with you.
    To underscore your comment about the nature of this 
committee, its bipartisan, thoughtful approach to problems 
which we will continue, I'm sure, under your leadership. Thank 
you, Mr. Chairman.
    General Scowcroft, Dr. Brzezinski, welcome. Both of you 
have been leading American practitioners of diplomacy and 
strategic thinkers for several decades. We thank you for your 
service to your country and for your agreeing to be here today.
    Let me again commend Chairman McCain for calling this 
hearing, as a series of hearings to look at the challenges he 
outlined so articulately that face the United States today, and 
how we may respond to those challenges.
    This hearing and those that follow will provide us an 
opportunity to hear from leading experts, retired military 
commanders, and key leaders in our country about the National 
security issues that we face.
    I welcome a chance to take this broad perspective and broad 
view. The number and breadth of these challenges seems 
unprecedented, from Russia's aggressive and destabilizing 
actions in Europe; to the breakdown of nation-states in the 
Middle East and the rise of non-state actors like al Qaeda and 
the Islamic State of Iraq and the Levant (ISIL) that threaten 
the integrity of states throughout the region; to Iran's 
continued pursuit of a nuclear weapons program and the 
proliferation risks associated with that; to the growing 
assertiveness of China, both regionally and globally; and to 
cyberthreats from North Korea and other malign actors.
    General Scowcroft and Dr. Brzezinski, we would be 
interested in hearing your perspectives on each of these 
challenges and the principles that you believe should guide us 
in addressing them.
    They include, and this is not an exhaustive list, but it is 
a lengthy list, with regard to the Middle East, first, how 
would you define the near- and long-term United States 
interests in the region; second, what do you believe will be 
required to defeat the threats from violent extremist groups 
like ISIL, both in terms of United States policy and 
international collaboration; and third, what role, if any, do 
you believe nations outside of the Middle East should play in 
addressing centuries-old divisions in that region, including 
the Sunni-Shia divide, ethnic rivalries, and political and 
ideological divisions?
    With regard to Iran, there are a variety of ongoing 
developments. Another round of negotiations just wrapped up 
over the weekend. A July deadline looms. While it is a few 
months away, it is approaching quickly. The Senate Banking 
Committee is working on legislation that it hopes to mark up as 
early as next week that would impose additional sanctions.
    The committee would be interested in your assessment of the 
likelihood that these negotiations will succeed or fail, and 
the value of giving this process an opportunity to play out, 
and your assessment of Iran's regional ambitions and how an 
Iran would, with or without a nuclear weapon, change the 
dynamics in that region, and also the broader Sunni-Shia 
conflict.
    In regard to Europe, how should the United States and its 
allies contend with an aggressive, revanchist Russia, while 
reassuring our allies and respecting the aspirations of the 
people of Eastern European to draw nearer to our community of 
nations in Europe?
    With regard to China, how should the United States keep the 
relationship from spiraling into conflict, while still 
demonstrating to its allies and partners in the region that it 
will help to counterbalance China's assertiveness?
    Finally, regarding the cyber problem, our society appears 
to be very vulnerable to destructive attacks from even small 
states like North Korea, who currently have no other means of 
threatening the Homeland militarily. What are the implications 
of this vulnerability, not just from there but from many other 
sources?
    Let me, again, commend the chairman and join with him, 
finally, in underscoring, echoing, and reinforcing his very 
timely and critical comments about sequestration effects on our 
military, and the need to couple sequestration with reform of 
purchasing.
    With that, I can think of no more thoughtful gentlemen to 
ask to come forth than General Scowcroft and Dr. Brzezinski. 
Thank you.
    Chairman McCain. In other words, if you both would take 
seats and proceed. However you choose to speak first is fine. 
Who is oldest?
    Senator Reed. Who went to a real college?
    Chairman McCain. Go ahead, Brent.
    [Laughter.]

 STATEMENT OF BRENT SCOWCROFT, PRESIDENT, THE SCOWCROFT GROUP 
           AND FORMER U.S. NATIONAL SECURITY ADVISOR

    General Scowcroft. Mr. Chairman, Ranking Member Reed, 
members of the committee, I appreciate the opportunity to 
present some of my views on issues that the Chairman and 
Ranking Member have laid out in a world which is difficult for 
all of us.
    My opening comment I hope can contribute to your 
deliberations over some very vexing issues and choices that we 
have. The world we live in is full of problems. Some of them 
seem to result from new or novel forces and influences, and I 
intend to focus on them.
    Let me begin my comments with just a few words about the 
Cold War. The Cold War was a dangerous period in our history 
where problems abounded. A mistake could have resulted in a 
nuclear war, but the Cold War had one advantage. We knew what 
the strategy was. We argued mightily over tactics, but we were 
always able to come back to what is it we were trying to do, 
and that was to contain the Soviet Union until such time as it 
changed. That helped enormously in getting us through the Cold 
War.
    With the end of the Cold War, that cohesion largely 
disappeared. But shortly thereafter, we were subjected to 
globalization, the blending of many worldwide trends of 
technology, trade, other kinds of things, and with it, an 
undermining of the Westphalia structure of most of the world's 
nation-state systems.
    The Westphalian system was created in the 17th century 
after the 30 Years' War and the devastation it caused. It made 
the Nation-state the element of political sovereignty in the 
world. Totally independent, totally on its own, each one, all 
equal technically.
    It was a tough system and for many have claimed it was 
responsible for World War I and World War II. But it is 
basically the structure of our Nation-state system today, as 
modified in the Westphalian system. Because the United States 
has spent much of its national interest focus softening the 
harsh independence of the Westphalian system, like the United 
Nations, like laws that apply to everybody, like bringing us 
together rather than having these unique cubicles who are law 
in themselves but do not relate outside.
    Now we have something new to confuse the international 
system, and it is called globalization. Two aspects of it are 
particularly difficult to manage in this Westphalian world. 
Globalization says that modern technology, modern science and 
so on, is pushing the world together. The Westphalian system 
says nonsense, we are all unique, separate, sovereign.
    Two of the globalization efforts are particularly 
intrusive, if that is the right word. One is communications, 
and another, in a different way, climate change.
    Communications is connecting the world and connecting 
people to the world like never before in history. For most of 
history, most of the people of the world didn't participate in 
the politics of their system, didn't participate in anything 
except their daily lives. They were just like their parents, 
they expected their children to be just like them, on and on 
and on.
    Now, they are surrounded by information. They are 
responding. They are reacting to it. ``It is not that kind of a 
world at all. I am not just chattel for the boss down the 
street to use any way he wants. I am a human being, and I have 
unity.'' This is sweeping throughout the world and altering our 
system in ways that it is difficult for us to cope with.
    One of the ways, of course, is the impact of cyber on our 
societies, which could be enormous, as deadly as nuclear war, 
not deadly to the person, but deadly to the society.
    Those are the kinds of things that we face now. It focused, 
most importantly, on the Middle East. I think one of the things 
we have seen, that if you want to object, like in Egypt, for 
example, you go out and you parade in the square. That is a 
difficult thing to do, ordinarily. You have to find people who 
will go out with you. You have to avoid the police, so on and 
so forth.
    But now, globalization has made it really easy. All you 
have to do is pick up your cell phone and say, ``There will be 
a rally tomorrow in Tahrir Square at 10 o'clock,'' and you can 
get 10 million
people.
    This is a very, very different world, where the Westphalian 
system is blocked down. It used to keep out information it 
didn't want its people to see.
    That is basically what we are facing, and we have barely 
begun to deal with it.
    I add climate change to it, because it demonstrates what we 
cannot do, the Nation-state, alone. No nation-state can deal 
with climate change. We have to cooperate to make it work. It 
is just that way.
    These are new impacts on our system, and they make 
governance more difficult, and more so for the United States, 
because we have been at the forefront in liberalizing the 
Westphalian system, in making a more just world for all.
    To help us in this difficult task, we should look to our 
alliances, especially the North Atlantic Treaty Organization 
(NATO). I think NATO, in many ways, is as valuable as it was 
during the Cold War. In a world where the relationship of the 
individual to the state is frequently under attack, an alliance 
of states to whom that personal relationship to the state is 
sacred is valuable. NATO has many areas where it can deal with 
these new forces on us in a cooperative way, which negates the 
independent sovereignty and atomizing the world.
    The impact of globalization on communications seems most 
dramatic in the Middle East where the impact of the Arab Spring 
was very heavy and still very much being felt. It has brought 
Sunni and Shia differences to acrimony and even combat.
    The ISIL issue in Syria and Iraq is an excellent example of 
the devastation that communication can create in the Nation-
state system. It is attempting to transform political state 
systems into a caliphate or religious order.
    I don't think the Nation-state system is under gross 
attack, but this is a new and very different development, which 
could be dangerous or painful for all of us.
    Also in the Middle East, however, besides chaos, are some 
situations where it is conceivable that real progress toward 
peace and stability might be made. One of these areas is Iran.
    The Iranian nuclear issue is excruciatingly complicated. 
But resolution, I don't think, is out of the question. A 
resolution of this difficult issue could open the way to 
discussions of other issues in the Middle East region, which we 
used to have with Iran when it was a very different state. It 
might serve to change some of the Sunni-Shia issues in the 
region to benefit all of us.
    Another enduring issue in the Middle East region has been 
the Palestinian peace process. Many would say that expecting 
progress is grasping at straws but a determined effort from the 
top, including the U.S., might bring surprising results.
    Just a word about the nuclear arsenal. As more and more 
nuclear delivery vehicles reach replacement condition, the 
discussion about numbers and types required becomes more 
voluble and more difficult. One way to calculate nuclear needs 
could be to create a balance, and I am talking particularly 
between the United States and Russia. That means that nuclear 
weapons would never be used. That is that our numbers and 
character of the force is such that no one can reasonably 
calculate that in a first strike, he would destroy his 
opponent's systems and escape unscathed. If we look at that, it 
gives us guidance in numbers and characteristics of the system, 
which we need.
    One other nuclear comment, in order to avoid a world demand 
for nuclear reactor fuel creating other Iran-like states, I 
think the U.S. should consider establishing a nuclear fuel 
bank, where states can check out fuel for reactors, return it 
after it has been used, and thus avoid what could be almost 
endless moves toward nuclear power.
    Mr. Chairman, I focused remarks on aspects of world 
development I thought most vexing and unique. I would be happy 
to answer any questions. Thank you very much.
    Chairman McCain. Thank you, General.
    Doctor?

STATEMENT OF DR. ZBIGNIEW K. BRZEZINSKI, COUNSELOR AND TRUSTEE, 
CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES AND FORMER U.S. 
                   NATIONAL SECURITY ADVISOR

    Dr. Brzezinski. Mr. Chairman and members of this 
distinguished committee, thank you for the invitation to 
address you. I will be very brief, and I generally agree with 
what General Scowcroft has just said. We did not consult on our 
statements.
    My hope is that your deliberations will shape a bipartisan 
national security strategy. Such bipartisanship is badly 
needed, and I think we all know that, given the complexity and 
severity of the challenges that America faces in Europe, in the 
Middle East, and potentially in the Far East. Together, they 
pose an ominous threat to global security.
    In Europe, Putin is playing with fire, financing and arming 
a local rebellion, and occasionally even intervening directly 
by force in order to destabilize Ukraine economically and 
politically, and thereby destroy its European aspirations. 
Given that, the current sanctions should, certainly, be 
maintained until Russia's verbal commitments to respect 
Ukraine's sovereignty are actually implemented.
    In the meantime, NATO and especially the United States 
should make some defensive weaponry available to Ukraine, 
something that I have been urging since the onset of the 
crisis. Not to provide them simply increases Russia's 
temptation to escalate the intervention.
    At the same time, I have also advocated, and do so again 
today, that we indicate to the Kremlin that the United States 
realizes that a non-NATO status for a Europe-oriented Ukraine 
could be part of a constructive East-West accommodation. 
Finland offers a very good example.
    The preservation of peace in Europe also requires enhanced 
security for the very vulnerable Baltic states. In recent 
years, and we should really take note of this, Russia has 
conducted menacing military maneuvers near the borders of these 
states and also in its isolated Kaliningrad region.
    One of these exercises quite recently involved even a 
simulated nuclear attack on a neighboring European capital. 
That surely speaks for itself.
    Accordingly, the only credible yet peaceful way to 
reinforce regional stability is to deploy now in the Baltic 
states some tripwire NATO contingents, including also from the 
United States.
    Such deployments would not be threatening to Russia because 
of their limited scale. But they would reduce its temptation to 
recklessly replay the scenario that transpired recently in 
Crimea. Prompt pre-positioning of United States-NATO military 
equipment in nearby Poland would also significantly contribute 
to enhancing regional deterrence.
    Turning to the Middle East, again, very briefly, we should 
try to avoid universalizing the current conflict in Europe into 
a worldwide collision with Russia. That's an important point. 
It is both in America's and Russia's interest that the 
escalating violence in the Middle East does not get out of 
hand. Containing it is also in China's long-range interest.
    Otherwise, regional violence is likely to spread northward 
into Russia--don't forget that there are some 20 million 
Muslims living in Russia--and northeastward into Central Asia, 
eventually even to Xinjiang, to the direct detriment of both 
Russia and China.
    America, Russia, and China should, therefore, jointly 
consult about how they can best support the more moderate 
Middle East states in pursuing either a political or a military 
solution. In different ways, America, Russia, and China should 
encourage Turkish engagement; Iranian cooperation, which is 
much needed and could be quite valuable; Saudi restraint, 
somewhat overdue; Egyptian participation in seeking, if 
possible, some form of compromise in Syria; and the elimination 
of the regional extremists.
    The three major powers should bear in mind that there will 
be no peace in the Middle East if ``boots on the ground'' come 
mainly from the outside and especially from the U.S. The era of 
colonial supremacy in the region is over.
    Finally, with the President soon embarking on a trip to 
India, let me simply express the hope that the United States 
will not unintentionally intensify concerns in Beijing that the 
United States is inclined to help arm India as part of a de 
facto anti-Chinese Asian coalition. That will simply discourage 
the Chinese from becoming more helpful in coping with the 
volatile dangers that confront us in Europe and in the Middle 
East.
    To sum up, in my preliminary statement, global stability 
means discriminating and determined, but not domineering, 
American
engagement.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you both. Those were very strong 
words, and that gives us a lot of food for thought.
    I guess to begin with, would you both agree that 
sequestration, given the events as we see them in the world 
today, is something that we need to repeal?
    Would you agree, General Scowcroft?
    General Scowcroft. Absolutely, I would. It is a terrible 
way to determine force structure, strategy, anything like it. 
It is undermining our ability to do what we need to do to 
retain, as Zbig says, alert for the contingencies of the world. 
Yes, I am very much opposed to sequestration.
    Chairman McCain. Doctor?
    Dr. Brzezinski. I agree with Brent.
    Chairman McCain. It seems to me that if we are going to 
develop a national security strategy, given the myriad 
complexities of the challenges we face, as both of you pointed 
out, it seems to me that we have to have--
    Dr. Brzezinski. Cyberattack. [Laughter.]
    Chairman McCain. That we need to set some priorities. Would 
you give us your view, both of you, of what our priorities 
should be?
    General?
    General Scowcroft. In foreign policy, I presume?
    Chairman McCain. In order to develop a national security
strategy.
    General Scowcroft. I believe we need, first of all, to pay 
attention to our nuclear structure and nuclear relations with 
Russia, because we do not want, above all, a nuclear war to 
erupt.
    I think we also need to look carefully at how the world is 
changing and what we can do to assist that change, to produce a 
better, not a worse world.
    One of the big challenges in this world is cyber. I am not 
intellectually capable of dealing with the cyber issue, but it 
is a worldwide issue and, as I say, could be as dangerous as 
nuclear weapons, and there is no control anywhere about it.
    I think I agree with Zbig that the United States has areas 
where it can work with both the Chinese and the Russians, and 
sometimes both of them. I think we should not neglect those.
    The Chinese especially didn't participate in the 
Westphalian world I was talking about. Their system is very 
different. There is China and there is anybody else. We need to 
learn, with the Chinese, how to communicate to them so that we 
have the desired effect.
    I think Russia is a very difficult case right now, but I 
think the Cold War is not returning, and we should not aid and 
abet its return.
    Chairman McCain. Dr. Brzezinski, on the issue of Russia, 
there are some that believe that because of the price of oil 
and its effect on the Russian economy, it'll lead Putin to be 
more conducive to lessening some of his aggressive and 
confrontational behaviors, such as you described, not only in 
Ukraine but with the Baltics and Moldova, et cetera. There are 
others that say because of this, it will make him more 
confrontational in order to maintain his standing, not only 
with the Russian people, but in the world.
    I wonder what your assessment is, and I know it is a very 
difficult question.
    Dr. Brzezinski. Yes, but could I comment very briefly on 
the previous one?
    Chairman McCain. Yes, anything, Doctor.
    Dr. Brzezinski. First of all, about the nuclear 
confrontation, obviously, we confront each other, and we have 
had some crises in the past. I think we have learned a great 
deal from them, and I hope the Russians have, as well.
    But what is somewhat alarming is the fact that in recent 
times, during this current crisis, which is a limited, ground-
based crisis, Putin has invoked the threat of nuclear weapons. 
People haven't paid much attention to it, but he has publicly 
commented on the fact that we have the nuclear weapons, we have 
the capability, and so forth. He has then matched that with 
highly provocative air overflights over Scandinavia, over parts 
of Western Europe, even all the way to Portugal.
    I am a little concerned--when I say ``little,'' I am 
underestimating my concern--that there may be a dangerous 
streak in his character that could push us to some possibly 
very dangerous confrontations. In that respect, he reminds me a 
little bit of Khrushchev. We all recall where that led, at one 
point.
    This is why it is terribly important that he have no 
misunderstandings as to the nature of our commitment and our 
determination. This is why doing something on the ground that 
deters him, first, from trying to leapfrog on the ground with a 
military solution, is needed, and I alluded to that in my 
opening comments.
    Insofar as China is concerned, I think probably the Chinese 
have some genuine interest from the standpoint of the 
enhancement of their international power in the acquisition of 
cyber-capabilities of a confrontational type.
    I don't want to overexaggerate this, and I am searching for 
words that don't create some impression of an imminent danger, 
but part of their military strategic history is the notion that 
you don't prepare to fight your opponent at that given stage of 
weaponry. You leapfrog and then you engage in some offensive 
activity.
    I am concerned that the Chinese may feel that they cannot 
surpass us in the nuclear area, and note at their very 
significant nuclear restraint, in terms of nuclear deployments. 
They have hardly any nuclear weapons, really, targeted at us. 
We have many times over nuclear weapons targeted on China. But 
the cyber issue may pose, at least at this stage only 
theoretically but at some point really, the possibility of 
paralyzing an opponent entirely without killing anybody.
    That could be a very tempting solution for a nation that is 
increasingly significant economically, but does realize that 
there is an enormous military disparity between China and us. 
That, I think, suggests we have to be far more inclined to 
raise those issues with the Chinese, which we have done to some 
extent, but even more important, to engage in deterrence by 
having a capability to respond effectively or to prevent an 
attempt from being successful.
    Now, on the point you've just raised, which was about Putin 
and how to contain him, right?
    Chairman McCain. Basically, yes. His reaction to this 
economic crisis that he is confronting.
    Dr. Brzezinski. He is confronting a very serious economic 
crisis, which he is trying to deny. I think he is in a denial 
phase. But it is quite interesting how many of his former 
immediate associates, political allies, express growing 
concern.
    Now here the real question is not only how severe is the 
crisis in Russia, but the real question internationally is, 
will the Russian economy implode in some significant, 
geopolitically significant fashion first, or will Ukraine 
implode in some significant geopolitical fashion first? Because 
a great deal of what Putin is doing is not part of a 
comprehensive military invasion of Ukraine, other than the 
specific seizure of Crimea, but it is to sow discord, 
disorganization, economic tensions and costs, and the 
demoralization, as a consequence, in a regime which is 
expressing the will of the Ukrainian people for a closer 
association with the West, but as a regime that came to power 
after 20 years of very significant mismanagement of the 
Ukrainian economy.
    The kind of needle-sticking in which Putin is engaging 
against Ukraine produces not only blood in some relatively 
moderate fashion, both annoying and painful, but could produce 
a much more serious economic crisis in Ukraine itself.
    This is why I think we have to, in a sense, more credibly 
convince Putin that it is in his interest not to engage in this 
needle-sticking, because we can make it unpleasant for him by, 
for example, arming the Ukrainians, while at the same time 
reassuring him that we are not trying to engage the Ukrainians 
in membership in NATO. The arrangement we worked out together 
with others, and the others were more important than us, with 
Finland in 1945-1946 has worked pretty well.
    Chairman McCain. Thank you.
    Senator Reed?
    Senator Reed. Thank you very much, gentlemen, not only for 
your testimony but for your extraordinary service to the 
country.
    About 2 years ago in 2013, I believe you coauthored an open 
letter about the Iranian negotiations, suggesting it was time 
now to support these negotiations, and specifically saying 
additional sanctions now against Iran with the view to 
extracting even more concessions in the negotiation will risk 
undermining or even shutting down the negotiations.
    Let me ask General Scowcroft and Dr. Brzezinski, is that 
still your position? If Congress adopted sanctions, do you feel 
that would undermine negotiations and perhaps miss an 
opportunity not only in the nuclear realm but in the other 
areas of concern?
    General Scowcroft. Yes, Senator, it is. I think that the 
system, the regime in Iran, is different. We don't know how 
different, and we don't know what the results will be. But 
their behavior is quite different from when Ahmadinejad was the 
head of the government.
    It seems to me that we ought to try to take advantage of 
that. The foreign minister has served in the United Nations 
(U.N.), in NATO. He is familiar with the West. They are talking 
different, and the mullahs are not nearly as vociferous as they 
were before.
    Does that mean anything? We don't know, but it seems to me 
it is worth testing.
    I think two things are likely to happen if we increase the 
sanctions. They will break the talks, and a lot of the people 
who have now joined us in the sanctions would be in danger of 
leaving, because most of the people who joined us in sanctions 
on Iran didn't do it to destroy Iran. They did it to help get a 
nuclear solution.
    Senator Reed. Dr. Brzezinski?
    Dr. Brzezinski. Basically, I have a similar perspective. I 
would only add to what Brent said, so as not to repeat, that in 
addition to what he said, I think the breaking off of the 
negotiations or the collapse of the negotiations would arrest 
and reverse the painful and difficult process of increasing 
moderation within Iranian political life.
    We are dealing with an old generation of revolutionaries, 
extremists, and so forth. But there is in Iranian society a 
significant change, which every visitor to Iran now notices, 
toward a more moderate attitude and more moderate lifestyle and 
a more tempting inclination to emulate some Western standards, 
including how in Tehran women are dressed.
    All of that I think indicates that Iran is beginning to 
evolve into what it traditionally has been, a very civilized 
and important historical country. But we have to be very 
careful not to have this dramatically and suddenly reversed, 
not to mention the negative consequences for global stability 
that this would have, and the reduction in any willingness, 
Iranian willingness, in some fashion to prevent the extremists 
and fanatics that are attempting to seize control over the 
Muslim world from prevailing.
    Senator Reed. Thank you. Dr. Brzezinski, turning very 
quickly, because my time is expiring, last September, you were 
asked to comment about the situation in Syria, and you 
indicated that an American role is definitely required, but 
that role essentially has to be very carefully limited. Is that 
your view today, or do you have any other comments?
    Dr. Brzezinski. That is still my view. It probably goes 
even further.
    I never quite understood why we had to help or at least 
endorse the overthrow of Assad. I am not really sure we knew 
what we were doing when we made the statement, because there 
wasn't any real action following on that.
    What has happened, however, in the last 2 years or so since 
that happened is a demonstration of the fact that, whether we 
like it or not, Assad does have some significant support in 
Syrian society, probably more than any one of the several 
groups that are opposing him. That has to be taken into 
account.
    I don't think that those who oppose him, perhaps with the 
exception of the relatively small and weakest group among the 
resisters, who favor us--he has a better standing than any one 
of them. Combined, maybe there is some division in the country 
across the board, but he is still there.
    I think if we want to, in some fashion, promote the end of 
the horrible bloodletting and the progressive destruction of 
that country, not the promotion of democracy, I think we have 
to take that reality into account.
    Senator Reed. General Scowcroft, quickly, your comments, if 
at all, on this topic?
    General Scowcroft. I pretty much agree with Zbig on Syria. 
I wouldn't rule out that at some point we can get some support 
for resolving the most difficult situation from the Russians. 
They have a big stake in Syria, and it seems to me that 
somewhere there is the possibility that we could have a 
ceasefire and Assad maybe steps aside, and we would agree that 
Russia would play an important role with us in resolving that.
    Among terrible choices, it is one we ought to examine. The 
Russians have made a few comments in the last few days that 
they might be interested.
    Dr. Brzezinski. May I just add one more point? I think the 
existing borders in the Middle East have run out of life. They 
were never authentically historic. They were created largely by 
West colonial powers.
    I think part of the complication we face, particularly in 
view of this intense violence, not only just in Syria, is the 
problem of stabilizing a region that has different, so to 
speak, different preconditions for different borders or 
arrangements than the ones that were imposed right after World 
War I by the West.
    Senator Reed. Thank you.
    Chairman McCain. Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman, and thank you 
for this hearing. I look forward to serving with you on the 
committee. There is no one in the Senate, almost no one in 
America, who has traveled and has the depth of experience as 
Senator McCain. It is an honor to serve with him and hear his 
ideas on so many important issues of today's life.
    While reading Dr. Kissinger's book, ``World Order'', 
General Scowcroft, he talks about the Westphalian system. Your 
remarks touched me a bit.
    You mentioned China not being part of that history. At 
least the people of the Middle East were also not part of any 
understanding of what went on with the Peace of Westphalia.
    Do we have a miscommunication, and I'll ask both of you, in 
the sense of our understanding of the Nation-state and the 
reality of the Nation-state in that area, and a better 
understanding might make us more effective in responding to the 
challenges we face there?
    General Scowcroft. I think that is possible, but I think 
the Middle East is a unique place.
    For centuries, it belonged to the Ottoman Empire, which 
loosely governed it. Then with the collapse of the Ottoman 
Empire after World War I, the Middle East was redrawn. The map 
was redrawn. The Sykes?Picot Agreement quite arbitrarily, to 
pursue the interests that the British and the French had in it, 
as Zbig said, those borders are in danger. They are tenuous. 
They don't represent much of anything.
    It is a very difficult region now, and unique in it is not 
participating, basically, in the European or Western system, 
the Russian system, or the Chinese.
    Senator Sessions. Do you think, as Dr. Brzezinski has 
indicated, that we may be moving toward redrawing some of those 
boundaries or boundaries being altered in the next decade?
    Either one of you, if you would like to comment on that.
    General Scowcroft. I don't think we ought to engage in 
that. One of the things I think we should do, though, is to 
start mending our relationships with Egypt.
    Egypt is a big player in the region, and because of its 
domestic problems, it has fallen off. They played a small role 
in the recent uprising, but I think we need help. Hopefully, we 
can get more from Turkey, but I think the chances of our making 
it worse rather than better are worrisome.
    Senator Sessions. I thank both of you for your insights. It 
is very valuable to us.
    With regard to strategy, Dr. Brzezinski, I believe it was 
mentioned earlier that we had a Cold War strategy. Everybody 
bought into it in a bipartisan way. The reality is I think it 
is much harder for us to have a strategy in this more complex 
world. Maybe not, but it seems to me that it is.
    I would share your concern, as I have been here now 18 
years, that we need to be a bit more humble in what we can 
accomplish. The world is complex. People are not able to move 
from one century to the next overnight. We need to be more 
responsible and thoughtful about how we exercise American 
power.
    In developing a strategy, Dr. Brzezinski, do you see some 
things we might all agree on in the next decade or so that 
would be positive for the United States?
    Dr. Brzezinski. I can, certainly, think of a lot of things 
we should agree on. I am not sure we will agree. But in order 
to agree, we have to talk to each other.
    I am not quite sure that in recent years, particularly in 
the face of the novelty of the challenges we face, that there 
has been enough of a bipartisan dialogue about these critical 
issues at the highest level, including obviously you, members 
of this very distinguished committee, irrespective of who 
actually controls the executive office.
    I think we have to ask ourselves, how is the world 
different today? I am a little more skeptical of the 
Westphalian system as, so to speak, being in any way relevant, 
because the Westphalian system emerged in Europe when they were 
already being different countries with some territorial 
definitions. This is not the case in many parts of the world. 
China was unique in having a real advanced state, so to speak, 
earlier than Europe.
    But the rest of the world is now coming into being, 
politically into being. That contributes to much of the 
instability and uncertainty of what is happening.
    What are the real borders in the Middle East? A lot of the 
countries in the Middle East speak the same language, for 
example. Why should they be here or there? Or should they have 
a single state if they all speak the same language? Or should 
religion be the only determinant for a nation-state?
    I am afraid this process will take a long time before it 
settles itself. I think we should not be directly involved in 
imposing a solution.
    Senator Sessions. Thank you both. I appreciate that.
    I would say, with regard to Members of Congress, 
particularly members of the Senate, I believe we talk together 
more collegially and with more common understanding about 
international relations and defense issues than we do about 
most any other subject. I think we have not the kind of 
intensity of disagreement as some, some pretty big intensity 
going back, I guess, to the Iraq war and so forth. But I think 
we are getting past that. Hopefully, we can be more effective 
in working as a united country, because that is the essential.
    Thank you.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Mr. Scowcroft, Dr. Brzezinski, welcome. I read last year a 
piece by Thomas Friedman that I found was very interesting, 
where he described the Islamic State and the situation in the 
Middle East today by saying that there were really three civil 
wars raging in the Arab world today. One, the civil war within 
Sunni Islam between the radical jihadists and the moderate or 
mainstream Sunni Muslims and regimes; two, the civil war across 
the region between Sunnis funded by Saudi Arabia and Shiites 
funded by Iran; and, three, the civil war between Sunni 
jihadists all other minorities in the region, the Yazidis, the 
Turkmen, the Kurds, the Christians, the Jews, and the Alawites.
    He wrote that when you have a region beset by that many 
civil wars at once, it means that there is no center, only 
sides. When you intervene in a middle of a region where there 
is no center, you very quickly become a side.
    I am curious if either of you would agree with that 
assessment, and if you would also return to what you spoke 
about a little earlier regarding how important it is that the 
fighting on the frontlines against the Islamic State be 
conducted by Iraqis and other regional partners and members of 
the coalition, as opposed to Western or United States troops.
    Dr. Brzezinski. I agree basically with it. I think there 
are, fortunately, several states in the Middle East that do 
show signs of a capacity for conducting a responsible role. We 
have to rely on them.
    I doubt they are going to prevail very quickly. These are 
the countries that were mentioned. But I don't think we have 
any other choice. I think getting involved in the internal 
dynamics, religious conflicts, sectarian animosities of the 
region is a prescription for a protracted engagement of the 
kind that can be very destructive to our National interests.
    Now to be sure, there are some circumstances in which we 
have to act. When we were attacked on 9/11, we had to respond.
    But I remember being called in with, I think, Brent and 
Henry Kissinger, to the session that made the basic decision. 
We were, of course, not participants in making the decision, 
but we would say something. I fully endorsed taking military 
actions against Osama and his associates, al Qaeda.
    But I walked up to the Secretary of Defense at the time, 
Donald Rumsfeld, and said, look, let's go in. Let's knock them 
out, do what we can to destroy the Taliban, which held 
government control in the country, and then leave. Don't get 
engaged in development of democracy.
    Now maybe I was wrong. Maybe time will demonstrate that I 
was wrong. But, certainly, I don't think anybody anticipated it 
would be 10 years, and it might be still another 10 years. 
Certainly, in the rest of the Middle East, if we were to try 
that, it would be far, far longer.
    I think we have to face the fact that the region will 
probably be in some serious turmoil for a long time to come, 
and our bets ought to be on those countries, which, like the 
European countries in the era of formation, have already 
acquired some cohesion as states, and I mentioned them in my 
comments, but not try to do the heavy lifting ourselves.
    If we could get the Russians and Chinese to be more 
cooperative, and they have a stake in being more cooperative, 
we would be better off, and each of them, in fact, be tempted 
to sit on the sidelines and think, well, the Americans will get 
more engaged, and this will improve our interests in competing 
with us here or there.
    I don't think that is a smart solution in the long run for 
them. But it takes someone like us to indicate to them that we 
would like to collaborate with them in some limited steps in 
helping the moderates in the Middle East in different ways, 
because they have different aspirations.
    Senator Heinrich. Mr. Scowcroft, do you want to add to 
that?
    General Scowcroft. I largely agree with Zbig on that.
    I think we have to be a participant in the Middle East, but 
we should not want to be an owner. We ought to help those 
states that we think are trying to produce, if you will, a 
modern system.
    That is why I mentioned Egypt, because Egypt is a serious 
power, and they are of the region, and they do have great 
capability. We don't have much of a discussion going on with 
them now, but there is a new government. I think that is one we 
should look to.
    Turkey is an ally of ours. The Turks are in a very 
difficult position now with Syria.
    But it seems to me that we ought to be careful and use 
force where it accomplishes specific ends. For example, try to 
go in and end the Syrian war, I don't think we want to own 
Syria. It is a very complicated country, as are some of the 
others in the Middle East.
    I agree with Zbig, basically. We have to be in the Middle 
East but not of the Middle East.
    Senator Heinrich. Thank you, both.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. I want to thank both of you for being here, 
and thank you so much for everything you've done for the 
country.
    I wanted to follow up on your comments, Dr. Brzezinski--I 
found them very interesting--about Putin and that, in fact, you 
are concerned about some of the statements that have been 
overlooked that he has made that have referenced nuclear 
weapons, including some of the overflights that Russia has 
undertaken in Scandinavia, west Portugal, and other areas.
    I wanted to follow up in light of the potential and I think 
actual violation of the Intermediate-Range Nuclear Forces (INF) 
treaty that we have seen, that I know, General Scowcroft, you 
have written about as well.
    In fact, General, you wrote in an op-ed in August of 2014 
that this should be a real concern to NATO because they have 
embarked on an across-the-board modernization of their nuclear 
forces. Of course, if Russia has developed a nuclear ground-
launched cruise missile, in violation of the 1987 INF treaty, 
obviously that type of system could virtually reach all of NATO 
Europe.
    How do you view, both of you, the idea of the violation of 
this treaty, in light of where we are right now and some of the 
statements you have heard Putin make? What should our concern 
be about that?
    I appreciated your comments, Dr. Brzezinski, that we have 
to show commitment and determination to Putin, and that will 
hopefully help him stop being so escalatory with what he is 
doing with Ukraine, and also this treaty.
    I would like to get both of your thoughts on this 
violation, what it means for their nuclear programs, our 
interactions with them.
    Dr. Brzezinski. I don't think he will go all the way in 
violating the nuclear treaty. I am more concerned about his 
misinterpreting what has happened recently.
    Let's go back a little more than a year. I wonder how many 
people in this room or on this very important senatorial 
committee really anticipated that one day Putin would land 
military personnel in Crimea and seize it. I think if anybody 
said that is what he was going to do, he or she would be 
labeled as a warmonger.
    He did it, and he got away with it. I think he is also 
drawing lessons from that.
    I will tell you what my nightmare is. One day, and I 
literally mean one day, he just seizes Riga and Tallinn, Latvia 
and Estonia. It would literally take him 1 day. There is no way 
they could resist.
    Then we will say how horrible, how shocking, how 
outrageous. But, of course, we can't do anything about it. It 
has happened. We are not going to assemble a fleet in the 
Baltics and then engage in amphibious landings and then storm 
ashore like in Normandy to take it back. We will have to 
respond in some larger fashion, perhaps. But then there will be 
voices, ``Well, this will plunge us into nuclear war.''
    I think deterrence has to have meaning. It has to have 
teeth in it. It has to create a situation in which someone 
planning an action like that has no choice but to anticipate, 
``What kind of resistance will I encounter?''
    This is why I recommend what I do recommend, pre-
positioning of some forces, limited forces, so it is not 
provocative.
    An American company in Estonia is not going to invade 
Russia, and Putin will know that. But he will know that if he 
invades Estonia, he will encounter some American forces on the 
ground and, better still, some Germans, some French, some 
Brits, of course.
    I think if we do that kind of stuff, we are consolidating 
stability, including nuclear. The same goes for the ongoing 
conflict in Russia and Ukraine.
    I don't think Putin plans to invade Ukraine as a whole, 
because that would be too dangerous. You cannot simply predict 
what would happen.
    But this continuous pinpricking can involve some 
escalation. It has already involved escalation. There are 
Russians, at least in the hundreds, according to some NATO 
accounts, in terms of several thousand, fighting in Ukraine 
against an established country. This is something that cannot 
be ignored.
    Economic sanctions, yes. In the long run, they create an 
attitude, a concern in Russian society, which will deprive 
Putin of his popular support, and this ecstatic sense that we 
have become a superpower again. But in the short run, we have 
to deal also with his motivations.
    The only way to do that is to indicate to him by tangible 
steps, such as defensive arming of the Ukrainians, that we will 
be involved in some fashion in making that military engagement 
more costly. At the same time, to indicate to him we are 
prepared to settle, send him a signal about non-NATO 
participation for Ukraine.
    That to me is a strategy of responding to the possibility 
that you very rightly raise.
    Senator Ayotte. Without taking those steps, obviously, as I 
hear you saying you believe the economic sanctions alone will 
not deter him.
    Dr. Brzezinski. I am afraid that economic sanctions alone 
will damage, in the meantime, because of what he has a free 
hand in doing, Ukraine then Russia.
    There is a kind of implicit race of which economy will 
collapse first. The Ukrainian Government is still not in full 
control of its entire society. It is putting together rapidly a 
makeshift army, and it is getting very little support in that 
regard from the outside.
    I am not suggesting that the Ukrainians be armed to wage an 
offensive war against the Russians, but I do urge that we do 
something to make Putin ask himself, before he escalates, ``Am 
I going to be in something much bigger? And what will that do 
to me?'' That is all that is involved, but it is essential.
    Senator Ayotte. Thank you.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman. I appreciate this 
hearing you are having for all of us, and the information.
    I am so sorry that you see some of us running back and 
forth. We have a Veterans Affairs Committee meeting, and they 
overlap sometimes. I'm very sorry. I hope I don't ask the same 
questions that have been asked.
    My main concern is that I am trying to learn as much as 
humanly possible about Syria, Iran, the whole sanctions on 
Iran. As you know, we are kind of in a tug-of-war right. Should 
we, should we not? The President has been very emphatic that, 
absolutely no sanctions, don't sign it now. You will mess up 
the deal if we do.
    I understand that my colleagues are concerned about all the 
time that has gone by, and we really haven't had a secure 
briefing telling us where they are. Have they succeeded? Are 
they moving forward? Are they taking their centrifuges out? 
Should we keep the pressure on? Should this be something the 
President should be able to use that if they don't follow 
through and do what they are supposed to do, this is where the 
sense of the Senate and United States Congress is, and they 
will follow through, so it's best to work with me?
    These are all things that I haven't made up my mind on yet, 
and I'm trying to. A little bit of help there.
    Also, Syria, I know we have an awful lot of people who feel 
strongly. I believe that America has to be strong. I don't 
think they can succeed unless they have what seems like our 
direct leadership in kind of prodding them. Also, our 
airstrikes can't be as effective as they could be if we don't 
have ground intelligence and support.
    I understand all of that. I just don't believe we should 
have massive forces on the ground as we have had in the past. 
That is my belief. I know some of my colleagues differ with 
that.
    I think, strategically, with our Special Forces, black ops, 
we can do certain things. But unless they want to take the 
ground war in that part of the world, it is never going to be 
cured.
    But make no mistake, if they make to fool with America, we 
should hit and hit hard.
    With all that being said, do you believe that with Syria 
trying to train and arm some of the Syrians at $500 million is 
what we have set aside for that, does that have the possibility 
of being successful? Could we do something different with that 
to be more successful?
    What about the Kurds? They seem to be the only people who 
want to fight in that part of the world, that want to defend, 
and want a country, and want identity. Are we doing enough 
there? Could we do more? How in the world do you get the Turks 
to participate and the Saudi's to participate? That's a big 
thing.
    But Syria and Iran are the two things that would be very 
helpful to me. Whoever wants to start, I think I need both of 
your opinions, if possible.
    General Scowcroft. On Iran, I don't think anybody knows 
whether or not negotiations will work, but we are in the course 
of negotiations now. I think we should see them out and not 
take steps, which would destroy the negotiations.
    Senator Manchin. In all due respect, we were told the first 
time that if we would sign a letter showing that we intended 
that these sanctions take place, it would weaken the 
President's hand. We went ahead and signed it anyway, and it 
hasn't weakened the hand, but there have been extensions that 
we really don't know where we stand as far as the negotiations.
    That is the hard thing I am having a problem with.
    General Scowcroft. It is hard, but I think the outlines are 
sufficiently clear now--very complicated, but clear--that I 
think we are in the home stretch. To change our strategy now 
might work, but I wouldn't do it at this stage.
    Senator Manchin. I understand.
    General Scowcroft. I would wait and see if the 
administration is successful.
    Senator Manchin. Dr. Brzezinski, your thoughts on Syria, 
our training and the commitment that we have there and if it 
might be a better investment somewhere else, in a different 
direction.
    Dr. Brzezinski. I am not sure whom we would train, because, 
in fact, the groups hostile to Assad are much stronger than 
those who seem to be inclined to rely on us. After what has 
happened over the last couple years, I think there are not 
terribly many Syrians who want us to wage a more intense war, 
because they don't know what that war would be. The other 
groupings have an advantage over us of either being more 
sectarian and specifically identified as such, or identified 
with specific regional goals that have some historic connection 
to the world as the Syrians perceive it.
    I think some sort of ceasefire and discussions about the 
future would be the better outcome for us than an 
intensification of the war.
    As far as Iran is concerned, don't forget that we are not 
the only negotiator with Iran, and all of the parties 
negotiating, including our closest allies, as well as the 
Russians and Chinese, favor a continuation of the negotiations 
for reasons specific to their own interests.
    If the negotiations broke down, the whole process would 
collapse, and then what would be the alternative? Should we 
then attack and bomb them and thereby make the war in the 
Middle East even more explosive? We have to ask ourselves, why 
should we do this?
    ``Cui bono'' is a very good, simple, practical question to 
ask. I don't see any benefit to the United States in that 
transpiring.
    We have made some progress. Whether we have made enough 
progress, I don't know. Whether the negotiations have been 
perfectly conducted or not, I don't really know either, because 
I haven't been there. But I do have a feeling that there has 
developed a common stake with key countries in the world, which 
we shouldn't unilaterally abandon just because we are being 
pressured to do so.
    Senator Manchin. Thank you both so much. I appreciate it.
    Chairman McCain. I am sure you noted yesterday the signing 
of an agreement between Iran and Russia, a military cooperation 
deal, to confront United States interference in regional and 
international affairs.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    My question is more broad in nature. With the changing of 
the administration, there were clearly some changes in foreign 
policy strategy. I am interested in your view over the past 5 
or 6 years, more or less, if you were engaged in the strategy 
formulation, what things do you suggest that we stop doing? 
What things do you suggest that we start doing? What should we 
continue to do?
    In other words, an objective assessment, in your view, of 
things that are working and things that need improvement in the 
Middle East.
    Dr. Brzezinski. In the Middle East? Wow.
    For one thing, I think we have to continue doing what we 
have perhaps started doing, which is encouraging those states 
in the Middle East that have some historical identity and some 
capability to act, rather than to wait for us to do the job 
overall. I think the countries that we have mentioned, in 
varying degrees, are tempted to have something done, but would 
prefer us to carry the heavy water and are not very clear about 
their aspirations.
    That leaves us in a very difficult position, because if we 
undertake to do what is necessary, we buy the whole shebang. We 
buy the whole conflict, and it becomes our baby. If we sit 
back, obviously, it may deteriorate. We have to find some 
formula in between.
    I happen to be an admirer of Secretary Kerry. I think he 
has been trying really very energetically to find some viable 
compromise. It is difficult as hell to achieve it in these 
conditions.
    Perhaps this very painful process that we are now 
witnessing in that region will continue for some time to come. 
But the better part of wisdom in these circumstances, in my 
judgment, is the one that Brent and I have been both 
advocating, which is a policy of very selective engagement, 
which prevents the other side, particularly the killers, the 
sadists, the fanatics, the extreme sectarians, from winning.
    I think we can do that. But we don't have to do much more 
than that to maintain that.
    Senator Tillis. Can you give examples of what selective 
engagement would look like, in your view?
    Dr. Brzezinski. Somewhat along the lines of what is 
currently being practiced, in fact, which is airstrikes, 
probably some Special Forces, intelligence, political 
assistance, financial assistance, and a willingness, perhaps, 
to change our position on some issues, such as, to me, the 
still unclear motives for trying to get rid of Assad.
    I don't quite understand why we are so eager to get him out 
of office. Is he that much worse than some other regimes in the 
area? What is it? Was he our enemy? Was he conspiring against 
us?
    There were specific regional reasons why the war started, 
by countries in the region. I don't think that was our cup of 
tea, and we sort of got involved in it, and now have the whole 
problem.
    Senator Tillis. Thank you, Dr. Brzezinski.
    Mr. Scowcroft, you made the comment that we need to be in 
the Middle East, but not of the Middle East. Can you give me an 
example of what that means in terms of policy execution?
    General Scowcroft. Yes, I think it means we should guide, 
help, assist, but not be a player in ourselves, that is, ground 
troops. I think what we are doing in Syria, it's okay. It was 
an emergency. I think that we should not carry the burden on 
that, much less being of the region, ground troops.
    We don't know what the best outcome for Syria is. It is 
very complicated. We need to help our friends. We need to 
encourage others to be more helpful.
    The Turks, for example, have a heavy interest in the Kurds, 
not necessarily the kind of interest that the Kurds want them 
to have.
    We need to be careful all the way through, but help those 
who want to do what we think would improve the situation 
without it belonging to us.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman. I want to join 
in thanking you for holding this hearing to provide some 
intellectual and conceptual context to the very challenging 
work we are going to have ahead of us in these next 2 years.
    I want to thank both of our witnesses not only for being 
here today but for your longstanding service to our Nation in 
uniform and as National Security Advisor. Each of you has 
contributed enormously to the readiness and the preparedness 
and the performance of our Armed Forces in protecting our 
National security.
    I want to focus on an area you mentioned in your opening 
statement, Mr. Scowcroft, cyber, a new, emerging form of 
warfare, perhaps very difficult to imagine in the days that 
each of you served as National Security Advisor, illustrating 
how the nature of warfare is changing.
    Perhaps I could ask each of you how you think we need to be 
better prepared not only in the mechanics of cyber-intelligence 
and cyber-warfare but also in the education of our country as 
to the importance of this very complex area, which is also 
probably going to be of increasing importance.
    General Scowcroft. I think that cyber is of increasing 
importance. I believe we are just touching the surface and that 
we could profit by some innovative thinking about how we can 
approach that problem and how we can get other countries, like 
the Chinese, for example, involved in ways that are helpful.
    We may have to try several different things, but the 
potential danger of cyber, not just to us, but to those who are 
practicing it now, should enable us to have some serious 
discussions with other countries. But we also need a serious 
discussion within the United States, too, because the 
government and some of our industries are not cooperating in 
the way, at least to my understanding, are not cooperating in 
the way which could really move the ball forward.
    This is a ball that looks different to different people.
    Senator Blumenthal. Do you think our response, for example, 
to the Sony attack should be more robust and vigorous? Let me 
pose that question to both of you.
    General Scowcroft. I think you need to know more about it 
before you answer the question, because it depends who really 
pushed the attack, and what kind of reaction is best to move 
the ball forward and to give us a better grip on how we can 
deal with this difficult situation.
    Senator Blumenthal. Dr. Brzezinski, do you have any 
observations?
    Dr. Brzezinski. I don't have an answer. I have a comment.
    This is a hypersensitive issue, both in terms of what it 
involves and the need for secrecy in dealing with it. 
Basically, we have to seek two objectives.
    One is to develop some predictable immunity against some 
preemptive action by a hostile force. I alluded to that 
possibility. That will require a major effort and major 
expenditure, and probably move us into a field that we haven't 
fully, sufficiently explored.
    The second is to have a preemptive capability, a preemptive 
capability to preempt some action of that sort or matches some 
action against us tit-for-tat instantly.
    I don't want to be too specific about who the enemy might 
be. I don't think we need to create public hysteria on the 
subject. But it, certainly, stands to reason that there are 
some countries in the world that might think that cyber-warfare 
against the United States is the best way to preempt the whole 
issue and to change the balance of power.
    I think we are still in the very early phases of responding 
to that, something like the United States was in 1943, 1944 
when we started getting really serious about the acquisition of 
nuclear weapons.
    Senator Blumenthal. I want to thank you. My time has 
expired.
    We barely touched, let alone scratched, the surface. But I 
would just offer the observation that our private sector 
probably is less prepared than it should be. Our military, or 
at least our civilian leadership, has the opportunity to 
provide more incentives, and maybe more compulsory measures, to 
ensure that we are better prepared in the private sector 
against these kinds of attacks, because certain kinds of 
attacks are as much a threat to national security, whether they 
are to our financial system, our utilities, even a corporation 
like Sony--I shouldn't say, ``even a corporation like Sony''--
which employs and has such an important impact on our society.
    Thank you very much for your responses.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both very much.
    Some observations and conclusions that you've made seemed a 
bit--don't reconcile for me, but we will talk about that in a 
moment.
    As to the Iranian situation, do you agree with me that 
whatever chance there is to get a deal with Iranian nuclear 
ambitions, we should take? Whatever opportunity we have to get 
a peaceful resolution of their nuclear ambitions, we should 
pursue that diplomatically? Just say yes.
    Dr. Brzezinski. Yes.
    [Laughter.]
    General Scowcroft. I think, if I understand the question.
    Senator Graham. I am not trying to trick you.
    I agree with that. But one thing we should never allow to 
happen is for Iran to get a nuclear weapon.
    Do you both agree with that?
    Dr. Brzezinski. Yes.
    General Scowcroft. Yes.
    Senator Graham. That would open up a nuclear arms race in 
the Middle East. The Sunni Arabs would want a weapon of their 
own, right?
    General Scowcroft. That's right.
    Senator Graham. Whatever problem we have today would get 
exponentially worse. How we find a peaceful resolution to the 
Iranian nuclear ambitions is the primary goal I share with you 
and everybody else in the world.
    Do you agree that the Iranians in the past have been trying 
to build a bomb not a peaceful nuclear power program? Their 
past behavior would suggest they have been trying to get a 
weapons capability.
    Dr. Brzezinski. Yes.
    General Scowcroft. Yes, I think there was a phase.
    Senator Graham. Okay. Do you agree with me that Congress 
may actually make things worse if we pass sanctions, but we 
should have a say about the final outcome through a 123 nuclear 
review process under the Atomic Energy Act? Does that make 
sense?
    Let the negotiations go forward without sanctions, but when 
a deal is reached, would it be okay with both of you if 
Congress, under the 123 section of the Atomic Energy Act, had a 
chance to review it to see if it was, in fact, a good deal? 
Would that be a good outcome?
    General Scowcroft. I don't know that I am equipped to say 
that.
    Senator Graham. Okay. We have in the past approved 24 
agreements regarding civilian nuclear programs between the 
United States and foreign powers. All I am suggesting is, let 
the administration pursue a deal with the P5-plus-1. If they 
reach an agreement, bring it to Congress for our review and our 
approval.
    Do you think that makes sense? Would that be a good check 
and balance?
    Dr. Brzezinski. I think that depends a little bit also on 
the other partners in the negotiations. We are not the only 
ones.
    Senator Graham. Congress is not going to let the French or 
Iranians tell us what to do.
    What we are trying to say to you and the administration is 
that we don't want to disrupt the last best chance to get a 
deal, but we don't want to be dealt out either. We would like 
to have a say.
    Under the Atomic Energy Act, section 123, in the past, 
Congress has reviewed deals between the U.S. and foreign powers 
regarding civilian programs.
    Would that be a provocative thing for Congress to do, look 
at the deal after the fact?
    Dr. Brzezinski. Let me take a stab at this. I think you 
will do it anyway, won't you?
    Senator Graham. The question is, should we do it?
    Dr. Brzezinski. I think that depends a little bit on the 
nature of the relationship with the other powers and how much 
you are informed. You will make the judgment yourself, if you 
want to do it.
    Senator Graham. Fair enough.
    Let's get back to Syria. This whole conflict started when 
people went to the streets in Syria petitioning Assad to have a 
better life within Syria. Do you agree with that, that's how 
this all started?
    General Scowcroft. That is one of the things anyway, yes.
    Senator Graham. You just made an observation that most 
people now are going to say, ``I have dignity. I am not going 
to let the guy down the street tell me how to live. We can now 
read and see how life could be.''
    That is a good thing. Do you both agree that the individual 
in the world being empowered and knowing the difference between 
a good life and a bad life is, overall, a constructive thing?
    General Scowcroft. It certainly is for humankind.
    Senator Graham. Would you like to live in Assad's Syria? 
Can you understand why millions of Syrians believe that Assad's 
Syria is not what they want to pass on to their children? Can 
you understand why people throughout the world no longer want 
to live in totalitarian dictatorships for our convenience?
    I can understand that. There is a complication here I get.
    But the big theme sweeping the world, to me, is that young 
people have enough living a life that none of us would adopt, 
for our convenience. I would like to help those young people, 
and in the process, not blow up the world.
    Do you agree with the President that the goal should be to 
defeat and destroy ISIL, degrade and destroy?
    General Scowcroft. Destroy what?
    Senator Graham. Defeat, degrade, and destroy ISIL, that 
should be the United States' goal?
    Dr. Brzezinski. I will speak for myself. I think it is 
important that we do what is necessary from the standpoint of 
our National interests.
    Senator Graham. I agree with that.
    Dr. Brzezinski. If ISIL kills our people, we certainly 
should act.
    Senator Graham. Do you agree with the goal the President 
has stated that it is in our national interest to degrade and 
destroy ISIL?
    Dr. Brzezinski. I support that, but it depends on how we do 
it.
    Senator Graham. I couldn't agree with you more.
    Dr. Brzezinski. I don't want us to be the only protagonists 
and others to sit back in the region.
    Senator Graham. Do you agree with that, General?
    General Scowcroft. Yes.
    Senator Graham. Do you think the strategy in place today is 
working to achieve that goal?
    General Scowcroft. No.
    Senator Graham. Okay, so I agree with you, General.
    Would you like to comment, Doctor? Is it working?
    Dr. Brzezinski. I don't know if it is working. I think it 
is going to take a long time, because we are in a situation 
where there is a mix of motivations in the region.
    Senator Graham. Absolutely. Two good answers.
    I just got back from the Mideast. Nobody believes it is 
working. The best solution, from my point of view, would get an 
Islamic coalition together. It doesn't have to be all Arab. An 
Islamic coalition to go in on the ground in Syria and take ISIL 
down in the name of Islam, saying, ``You do not represent this 
great religion. We are here to take you on and destroy what you 
stand for.''
    Does that make sense? Would that be a good outcome, to have 
religion, a coalition of the willing within the religion, to go 
in and take ISIL down?
    Dr. Brzezinski. If it is spontaneously formulated in the 
region and not created by us, yes.
    Senator Graham. I couldn't agree more.
    Dr. Brzezinski. I think if we tried to create it, it 
wouldn't work.
    Senator Graham. Finally, should we support such an effort 
giving capacity to that will where we have unique capability? I 
am not advocating 100,000 American troops on the ground in 
Syria, but I am advocating that the longer this problem goes, 
the more likely we are going to get hit here. I am advocating 
that America cannot sit on the sideline and let 300,000 Syrians 
get slaughtered because it is complicated. I am advocating that 
we defeat this enemy to mankind, not just to Islam, and that we 
get the Islamic world engaged, but we provide capacity when 
they have will, that we provide airpower, that we provide 
Special Forces, intelligence capability.
    Gentlemen, what I will not accept is the status quo, that 
it is okay to not go after these guys because it is not. At 
every level in the world, it is not okay.
    So my only plea is that you would have an open mind to a 
ground component where we play a role, not the leading role, 
before it is too late.
    Thank you both for your great service to this country.
    Chairman McCain. Would you like to make a response to that 
tirade?
    [Laughter.]
    Dr. Brzezinski. I wouldn't call it a tirade. I thought it 
was very sincere and impassioned, but I don't think it deals 
sufficiently with the complications of the region.
    There are different countries in the region. There are some 
regimes we can work with. There are some that are playing a 
double game.
    Last but not least, there is, unfortunately, unexpectedly, 
much more support for Assad in Syria than we would have wished 
or probably anticipated. Otherwise, why is he still there and 
has not been overthrown?
    Chairman McCain. General, would you like to make a comment 
on the exchange that just took place? I think it is important.
    General Scowcroft. Syria is a most difficult place. Next to 
Lebanon, it is probably the most mixed up in terms of physical 
mix-up of different groups of any area in the Middle East.
    I think I understand the concern. I am reluctant, sitting 
here, to get into executive-legislative struggles, but I think 
we ought to do what we can without getting ownership again. We 
have not only the Syrians to worry about. We have to worry 
about the Turks, too, because the Kurds are very heavily 
engaged there. They have different notions about their own 
future.
    Senator Graham. Do you support a no-fly zone that Turkey 
has been asking for, to protect the Free Syrian Army and the 
population from further destruction, a no-fly zone to give 
people a chance to regroup?
    General Scowcroft. I would consider that. But I would not 
use airpower to do it. There are some 20 airfields in Syria. We 
could bomb the runways of all of them with missiles and keep 
bombing them, and, in effect, ground their air force. I would 
have no problem doing that.
    Chairman McCain. Doctor?
    Dr. Brzezinski. Yes, I probably would have no problem. But 
I don't think that solves the larger problem.
    Chairman McCain. I thank you. I think it has been a very 
important exchange.
    Senator King?
    Senator King. Thank you.
    Gentlemen, I apologize for coming in and out. I had a 
meeting with Mr. Carter, who, as you know, has been nominated 
by the President to be Secretary of Defense.
    Dr. Brzezinski, you mentioned something very interesting, 
which suggested that, given the threat of terrorism to Russia 
as well as other parts of the world, does this create an 
opportunity for an alliance with Russia to deal with an issue 
like ISIL that might be an opening to a more general settlement 
in Syria, that we have a common interest in dealing with this 
terrorist threat?
    Dr. Brzezinski. Yes, but I wouldn't use the word 
``alliance,'' because that goes too far. I think a regional 
accommodation, regional cooperation, might be in their interest 
and our interest, for reasons I've mentioned. They have 
potentially exposed themselves, and it would make it more 
difficult for the Russians to simply sit on the sidelines and 
watch us getting bogged down alone. They own part of the 
responsibility for the problems in the Middle East, in terms of 
previous policies. Much of the same applies to China.
    Senator King. I would think the Russians would see this in 
their own national interest.
    Dr. Brzezinski. One would have to assume that is the case, 
because they have a national interest.
    Senator King. A second question, partially a statement, 
partially a question. I was delighted to hear you, General 
Scowcroft, talk about the threat of cyber. I feel like we are 
England before World War II, ignoring a threat that is right in 
front of us.
    What if Sony, instead of a movie production company, had 
been the New York Stock Exchange or a gas pipeline? I have 
never seen an issue where we have had more warnings and we're 
doing less.
    I hope you would concur with me that this should be one of 
Congress' highest priorities, to deal with this cyber-threat 
and develop our cyber-strategy.
    Would you agree with that?
    General Scowcroft. Yes, I do agree with that. I think we 
are still at step one, and I think we need the very serious 
analysis of what the character of the problem is, what our 
alternatives to take a more positive role can be, and which one 
we should select.
    Senator King. I thought one of your interesting suggestions 
was kind of a reprise of the mutually assured destruction 
strategy of the 1950s in the cyber area, to create a deterrent, 
not only a defensive posture, but a deterrent posture.
    Could you elaborate on that a bit?
    General Scowcroft. I used that only to show how serious a 
threat I think cyber is. It is on the par with nuclear weapons. 
It doesn't kill people itself, but it can destroy the sinews of 
a country.
    Senator King. General, I just hope what you said today and 
that analogy is a headline tomorrow, because we have to deal 
with this issue.
    One other area of concern, Dr. Brzezinski, I'm very 
interested in developing a strategy beyond ad hoc military 
intervention to deal with ISIL and the whole issue of jihadists 
and extremism.
    Could you talk about what you would think would be the 
elements of an anti-extremist strategy beyond just military 
response?
    Dr. Brzezinski. Some form of cooperation with the more 
moderate and more established states in the region in creating 
viable outcomes that consolidate well-being, permit their 
political evolution, and so forth. The list has been mentioned. 
It is Turkey. It could be Iran, under some circumstances. It 
could be Saudi Arabia, which otherwise might face serious 
international problems. It, certainly, is Egypt. On a more 
limited basis, it includes Lebanon and Jordan, with the latter 
being close to an explosive situation given the number of 
refugees that have flowed into the country.
    There is some potential commonality of interest here, but 
it should not be focused primarily on American military action 
as such, though we have the right of self-defense and we have 
the right to deal with threats that become extensive enough to 
the possibility of destabilizing the region.
    Last but not least, if I may say so, we should be very 
careful not to proclaim our actions are somehow or other anti-
jihadist. You used the term. Because we don't want to convey to 
that part of the world that we in any way are engaged in a 
religious war against them.
    Jihad means holy war. And so we don't--
    Senator King. Anti-extremist might be a better term.
    General Scowcroft. Yes, exactly. Something along those 
lines. Fanatics. In some cases, sadists, like those beheadings. 
But certainly, avoid saying we are engaged in a struggle 
against jihadist terror, because that, frankly, attracts some 
people to engage in what they say is holy war.
    Senator King. That is a very good point. I appreciate that.
    I think the other side of that is we have to be very 
careful in this country to not lump in the Muslim world with 
these extremists. I think that also is a recruiting poster for 
them, if we do that. This cannot be a war between the West and 
Islam.
    General Scowcroft. That is right.
    Senator King. Thank you, Mr. Chair.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for your service to our 
country. I apologize for not being here for the entire 
discussion this morning. We had several different committee 
hearings going on, as usual, it appears.
    I did have one question that I'd like to focus on, and 
perhaps in a little different vein than I heard in the last 15, 
20 minutes, and that has to do with the National Security 
Strategy that was last presented in 2010.
    My understanding is that normally that would be updated or 
had been expected to be updated in 2014. The Quadrennial 
Defense Review (QDR) was presented and completed based upon the 
2010 strategy that was in place.
    I don't understand but I was hoping you might give us your 
thoughts a little bit about whether or not that strategy that 
was completed in 2010, whether or not, with all of the changes 
today, particularly those issues in the Middle East, changes in 
terms of Russia and what has happened since 2010, whether or 
not the QDR that we currently operate with and the strategy 
that was proposed in 2010 that we operate with today, whether 
or not we are missing something here and does it really matter? 
Is it time for Congress to take a different approach in terms 
of looking at the overall strategy when it comes to our 
National defense?
    General Scowcroft. That is a very difficult question to 
answer. I think my answer is both.
    Congress is responsible for providing funding for a 
particular strategy for the military themselves. The President 
is in charge of the Armed Forces. That is the kind of 
cooperation that is getting increasingly difficult, but it 
still is the way we have to proceed. When you do unilaterally 
the kind of things like sequester, it destroys what is needed, 
which is consent between Congress, who's responsibility is the 
Armed Forces, and the President, who runs the Armed Forces.
    Dr. Brzezinski. I would only add to this, and maybe this is 
not what you have in mind, that I think there is a bit of a 
problem in that the State Department has a policy planning 
council that presumably plans for diplomacy. The Defense 
Department has similar agencies in terms of defense 
capabilities and needs. The Central Intelligence Agency (CIA) 
has its own view on how the world is changing. I am not aware 
of any large-scale, systematic effort in the National Security 
Council to define national objectives and to help the President 
think it through and eventually endorse it as a kind of overall 
national security planning mechanism. I think we could use 
that, and perhaps that would be helpful in clarifying some 
issues.
    Senator Rounds. Would you consider that to be new in terms 
of how we have operated, or is that something that have you 
both seen. You have both seen the interactions between the 
administration and Congress over a period of literally decades. 
Is this new? Is this something that people have looked at and 
said that is the way it is, or is this something that clearly 
presents a threat in terms of how we do systematically the 
planning for the defense of our country that has not been there 
before?
    Dr. Brzezinski. I think we ought to take a look. I don't 
know if it is new or not. But I think we ought to take a look 
at the existing system.
    My sense is we don't really have in the White House a 
service to the President when he makes his decisions, a 
deliberate effort at creating what might be called a national 
security plan for 4 years or whatever an administration is in 
office. The other agencies do that. I think that creates, 
perhaps, some of the uncertainties as to what exactly we are 
doing.
    Senator Rounds. I just have one more thought on this. It 
seems to me that, in business, when we talk about those issues 
that we are concerned about as being important versus on a day-
to-day basis, those issues that come up as being urgent and in 
front of us--we tend sometimes to focus on the urgent as 
opposed to the critical or important. Would you care to 
comment?
    Right now when we look at the defense of our country, we 
look at the issues that our military men and women face on a 
daily basis around the world today, of those items that all 
appear to be in front of us regularly, those urgent issues, 
have they clouded our ability to keep in front of us those 
important issues that we are losing sight of?
    Dr. Brzezinski. I don't know how to answer that.
    General Scowcroft. I think the answer is probably yes. But 
it is not an easy thing to do, to bring all the elements of the 
government together on such a thing as our National military 
strategy.
    We have tried different things. Some worked better than 
others. But it is also a political exercise as well as a 
strategic exercise. I don't think we have developed anything 
that goes beyond bureaucratic to genuine steps forward. But I 
think we ought to keep trying.
    Senator Rounds. Mr. Chairman, thank you.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman. I look forward to 
working on this committee and continue working with my 
colleagues.
    I thank both of the witnesses for their presence today.
    What is each of your opinion about the need for Congress to 
expeditiously work on an authorization of military force to 
cover the war on ISIL, which is now in its sixth month?
    General Scowcroft. I'm not sure how to answer that. I think 
we should not be more involved in the ISIL exercise. I believe 
that this is a case where the region is being threatened, and 
the powers of the region are being threatened. The states of 
the region are being threatened. We ought to encourage and help 
them to respond, but not respond for them.
    That is a difficult line, but I think it is an important 
one, because the Middle East does belong to the Middle East 
countries. We ought to encourage them to be behave responsibly.
    Senator Kaine. Dr. Brzezinski?
    Dr. Brzezinski. In different ways, I think we ought to 
strive, first of all, to engage the other major powers in the 
world to be involved. It shouldn't be our baby only. I have in 
mind particularly, and I have said this this morning, Russia 
and China.
    Second, I think we have to minimize the visual involvement 
in the problem of other powers who could be helpful but whose 
record in the region is so negative because of their 
involvement with colonialism that they in fact handicap the 
effort of dealing effectively with the region.
    Third, we have to try to involve, and that's a difficult 
process, those states in the region that have both viability of 
sorts and some inclination to be moderate.
    Senator Kaine. You each answered my question in the 
strategic and tactical sense, and I actually meant it in the 
institutional and constitutional sense.
    The President started a unilateral military campaign 
against ISIL on the 8th of August that is now in its 6th month, 
justifying that based on the two previous authorizations that 
were done in 2001 and 2002. The President last night said 
Congress should do an authorization and weigh in and vote about 
whether this mission is in fact in the National interest.
    Do have you an opinion on whether that is an important 
matter for Congress to take up?
    Dr. Brzezinski. If he asks, and since he's acting as 
Commander in Chief, I should think that he's entitled to make 
that request, and probably Congress should consider it, if for 
no other reason that it helps to consolidate national unity on 
that delicate but terribly complicated issue.
    Senator Kaine. I think, as I understood your last answer, 
on the tactical side, let me do a follow-up question, there has 
been much discussion about the role of ground troops as 
necessary in Iraq or Syria to defeat the threat of ISIL, ground 
troops broadly defined, regional ground troops, the Peshmerga, 
the Iraqi Security Forces, Syrian-trained Syrian moderate.
    What do each of you think about the wisdom of using United 
States ground troops in the mission against ISIL in Iraq or 
Syria?
    Dr. Brzezinski. Except in very special individual 
circumstances where the use of ground forces would be very 
limited in terms of its mission, I'm basically against what is 
called boots on the ground, as far as the United States is 
concerned. I think the political and historical climate is so 
uncongenial to us doing it, that we will simply become involved 
in a protracted conflict, which will be extremely costly, and 
which will be very difficult for us alone to win.
    Senator Kaine. The President has announced a plan to 
withdraw United States forces completely from Afghanistan by 
the end of 2016. Should the United States actions with respect 
to its forces in Afghanistan be based on a date on the 
calendar? Or should it be based on conditions on the ground and 
whether there is sufficient stability to allow us to withdraw 
without plunging the country back into a chaos that could 
affect the region and the world?
    Dr. Brzezinski. You can't entirely separate the two, but 
you have to take into account that at some point a prolonged 
engagement at the very least begins to create its own emphasis 
and you begin to be stuck with growing resentment on the part 
of the people in the region itself. I think some end line is 
absolutely necessary.
    General Scowcroft. I think in the particular case of 
Afghanistan, an end line right now is not the right way to go. 
It is my sense that Afghanistan has made considerable progress, 
that the new leadership shows great promise, and that what 
their military security forces really need is a sense of a U.S. 
hand on their shoulder. ``We are back here. We will give you 
some advice. We will help you here. We are not bailing out on 
all the effort we have put in, in past years.''
    I believe I don't know how many, but a few thousand forces 
would pay us back big dividends if Afghanistan moves forward in 
the direction that it seems to be moving. It is, certainly, 
worth a few thousand troops to be that hand on their shoulder.
    Senator Kaine. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you, gentlemen. This has been very 
helpful.
    Let's talk about Russia and NATO. When Russia invaded 
Georgia, about all we could do was talk about it and denounce 
it. When Russia took the action they took in Crimea, a treaty 
ally of ours whose border we had promised to defend if they 
gave up nuclear weapons, military action was clearly off the 
table. Presumably, Russian action in Transnistria would not 
call for military action by the United States.
    But, Dr. Brzezinski, you draw a line when it comes to the 
Baltic states. I'd, certainly, want to agree with you there.
    Let me ask you this. Could you explain a little more your 
idea about working with NATO on tripwires in the Baltic states?
    General Scowcroft, what do you think about that idea as you 
understand it having been described? What can we do to get our 
NATO allies to take national defense and Western defense 
responsibilities seriously? We asked them to spend a mere 2 
percent of their gross domestic product (GDP) on the military 
and, frankly, it is only two or three of those NATO allies who 
actually do that.
    If you would comment on that, and, Dr. Brzezinski, you can 
begin.
    Dr. Brzezinski. First of all, on your last question, I 
think we should address that in NATO, and perhaps some device, 
some procedure could be formulated, whereby NATO members that 
fail to meet that 2 percent standard lose some of their 
entitlement to participate in key decisions. I don't know 
precisely how to work that out, but it seems to me, if you 
don't pay, you don't decide. That at least might make them a 
little more conscious of the fact that collective obligations 
should be treated seriously.
    Insofar as the guarantee itself of the Baltic countries, 
what I said earlier I'll simply repeat. I think the Russians 
really don't know how active we would be in saving them for one 
reason or another. The leader of the Russian Federation decided 
that he can get away with a seizing, with a quick action, which 
altogether alters the situation that he finds so abhorrent, 
namely the creation of independent states or the re-creation of 
independent states in the place that the Soviet Union occupied 
in the late 1930s and early 1940s.
    If he were to do that, we would be faced with a horrible 
situation, because we don't have the means to stage an 
amphibious warfare that results in the landing of our forces 
and then gradual ground war, presumably in the territory of the 
Baltic states under expulsion. The only sensible step we can 
now take, I think, is to pre-position some tripwire type 
forces, forcing Putin to consider seriously whether he's 
prepared to go into major conflict with us.
    If he does that, then we have no choice but to respond, not 
only in the Baltic republics but perhaps elsewhere. For 
example, impose a worldwide embargo on any movement of Soviet 
ships or airplanes, other actions of semimilitary type, which 
would be a response designed to impose further costs, and 
including perhaps some occasional military engagements chosen 
elsewhere, if we couldn't do something directly in the Baltic.
    Senator Wicker. If we wouldn't defend our NATO allies in 
the Baltics, I don't know what our word would be worth.
    General Scowcroft, what do you think of this topic?
    General Scowcroft. First, I think that we don't want to re-
create the Cold War, and I don't think it is necessary. I think 
if we want to do something, tripwires--NATO is the tripwire, to 
me. I think if we want to tell them what we will do if they do 
certain things, then they better not, I don't have a problem 
with that.
    But I can see Putin just trying to provoke us to spend more 
efforts. I'm not sure it is necessary. I believe the 
contribution of some of the Europeans to NATO is deplorable.
    There are two facts. First of all, they don't feel 
threatened. Secondly, they are basically exhausted after two 
wars, and they are just happy to leave everything up to us, 
including paying for it.
    There, I think we ought to give it some thought, but my 
sense is we would get greater European support if we had ideas 
about how to use NATO usefully now that, to me, a threat of a 
march of Russian troops into Western Europe is not a reasonable 
thing to happen.
    Senator Wicker. Let me ask you briefly, if the chair will 
indulge, do you have any comments for this committee about the 
adequacy of our naval fleet at the present time? The chair in 
his opening remarks talked about the size of our military being 
roughly the equivalent to what it was after World War I. Do we 
have enough ships? Are we building enough ships? Is our fleet 
adequate to protect national interests?
    Dr. Brzezinski?
    Dr. Brzezinski. I have not looked into that specifically, 
so I can't give you a straightforward answer.
    General Scowcroft. I don't think any one of us has examined 
that kind of question. I simply don't have an answer to that.
    Senator Wicker. Thank you very much.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you both for being here. ISIL has said that they are 
establishing a caliphate. Their caliphate that they want to 
establish is a whole lot bigger than where they are right now. 
Can we simply watch this? Can they be left in place, if this is 
their goal, when their goal also, if you don't share their 
religion, you either convert or you are killed? They intend to 
expand.
    How does the United States watch this when--and I don't 
want to get into exact historical references, and I don't mean 
to by this, but we have seen this kind of thing before.
    Dr. Brzezinski. The danger is that if we get involved 
directly in opposing them, we will make it easier for them to 
promote the whole concept.
    Senator Donnelly. I don't mean directly. I mean as a 
partner.
    Mr. Scowcroft, you were talking about not getting more 
involved in ISIL actions. With training an Arab army or 
advising, providing that kind of assistance, helping them to 
plan, helping them to train, do you think those are appropriate 
actions?
    General Scowcroft. I have no problem with training as 
appropriate action. But let's remember that ISIS or ISIL, 
whatever you want to call it, is in the Middle East. There are 
a number of our friends and allies who live in the Middle East. 
Would they be happy to just sit back and have us deal with the 
problem? Maybe.
    But this is a problem that is a potential threat to other 
Middle Eastern countries.
    Senator Donnelly. Do you see us having a role though as a 
partner?
    General Scowcroft. Yes, I think a role in doing the kinds 
of things that they can't do, and encourage them in the things 
that they can, we can help them know how to do, yes, 
absolutely. But that is training.
    Senator Donnelly. Right. I don't think anybody is looking 
at our troops being the ground troops, but being somebody who 
can help provide with the backbone, the planning, the training. 
Does that make sense to you?
    General Scowcroft. Absolutely.
    Senator Donnelly. Because it strikes me as no matter what 
we hope, and being from Indiana where we have suffered from 
them already, we have already lost citizens who have been 
kidnapped and killed by them. They continue to put plans 
together to cause other activities.
    With their stated goals of further establishment of this 
and taking activities elsewhere, it would seem to me that we 
have to be engaged in some form with partners. It seems that 
the goal, it's not something that is going to stay static. It 
either grows or gets eliminated.
    Would you agree with that?
    General Scowcroft. Yes.
    Senator Donnelly. Dr. Brzezinski?
    Dr. Brzezinski. I also agree with that.
    Senator Donnelly. Okay. As we look at Putin, what do you 
think his endgame is in Ukraine?
    Dr. Brzezinski. My own estimate is to reverse what 
transpired a year or so ago, namely the decision by the 
Ukrainian people to associate themselves and their long-range 
identity with the West. I think he views that as a major 
intrusion of a historically significant component of the larger 
Russian empire.
    I think he has this general concept of imperial restoration 
as guiding him. If you look at some of the things he has done 
to define the presidency, the symbolism associated with it, and 
so forth, it has a lot of imperial trappings.
    He is prepared to use force to make that happen. Our 
position has been that we have no desire to intrude into 
Russian security aspirations, but that a nation has a right to 
define itself voluntarily.
    That is a very complicated issue. As a consequence, we now 
have this very serious problem between us and the Russians 
regarding the future of Ukraine. He's clearly striving to 
destabilize Ukraine, not risking an all-out invasion, but to 
destabilize it from within.
    Senator Donnelly. If he takes similar action in Latvia, his 
little green men and all those things, going into Latvian 
territory, and NATO does not respond, is that, in effect, the 
end of NATO?
    Dr. Brzezinski. I would say so, because NATO is meant to be 
a collective alliance. If the United States does not respond, 
that certainly would be the result.
    Now, conceivably, we could let him do it, let him take 
Latvia or Estonia, and then we would mobilize NATO to counter 
this somehow, either on the spot or on the larger world front. 
But that would be a much more risky enterprise than doing what 
I advocate, which is simply to create a tripwire in Latvia and 
Estonia, which communicates clearly to Russia that NATO would 
be involved, that the United States, in particular, is present, 
and therefore, the risks you are taking are much, much higher 
than you might calculate in light of the ease of the operation 
in seizing Crimea.
    Senator Donnelly. General Scowcroft, would you also see 
that as, that is the end of NATO?
    General Scowcroft. Certainly, it would be the end of NATO 
if the Soviet Union moved into a NATO member and we did 
nothing. Absolutely, it would.
    But I don't see that happening. Putin is a nasty piece of 
work. I probably should not have said that. But I don't think 
he is evil incarnate. I think if we tell him quite clearly what 
we won't stand for, in terms of NATO members, especially, there 
won't be such an action.
    Senator Donnelly. Thank you, Mr. Chairman.
    Dr. Brzezinski. The best way to tell him is to do something 
to make him think about it.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. I appreciate 
your service very much.
    Today, we have talked a lot about ISIL and the Middle East, 
and the fact that we do need partners in that region. We do 
need those Arab allies to come forward. You have mentioned it, 
both of you, as more of an aside comment. But I would really 
like to understand how can we can more effectively engage 
Turkey, which is an ally, which is a friend in that region. How 
can we engage them more to combat ISIL and those other threats 
that exist in the Middle East?
    Dr. Brzezinski. The Turks are playing a role. It is partly 
worrisome, a little, party very helpful. The Turks have a large 
minority in their country who are Kurd, so they have multiple 
concerns about what goes on. They also have very emotional 
feelings about Syria.
    But I think we can help the countries of the Middle East--
Turkey is one--with great military capability. As I say, Egypt 
is another one. Egypt is a large country in any part of the 
world.
    They ought to want to shape their own region in the right 
direction. We ought to encourage that rather than taking their 
place in forming the region.
    Senator Ernst. Thank you. I do agree. I would love to see 
more concrete methods of engaging them. They do have a lot at 
stake in that region, and I think they can be very valuable 
partners. I just would love to know how we get them to play a 
more prominent role in the Middle East.
    Thank you very much, gentlemen.
    Thank you, Mr. Chair.
    Chairman McCain. Could I say that I thank you both, not 
only for your appearance here, but for your many years of 
outstanding service to the country, your wise and knowledgeable 
advice and counsel that you have provided to many Presidents, 
and you have proven again before this committee.
    Obviously, there are some disagreements. In fact, I might 
make mention that the head of MI5 recently gave a speech, a 
week ago, saying that he believed that ISIL is planning an 
attack on the United States of America. I don't disagree with 
him.
    I think that would change the outlook of the American 
people about the degree of our involvement, if there was such a 
thing, which we hope will not happen. But when you have 
thousands of young men going into this fight who will then be 
returning from the fight, I think it is something that is not 
beyond the realm of responsibility.
    But I would like to say that I am personally very honored 
to be in the company of two individuals who have served our 
country and continue to do so with such distinction.
    Thank you very much.
    [Whereupon, at 11:53 a.m., the hearing was adjourned.]



         GLOBAL CHALLENGES AND U.S. NATIONAL SECURITY STRATEGY

                              ----------                              


                       TUESDAY, JANUARY 27, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Kelly Ayotte 
presiding.
    Committee members present: Senators Ayotte, Sessions, 
Wicker, Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, 
Graham, Reed, Nelson, Manchin, Shaheen, Blumenthal, Donnelly, 
Hirono, Kaine, King, and Heinrich.

           OPENING STATEMENT OF SENATOR KELLY AYOTTE

    Senator Ayotte. The Senate Armed Services Committee meets 
today for its second hearing in a series on Global Challenges 
and U.S. National Security.
    Chairman McCain was invited to join the American Delegation 
to the funeral of the King of Saudi Arabia, and he asked that I 
chair this hearing in his absence. I know he regrets not being 
able to join all of us today.
    I request unanimous consent that Chairman McCain's opening 
statement be entered into the record.
    Senator Reed. Without objection.
    Senator Ayotte. Thank you. Without objection.
    [The prepared statement of Chairman McCain follows:]
               Prepared Statement by Senator John McCain
    The Senate Armed Services Committee meets today for its second 
hearing in a series on global challenges and U.S. national security. I 
am pleased to welcome three of America's most distinguished military 
leaders. General James Mattis, General Jack Keane, and Admiral William 
Fallon have each served at the highest ranks of our military. 
Critically important in the context of this hearing, each of our 
witnesses served at the nexus of military operations and strategic 
national security decision-making.
    After the struggles we faced in Afghanistan and Iraq, there's been 
extensive discussion about the role of military power in United States 
strategy around the world. This is a healthy debate, in which this 
committee will be fully engaged. But too often, pundits and 
politicians--including President Obama--have adopted a cheap fatalism 
summed up in the Administration's constant refrain, ``there is no 
military solution.''
    Rather than stating the obvious and important point that our 
military cannot solve every foreign policy problem, this slogan is 
really an excuse to avoid taking even the most-limited military action 
that might shape and improve conditions for a political solution, and 
provide the nation with the flexibility to draw from all instruments of 
national power effectively to address the problem. While it may be true 
there is no military solution, it is just as true there may be a 
military dimension to a political solution. But as problems fester and 
go from bad to worse, the Administration then claims its inaction was 
justified all along given the complexities of the situation. The 
consequences of this reactive bystander foreign policy are on full 
display around the world in places like Syria and Ukraine.
    I hope, with their background and expertise, our witnesses can 
offer their perspectives on the most basic element of strategy: 
matching military means to policy goals. In particular, what is the 
role of military power in a comprehensive United States strategy for a 
Middle East characterized by political instability as well as a 
daunting range of conventional and unconventional threats? And as we 
look at threats throughout the world, how should American policymakers 
use military power to address global challenges before they become 
crises? For example, the longer we wait to provide defensive weapons to 
Ukraine, the more entrenched the Russians become, and as we've seen in 
Georgia, the more difficult it will become to dislodge them and restore 
Ukraine's sovereignty.
    The President was determined to turn the page on questions like 
these in his State of the Union address last week, but we remain stuck 
in a grim foreign policy chapter of his authorship.
    The President recently proclaimed the success of his limited-
footprint counterterrorism approach by pointing to Yemen. Yemen is now 
in chaos, with the government deposed by Iranian-backed militants and 
al-Qaeda in the Arabian Peninsula (AQAP) emboldened to facilitate and 
execute terrorist attacks around the world.
    President Obama has been applying the Yemen model in the fight 
against ISIL in Iraq and Syria with predictable results. The ISIL flag 
still flies over major cities in Iraq, such as Mosul and Fallujah. In 
Syria, ISIL has significantly enlarged its territorial control since 
United States strikes began last year. And despite the President's 
stated goal of degrading and destroying ISIL, we have no strategy in 
place to accomplish it. Basic strategic questions remain unanswered: Is 
an ISIL-first strategy really feasible when our Syrian partners are at 
war with Assad, and his regime's brutality feeds their power? Can we 
successfully defeat ISIL without even small numbers of American ground 
forces in both Iraq and Syria? Does the President still believe Assad 
must go, and do we have a strategy to achieve that goal? How will we 
protect brave Syrians we send back into Syria from Assad's airpower? 
The fact is that President Obama's delayed and feeble response is not 
degrading or destroying ISIL, nor is it inspiring confidence among our 
allies and partners.
    Underlying these conflicts is the broader challenge of Iran's 
malign influence in the Middle East, a problem which the Administration 
has no strategy to address. Iran is not just an arms control problem. 
And as negotiations continue over its illegal nuclear program, the 
Administration is silent about Iran's reckless behavior that 
destabilizes the region by providing weapons, funding, and training to 
terrorists and militant groups in places like Syria, Iraq, Yemen, 
Lebanon, Gaza, and Bahrain.
    There is not a military-only solution to all the world's 
challenges. But as we have learned again in Iraq and Syria and 
hopefully won't relearn in Afghanistan, the American military remains 
an indispensable element to bringing stability and securing United 
States interests. Military power should not be used lightly, but it 
should also not be used anemically or withdrawn precipitously. When we 
refuse to address global problems at an early stage, or remove troops 
too quickly, it is the men and women of our armed services who must 
face an even-more chaotic, challenging and dangerous environment in the 
future.
    I look forward to each of your views on how we can bring a coherent 
strategy to the complex global environment we now face.

    Senator Ayotte. I am pleased to welcome three of America's 
most distinguished military leaders: General Jim Mattis, 
General Jack Keane, and Admiral William Fallon. I welcome each 
of you today, and I thank you for your willingness to testify 
before us. Even more so, I thank you, on behalf of this 
committee and the American people, for your decades of brave 
and honorable service to our country. It is because of leaders 
like you and the men and women you've commanded and you 
continue to serve in uniform that Americans enjoy unprecedented 
freedom, security, and prosperity. Each of you commanded at all 
levels and ultimately served in positions that required not 
only a deep knowledge of tactical, operational, and strategic 
levels of military operations, but also an understanding of 
national security decisionmaking at the highest levels. It is 
that experience at the nexus of military operations and 
strategic national security decisionmaking that is particularly 
relevant to our hearing today.
    There is a broad consensus among national security experts 
that the threats to the United States and our allies that we 
are confronting, are growing both in complexity and severity:
    In Ukraine, we have witnessed blatant Russian aggression 
that has forced the administration to undertake a belated 
reassessment of the nature of the Putin regime and question 
long-held assumptions regarding the security situation in 
Europe.
    In Iraq and Syria, ISIS [the Islamic State in Iraq and 
Syria] has established a safe haven and training ground in the 
heart of the Middle East that it is using to destabilize the 
region and threaten the core national security interests of the 
United States and our allies.
    Meanwhile, the regime in Tehran seeks to use negotiations 
to achieve sanctions relief while avoiding a permanent and 
verifiable end to its nuclear weapons program.
    Simultaneously, Iran continues to oppress its own people, 
threaten key allies, like Israel, and support terrorist groups, 
like Hezbollah.
    Across the Middle East and into North Africa, emboldened 
al-Qaeda affiliates plot attacks against the United States and 
our allies. Al-Qaeda in the Arabian Peninsula uses the horrible 
security situation in Yemen, a country the President cited as 
recently as September as a counterterrorism success story, to 
plot and carry out terrorist attacks around the world.
    In the Asia-Pacific, China is using historic economic 
growth to build military power that it is using to bully its 
neighbors and test international laws that are essential to the 
United States, and our partners' international security and 
prosperity in the free waters in that region.
    While each of these threats and challenges are unique, with 
each of them there is a consistent and concerning gap between 
the strategies our National security interests require and the 
strategies that this administration is pursuing. Likewise, with 
defense sequestration set to return next year and the threats 
to our country growing, there is also an increasing gap between 
the military capabilities we have and the military capabilities 
that we will need to address these threats.
    The key question for this panel and for all of us remains: 
What is the best path forward to address these national 
security challenges? Few in our country have as much national 
security wisdom and real-world experience as the members of 
this panel. Between the three of you, you have more than 115 
years of military experience, much of it at the most senior 
levels of our military. We look forward to hearing your best 
advice on how the Federal Government can fulfill its most 
important responsibility to the American people, and that is 
protecting the security of the United States of America.
    Thank you very much.
    And I would like to turn it over to Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Senator Ayotte.
    Let me join you in welcoming our witnesses, extraordinary 
individuals who have served the Nation with great distinction 
and great courage, never broke faith with the men and women 
they led, which is the highest tribute that anyone can make to 
a soldier, sailor, and marine. Thank you very much.
    Let me also thank Chairman McCain for pulling together this 
series of hearings and briefings to examine the U.S. global 
strategy. These discussions will help us inform our 
consideration of the administration's budget request, which 
will be coming to us in a few days.
    Last week, two of the most prominent U.S. strategic 
thinkers, Dr. Brent Scowcroft--General Brent Scowcroft and Dr. 
Zbig Brzezinski, discussed a number of issues with the 
committee. Among these was the need to give multilateral 
negotiation on Iran's nuclear program sufficient time to reach 
a conclusion. They urged this body not to press forward with 
additional sanctions even if they are prospective in nature. 
This matter is being discussed at this very moment in the 
Banking Committee, only a few floors above us, and, indeed, I 
have to leave here and go there, because I'm a senior member of 
that committee also. And my colleagues will be taking up the 
slack, particularly Senator King. I want to thank him. I will 
return, I hope, to ask questions of the panelists.
    Much of last week's discussion revolved around the 
administration's strategy in Iraq and Syria for confronting the 
regional and global terror threat posed by the so-called 
Islamic State of Iraq and the Levant, or ISIL. General 
Scowcroft and Dr. Brzezinski stressed that efforts to take on 
ISIL require a comprehensive approach, which includes both 
political and military elements.
    We also received testimony last week from the Department of 
Defense on the administration's program to train and equip the 
vetted opposition in Syria. This is just one aspect of the 
administration's approach to the ISIL threat in Iraq and Syria 
which is built upon an international coalition, including 
regional Arab and Muslim states using economic tools to go 
after ISIL's financing and a sustained campaign of airstrikes 
against ISIL leadership and facilities.
    This morning's hearing provides an opportunity, in 
particular, to examine the military respects of our strategy of 
addressing the ISIL threat. All three of you have been 
thoughtful and outspoken in your recommendations to that 
strategy, some of the aspects of which are reflected in the 
actions the administration has taken to date. As of January, 
United States and coalition aircraft have flown 16,000 sorties 
over Iraq and Syria, of which 5,866 have involved kinetic 
strikes against targets. President Obama has authorized the 
deployment of over 3,000 military personnel to Iraq to advise 
and assist Iraq and Kurdish security forces.
    At the administration's request, the fiscal year 2015 
National Defense Authorization Act included $5.6 billion in 
overseas contingency operations funding for DOD activities in 
Iraq and Syria, including $1.6 billion for the Iraq train-and-
equip program.
    Also in their testimony last week, General Scowcroft and 
Dr. Brzezinski emphasized the need to work with and through 
regional partners in the international community to address the 
ISIL threat so that the United States does, in their words, end 
up owning the problem itself. So, I hope that our witnesses can 
bring their perspectives on this very challenging issue of 
strategy, as Senator Ayotte said, in both Syria, Iraq, and in 
the region. And again, I think it's appropriate to focus on not 
only just the military aspect, but political and diplomatic 
initiatives, as well as economic initiatives.
    I want to, again, thank the witnesses. And I particularly 
want to thank Admiral Fallon, who made a tremendous effort to 
rearrange his schedule to join us. Thank you, sir, for your 
efforts.
    And, with that, Madam Chairwoman, thank you.
    Senator Ayotte. Thank you so much, Senator Reed.
    I would like to start with General Mattis. General Mattis 
served 42 years in the Marine Corps, including time as 
Commander of Central Command. We're very glad that you're here 
today. Thank you so much for being here.
    General Mattis.

   STATEMENT OF GENERAL JAMES N. MATTIS, USMC (RET.), FORMER 
            COMMANDER, UNITED STATES CENTRAL COMMAND

    General Mattis. Thank you, Madam Chairwoman, Ranking Member 
Reed, distinguished Senators of the committee.
    I have submitted a statement, and request it be accepted 
for the record.
    Senator Ayotte. It will be.
    General Mattis. During my Active Duty years, I testified 
many times before this committee and gained the highest regard 
for the manner in which you carried out your duties. Through 
good times and bad, I remain grateful for the support you've 
provided our military.
    I commend the committee for holding these hearings. As 
former Secretary of State George Schultz has commented, the 
world is awash in change. The international order, so 
painstakingly put together by the Greatest Generation coming 
home from mankind's bloodiest conflict, that international 
order is under increasing stress. It was created with elements 
we take for granted today: the United Nations, NATO, the 
Marshall Plan, Bretton Woods, and more. The constructed order 
reflected the wisdom of those World War II veterans who 
recognized: no nation lived as an island, and we needed new 
ways to deal with challenges that, for better or worse, 
impacted all nations. Like it or not, today we are part of this 
larger world, and we must carry out our part. We cannot wait 
for problems to arrive here, or it will be too late.
    The international order, built on the state system, is not 
self-sustaining. It demands tending by an America that leads 
wisely, standing unapologetically for the freedoms each of us 
in this room have enjoyed. The hearing today addresses the need 
for America to adapt to changing circumstances, to come out now 
from our reactive crouch and take a firm strategic stance in 
defense of our values. While we recognize that we owe future 
generations the same freedoms that we enjoy, the challenge lies 
in how to carry out that responsibility.
    To do so, America needs a refreshed national strategy. The 
Congress can play a key role in crafting a coherent strategy 
with bipartisan support. Doing so requires us to look beyond 
the events that are currently consuming the executive branch. 
There's an urgent need to stop reacting to each immediate 
vexing issue in isolation. Such response often creates 
unanticipated second-order effects and even more problems for 
us.
    The Senate Armed Services Committee is uniquely placed in 
our system of government to guide, oversee, and ensure that we 
act strategically and morally using America's ability to 
inspire, as well as its ability to intimidate, to ensure 
freedom for future generations. I suggest the best way to get 
to the essence of these issues and to help you crafting 
America's response to a rapidly changing security environment 
is simply to ask the right questions. If I were in your shoes, 
these are some of the questions I would ask:
    What are the key threats to our vital interests? The 
intelligence community should delineate and provide an initial 
prioritization of these threats for your consideration. By 
rigorously defining the problems we face, you will enable a 
more intelligent and focused use of the resources allocated for 
national defense.
    Is our intelligence community fit for the--for its 
expanding purpose? Today, ladies and gentlemen, we have less 
military shock absorber in our smaller military, so less 
ability to take surprise in stride and fewer forward-deployed 
forces overseas to act as sentinels. Accordingly, we need more 
early warning. Working with the intel community, you should 
question if we are adequately funding the intel agencies to 
reduce the chance of our defenses being caught flatfooted. We 
know that the foreseeable is not foreseeable.
    Incorporating the broadest issues into your assessments, 
you should consider what we must do if the National debt is 
assessed to be the biggest national security threat we face. As 
President Eisenhower noted, the foundation of military strength 
is our economic strength. In a few short years, however, we 
will be paying interest on our debt, and it will be a bigger 
bill than what we pay today for defense. Much of that interest 
money is destined to leave America for overseas. If we refuse 
to reduce our debt or pay down our deficit, what is the impact 
on the National security for future generations, who will 
inherit this irresponsible debt and the taxes to service it? No 
nation in history has maintained its military power if it 
failed to keep its fiscal house in order.
    How do you urgently halt the damage caused by 
sequestration? No foe in the field can wreak such havoc on our 
security that mindless sequestration is achieving today. 
Congress passed it because it was viewed as so injurious that 
it would force wise choices. It has failed in that regard, and 
today we use arithmetic, vice sound thinking, to run our 
government, despite the emerging enemy threats. This committee 
must lead the effort to repeal sequestration that is costing 
military readiness and long-term capability while sapping our 
troops' morale. Without predictability in budget matters, no 
strategy can be implemented by your military leaders.
    In our approach to the world, we must be willing to ask 
strategic questions. In the Middle East, where our influence is 
at its lowest point in four decades, we see a region erupting 
in crisis. We need a new security architecture for the Mideast, 
built on sound policy, one that permits us to take our own side 
in this fight. Crafting such a policy starts with asking a 
fundamental question, and then the follow-on questions.
    The fundamental question, I believe: Is political Islam in 
our best interest? If not, What is our policy to 
authoritatively support the countervailing forces? Violent 
jihadist terrorists cannot be permitted to take refuge behind 
false religious garb and leave us unwilling to define this 
threat with the clarity it deserves. We have many potential 
allies around the world and in the Middle East who will rally 
to us, but we have not been clear about where we stand in 
defining or dealing with the growing violent jihadist terrorist 
threat.
    Iran is a special case that must be dealt with as a threat 
to regional stability, nuclear and otherwise. I believe that 
you should question the value of Congress adding new sanctions 
while international negotiations are ongoing, vice having them 
ready, should the negotiations for preventing their nuclear 
weapons capability and implementing stringent monitoring break 
down.
    Further question now, if we have the right policies in 
place, when Iran creates more mischief in Lebanon, Iraq, 
Bahrain, Yemen, Saudi Arabia, and elsewhere in the region, 
recognizing that regional counterweights, like Egypt, Saudi 
Arabia, the United Arab Emirates, and the rest of the Gulf 
Cooperation Council can reinforce us if they understand our 
policy.
    In Afghanistan, we need to consider if we're asking for the 
same outcome there as we saw last summer in Iraq, should we 
pull out all our troops on the administration's proposed 
timeline. Echoing the same military advice given on this same 
issue about Iraq when we pulled the troops out, the gains 
achieved at great cost against our enemy in Afghanistan are 
reversible. We should recognize that we may not want this 
fight, but the barbarity of an enemy that kills women and 
children and has refused to break with al-Qaeda needs to be 
fought.
    More broadly, Is the U.S. military being developed to fight 
across the spectrum of combat? Knowing that enemies always will 
move against our perceived weakness, our forces must be capable 
of missions from nuclear deterrence to counterinsurgency and 
everything in between, now including the pervasive cyber 
domain. While surprise is always a factor, this committee can 
ensure that we have the fewest big regrets when the next 
surprise occurs. While we don't want or need a military that is 
at the same time dominant and irrelevant, you must sort this 
out and deny funding for bases or capabilities no longer 
needed.
    The nuclear stockpile must be tended to, and fundamental 
questions must be asked and answered. We must clearly establish 
the role of our nuclear weapons. Do they serve solely to deter 
nuclear war? If so, we should say so. And the resulting clarity 
will help to determine the number we need.
    I think, too, you should ask, Is it time to reduce the 
Triad to a Diad, removing the land-based missiles? This would 
also reduce the false-alarm danger.
    Could we reenergize the arms-control effort by only 
counting warheads, vice launchers? Was the Russian test 
violating the INF Treaty simply a blunder on their part, or a 
change in policy? And what is our appropriate response?
    The reduced size of our military drives the need to ask 
different questions. Our military is uniquely capable and the 
envy of the world, but are we resourcing it to ensure we have 
the highest-quality troops, the best equipment, and the 
toughest training?
    With a smaller military comes the need for troops kept at 
the top of their game. When we next put them in harm's way, it 
must be the enemy's longest day and worst day. Tiered readiness 
with a smaller force must be closely scrutinized to ensure we 
aren't merely hollowing out the military.
    While sequestration is the nearest threat to this national 
treasure that is the U.S. military, sustaining it as the 
world's best when it's smaller will need your critical 
oversight.
    Are the Navy and our expeditionary forces receiving the 
support they need in a world where America's naval role is more 
pronounced because we have fewer forces posted overseas? With 
the cutbacks to the Army and Air Force and fewer forces around 
the world, military aspects of our strategy will inevitably 
become more naval in character. This will provide the decision 
time for political leaders considering employment of additional 
forms of military power. Your resourcing of our naval and 
expeditionary forces will need to take this development into 
account.
    Today, I question if our shipbuilding budget is sufficient, 
especially in light of the situation in the South China Sea. 
While our efforts in the Pacific to keep positive relations 
with China are well and good, these efforts must be paralleled 
by a policy to build the counterbalance if China continues to 
expand its bullying role in the South China Sea and elsewhere. 
That counterbalance must deny China veto power over 
territorial, security, and economic conditions in the Pacific, 
building support for our diplomatic efforts to maintain 
stability and economic prosperity so critical to our economy.
    In light of the worldwide challenges to the international 
order, we are, nonetheless, shrinking our military. We have to 
then ask, Are we adjusting our strategy and taking into account 
a reduced role for that shrunken military? Strategy connects 
ends, ways, and means. With less military available, we must 
reduce our appetite for using it. Prioritization is needed if 
we are to remain capable of the most critical mission for which 
we have a military, to fight on short notice and defend the 
country.
    We have to ask, Does our strategy and associated military 
planning, as Senator Reed pointed out, take into account our 
Nation's increased need for allies? The need for stronger 
alliances comes more sharply into focus as we shrink the 
military. No nation can on its own do all that is necessary for 
its own security. Further, history reminds us that countries 
with allies generally defeat those without allies. As Churchill 
intimated, however, the only thing harder than fighting with 
allies is fighting without them. This committee should track 
closely an increased military capability to work with allies, 
the NATO Alliance being foremost, but not our only focus.
    In reference to NATO, and in light of the Russian 
violations of international borders, we must ask if the NATO 
Alliance efforts have adjusted to the unfortunate and dangerous 
mode the Russian leadership has slipped into.
    With regard to tightening the bond between our smaller 
military and those other militaries we may need at our side in 
future fights, the convoluted foreign military sales system 
needs your challenge. Hopefully, it can be put in order before 
we drive more potential partners to equip themselves with 
foreign equipment, a move that makes it harder to achieve 
needed interoperability with our allies and undercuts America's 
industrial base. Currently, the system fails to reach its 
potential.
    As we attempt to restore stability to the state system and 
international order, a critical question will be, Is America 
good for its word? When we make clear a position or give our 
word about something, our friends, and even our enemies, must 
recognize that we are good for it. Otherwise, dangerous 
miscalculations can occur.
    When the decision is made to employ our forces in combat by 
the Commander in Chief, the committee should still ask, Is the 
military being employed with the proper authority? For example, 
are the political objectives clearly defined and achievable? 
Murky or quixotic political end states condemn us to entering 
wars we don't know how to end. Notifying the enemy in advance 
of our withdrawal dates or reassuring the enemy that we will 
not use certain capabilities, like our ground forces, should be 
avoided. Such announcements do not take the place of mature, 
well-defined end states, nor do they contribute to ending wars 
as rapidly as possible on favorable terms.
    You should ask, Is the theater of war, itself, sufficient 
for effective prosecution? We have witnessed safe havens 
prolonging war. If the defined theater is insufficient, the 
plan itself needs to be challenged.
    Ask, Is the authority for detaining prisoners of war 
appropriate for the enemy and type war we are fighting? We have 
observed the perplexing lack of detainee policy that has 
resulted in the return of released prisoners to the 
battlefield. We should not engage in another fight without 
resolving this issue up front, treating hostile forces, in 
fact, as hostile.
    We have to also ask, Are America's diplomatic, economic, 
and other assets aligned for the war aims? We have experienced 
the military, alone, trying to achieve tasks outside its 
expertise. When we take the serious decision to fight, we must 
bring to bear all our Nation's resources. And you should 
question how the diplomatic and development efforts will be 
employed to build momentum for victory. And our Nation's 
strategy demands that comprehensive approach.
    Finally, the culture of our military and its rules are 
designed to bring about battlefield success in the most 
atavistic environment on Earth. No matter how laudable, in 
terms of our progressive country's instincts, this committee 
needs to consider carefully any proposed changes to military 
rules, traditions, and standards that bring noncombat emphasis 
to combat units. There is a great difference between military 
service in dangerous circumstances and serving in a combat unit 
whose role is to search out, close with, and kill the enemy at 
close quarters. This committee has a responsibility for 
imposing reason over impulse when proposed changes could reduce 
the combat capability of our forces at the point of contact 
with the enemy.
    Ultimately, we need the foresight of this committee, acting 
in its sentinel and oversight role, to draw us out of our 
reactive stance that we've fallen into and chart a strategic 
way ahead. Our national security strategy needs your bipartisan 
direction. In some cases, you may need to change our processes 
for developing integrated national strategy, because mixing 
capable people with their good ideas and bad processes results 
in the bad processes defeating good people's ideas 9 times out 
of 10. This is an urgent matter, because, in an interconnected 
age, when opportunistic adversaries can work in tandem to 
destroy stability and prosperity, our country needs to regain 
its strategic footing. We need to bring the clarity to our 
efforts before we lose the confidence of the American people 
and the support of potential allies. This committee, I believe, 
can play in a central strategic role in this regard.
    Thank you, Madam.
    [The prepared statement of General Mattis follows:]
             Prepared Statement by General James N. Mattis
    Chairman McCain, Ranking Member Reed, distinguished Senators of 
this committee, thank you for the opportunity to testify. I request 
that my statement be accepted for the record.
    During my active duty years I testified many times before this 
committee and gained the highest regard for the manner in which you 
carried out your role. I also recall with gratitude your support for 
our armed forces through good times and bad and I'm honored to return 
here today.
    I commend the committee for holding these hearings. As former 
Secretary of State George Shultz has commented, the world is awash in 
change. The international order, so painstakingly put together by the 
greatest generation coming home from mankind's bloodiest conflict, is 
under increasing stress. It was created with elements we take for 
granted: the United Nations, NATO, the Marshall Plan, Bretton Woods and 
more. The constructed order reflected the wisdom of those who 
recognized no nation lived as an island and we needed new ways to deal 
with challenges that for better or worse impacted all nations. Like it 
or not, today we are part of this larger world and must carry out our 
part. We cannot wait for problems to arrive here or it will be too 
late; rather we must remain strongly engaged in this complex world.
    The international order built on the state system is not self-
sustaining. It demands tending by an America that leads wisely, 
standing unapologetically for the freedoms each of us in this room have 
enjoyed. The hearing today addresses the need for America to adapt to 
changing circumstances, to come out now from its reactive crouch and to 
take a firm strategic stance in defense of our values. While we 
recognize that we owe future generations the same freedoms we enjoy, 
the challenge lies in how to carry out our responsibility. For certain 
we have lived too long now in a strategy-free mode.
    To do so America needs a refreshed national strategy. The Congress 
can play a key role in crafting a coherent strategy with bi-partisan 
support. Doing so requires us to look beyond events currently consuming 
the executive branch. There is an urgent need to stop reacting to each 
immediate vexing issue in isolation. Such response often creates 
unanticipated second order effects and more problems for us. The Senate 
Armed Services Committee is uniquely placed in our system of government 
to guide, oversee and ensure that we act strategically and morally, 
using America's ability to inspire as well as its ability to intimidate 
to ensure freedom for future generations. I suggest that the best way 
to cut to the essence of these issues and to help you in crafting 
America's response to a rapidly changing security environment is to ask 
the right questions. If I were in your shoes these are some that I 
would ask:
    What are the key threats to our vital interests?
    -  The intelligence community should delineate and provide an 
initial prioritization of those threats for your consideration. By 
rigorously defining the problems we face you will enable a more 
intelligent and focused use of the resources allocated for national 
defense.
    Is our intelligence community fit for its expanding purpose?
    -  Today we have less of a military shock absorber to take surprise 
in stride, and fewer forward-deployed military forces overseas to act 
as sentinels. Accordingly we need more early warning. Working with the 
intell committee you should question if we are adequately funding the 
intell agencies to reduce the chance of our defenses being caught flat-
footed. We know that the ``foreseeable future'' is not foreseeable; 
your review must incorporate unpredictability, recognizing risk while 
avoiding gambling with our nation's security.
    Incorporating the broadest issues in your assessments, you should 
consider what we must do if the national debt is assessed to be the 
biggest national security threat we face?
    -  As President Eisenhower noted, the foundation of military 
strength is our economic strength. In a few short years paying interest 
on our debt will be a bigger bill than what we pay for defense. Much of 
that interest money is destined to leave America for overseas. If we 
refuse to reduce our debt/pay down our deficit, what is the impact on 
national security for future generations who will inherit this 
irresponsible debt and the taxes to service it? No nation in history 
has maintained its military power if it failed to keep its fiscal house 
in order.
    How do you urgently halt the damage caused by sequestration?
    -  No foe in the field can wreck such havoc on our security that 
mindless sequestration is achieving. Congress passed it because it was 
viewed as so injurious that it would force wise choices. It has failed 
and today we use arithmetic vice sound thinking to run our government, 
despite emerging enemy threats. This committee must lead the effort to 
repeal the sequestration that is costing military readiness and long 
term capability while sapping troop morale. Without predictability in 
budget matters no strategy can be implemented by your military leaders. 
Your immediate leadership is needed to avert further damage.
    In our approach to the world we must be willing to ask strategic 
questions. In the Middle East where our influence is at its lowest 
point in four decades we see a region erupting in crises. We need a new 
security architecture for the Mid-East built on sound policy, one that 
permits us to take our own side in this fight. Crafting such a policy 
starts with asking a fundamental question and then others:
    Is political Islam in our best interest? If not what is our policy 
to support the countervailing forces?
    -  Violent terrorists cannot be permitted to take refuge behind 
false religious garb and leave us unwilling to define this threat with 
the clarity it deserves.
    -  We have potential allies around the world and in the Middle East 
who will rally to us but we have not been clear about where we stand in 
defining or dealing with the growing violent jihadist terrorist threat.
    Iran is a special case that must be dealt with as a threat to 
regional stability, nuclear and otherwise. I believe that you should 
question the value of Congress adding new sanctions while international 
negotiations are ongoing, vice having them ready should the 
negotiations for preventing their nuclear weapons capability and 
stringent monitoring break down. Further question now if we have the 
right policies in place when Iran creates more mischief in Lebanon, 
Iraq, Bahrain, Yemen, Saudi Arabia and elsewhere in the region, 
recognizing that regional counterweights like Egypt, Saudi Arabia, the 
United Arab Emirates and the rest of the Gulf Cooperation Council can 
reinforce us if they understand our policies, clarify our foreign 
policy goals beyond Iran's nuclear weapons program.
    In Afghanistan we need to consider if we're asking for the same 
outcome there as we saw last summer in Iraq if we pull out all our 
troops on the Administration's proposed timeline. Echoing the military 
advice given on the same issue in Iraq, gains achieved at great cost 
against our enemy in Afghanistan are reversible. We should recognize 
that we may not want this fight but the barbarity of an enemy that 
kills women and children and has refused to break with al-Qaeda needs 
to be fought.
    More broadly, is the U.S. military being developed to fight across 
the spectrum of combat?
    -  Knowing that enemies always move against perceived weakness, our 
forces must be capable of missions from nuclear deterrence to counter-
insurgency and everything in between, now including the pervasive cyber 
domain. While surprise is always a factor, this committee can ensure 
that we have the fewest big regrets when the next surprise occurs. We 
don't want or need a military that is at the same time dominant and 
irrelevant, so you must sort this out and deny funding for bases or 
capabilities no longer needed.
    The nuclear stockpile must be tended to and fundamental questions 
must be asked and answered:
    -  We must clearly establish the role of our nuclear weapons: do 
they serve solely to deter nuclear war? If so we should say so, and the 
resulting clarity will help to determine the number we need.
    -  Is it time to reduce the Triad to a Diad, removing the land-
based missiles? This would reduce the false alarm danger.
    -  Could we re-energize the arms control effort by only counting 
warheads vice launchers?
    -  Was the Russian test violating the INF treaty simply a blunder 
or a change in policy, and what is our appropriate response?
    The reduced size of our military drives the need to ask other 
questions:
    Our military is uniquely capable and the envy of the world, but are 
we resourcing it to ensure we have the highest quality troops, the best 
equipment and the toughest training?
    -  With a smaller military comes the need for troops kept at the 
top of their game. When we next put them in harm's way it must be the 
enemy's longest day and worst day. Tiered readiness with a smaller 
force must be closely scrutinized to ensure we aren't merely hollowing 
out the force. While sequestration is the nearest threat to this 
national treasure that is the U.S. military, sustaining it as the 
world's best when smaller will need your critical oversight.
    Are the Navy and our expeditionary forces receiving the support 
they need in a world where America's naval role is more pronounced 
because we have fewer forces posted overseas?
    -  With the cutbacks to the Army and Air Force and fewer forces 
around the world, military aspects of our strategy will inevitably 
become more naval in character. This will provide decision time for 
political leaders considering employment of additional forms of 
military power. Your resourcing of our naval and expeditionary forces 
will need to take this development into account. Because we will need 
to swiftly move ready forces to act against nascent threats, nipping 
them in the bud, the agility to reassure friends and temper adversary 
activities will be critical to America's effectiveness for keeping a 
stable and prosperous world. Today I question if our shipbuilding 
budget is sufficient, especially in light of the situation in the South 
China Sea.
    -  While our efforts in the Pacific to keep positive relations with 
China are well and good, these efforts must be paralleled by a policy 
to build the counterbalance if China continues to expand its bullying 
role in the South China Sea and elsewhere. That counterbalance must 
deny China veto power over territorial, security and economic 
conditions in the Pacific, building support for our diplomatic efforts 
to maintain stability and economic prosperity so critical to our 
economy.
    In light of worldwide challenges to the international order we are 
nonetheless shrinking our military. Are we adjusting our strategy and 
taking into account a reduced role for that shrunken military?
    -  Strategy connects ends, ways and means. With less military 
available, we must reduce our appetite for using it. Connecting the 
dots is appropriate for this committee. Absent growing our military, 
there must come a time when moral outrage, serious humanitarian plight, 
or lesser threats cannot be militarily addressed. Prioritization is 
needed if we are to remain capable of the most critical mission for 
which we have a military: to fight on short notice and defend the 
country. In this regard we must recognize we should not and need not 
carry this military burden solely on our own:
    Does our strategy and associated military planning take into 
account our nation's increased need for allies?
    -  The need for stronger alliances comes more sharply into focus as 
we shrink the military. No nation can do on its own all that is 
necessary for its security. Further, history reminds us that countries 
with allies generally defeat those without. A capable U.S. military, 
reinforcing our political will to lead from the front, is the bedrock 
on which we draw together those nations that stand with us against 
threats to the international order. Our strategy must adapt to and 
accommodate this reality. As Churchill intimated, the only thing harder 
than fighting with allies is fighting without them. This committee 
should track closely an increased military capability to work with 
allies, the NATO alliance being foremost but not our sole focus. We 
must also enlist non-traditional partners where we have common foes or 
common interests.
    -  In reference to NATO and in light of the Russian violations of 
international borders, we must ask if the Alliance's efforts have 
adjusted to the unfortunate and dangerous mode the Russian leadership 
has slipped into?
    -  With regard to tightening the bond between our smaller military 
and those we may need at our side in future fights, the convoluted 
foreign military sales system needs your challenge. Hopefully it can be 
put in order before we drive more potential partners to equip 
themselves with foreign equipment, a move that makes it harder to 
achieve needed interoperability with our allies and undercuts America's 
industrial base. Currently the system fails to reach its potential to 
support our foreign policy.
    As we attempt to restore stability to the state system and 
international order, a critical question will be, Is America good for 
its word?
    -  When we make clear our position or give our word about 
something, our friends (and even our foes) must recognize that we are 
good for it. Otherwise dangerous miscalculations can occur. This means 
that the military instrument must be fit for purpose and that once a 
political position is taken, our position is backed up by a capable 
military making clear that we will stand on our word.
    When the decision is made to employ our forces in combat, the 
committee should ask if the military is being employed with the proper 
authority. I believe you should examine answers to fundamental 
questions like the following:
    -  Are the political objectives clearly defined and achievable? 
Murky or quixotic political end states can condemn us to entering wars 
we don't know how to end. Notifying the enemy in advance of our 
withdrawal dates or reassuring the enemy that we will not use certain 
capabilities like our ground forces should be avoided. Such 
announcements do not take the place of mature, well-defined end-states, 
nor do they contribute to ending wars as rapidly as possible on 
favorable terms.
    -  Is the theater of war itself sufficient for effective 
prosecution? We have witnessed safe havens prolonging war. If the 
defined theater of war is insufficient, the plan itself needs to be 
challenged to determine feasibility of its success or the need for its 
modification.
    -  Is the authority for detaining prisoners of war (POs) 
appropriate for the enemy and type war that we are fighting? We have 
observed the perplexing lack of detainee policy that has resulted in 
the return of released prisoners to the battlefield. We should not 
engage in another fight without resolving this issue up front, treating 
hostile forces, in fact, as hostile.
    -  Are America's diplomatic, economic and other assets aligned to 
the war aims, with the intent of ending the conflict as rapidly as 
possible? We have experienced the military alone trying achieve tasks 
outside its expertise. When we take the serious decision to fight, we 
must bring to bear all our nation's resources. You should question how 
the diplomatic and development efforts will be employed to build 
momentum for victory and our nation's strategy needs that integration.
    Finally the culture of our military and its rules are designed to 
bring about battlefield success in the most atavistic environment on 
earth. No matter how laudable in terms of a progressive country's 
instincts, this committee needs to consider carefully any proposed 
changes to military rules, traditions and standards that bring non-
combat emphasis to combat units. There is a great difference between 
military service in dangerous circumstances and serving in a combat 
unit whose role is to search out and kill the enemy at close quarters. 
This committee has a responsibility for imposing reason over impulse 
when proposed changes could reduce the combat capability of our forces 
at the point of contact with the enemy.
                               __________
    Ultimately we need the foresight of this committee, acting in its 
sentinel and oversight role, to draw us out of the reactive stance 
we've fallen into and chart a strategic way ahead. Our national 
security strategy needs your bi-partisan direction. In some cases you 
may need to change our processes for developing an integrated national 
strategy, because mixing capable people and their good ideas with bad 
processes results in the bad processes defeating good peoples' ideas 
nine times out of ten. This is an urgent matter, because in an 
interconnected age when opportunistic adversaries can work in tandem to 
destroy stability and prosperity, our country needs to regain its 
strategic footing. We need to bring clarity to our efforts before we 
lose the confidence of the American people and the support of our 
potential allies. This committee can play an essential strategic role 
in this regard.

    Senator Ayotte. Thank you, General Mattis.
    Next, I would like to introduce General Keane. General 
Keane is a Vietnam combat veteran, the former Vice Chief of 
Staff of the Army, one of the architects of the successful 
surge in Iraq, and the current chairman of the Institute for 
the Study of War.
    General Keane?

  STATEMENT OF GENERAL JOHN M. KEANE, USA (RET.), FORMER VICE 
                   CHIEF OF STAFF OF THE ARMY

    General Keane. Madam Chairman, Senator Ayotte, and Ranking 
Minority, Senator Reed, members of this distinguished 
committee, thank you for inviting me to testify on such a 
critical issue as America's global security challenges.
    It's always a privilege to be with this committee--been 15-
plus-years in association for me--and whose reputation for 
tackling tough issues has always been appreciated. I'm honored 
to be here with General Jim Mattis and Admiral ``Fox'' Fallon, 
both highly respected military leaders who I have known for 
years.
    Listen, I don't know what the criteria for panel selection 
was, but obviously we have something in common: we're all 
getting older and we're four-stars, retired. But, the thing 
that we also have in common, we are very direct, we are very 
straightforward, and we sure as hell are opinionated. So, I'm 
usually sitting next to somebody's who's nuanced, circumspect, 
et cetera. You're not going to get that from the three of us 
today. We don't always agree, but you're going to know what 
we're thinking.
    Please accept my written testimony for the record, and I 
will briefly outline those remarks. I put some extra in there, 
because--congratulation to the new members who have joined this 
committee. There's some background information in there that 
you may feel helpful to you.
    And I appreciate Senator McCain giving us a little extra 
time this morning on such a complex subject.
    You know, the United States is confronting emerging 
security challenges on a scale not seen since the rise of the 
Soviet Union to superpower status following World War II, with 
radical Islam morphing into a global jihad, Iran seeking 
regional hegemony and revisionist powers, Russia and China 
capable of employing varying degrees of sophistication, 
disruptive methods of war that will severely test the United 
States military's traditional methods of projecting and 
sustaining power abroad. Given U.S. defense budget projections, 
the United States will have to confront these challenges 
without its longstanding decided advantage in the scale of 
resources it is able to devote to the competition. Indeed, the 
Budget Control Act, or sequestration, is not only irresponsible 
in the face of these emerging challenges, it is downright 
reckless.
    Let me briefly outline the major security challenges and 
what we can do about them:
    Radical Islam. As much as Naziism and Communism--both 
geopolitical movements, ideologically driven--were the major 
security challenges of the 20th century, radical Islam is the 
major security challenge of our generation. Radical Islam, as 
I'm defining it for today's discussion, consists of three 
distinct movements who share a radical fundamentalist ideology, 
use jihad or terror to achieve objectives, yet compete with 
each other for influence and power. I've provided some maps 
at--behind my testimony, that you can use, and there's also 
the--some display maps, here in the committee room, which you 
may be challenged to be able to see.
    First, the Shi'a-based Iranian-sponsored radical Islamic 
movement that began in 1979 with the formation of the Islamic 
of Iran. In 1980, Iran declared the United States as a 
strategic enemy, and its goal is to drive the United States out 
of the region, achieve regional hegemony and destroy the state 
of Israel. It uses proxies primarily as the world's number-one 
state sponsoring terrorism. Thirty-plus years, Iran has used 
these proxies to attack the United States. To date, the result 
is, United States troops left Lebanon, Saudi Arabia, and Iraq, 
while Iran has direct influence and some control over Beirut, 
Lebanon, Gaza, Damascus, Syria, Baghdad, Iraq, and now Sana'a, 
Yemen, as you can see on the map. Is there any doubt that Iran 
is on the march and is systematically moving toward their 
regional hegemonic objective? Iran has been a--Iran has been on 
a 20-year journey to acquire nuclear weapons, simply because 
they know it guarantees preservation of the regime and makes 
them, along with their partners, the dominant power in the 
region, thereby capable of expanding their control and 
influence. Add to this their ballistic missile delivery system 
and Iran is not only a threat to the region, but to Europe, as 
well, and, as they increase missile range, eventually a threat 
to the United States. And as we know, a nuclear arms race, 
because of their nuclear ambition, is on the horizon for the 
Middle East.
    Second, the al-Qaeda Sunni-based movement declared war on 
the United States in the early '90s, desires to drive the 
United States out of the region, dominate all Muslim lands and, 
as the most ambitious radical Islamic movement, eventually 
achieve world domination. As you can see on the map, al-Qaeda 
and its affiliates exceeds Iran in beginning to dominate 
multiple country. In fact, al-Qaeda has grown fourfold in the 
last 5 years.
    Third, the Islamic state of Iraq and al-Sham, ISIS, is an 
outgrowth from al-Qaeda in Iraq, which was defeated in Iraq by 
2009. After United States troops pulled out of Iraq in 2011, 
ISIS reemerged as a terrorist organization in Iraq, moved into 
Syria in 2012, and began seizing towns and villages from the 
Syria-Iraq border all the way to the western Syria, from Aleppa 
to Damascus. After many terrorist attacks and assassinations in 
Mosul and Anbar Province in 2013, to set the conditions for 
follow-on operations, ISIS launched a conventional attack back 
into Iraq, beginning in 2014, with the seizure of Fallujah and 
culminating in the seizure of Mosul and many other towns and 
villages.
    Is it possible to look at that map in front of you and 
claim that the United States policy and strategy is working or 
that al-Qaeda is on the run? It is unmistakable that our 
policies have failed. And the unequivocal explanation is, 
United States policy has focused on disengaging from the Middle 
East, while our stated policy is pivoting to the East.
    United States policymakers choose to ignore the very harsh 
realities of the rise of radical Islam. In my view, we became 
paralyzed by the fear of adverse consequences in the Middle 
East after fighting two wars. Moreover, as we sit here this 
morning in the face of radical Islam, United States 
policymakers refuse to accurately name the movement as radical 
Islam. We further choose not to define it, nor explain its 
ideology. And, most critical, we have no comprehensive strategy 
to stop it or defeat it. We are reduced to a very piecemeal 
effort, using drones in Yemen and Pakistan--a vital tactic, but 
not a strategy--and air power in Iraq and Syria, while 
insisting an unproven indigenous ground force. Our partnering 
program with other nations is fragmented, with no overall 
strategy. This approach almost certainly guarantees we will be 
incrementally engaged against one radical group after another, 
with no end in sight. What can we do?
    To stop and defeat a global radical Islamic movement and 
Iranian regional hegemony requires a broad, long-term, 
comprehensive strategic approach with the strategic objectives, 
both near and long term, supporting that strategy. World 
leaders understood how formidable the--how formidable Communist 
ideology and the Soviet threat was to the world order, and 
formed political and military alliances. Forming similar 
alliances today offers the opportunity by member nations to 
develop a comprehensive strategy to discuss and set goals for 
necessary political and social reforms, and to share 
intelligence, technology, equipment, and training. The alliance 
is mostly about supporting countries in the region, to make 
internal changes, and to assist comprehensively encountering 
radical Islam.
    We should rely on some of the thoughtful leaders in and 
outside the region to assist in forming this alliance. This is 
not about major military intervention by the United States. It 
is about assisting alliance members with training their 
counterterrorism force and their conventional military and 
counterinsurgency, and, yes, conducting counterterrorism 
operations, as required. While killing and capturing terrorists 
is key, so is the strategy to organize an alliance-wide effort 
to undermine the radical Islamist ideology, to counter its 
narrative, to counter recruiting, and to target outside 
financing.
    On Iran--excuse me--on Iraq and Syria, the ISIS advance is 
stalled in Iraq, due to effective air power, with modest gains 
in retaking lost territory. However, a successful 
counteroffensive to retake Mosul and Anbar Province is a very 
real challenge. No one knows for certain how the indigenous 
force, consisting of the Iraqi Army, Peshmerga, Sunni tribes, 
and Shi'a militia, will perform. The United States should plan 
now to have U.S./coalition advisors accompany front-line troops 
with the added capability to call in airstrikes. Direct-action 
special-operation forces, both ground and air, should assist by 
targeting ISIS leaders. United States and coalition combat 
brigades should be designated for deployment and moved to 
Kuwait to be ready for employment if the counteroffensive 
stalls or is defeated. The alternative? We wait another couple 
of years and try again.
    The Syria policy is a failure. ISIS is continued to advance 
throughout Syria and is gaining ground, taking new territory. 
You can see that on the other map. And even approaching 
Damascus in attacking south of Damascus. The plans for training 
and assisting the Free Syrian Army is not robust enough--5,000 
in one year--I know you received a classified briefing on it, 
so you know more about it than I--and permitting Assad to bomb 
the FSA faster than new members are trained makes no sense. The 
United States should heed the advice of Saudi Arabia, UAE, 
Jordan, and Turkey to establish a no-fly zone and to shut down 
Assad's air power, and a buffer zone to protect refugees.
    On Iran, the long-term goal for any alliance that is formed 
should be Iran's regime change or at least a collapse of the 
existing government framework, similar to the collapse of the 
Soviet Union. And the reason is clear. Iran's stated regional 
hegemonic objectives are incongruous with the peace, 
prosperity, and stability of the Middle East. Iran cannot be 
permitted to acquire a nuclear weapon or threshold capability 
allowing rapid nuclear development. Sadly, we are already about 
there.
    Congress should do two things now in reference to Iran: 
one, authorize increased sanctions now, with automatic 
implementation if talks are extended or fail; and, two, 
legislate ratification of any deal by the Senate.
    On Afghanistan, the political situation in Afghanistan has 
improved considerably with the reform leadership of Ashraf 
Ghani, but the security situation remains at risk. While the 
security situation in the south is relatively stable, the 
situation in the east is not. The problem is, the area 
generally from Kabul to the Pakistani border is a domain of the 
Haqqani Network. Haqqani Network has not been rooted out of 
their support zones and safe areas in Afghanistan. This is a 
serious problem for the ANSF. It follows that the ANSF needs 
the funding support to support as current troop levels of 
352,000 and much needed U.S. and coalition troops to conduct 
counterterrorism and to advise, train, and assist the ANSF 
beyond 2016. We also need to target the Haqqani Network in its 
sanctuary in Pakistan, in the vicinity of Miramshah and the 
FATA.
    All we accomplished in Afghanistan will be at risk, as it 
was in Iraq, if the troops are pulled out not based on the 
conditions on the ground. How can we not learn the obvious and 
painful lesson from Iraq?
    The security challenges posed by revisionist Eurasian 
nations, Russia and China. In Europe, Russia's recent behavior, 
I think, suggests that its 2008 military campaign against 
Georgia was not an aberration, but, rather, an initial effort 
to overturn the prevailing regional order. By seizing the 
Crimea, supporting trumped-up rebel forces in eastern Ukraine, 
and engaging in military deployments that directly threaten its 
Baltic neighbors, Moscow has made it clear that it does not 
accept the political map of post-cold-war Europe. I believe we 
need to realistically conclude that Moscow is also willing to 
challenge the very existence of NATO.
    What can be done? Given the dramatic drop in oil prices, 
Russia is beginning to suffer, economically, and is likely 
headed toward a recession, if not already there. Additional 
tough sanctions should be back on the table to coerce Russia to 
stop the Ukraine aggression. It is a disgrace that, once again, 
we have refused to assist the people being oppressed, when all 
they ask for is the weapons to fight. We should robustly arm 
and assist Ukraine.
    Additionally, NATO military presence in Central Europe--
excuse me--NATO military presence from Central Europe should be 
significantly shifted to the Baltics and Eastern Europe, with 
plans for permanent bases. A clear signal of Article 5 intent 
must be sent to Moscow. These action--will strengthen our 
diplomatic efforts, which, to date, have failed.
    China's continuing economic growth has fueled a major 
conventional buildup that is beginning to shift the local 
balance of power in its favor. As a result, Beijing has been 
emboldened to act more assertively toward its neighbors, 
especially in expanding its territorial claims, which include 
not only Taiwan, but also most of the South China Sea islands 
and Japan's Senkaku islands. China has embarked on a strategy 
of regional domination at the expense of United States 
interests as a Pacific nation and decades of partnership with 
allied countries in the region.
    What can be done? Develop a regional strategy with our 
allies to counter China's desire for dominant control and 
influence. Recognize that China's military strategy to defeat 
United States reliance on military information networks, which 
they believe, alone, may defeat the United States, militarily, 
which is quite interesting, and their exploding precision-
strike capability threatens ground and naval forces, forward 
staging bases, and air and seaports of debarkation. The United 
States no longer enjoys the commanding position in the 
precision-strike regime that it occupied in the two decades 
following the cold war. We should stress-test United States 
regional military defense to counter China's threat and 
recognize that a change in regional defense strategy and 
capabilities is likely.
    Lastly, sequestration. It must be repealed and reasonable 
resources restored to meet the emerging security challenges. 
All the services have a need to capitalize their investment 
accounts and to maintain readiness, which is rapidly eroding.
    In conclusion, given the emerging security challenges and 
limited resources, the need for well-crafted regional defense 
strategy in an overall integrated national security and defense 
strategy posture is clear, more so now than anytime, I believe, 
since World War II. Yet, this is not what we do. What we do is 
the QDR, every 4 years, which is largely driven by process and 
far too focused on the budget.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane follows:]
              Prepared Statement by General John M. Keane
    Mr. Chairman, ranking minority and members of this distinguished 
committee, thank you for inviting me to testify on such a critical 
issue as America's global security challenges. Am honored to be here 
today with General Jim Mattis and Admiral Fox Fallon, both highly 
respected military leaders who I have known for years.
    The United States is confronting emerging security challenges on a 
scale it has not seen since the rise of the Soviet Union to superpower 
status following WWII, with radical Islam morphing into a global jihad, 
Iran seeking regional hegemony and revisionist powers capable of 
employing, in varying degrees of sophistication, disruptive methods of 
war that will severely test the United States military's traditional 
methods of projecting and sustaining power abroad. Given U.S. defense 
budget projections, the U.S. will have to confront these challenges 
without its long standing decided advantage in the scale of resources 
it is able to devote to the competition. Indeed the Budget Control Act 
(BCA), or sequestration, is not only irresponsible, in the face of 
emerging challenges, it is downright reckless.
    Let me briefly outline the major security challenges and what can 
be done about them.
                            1. radical islam
    As much as nazism and communism both geopolitical movements, 
ideologically driven, were the major security challenges of the 20th 
century, radical Islam is the major security challenge of our 
generation. Nazism was defeated by overwhelming brute force and 
communism was defeated by better ideas. Radical Islam will take a 
combination of force and better ideas to ultimately add it to the trash 
heap of unrealized and unfulfilled ideological movements.
    Radical Islam as I am defining it for today's discussion consists 
of 3 distinct movements, who share a radical fundamentalist ideology, 
use jihad or terror to achieve objectives yet compete with each other 
for influence and power.
-  First, the Shia based, Iranian sponsored radical Islamist movement 
that began in 1979 with the formation of the Islamic State of Iran. In 
1980 Iran declared the United States as a strategic enemy and its goal 
is to drive the United States out of the region, achieve regional 
hegemony and destroy the state of Israel. It uses proxies, primarily, 
as the world's number one state sponsoring terrorism. Beginning in the 
early 1980's it began jihad against the United States by bombing the 
Marine barracks, the United States Embassy and the United States 
Embassy Annex in Lebanon, the United States Embassy in Kuwait, the AF 
barracks , Khobar Towers in Saudi Arabia and attacking the United 
States military in Iraq using Shia militias trained in Iran with 
advanced IEDs developed by Iranian engineers. To date, the result is, 
United States troops left Lebanon, Saudi Arabia and Iraq while Iran has 
direct influence and some control over Beirut, Lebanon, Gaza, Damascus, 
Syria, Baghdad, Iraq and now Sana'a, Yemen (as you can see on the map.)
    Is there any doubt that Iran, is on the march and is systematically 
moving toward their regional hegemonic objectives. Iran has armed 
Hezbollah and Hamas with thousands of rockets and missiles in order to 
attack Israel, has propped up the Assad regime with Quds force advisors 
and fighters plus tons of military supplies, was the first to come to 
the assistance of the beleaguered Iraq government after the ISIS 
invasion and today has hundreds of Quds force advisors on the ground in 
Iraq, backing Iranian trained Shia militias, with Qasem Soleimani, the 
head of the Quds force, a frequent visitor and now using the Houthis, 
has managed to topple the Yemen government, an ally in the fight 
against al-Qaeda.
    The Iranian strategy of using proxies to conduct jihad and to 
launch conventional military attacks while propping up countries it 
desires to influence is a winning strategy. Despite 30 years of proxy 
attacks against American interests in the region and an almost 10 year 
kidnapping campaign in the 80's resulting in the death of CIA station 
chief Buckley not a single American president, republican or democrat 
has ever countered.
    Iran also has been on a 20 year journey to acquire nuclear weapons, 
simply because they know it guarantees preservation of the regime and 
makes them along with their partners the dominant power in the region 
thereby capable of expanding their control and influence. Add to this 
their ballistic missile delivery system and Iran is not only a threat 
to the region but to Europe as well, and as they increase missile 
range, eventually a threat to the United States
-  Second, the al-Qaeda (AQ), Sunni based movement, declared war on the 
U.S. in the early 90's, desires to drive the U.S. out of the region, 
dominate all Muslim lands, and as the most ambitious radical Islamist 
movement, eventually achieve world domination. The United States has a 
20 year history with AQ who began its jihad in the early 90's with the 
attack on the WTC, United States Embassies in Kenya and Tanzania, the 
USS Cole, the 9/11 attacks and a number of planned attacks since 9/11 
that were either thwarted or bungled. As you can see on the map, AQ and 
its affiliates, exceeds Iran in beginning to dominate multiple 
countries. AQ has grown fourfold in the last 5 years. Unable to project 
power out of the region due to US drone attacks, in
    Pakistan, AQ central franchised out to AQAP in Yemen, by providing 
some key leaders, the responsibility to conduct out of region attacks 
e.g. in the United States and Paris, France. No one is suggesting that 
the red on that map is under the direct control and influence of AQ 
central. They are not. But what binds them together is a shared and 
common ideology using jihad to accomplish their political objective, 
which is the overthrow of their host governments.
-  Third, the Islamic State of Iraq and al-Sham (ISIS) is an outgrowth 
from al-Qaeda in Iraq which was defeated in Iraq by 2009. Conducting 
assessment visits for GEN Petraeus many times in Iraq, on one occasion 
in late 2008 I was shown a number of AQ message intercepts where AQ 
admitted defeat and was advising AQ central not to send any more 
``brothers'' because it is ``over.'' In 2011 the U.S. unplugged its 
sophisticated intelligence capability, and pulled out the CT force 
whose main task was to hunt down AQ leaders. A week after the last 
troops left, General Caslen, then U.S. commander indicated, the first 
suicide bomb in over 6 months went off in Baghdad. And so it began the 
beginnings of ISIS as a terrorist organization in Iraq, moved into 
Syria in 2012, and began seizing towns and villages from the Syria/Iraq 
border all the way to western Syria from Aleppo to Damascus. We tracked 
this by day and by week at the Institute for the Study of War (ISW) 
providing briefings to CIA, DIA, CJCS, DOS, congressional intelligence 
committees and to members of this committee.
    After many terrorist attacks and assassinations in Mosul and Anbar 
province in 2013 to set the conditions for follow on operations, ISIS 
launched a conventional attack back into Iraq beginning in 2014 with 
the seizure of Falujah and culminating in the seizure of Mosul and many 
other towns and villages.
-  Why Are We Failing: Is it possible to look at the map and claim that 
U.S. policy and strategy is working or that ``AQ is on the run.'' It is 
unmistakable that our policies have failed and the unequivocal 
explanation is United States policy has focused on disengaging from the 
Middle East. The Arab Spring, a strategic surprise, began in 2010 in a 
region where democracy does not exist in the Arab world, as the people 
in the streets were seeking political reform, social justice and 
economic opportunity. No one was in the streets advocating radical 
Islam or jihad but the radical Islamists saw political upheaval as an 
opportunity to gain control and influence. Meanwhile the U.S. in terms 
of policy emphasis was conducting the so called ``pivot'' to the east. 
We failed to see the Arab Spring as a United States opportunity to 
influence political reform and social justice. The radicals filled that 
vacuum as the Arab Spring became an accelerant for them. As such ISIS 
reemerged in Iraq, then Syria, after United States troops pulled out, 
the White House announced a similar pullout of all troops in 
Afghanistan. In Libya, the moderate regime, friendly to the United 
States, that replaced Qaddafi requested assistance to form an effective 
security force to safeguard the government and protect the people from 
the armed militant groups. We refused and the radical Islamists (AAS) 
tried to kill the UK Ambassador, burned down the United States 
consulate and killed Ambassador Stephens, and, now, the country is 
being taken over by the radical Islamists, forcing the shutdown of the 
U.S. Embassy. In Syria, in 2010, moderate rebels (now, the FSA) had the 
initial momentum against the Assad regime, many believed the regime was 
about to fall. Then Iran, Hezbollah and the Russians assisted the Assad 
regime thereby forcing the FSA to request arms and training assistance. 
They never requested any U.S. ``boots on the ground'' or even, at the 
time, any use of air power. As late as the summer of 2012 Director 
Petraeus, Secretaries Clinton and Panetta and General Dempsey 
recommended we assist the FSA, who the CIA vetted. The President of the 
United States refused and ISIS and other radical groups to include AQ 
moved into Syria while the Assad regime was systematically killing 
200,000 Syrians and displacing more than 13 million from their homes, a 
human catastrophe by any definition. Even after the Assad regime used 
chemical weapons (CW) to kill Syrians by the thousands, thereby 
crossing the infamous United States ``red line,'' the U.S. failed to 
engage. Our allies in the region lost confidence in U.S. leadership and 
question, to this day, U.S. resolve. U.S. policy makers chose to ignore 
the very harsh realities of the rise of radical Islam. In my view, we 
became paralyzed by the fear of adverse consequences in the Middle East 
after fighting two wars. Moreover, as we sit here this morning in the 
face of radical Islam, US policy makers will not only accurately name 
the movement as radical Islam , we further choose not to define it, nor 
explain its ideology and most critical, we have no comprehensive 
strategy to stop it or defeat it. We are reduced to a very piecemeal 
effort using drones in Yemen and Pakistan, a vital tactic but not a 
strategy and air power in Iraq and Syria , while assisting an 
indigenous ground force. This approach almost certainly guarantees we 
will be incrementally engaged against one radical group after another, 
with no end in sight.
-  What Can Be Done: To stop and defeat a global radical Islamist 
movement and Iranian regional hegemony requires a broad, long term, 
comprehensive strategic approach with strategic objectives both near 
and long term supporting the strategy. We should be informed by the 
successful defeat and collapse of another ideology, communism. World 
leaders understood how formidable the communist, Soviet threat was to 
the world order and formed political and military alliances i.e., NATO 
and SEATO to counter it. The power and influence of countries working 
together against a common enemy is the preferred way to achieve a 
comprehensive and synergistic outcome. Forming political and military 
alliances or using a combination of existing alliances offers the 
opportunity by member nations to develop a comprehensive strategy to 
discuss and set goals for necessary political and social reforms, and 
to share intelligence, technology, equipment and training. The alliance 
is mostly about supporting countries in the region to make internal 
changes and to assist comprehensively in countering radical Islam. This 
is not about major military intervention by the U.S., it is about 
assisting alliance members with training their counter-terrorism force 
and their conventional military in counterinsurgency and yes conducting 
U.S. CT operations as required. While killing and capturing terrorists 
is key, so is the strategy to organize an alliance wide effort to 
undermine the radical Islamist ideology, to counter its narrative, to 
counter recruiting and to target outside financing.
-  ISIS/ AQ/ Iran in Iraq/ Syria: The ISIS advance is stalled in Iraq 
due to effective air power with modest gains in retaking lost 
territory. However, a successful counter offensive to retake Mosul and 
Anbar province is a very real challenge. No one knows for certain how 
the indigenous force consisting of IA, Peshmerga, Sunni tribes and Shia 
militia will perform. The U.S. should plan now to have U.S./coalition 
advisors accompany front line troops with the added capability to call 
in air strikes. Direct action SOFs both ground and air should assist by 
targeting ISIS leaders. United States and coalition combat brigades 
should be designated for deployment and moved to Kuwait to be ready for 
employment if the counter offensive stalls or is defeated.
    The Syria policy is a failure. There is wide disagreement in DOD, 
DOS, and the NSC over the current Syrian policy. ISIS is continuing to 
advance throughout Syria and is gaining ground, taking new territory. 
The plans for training and assisting the FSA, is not robust enough, 
5,000 in one year, and permitting Assad to continue to bomb the FSA 
faster than new members are trained makes no sense. The United States 
should heed the advice of Saudi Arabia, the UAE, Jordan and Turkey to 
establish a No Fly Zone (NFZ) to shut down Assad's air power and a 
buffer zone to protect refugees.
    ISIS, AQ and Iran are competing in Iraq and Syria. Their 
competition raises the stakes for all of them. They do not cancel each 
other out. They make each other stronger and induce them to act with 
greater impunity. Their competition risks hijacking the internal 
struggles within Iraq and Syria. The longer these wars go on, the 
better off they will do. Their struggle will also raise the stakes for 
Saudi Arabia and disrupt the regional balance of power in the Middle 
East.
    The wars in Iraq and Syria cannot be contained. ISIS and AQ are 
trying to bring them to Europe. Not just through terrorist attacks, but 
through polarizing identity. They are deliberately working to 
radicalize sympathizers. Providing security against terrorism and 
stopping radicalization is a rising challenge for our European allies, 
and, fortunately, less for the United States. This is a war of ideas, 
but it is also a war in which military might matters. These groups have 
laid down stakes in Iraq and Syria. They will be very hard to lose 
without tipping the region into a sectarian war. The barriers to their 
entry have to hold.
    We are living through a time when the regional refugee crisis is 
out of control. 13 million Syrians displaced. That's well over 60 
percent of Syria's pre-war population displaced or killed. Iraq is on 
the rise with 3 million Iraqis internally displaced as of late 2014. 
This is not a stable system, and the chaos favors these three groups.
-  Iran: The long term goal for any alliance should be Iran's regime 
change or a collapse of the existing government framework, similar to 
the collapse of the Soviet Union. And the reason is clear; Iran's 
stated regional hegemonic objectives are incongruous with the peace, 
prosperity and stability of the Middle East.
    Iran cannot be permitted to acquire a nuclear weapon or a threshold 
capability allowing rapid nuclear development. Sadly, we are already 
about there! Congress should do 2 things now in reference to Iran. 1) 
authorize increased sanctions now with automatic implementation if 
talks are extended or fail 2) legislate ratification of any deal by the 
Senate.
-  Afghanistan: The political situation in Afghanistan has improved 
considerably with the reform leadership of Ashraf Ghani but the 
security situation remains at risk. While the security situation in the 
South is relatively stable with some exceptions, the situation in the 
East is not satisfactory. The problem is the area generally from Kabul 
to the Pakistan border which is the domain of the Haqqani network 
(HQN). Because the White House provided 25 percent less surge forces 
than requested and then pulled the surge forces out prematurely, these 
forces were never applied to the East as they were, successfully, in 
the South. As such HQN has not been rooted out of their support zones 
and safe areas in Afghanistan. This is a serious problem for the ANSF. 
It follows that the ANSF needs the funding to support its current troop 
levels of 352K and much needed U.S. and coalition troops to conduct CT 
and to advise, train and assist the ANSF beyond 2016. All we 
accomplished will be at risk, as it was in Iraq, if the troops are 
pulled out not based on the conditions on the ground. How can we not 
learn the obvious and painful lesson from Iraq?
  2. security challenges posed by revisionist euroasian nations i.e. 
                            russia and china
-  Russia: In Europe, Russia's recent behavior suggests that its 2008 
military campaign against Georgia was not an aberration but rather an 
initial effort to overturn the prevailing regional order. By seizing 
the Crimea, supporting trumped up rebel forces in eastern Ukraine and 
engaging in military deployments that directly threaten its Baltic 
neighbors, Moscow has made it clear that it does not accept the 
political map of post-Cold War Europe. I believe we need to 
realistically conclude that Moscow is also willing to challenge the 
very existence of NATO.
-  What Can Be Done: Given the dramatic drop in oil prices, Russia is 
beginning to suffer economically and is likely heading toward a 
recession if not already there. Additional tough sanctions should be 
put back on the table to coerce Russia to stop the Ukraine aggression. 
It is a disgrace that once again we have refused to assist a people 
being oppressed when all they asked for is the weapons to fight; that 
policy decision which the White House states could lead to an 
escalation in the conflict, makes no sense. We should robustly arm and 
assist Ukraine. Additionally, NATO military presence should be 
significantly shifted to the Baltics and Eastern Europe with plans for 
permanent bases. A clear signal of Article 5 intent must be sent to 
Moscow. These actions will strengthen our diplomatic efforts which to 
date have failed.
-  China: China's continuing economic growth has fueled a major 
conventional military buildup that is beginning to shift the local 
balance of power in its favor. As a result Beijing has been emboldened 
to act more assertively toward its neighbors, especially in expanding 
its territorial claims, which include not only Taiwan, but also most of 
the South China sea islands and Japan's Senkaku Islands. China has 
embarked on a strategy of regional domination at the expense of United 
States interests, as a pacific nation, and decades of partnership with 
allied countries in the region.
-  What Can Be Done: Develop a regional strategy with our allies to 
counter
China's desire for dominant control and influence. Recognize that 
China's military strategy to defeat United States reliance on military 
information networks which they believe alone may defeat the U.S. 
militarily and their exploding precision strike capability threatens 
surface and naval forces, forward staging bases, and air and sea ports 
of debarkation. The U.S. no longer enjoys the commanding position in 
the precision strike regime that it occupied in the two decades 
following the Cold War. We should stress test United States regional 
military defense to counter China's threat and recognize that a change 
in regional defense strategy is likely.
                           3. sequestration:
    It must be repealed and reasonable resources restored to meet the 
emerging security challenges. All the services have a need to 
capitalize their investment accounts and to maintain readiness which is 
rapidly eroding.
    In conclusion, given the emerging security challenges and limited 
resources, the need for well crafted regional defense strategies in an 
overall integrated defense strategy and posture is clear. Yet this is 
not what we do. What we do is the QDR, every four years, which is 
largely driven by process and far too focused on the
budget.
    Thank you and I look forward to your questions.

    Senator Ayotte. Thank you so much, General Keane.
    Admiral Fallon--thank you, Admiral Fallon, for being here--
Admiral Fallon is a Vietnam veteran who served 40 years in the 
Navy, including as Commander of U.S. Central Command.
    Thank you for being here today, Admiral Fallon.

  STATEMENT OF ADMIRAL WILLIAM J. FALLON, USN (RET.), FORMER 
            COMMANDER, UNITED STATES CENTRAL COMMAND

    Admiral Fallon. Thank you, Senator.
    Madam Chairwoman, Senator Reed, members of the committee, 
thank you, first of all, for your essential and enduring 
support of our men and women in uniform, certainly for the many 
years in which I was honored to serve with them, and continuing 
today. And thank you for the opportunity to address this 
distinguished body and offer my perspectives on current threats 
to national security, American foreign policy, and national 
defense topics.
    There are certainly many areas of concern around the world. 
We see them most spectacularly highlighted regularly by the 
media, and you've heard a long litany of these things mentioned 
already today.
    First of all, I believe that a coherent national security 
strategy requires a long-term focus with well-thought-out 
objectives. We should resist reactive responses and attempts to 
find near-term fixes to popup issues, which are going to arise 
continuously and compete for attention with what we should 
determine are the highest-priority national interests.
    In surveying the worldscape today, I'd suggest that we 
focus on where we, as a nation, want to be in the future. My 
vote would be for improving world security and stability, with 
more people around the world enjoying a better life in 
conditions of their choosing, with responsible elected leaders 
providing good governance and respect for human dignity. This 
scenario, clearly in our better national interest, is not going 
to happen without lots of hard work informed and guided by an 
effective national security strategy.
    The United States Government has provided, and must 
continue to provide, leadership, good example, and active 
political, economic, and military security assistance in 
working towards these desired objectives. The fundamental 
prerequisite for any successful U.S. national security strategy 
is a sound and strong domestic foundation. Our credibility in 
the world is based on the example of our actions and how people 
perceive we might act in current and future situations. It's 
fair to wonder if people in other parts of the world take us 
seriously when they observe partisan political bickering that 
precludes agreement on fundamental issues like a national 
operating budget or cyber policies, and seemingly ever-changing 
policies and priorities.
    Our military capability is an essential element of national 
power and one of many key tools, which include diplomatic, 
development, economic, financial, political, and certainly 
moral leadership. We face tough choices today about if, when, 
and where to employ our military forces. We also face some 
tough choices on what to do, how to equip them, and what 
capabilities ought to be priorities. We can't have everything. 
Some people would propose an endless list of things that we 
could never afford. We've got to make the choices.
    As we contemplate the myriad challenges to world stability 
and U.S. security, we should first acknowledge, distasteful as 
it might be, the reality that nuclear weapons and aspirations 
for them continue to proliferate. In this regard, it's 
discouraging to note that, after more than two decades of 
counter---of nuclear counterproliferation progress, fueled in 
large measure by the Nunn-Lugar Initiative, Russian-United 
States cooperation appears to have ground to a halt in the wake 
of dangerous Russian bad behavior. United States strategy in 
dealing with the potential use of these weapons of mass 
destruction has been heretofore successful with our National 
strategic deterrent force. But, the critical components of this 
force have been aging, without significant upgrade. 
Modernization of the force, particularly the survivability of 
the sea-based deterrent, should be a top-priority consideration 
for us to remain credible in deterring the worst-case 
scenarios. In my view, one of our most important strategic 
interests, with huge implications for national security and the 
stability of the vast Asia-Pacific region, is our long-term 
relationship with China. Mutually beneficial in many respects, 
it has other dimensions, noticeably--notably in the areas of 
cybersecurity, military expansion, and regional disputes with 
neighboring countries which are a cause for concern and need to 
be addressed.
    The key focal point of this hearing is conflict in the 
Middle East and the spread of violent extremism in the region, 
and from it to other places in the world. The Middle East is an 
area of high interest for us, for many reasons, and continue to 
be buffeted by challenges which have vexed years of U.S. 
attempts to improve stability in the area. Nonetheless, I 
believe we should continue to engage in this region, using all 
aspects of national power, but with the understanding that we 
are not likely to be successful by mandating U.S. solutions. 
People in the region are, sooner or later, going to have to 
step up and address the issues which torment and divide them. 
We can and should assist, but we are not going to resolve their 
problems.
    Some recommendations for addressing the current challenges 
from the so-called Dayesh in Iraq and Syria, from my 
perspective, include, first, recognition that, in Iraq, success 
will rest on the ability of the new government of Haider al-
Abadi to convince the majority of his countrymen and -women, 
particularly the Sunni minority, that they will get a fair 
shake, going forward. Absent this political foundation, nothing 
we do is going to be effective in the long term.
    Second, getting Islamic leaders, the elites of the Arab 
countries, to actively counter the extremist ideology, and to 
cut funding for Dayesh and other extremists. On a positive 
note, here, I would highlight the recent remarks by Egyptian 
leader, Abdel al-Sisi.
    And third, I think we should continue United States 
military efforts to work closely with the Iraqi military to 
enhance their capabilities, increase their combat 
effectiveness, and to support them with training, air power, 
and SOF, as required, to defeat Dayesh and to reclaim areas 
that were overrun last summer, simultaneously pressing Dayesh 
in rear areas to degrade and deny their ability to expand and 
to sustain operations in Iraq.
    No single one of these actions is going to result in 
success, but collectively we have a chance to achieve our 
general objectives. Combating violent extremism worldwide is 
going to be a long-term effort requiring close cooperation with 
allies and willing nations, especially in areas of 
intelligence-sharing, U.S. military training and assistance for 
our less capable colleagues.
    In summary, strategic coherence and foreign policy and 
national security would benefit from strong, credible, and 
consistent domestic policies and actions to return this great 
nation to a position of exemplary leadership that's earned and 
kept for many years in the eyes of people around the world. 
Building on this position of domestic strength, a thoughtful, 
focused, and collaborative strategy formulation process to 
agree on a relatively few high-priority national security goals 
and objectives should set us on a fair course.
    At the international level, active engagement using all 
aspects of national power, underpinned with a strong forward 
presence by U.S. military forces with credible capabilities, is 
our best deterrent and response to security threats worldwide.
    Thank you very much, and I'm pleased to address any 
specific questions you may have.
    [The prepared statement of Admiral Fallon follows:]
         Prepared Statement by William J. Fallon, USN (Retired)
    Madame Chairwoman, Senator Reed, members of the Committee. Thank 
you for your essential and enduring support for our men and women in 
uniform and the opportunity to address this distinguished body and to 
offer my perspective on current threats to national security, American 
Foreign Policy and National Defense topics.
    There are certainly many areas of concern around the world and we 
see the most spectacular and troubling highlighted regularly in the 
media. I believe that a coherent national security strategy requires a 
long term focus with well thought out objectives. We should resist 
reactive responses and attempts to find near term fixes for pop up 
issues which arise continuously and compete for attention with what we 
should determine are higher priority interests.
    In surveying the worldscape today, I would suggest that we focus on 
where we, as a nation, want to be in the future. My vote would be for 
improving world security and stability with more people around the 
world enjoying a better life in conditions of their choosing, with 
responsible elected leaders providing good governance and respect for 
human dignity. This scenario, clearly in our better national interest, 
is not going to happen without lots of hard work, informed and guided 
by an effective national security strategy.
    The United States government has provided, and must continue to 
provide; leadership, good example and active political, economic and 
military security assistance in working toward these desired 
objectives.
    The fundamental prerequisite for any successful national security 
strategy is a sound and strong domestic foundation. Our credibility in 
the world is based on the example of our actions and how people 
perceive we might act in current and future situations. It is fair to 
wonder if people in other parts of the world take us seriously when 
they observe partisan political bickering preclude agreement on 
fundamental issues like national operating budgets or cyber policies, 
and seemingly ever changing policies and priorities.
    Our military capability is an essential element of national power 
but only one of many key tools which include diplomacy, development, 
economic, financial and political and certainly, moral leadership. We 
face tough choices ahead, about when, where and if to engage our 
forces. We also face tough choices about capabilities and what to 
acquire. We cannot afford everything.
    As we contemplate myriad challenges to world stability and U.S. 
security, we should first acknowledge, distasteful as it might be, the 
reality that nuclear weapons, and aspirations for them, continue to 
proliferate. In this regard, it is discouraging to note that after more 
than two decades of nuclear counter proliferation progress, fueled in 
large measure by the Nunn-Lugar initiative, Russian-U.S. cooperation 
appears to have ground to a halt in the wake of dangerous Russian bad 
behavior.
    U.S. strategy for dealing with the potential use of these weapons 
of mass destruction has been our heretofore successful National 
Strategic Deterrent Force. But the critical components of this force 
have been aging without significant upgrade. Modernization of the 
force, particularly the survivability of the sea based deterrent, 
should be a top priority consideration for us to remain credible in 
deterring worst case scenarios.
    In my view, one of our most important strategic interests, with 
huge implications for national security and the stability of the vast 
Asia-Pacific region, is our long term relationship with China. Mutually 
beneficial in many respects, it has other dimensions, notably in the 
areas of cyber security, military expansion and regional disputes with 
neighboring countries, which are a cause for concern and need to be 
addressed.
    A key focal point of this hearing is conflict in the Middle East 
and the spread of violent extremism in the region, and from it, to 
other places in the world. The Middle East, an area of high interest to 
us for many reasons, continues to be buffeted by challenges which have 
vexed years of U.S. attempts to improve stability in the area. 
Nonetheless, we should continue to engage in the region, using all 
aspects of national power, but with the understanding that we are not 
likely to be successful by mandating U.S. solutions. People in the 
region are sooner or later going to have to step up and address the 
issues which torment and divide them. We can and should assist but we 
are not going to resolve their problems.
    Some recommendations for addressing the current challenge from the 
so called Daesh in Iraq and Syria include; (1) Recognition that success 
in Iraq will rest on the ability of the new government of Haider al 
Abadi to convince the majority of his countrymen, particularly the 
Sunni minority, that they will get a fair shake going forward. Absent 
this political foundation, nothing we do will be effective in the long 
term. (2) Getting Islamic leaders, the elites of the Arab countries, to 
actively counter the extremist ideology and cut funding to Daesh and 
other extremists. In a positive note here, I would highlight recent 
remarks by Egyptian leader Abdel al Sisi. And (3) Continue U.S. 
military efforts to work closely with the Iraqi military to enhance 
capabilities, increase combat effectiveness and support them with 
training, airpower and SOF as required to defeat Daesh and reclaim 
areas overrun last summer. Simultaneously pressing Daesh rear areas in 
Syria to degrade and deny their ability to expand or sustain operations 
in Iraq. No single one of these actions will defeat the threat. All 
need to occur.
    Combating violent extremism worldwide will be a long term effort 
requiring close cooperation with allies and willing nations, especially 
in areas of intelligence sharing and U.S. military training and 
assistance for less capable colleagues.
    In summary, strategic coherence in foreign policy and national 
security would benefit from strong, credible and consistent domestic 
policies and actions to return this great nation to the position of 
exemplary leadership it earned and enjoyed not that long ago. Building 
on this position of domestic strength, a thoughtful, focused and 
collaborative strategy formulation process to agree on a relatively few 
high priority national security goals and objectives should set us on a 
fair course.
    At the international level, active engagement using all aspects of 
national power underpinned with a strong forward presence by U.S. 
military forces, with credible capabilities, is our best deterrent and 
response to security threats.
    Thank you. I will be pleased to address specific questions you may 
have.

    Senator Ayotte. Thank you so much, Admiral Fallon.
    I want to thank each of the members of this panel.
    And I would like to, first of all, start with, General 
Keane, a question to you about the fight we face against 
radical Islam. You had said, in your testimony, that you 
believed that our policy has failed, that essentially al-Qaeda 
has grown fourfold in the last 5 years. Can you help us 
understand what you think would be the strongest strategy, in 
terms of defeating radical Islam? And also, can you speak to 
the situation in Yemen and what you believe our strategy should 
be there?
    General Keane. Yes.
    Well, as you noted, radical Islam is clearly on the rise. 
And, as I said in my testimony, I think our policy of 
disengagement from the Middle East has contributed to that 
rise. Obviously, this is a very ambitious movement, and they 
would be making moves in that direction regardless of our 
actions.
    Now, given the scale of it, which I tried to display on the 
map, which goes from northern and western Africa all the way to 
South Asia, as you look at all of that red on that map, al-
Qaeda Central does not control all of those affiliates, but 
what they have in common, what their connective tissue is, is 
that they share a common geopolitical belief driven by a 
religious ideology to dominate their host-country governments 
which they are conducting an insurgency at. And as al-Qaeda 
Central, I indicated in my testimony, has a very ambitious 
geopolitical objective, and that is to dominate Muslim lands, 
initially, and then world domination. Given that, and given 
where they are and the swath of territory and countries that 
they're involved in, there's no way that the United States, in 
of itself, can deal with the scale of this problem. Nor should 
it.
    So, in my judgment--that's why I'd look to--how did we deal 
with Communist ideology, which was a very similar movement--
ambitious geopolitical movement, world domination? And we dealt 
with it, I think, in a very wise fashion. We brought countries 
together who shared values, who shared political beliefs, and 
formed a political and military alliance.
    There is no other way, I believe, that you can cope with 
this scale of a problem without bringing the countries involved 
together, whether they're in the region or have interests 
outside of the region, as many do because of the export of 
terrorism to their countries, and develop a strategy to deal 
with it. This isn't about the United States driving a strategy. 
This is about bringing countries together, because much of what 
has to be done in the region where the radical Islamists are 
growing has to do with those countries themselves, has to do 
with the conditions that exist in those countries.
    The issues simply are--and what the Arab Spring was about, 
if you recall, it was about seeking political reform, social 
justice, and economic opportunity. Nobody was demonstrating in 
the streets for radical Islam, but the radical Islamists saw 
the Arab Spring as an opportunity, and it became an accelerant 
for them, because they saw political and social upheaval, and 
they could take advantage of it. So, using that as a backdrop, 
it drives you--those issues are still there--political reform, 
social injustice, and lack of economic opportunity. We have to 
bring those countries together to recognize some of those 
problems. Those are long-term answers.
    And then the near-term problems deal with what General 
Mattis was pointing out, as well. We have to share 
intelligence, we have to share technology, we have to share 
training. We can help a lot. We have been fighting this enemy 
for 13 years. We have learned a lot, and so have many of our 
allies.
    There's much that we can do if we take a comprehensive, 
strategic approach to it, as opposed to what I think is a 
fragmented approach now, and it doesn't get at the long-term 
problem. You have to see the long-term solution and then start 
approaching it with near-term and midterm objectives to 
accomplish it. That, I think, is the only answer that's 
possible, given what we're facing. Otherwise, we're just going 
to protract this thing and take these things on--what, after 
ISIS? Will there be something after ISIS we'll have to deal 
with? You betcha, if we don't take a comprehensive approach to 
deal with it.
    In terms of Yemen, I mean, it's very frustrating to watch 
what's happened. We have been working with a host-country 
government in Yemen. We've been conducting direct-action 
missions with them against an insurgency in their country. This 
is AQAP [al-Qaeda in the Arabian Peninsula], as we well know. 
This is the organization--given the pressure that the previous 
administration and this administration put on al-Qaeda Central, 
they knew that they were no--they no longer had global reach. 
And al-Qaeda Central always, always wanted to take the jihad to 
Europe and to the United States so they could drive us out of 
the region and, most importantly, drive our ideas out of the 
region, which are democracy and capitalism, which is an 
anathema to them.
    The fact is, they franchised out to AQAP, and they gave 
them some leaders to do it. And this is a force that's not only 
conducting an insurgency to overthrow a government, but put 
together capabilities to conduct out-of-region attacks in the 
United States and, most recently, in Paris, France.
    I think we've got a big question mark on where we're going 
forward. This is going to have to play out in front of us. 
There's--there are serious challenges in Yemen, given what's 
taken place with the Iranian-imposed overthrow of the 
government. They are also opposed to AQAP, but they are also 
fundamentally opposed to America and its interests. So, I think 
it begs the question whether we're going to be able to have the 
kind of cooperation with the new government in Yemen that we 
had with the old government.
    Senator Ayotte. Thank you, General Keane.
    I would call on Senator Reed right now.
    Thank you.
    Senator Reed. Thank you very much, Madam Chairwoman.
    General Mattis, you've made it very clear that we have 
capabilities, particularly with respect to the Middle East, in 
terms of military solutions, but you've also, last July in 
Aspen, pointed out that there are very high costs there. And if 
we choose to use military, we have to--you know, as you've said 
out there, if Americans take ownership of this, referring to 
Syria, this is going to be a full-throated, very, very serious 
war, with large costs. That's still your view, I assume?
    General Mattis. Yes, sir, it is.
    Senator Reed. And can you give us an idea of the scale of 
those costs, I mean, in terms of forces and just the top line? 
Because, you know, we--I think your point's very well made, 
which is, basically, if we're going to go into something, we've 
got to go into it with the idea of--it's going to be difficult 
and costly.
    General Mattis. Senator, what you just quoted was something 
I had said in response to a question, as you recall. I think, 
in this case, we have to get to a very detailed level of 
understanding. What is the political objective we are out to 
accomplish? And, frankly, I don't know what it is right now. 
Once we define that, I'd say, to a Jesuit's level of 
definition, a very strict definition, at that point we then 
allocate the means. Those means would be covert, diplomatic, 
educational, economic, and military. And if we orchestrate this 
correctly, as has been pointed out by the other members of the 
panel, with allies, the clarity and the commitment of the 
United States can draw in the full commitment of others. We 
should not think that a tentative or halfhearted commitment on 
our part, or saying we are willing to go in, but we're not 
willing to really do the fighting, would draw a full commitment 
from others. They're going to be willing to match us, but, when 
you live right next to this terrible threat, they have to 
assume that we're in fully, or they're going to have to 
moderate their response. Once we show, I think, that level of 
commitment, our requirement would actually go down, because 
others would be willing to come in full-throated in our 
support. But, it would be a serious operation, no doubt, 
Senator.
    Senator Reed. Thank you.
    General Keane, do you agree with Admiral Fallon's point 
that, unless there's a political cohesion in Iraq, that the 
government recognizes and integrates the various sectarian 
groups, that military efforts will be probably ineffectual?
    General Keane. Yes, absolutely. I think we can--we can be a 
little bit encouraged by Abadi and his movements. I had some 
people from the Institute for the Study of War just return from 
Baghdad, meeting with government officials and military 
officials. Abadi is moving in the right direction. That's good 
news.
    But, look it, let's be honest here, that what--Maliki's 
malfeasance and nefarious character and the way he undermined 
political inclusion, despite his rhetoric, in Iraq, 
particularly after we pulled out of there, was tragic. The 
Sunni tribes are key, as Fox pointed out. And right now, while 
some of them are fighting against ISIS, most of them are not. 
And the harsh reality is, to get them to move, actually to take 
ISIS on, they will have to be convinced that there is reckoning 
for long-term political inclusion in this new government. It is 
a major issue for us.
    Anbar Province will be largely Sunni tribes, with some 
Iraqi army assisting, to retake that river valley. Peshmerga 
will not participate. Sunni tribes will also be needed to 
participate in a counteroffensive to retake Mosul. While they 
will not be the main force, they will be a--they will need to 
be a supporting force because of the tribes that are up in that 
region.
    So, yes, it's key. And I think we've known that from the 
outset.
    Senator Reed. So, in effect, the politics will drive the 
military operations. I mean, if--without effective political 
reconciliation or signals from Baghdad, our military efforts, 
as strenuous as we may mount, are not--won't be particularly 
successful. No?
    General Keane. Yeah, I just----
    Senator Reed. Let me----
    General Keane. It would be hard to visualize a scenario 
with a successful counteroffensive to retake the territory 
that's been lost without significant Sunni tribe participation 
in that.
    Senator Reed. Let me switch gear again to Admiral Fallon.
    Thank you once again for making yourself available. But, 
you know, one of the points that was raised in the course of 
the testimony was the radical Islam. But, one of the 
complicating factors is, within this radical Islam, you have 
Sunni radicals--jihadists--and then you have Shi'a radicals. 
And they have a mutual animosity, which is--might be argued, is 
even greater than their animosity towards other groups. The 
Sunni--Shi'a--Sunni believe that Shi'a are apostates, et 
cetera. How do you reconcile that, in terms of our operations 
in the Middle East, particularly in terms of Iran? Right now, 
Iranian forces--or Shi'a militias, let me say, are paralleling 
our activities in Iraq, in terms of going after ISIL. How do 
we--you know, that complicates an already complicated 
situation. Any comments you have.
    Admiral Fallon. Piece of cake.
    Senator Reed. Yes.
    Admiral Fallon. So--we wish.
    All right, I think the reality here, Senator, is that these 
things are really complex. There are a host of issues and 
interests in every one of these conflicts. You pick the 
country, pick the region. And I think that we might consider a 
couple of things. First of all, that in these really 
particularly vexing things that have so many aspects, we 
probably ought to step back and take a look at, again, our 
long-term large interests. So, Iran.
    Iran has been a problem for us for decades. It's 
exacerbated by the fact that we've had no interaction to speak 
of until very recently for these many decades. We find their 
activities extremely distasteful. We, basically, detest many of 
the things they've done and continue to do. They promote a 
brand of radicalism that has spread well beyond their borders. 
And we've been at our wits' end to try to figure out what to 
do.
    And my thought here is that, sooner or later, we're going 
to have to seriously sit down, as I think we're trying to 
start, and have a dialogue with these guys. We're not going 
to--we could. One option would be to invade Iraq. That's--or 
Iran, rather. That's been proposed before. At what cost? I 
mean, anybody here want to push that idea forward in a 
meaningful way? I doubt it.
    So, at some time, we're going to have to figure out how to 
come to grips with this. So, how do you do that? You recognize 
that everybody's got a dog in the fight, they all want 
something. And we ought to, I think, decide what things that we 
might accept--some role for them in the region, I would think--
but some things we're not going to accept. We don't want any 
part of the nuclear weapons program that they seem to be 
embarked on.
    But, their time, I think, is being stressed right now. 
Certainly, the economic conditions. There has been a--
apparently, a pretty notable effect of sanctions working 
against them. And, of course, the people that usually take the 
brunt of this are the common folk, not the leaders. But, 
nonetheless, they've had a dramatic impact on that country. I 
think the price of oil clearly is a detriment to them. And, 
frankly, they haven't been particularly successful of late in 
other places of--where their surrogates are engaged in the 
region.
    I think that we can't expect that we're going to have one 
solution that's going to solve all these problems. So, back to 
the--first things first. Let's decide what we want for the long 
term. Can we accept Iran playing some kind of role in this 
region? If so, how do we get from where we are today to there?
    At the tactical level, allowing them to get away with 
instigations and things like they have done in the past in Iraq 
and Afghanistan, other places, we shouldn't permit. Tactically, 
I think we act to block those things when we can.
    The fact that you've got Sunnis and Shi'as at each others' 
throats in many places here, something that we're not going to 
go in and say, ``Okay, guys, sit down, stop this''--we're not 
going to solve it. But, I think we act strategically in trying 
to decide where we want our place to be in the region, and then 
we work hard against those things that--at the tactical level, 
that are real problems.
    So, Iraq today is a real problem. I think to let it just go 
isn't going to be acceptable. We're going to have to continue 
to do what we're doing to try to take back the territory that 
they've lost.
    Senator Reed. Thank you.
    Thank you, Madam Chair.
    Senator Ayotte. Senator Ernst.
    Senator Ernst. Thank you, Madam Chair.
    Gentlemen, thank you for being here today. I certainly 
appreciate your service on this panel today as well as your 
many years of service to the United States. We are very 
grateful for that.
    I do agree that we have to have a national security 
strategy. And this is very important. What we have seen, all of 
you have mentioned, that, with sequestration, our effects, 
globally, have been diminished, and we are reacting in a knee-
jerk way to threats as they come visible. So, we don't have an 
overarching strategy anywhere today. And I think that's a great 
detriment to all of the citizens here in the United States.
    But, what I'd like to focus on is, with what we have seen 
in Iraq--I served in Iraq from 2003 to 2004, at a very low, 
company level--but, we invested so much effort in that region, 
and we withdrew from that region before many of our military 
leaders believed we should withdraw. And I do believe we are 
seeing that in Afghanistan now, also. These are areas, 
especially when it comes to Afghanistan--it's not talked about 
so much in the media anymore. Again, we seem to focus just on 
one issue at a time rather than looking at threats globally.
    With Afghanistan, we see that we have a proposed timeline 
for withdrawal. And, General Keane, you stated that perhaps we 
won't be ready by 2016 to withdraw our troops. I just sent, on 
Saturday--was at a sendoff ceremony for the 361st Medical 
Logistics Company. They're deploying to Afghanistan, and their 
mission is to assist in the withdrawal of troops from 
Afghanistan. How long, General Keane, do you believe that it 
will take for us, realistically--forget the timeline that's 
proposed right now--for the Afghan National Security Forces to 
fill a role and be able to sustain and keep open those lines of 
communication, to maintain security within Afghanistan? Or are 
we repeating what's happening in Iraq?
    General Keane. Yeah. Well, that's a tough question.
    Listen, I'm very empathetic to the American people's 
frustration and many--maybe many of you here in the room today, 
as well. Look it, we've been at this thing for 13 years. And in 
13 years, given the United States, you would think we'd be able 
to resolve this on favorable terms for ourselves and our 
National interests. Well, it hasn't happened. The facts are, 
policy decisions drove the 13-year war. It was policy that 
drove us to a war in Iraq and put Afghanistan on a diet for 
over 8 years. We never got back to it again until 2009, when 
the current President made a decision to increase the forces in 
Afghanistan.
    But, the--here's the problem we've got, Senator. When we 
increased those forces in Afghanistan, the so-called 
``Afghanistan surge,'' McChrystal and Petraeus got 25 percent 
less than what they needed to do the job. As a result of that, 
we were never able to apply the surge forces in the eastern 
part of Afghanistan as we did so successfully in the south. 
Another policy decision pulled those forces out, over the 
objection of then-General Petraeus serving in Afghanistan, in 
our judgment, prematurely, and no application of surge forces 
whatsoever dealt with the Haqqani Network in the east. The 
facts are, the Haqqani Network is in those safe havens in the 
east, they're embedded in there, and the Afghan National 
Security Forces--this is my judgment--does not have the 
capability, currently, to be able to deal with that harsh 
reality.
    What makes this so serious strategically inside Afghanistan 
is Kabul's presence to the Haqqani Network. Everything that 
gets lit up in Kabul is done by the Haqqani Network, and they 
are in the environs right now with support infrastructure 
surrounding Kabul.
    The only thing that we can do to change that dimension is, 
one, increase the capacity of the Afghan National Security 
Forces--and, by God, we've got to hold them at 352-. Anybody 
coming to you and telling you that we should put the Afghan 
National Security Forces on a decline after 2016 is absolutely 
foolish and irresponsible in that recommendation. So, we have 
to hold to that line, and this Congress has got to fund it. 
It's got to probably fund it for at least 4 or 5 more years 
after we pull out of there. Otherwise, we really don't have a 
chance.
    Second, we have got to step up to what two Presidents have 
failed to do, and that is deal with these sanctuaries in 
Pakistan from which intelligence, support, and training for 
operations inside Afghanistan comes. This is Afghan Taliban 
sanctuaries in Pakistan. And specifically, the Haqqani Network 
should be targeted just like al-Qaeda. We will--in targeting 
them, we will disrupt it, disrupt their command and control, 
and disrupt their operations. Then we begin to have a chance.
    Second, we cannot pull out our counterterrorism forces at 
2016. These are the guys who chased down high-value targets. 
When we did that in Iraq in 2011, it was a disaster. When al-
Qaeda began to rise because we pulled out the intelligence 
capability to see it, we didn't have--we couldn't see it, and 
we couldn't hit it. If we do that in Afghanistan, I think it's 
a death knell for Afghanistan.
    Yes, 13 years is a very long time to be there. But, to 
squander those gains in the face of what we're dealing with 
makes no sense to me. I don't know how long we would need to 
keep those troops there. Right now, the plan is to pull them 
out after 2016. We are talking, likely, a number around 10,000 
troops. Most of them would be in the train, assist, and advise 
role, which means they're not in combat. A very small portion 
of them would be in combat, and that is our direct-action 
forces.
    I think if we educate and explain to the American people 
what this really is, I think they could possibly support it, 
and I would hope the Congress of the United States would 
support it.
    What drives their departure should be conditions on the 
ground and on the commanders' assessment, as well.
    Senator Ernst. Thank you. I do agree. And many sacrifices 
have been made there, and I think that we are falling into 
those same mistakes. I would rather see us fully engaged and 
defeat these threats rather than half-step, which is why we 
need an all-encompassing national security.
    So, thank you, gentlemen, very much.
    Thank you, Madam Chair.
    Senator Ayotte. Senator Kaine.
    Senator Kaine. Thank you, Madam Chair.
    And thanks, to the witnesses, for the excellent testimony. 
I heard a lot I agreed with, a lot I disagreed with; and, as 
you say, that's why you're here, to provoke our thinking.
    It seems that there are two very solid points of agreement 
among the three sets of testimony--first, that we are taking a 
fragmented, reactive approach to global challenges now; and 
second, that that fragmented approach may be driven, or at 
least exacerbated, by budgetary dysfunction and decision--
indecision here in Washington. You know, ideally, we would have 
a strategy, and then we would build a budget to support the 
strategy. Secondarily, we would allow budget to drive strategy. 
But, we've been letting budgetary indecision drive strategy, 
which is, by far, the worst thing to do. So, I appreciate your 
comments about both. And I agree with you, I think our approach 
is a fragmented one, and I think it's exacerbated by budgetary 
indecision.
    We had a overarching national security strategy, beginning 
with President Truman deciding to support Greece after World 
War II, the Truman Doctrine, and it explained a lot of what we 
did, even things like the creation of the Peace Corps or the 
race to the Moon. You might like the strategy, or not, but it 
was a unified strategy. When the Soviet Union collapsed, we 
went to a reactive, case-by-case. After 9/11, we had a strategy 
again, which was the war on terror. But, over time, that 
strategy was not a magnanimous enough, big enough strategy for 
a nation like us, and I think we've devolved, after 13 years of 
war and some fatigue, back into the case-by-case approach that 
is reactive and that is hard for our allies and even our 
citizens to understand.
    It seems like, in the world now, if you look at it in 
analogy to the post-World War II, it's not a bipolar 
competition, it's a tripolar one. There are the democracies of 
the world, led by the United States, but other democracies--
India, where the President is visiting now, European nations, 
South American nations--there are many democracies, and we're 
the leader. There are the authoritarian nations, with Russia 
and China chief among them, but North Korea and Iran and other 
nations in that category. And then there's the jihadists. And 
the jihadists, some are nations, but many are nonstate actors. 
And that is a new challenge. So, the competition today is 
between democracies, authoritarian regimes, and nonstate 
jihadism, and that makes the challenge of forging a strategy 
critical. It's difficult, but it's critical. And you've raised 
important questions for us to grapple with.
    One of the things I'd like to ask you is, in tackling the 
jihadism threat that we have, each of you have been active in 
battling this threat using military means, but I think we all 
understand that part of the jihadism accelerant is disaffected 
young people and the allure of young people into a--kind of a 
nihilistic jihadist element because of the lack of their own 
opportunities. What should we be doing to try to counter the 
radicalization of young people in the region? How can we assist 
regional actors and others in doing that so that we can shut 
off the allure and the foreign fighters that are flocking to 
groups like ISIL?
    General Mattis. Senator, I think that what you have to look 
at is a definition of the problem that is so rigorous that some 
of the solutions start coming forward. For example, there are 
two basic brands of jihadist terrorists. One comes out of 
Tehran. We know it as Lebanese Hezbollah, declared war on us 
back in 1983, blew up our Embassy in Beirut, blew up the French 
paratrooper barracks, the marine barracks, and we've seen them 
continue to march on basically unchecked by our 
counterterrorism efforts. The other brand comes from the Sunni. 
We know it as al-Qaeda and associated movements. And so, as we 
define these, we don't lump them together, we don't give them 
any inadvertent support by giving them a cloak of legitimacy, 
and then we determine, if they're not--this is not in our best 
interest, and what is feeding it is not in our best interests--
political Islam--then how do we support the countervailing 
forces?
    President al-Sisi's speech on the 1st of January at al-Azar 
University, where he said, ``This has got to end''--he's 
talking to his own clerics, now--``This has--we've got to quit 
doing this to the world with--and dressing it up in the guise 
of Islam.'' There are people out there--United Arab Emirates, 
what we in the military call ``little Sparta,'' because they 
always stuck with us through everything--Jordan--there are 
countervailing people in the region, leaders in the region, 
thought leaders in the region, and we should be full--fully in 
support of them, not--but, if we don't define this threat, 
break it out, identify the countervailing forces and come up 
with a strategy that supports exactly what you're talking 
about, then we'll continue to be spectators as this mutates and 
grows.
    Senator Kaine. Let me ask you this. I think you all are on 
the same page on another item, which is--Do you all agree that 
it is a mistake to use a calendar to determine the end date of 
our Afghanistani involvement rather than an assessment of the 
conditions on the ground in Afghanistan? Are you all in the 
same position on that?
    General Mattis. Yes, sir.
    General Keane. Yes, sir.
    Admiral Fallon. Yes, I'd like to--certainly, that's the 
case.
    Senator Kaine. Right.
    Admiral Fallon. But, I think the--we need a little clarity 
and definition again, just like Jim tried to draw, between the 
Iranian-inspired revolutionary----
    Senator Kaine. Versus the Sunni.
    Admiral Fallon.--jihadists, versus disaffected bubbas, 
here, who--looking for help.
    So, we talk about withdrawal from Afghanistan--and I saw 
this, at least from my view--we got into the same morass in 
Iraq a few years ago--so it was this idea that we're in or 
we're out. You know, we're going to withdraw we're not going to 
withdraw. I think that the reality is, our best interests are 
served, not by withdrawing from many places in this world, but 
from continuing engagement.
    So, what we ought to be talking about is--what's already, I 
believe, put in place--our major combat engagements have ceased 
and are not likely to be reengaged. However, we ought to be 
continually engaged with them in assisting them in training and 
supporting them and, in some areas, using Special Forces in 
areas that we have capabilities and they do not, when we see 
things that challenge our interests. So, I think we--we just 
need to be clear about this. It isn't just ``we're in or we're 
out.'' We ought to be in, in my opinion, to do certain things, 
to continue to help this government to move along. And those 
things are not going to be successful on their own. But, if 
taken in concert with economic steps and political steps on the 
government, we may have a chance to actually see a long-term 
good outcome, here.
    Senator Kaine. Right.
    Admiral Fallon. But, I think it's this clarity in talk. 
Just stop the, you know, ``blah, blah, blah.'' Everybody gets 
confused, we get--end up with nothing. And the media just fuels 
this, because they'll pick on a specific word somewhere, and 
here you go.
    Senator Kaine. Thank you.
    Thank you, Madam Chairwoman.
    Senator Ayotte. Senator Graham.
    Senator Graham. Well, thank you. I've really enjoyed this 
and have gotten a lot out of it, and it's given me a lot to 
think about, quite frankly.
    I just regret--to our media friends who are here, thank you 
for coming. Maybe if we had Tom Brady, we'd fill up the room. 
But, that's the world in which we live in. We're talking about 
consequential things, and we've got a couple of reporters here.
    At the end of the day, let's see what we do agree on. This 
is a generational struggle when it comes to radical Islam, 
Sunni, and Shi'a. Do you all agree? Somebody will be dealing 
with this long after most of us are gone. But, over time, we 
win, they lose, right?
    Admiral Fallon. If we can come up with a strategy for----
    Senator Graham. Let me tell you why I think they lose. What 
they're selling, very few people actually want to buy. The ace 
in the hole for all of us, ladies and gentlemen, is that the 
radical Islamic view of life is not embraced by most people in 
the religion. We just need to provide them the capacity to 
fight back over there so we can be protected here. Does that 
make sense? Now, how do you do that?
    Sequestration. Do you all agree that it should be, if not 
repealed, replaced?
    Admiral Fallon. Absolutely.
    Senator Graham. All agree. If we don't replace 
sequestration, our capability to deal with the National 
security threats you've described is greatly diminished. Is 
that correct?
    Admiral Fallon. Yes.
    Senator Graham. The enemy is on the rise, and our 
capabilities are going down. Is that a correct assessment?
    General Mattis. Yes.
    Senator Graham. Would you agree that our NATO [North 
Atlantic Treaty Organization] allies are on a path to reduce 
their capability, not increase it?
    General Keane. Yes.
    Senator Graham. So, we've got two things going on. We've 
got the enemy on the rise, we've got America cutting her 
budget, and we've got our NATO allies reducing theirs--budgets 
to help us as partners. Is that a formula for disaster?
    Admiral Fallon. Pretty close.
    Senator Graham. Okay. The 150 account. General Mattis, you 
said, if we cut State Department funding in our developmental 
accounts under the 150 account, Foreign Assistance, you'd 
better--you'll need more ammunition. Do you still agree with 
that?
    General Mattis. I do, sir. We need a comprehensive 
approach.
    Senator Graham. Do you agree with that, General Keane?
    General Keane. Yeah.
    Senator Graham. Admiral Fallon?
    Admiral Fallon. For sure. Can I give you an example of 
something?
    Senator Graham. Sure, please.
    Admiral Fallon. Back when I was at CENTCOM, one of my 
frustrations was an inability to delegate enough time to engage 
in Central Asia. And what I saw, back in those times there, 
about a half-dozen years ago, was that we had people who were 
looking for something other than what they had--the Soviet 
Union. They were concerned about being in a squeeze between a 
resurgent Russia and China, and we were kind of a lifeline. And 
we had almost no engagement, because we didn't have the 
resources, the interest, the time to devote to things like 
telling people what things are really like in America. You 
know, we used to have these----
    Senator Graham. Yes, sir.
    Admiral Fallon.--kind of storefront shops that----
    Senator Graham. Well, I----
    Admiral Fallon.--used diplomatic engagement. That's all 
disappeared.
    Senator Graham. I don't--I couldn't agree with you more, 
but Africa--we have a very light military footprint in Africa. 
Is that correct?
    Admiral Fallon. Very much so.
    Senator Graham. It's a continent very much up in the air, 
in terms of how it will turn out with the 21st century.
    I just want the members of the committee to know that I am 
the chairman of the Foreign Operations Account. And if you 
think sequestration is bad for the military, you ought to see 
what it does to our capability to engage the world peacefully. 
It absolutely destroys it, which is insane. We've--on the verge 
of eradicating malaria, not--well, we're making great progress 
in AIDS and malaria and polio; and all this stuff really does 
matter, in my view.
    Iraq. General Mattis, how many marines did we have in the 
second battle of Fallujah to retake Fallujah, do you remember?
    General Mattis. In the second battle, sir, it probably 
would have been somewhere around--including the supporting 
elements, firing and support, that sort of thing--probably 
around 10,000.
    Senator Graham. So, we had Army personnel to assist in 
there, is that correct?
    General Mattis. Absolutely. They were significant Army 
support.
    Senator Graham. So, Fallujah is one-tenth the size of 
Mosul. Is that right, General Keane? Fallujah is about one-
tenth--
    How in the world do we go into Fallujah--excuse me--Mosul--
if the past is any indication of the future, if we had 10,000 
marines--and I think it was about 9,000, actually--engaged in 
helping the Iraqi Security Forces liberate Fallujah from al-
Qaeda in Iraq, who I think is weaker than ISIL--how in the 
world do we do this in Mosul without a larger American 
component? Can you envision that being successful without more 
American help, General Keane?
    General Keane. I don't know for sure. I mean, as I said in 
my remarks, we are advising, training, and assisting an 
indigenous force. We made a policy decision not to commit 
ground combat force to do that. I basically agree with that 
decision.
    Senator Graham. I'm not saying that we need--you said we 
need brigades in the ready in Kuwait.
    General Keane. I believe----
    Senator Graham. You said----
    General Keane. I----
    Senator Graham. Excuse me.
    General Keane. If----
    Senator Graham. You said we needed people on the front 
lines, embedded in Iraqi units. Is that correct?
    General Keane. Absolutely.
    Senator Graham. What number does that come out to, in your 
mind?
    General Keane. Well, I think we get very close to a number, 
in train and assist and advising, something close to 10,000.
    Senator Graham. Okay.
    General Keane. And----
    Senator Graham. I just----
    General Keane.--not the few hundred that we're currently 
doing. I'm talking about front-line advisors with companies and 
battalions----
    Senator Graham. I got you, and I've got 30 seconds left.
    So, we've got 3,000 on the ground today. We need 10,000, in 
your view. I think that's correct. If we lose in Mosul--if we 
take ISIL on and lose, that's a bad day for all of us. Do you 
agree? You've got to take these guys on and win. All of you 
agree? Don't take them on if you can't win.
    Syria. Do you all--how many of you support a no-fly zone, a 
buffer zone to allow the Free Syrian Army----
    General Keane. I do.
    Senator Graham. General Mattis, no?
    General Mattis. Not until we figure out what we want the 
end state to look like.
    Senator Graham. Fair enough.
    Admiral?
    Admiral Fallon. No, I've been a part of a 10-year effort in 
Iraq that ended up being----
    Senator Graham. So----
    Admiral Fallon.--basically, wasted.
    Senator Graham. Okay. Let me just ask this simple question. 
One of the reasons that ISIL was defeated in Khobani--and I 
want to tip my hat to the Kurds and to our coalition forces--is 
that you had the Kurds fighting ISIL on the ground, and you had 
American air power. What happens if we send the Free Syrian 
Army, trained up, into Syria to fight ISIL and we don't 
neutralize Assad's air power? Do you not believe that he will 
engage the Free Syrian Army through the air? How do they 
survive if he does that?
    General Keane. Well, the facts are, he's engaging the Free 
Syrian Army right now. The Free Syrian Army today, on the 
ground----
    You know what's so frustrating about this? When the 
moderate rebels took on Assad's regime, back in 2010--do you 
remember this? They had the momentum. There were many 
predicting that the regime was about to fall. What happened? 
What happened? This is what happened. The Iranians jumped in 
with 5,000 Hezbollah out of Lebanon. They jumped in with 3,000 
Quds Force, plus they had top leaders on the ground to assist, 
and Russian airplanes flying in with Iranian airplanes with 
military supplies, every single day. The Free Syrian Army came 
to us, the momentum shifted, and they said, ``What?'' And many 
of you were on their dance card when they came to town here. 
I--even I was on it, as probably my two colleagues? What did 
they want? They wanted simply this, ``We need arms to be able 
to stop anti---tank systems and antiaircraft systems to shoot 
down those airplanes. We don't need your troops, we don't even 
need your air power. Let us fight this war ourselves. We think 
we can win it.'' And we said no. We have never recovered from 
that decision.
    That decision was revisited again with strong feelings by 
Petraeus, Clinton, Panetta, and Dempsey in 2012. Took it to the 
White House, said, ``This is what we've got to do.'' Petraeus 
vetted that force as the CIA [Central Intelligence Agency] 
Director. The President said no. We have never recovered from 
that decision.
    General Mattis. I think we may have missed the opportunity 
to work with the Free Syrian Army. They've been ground down 
between----
    Senator Graham. Right.
    General Mattis.--al-Nusra and----
    Senator Graham. Right.
    General Mattis.--ISIS, on one side, Assad on the other. I--
we may--we're going to have to really look at what options we 
have, sir.
    Admiral Fallon. The only comment I'd make is that we can 
sit here and wring our hands and bemoan the past in lots of 
situations. We need to deal with the present. So, for now, 
forget the past, except for lessons learned for new strategies, 
but we need to figure out what it's going to take right now to 
move forward.
    Senator Graham. Well, let me tell you what I think the 
presence is--present--is that Syria and Iraq are great 
platforms to attack the United States. And if we keep screwing 
around with this, and these guys get stronger and, a year from 
now, they're still in place, we're going to get hit. It's time 
to put these guys on the run with a regional force that we 
complement.
    Because let me tell you about the end game, General Mattis. 
The end game is, America's going to get attacked if we don't 
deal with the threat in Iraq and Syria. That--do you agree with 
that?
    General Mattis. One-hundred percent, sir.
    Senator Graham. Thank you.
    Senator Ayotte. Senator Donnelly.
    Senator Donnelly. Thank you, Madam Chair.
    And I want to thank all of you for your extraordinary 
service. We are so much in your debt.
    And America has already been attacked, in that we have lost 
a number of our young people already to ISIL. Tragically, in my 
home State. And this is--they've said they're a caliphate, 
which means they either grow or they go. And in Iraq, I would 
like to get your best ideas. General Keane, you're--you were 
really influential in working with the Sunni community there 
and in trying to push back, before. How do we coordinate with 
them, work with them, to push ISIS out of Iraq and then to get 
them in Syria? And then I'd like to, obviously, hear from 
General Mattis and Admiral Fallon, because of your hard work in 
this, as well.
    General Keane. Well, you know, when you think about the 
Sunnis, I mean, the Sunni tribes are not a homogeneous 
organization, to say the least, and all of us are very familiar 
with it at this table.
    Senator Donnelly. Right.
    General Keane. So, we have irreconcilable Sunni tribes--
many of them are part of the former Saddam Hussein regime 
elements--who are fighting with ISIS, and they will continue to 
fight with ISIS. The rest of them, by and large, are 
reconcilable. And what happened before in Iraq informs of this. 
When they pushed back against al-Qaeda, beginning in Anbar 
Province, and moved into Diyala Province and other places where 
Sunnis lived--they know they have made a bed with strange 
fellows, here. They know that it's not in their interest to 
support the long-term objective of ISIS, which--ISIS wants to 
govern the populations it controls, and impose seventh-century 
Talibanism on it.
    Right now in Mosul--this is what life is like--all 
universities and school systems are shut down. The only schools 
that are operating are the madrassas, indoctrinating radical 
Islamists, ISIS believes, and a medical school that they--
they're forcing students into to become doctors to take care of 
their wounded.
    Second, they do not run government services very well. 
Garbage is on the streets. Other government services aren't 
provided. The people in Mosul are not recreating at all, 
they're not even socializing with extended family members who 
don't live in their immediate vicinity. Life as they knew it--
teeming marketplaces, traffic jams, a thriving community--is 
gone.
    Senator Donnelly. So, how would you push them----
    General Keane. So, what we know----
    Senator Donnelly. And I apologize if you already answered--
--
    General Keane. We know that that exists. We know that ISIS 
and reconcilable Sunnis are on a collision course. What we have 
to do is incentivize them more than what we are doing now, to 
get at your question.
    One of the things we can do. Obviously, Abadi is key to 
this, as Admiral Fallon laid out. And I strongly support that.
    Second, where--we need to go into Anbar Province--and we 
have some plans for this--to train and arm the Sunni tribes. 
But, we've got to take another step with that. We've got to be 
willing to be on the ground with them when they take the fight 
to ISIS. We need advisors with them. We need people to help 
coordinate fire support and close air support with them. That 
will incentivize them. We need to help to accelerate that 
timetable for them.
    The thing that we have working for us--again, to emphasize 
this--is ISIS itself. But, here's the problem we have. The 
political leadership in Iraq does not want to wait, because the 
pressure they have on them from the people in Mosul--and the 
conditions that I am describing to you are very real, and they 
are accountable to those conditions--they want to go faster. 
The United States is pulling back and saying we're not ready. 
The military in Iraq wants to go faster, because it's answering 
to its national leadership. We're not ready to do this yet. I'm 
not certain we're going to be ready to do it by the summer. 
And----
    Senator Donnelly. Well----
    General Keane.--the reason is, we're not applying enough 
resources to it, Senator.
    Senator Donnelly. I was just going to ask you. Are we not 
ready because we don't have the ability to do it or because we 
don't have the plan to do what's necessary?
    General Keane. Well, mostly, I believe--listen, we can 
craft a counteroffensive plan to take back Mosul and also to 
take back Anbar Province. We know how to do that. That's 
tacking up the two great biblical river valleys. Most of this 
is about resources and dealing with what most of us believe is 
a relatively weak indigenous hand on the ground that we're 
playing. If you've got a weak hand, then we should be 
strengthening that hand, not with the minimum amount of 
resources, but with all the resources it takes to strengthen 
that hand. And we're not doing that.
    Senator Donnelly. Well, here's my fear, is that this is a 
hotbed. This is where they are communicating with people in our 
country to attack us, in Syria and in Iraq and with ISIS. And 
if we have resources, they ought to be used in this area, it 
seems to me, that we either eliminate them or there's going to 
be a catastrophe in our own country.
    I would like to hear what you think about how we start to 
go on the move in Syria, as well.
    General Mattis?
    General Mattis. Senator, the first thing--we don't lack 
military capability. It's been--sequestration has stressed it. 
What we lack is the political will and the definition of the 
political end state. If we get--if we figure out whose side 
we're on, here, then when you look at what Maliki did to break 
trust with those tribes, I think the new Prime Minister has 
probably got a 50-50 chance of restoring that trust. It's hard. 
Putting in the Sunni Minister of Defense was a great step, I 
think. But, we're going to have to decide if--what the end 
state is, and then we're going to have to commit resources that 
we've not committed yet.
    Senator Donnelly. I am out of time, but I just want to 
thank all of you for coming here today, for continuing your 
service, because the people of our country continue to need 
your help. Thank you very much.
    Senator Ayotte. Senator Sullivan.
    Senator Sullivan. I, also, want to thank you, gentlemen, 
for your--for being here today, your great service, tremendous 
service to our country.
    So, I think there's broad agreement that seems, certainly 
among the three of you, I think among all the panelists here, 
on the importance of a comprehensive strategy that integrates 
all elements of American power, all of our resources. And we've 
talked about economic, we've talked about diplomatic, we've 
talked about finance. Certainly, we are focused on military.
    One instrument of American power, though, that we haven't 
really discussed, hasn't really come up in the conversations 
yet--and maybe it's because, 10 years ago, it didn't exist as 
an instrument of power--is American energy. As you know, we are 
once again on the verge, if we haven't already gotten there, on 
being the world's energy superpower, a position that we used to 
occupy, several decades ago. And now we're back. Oil, gas, 
renewables.
    And, from the perspective of dealing with long-term 
national security threats, whether it's Iran, whether it's 
Russia, whether it's China, whether it's ISIS--I just want to 
start with two questions for you, General Keane. How critical 
and beneficial do you think it is, in dealing with these 
longer-term threats, that we now have a tremendous resource in 
America, which is energy, that--not only for our own citizens, 
but that we can be exporting to our allies? And do you think it 
undermines America's security when we undertake policies, as 
the current administration does on a regular basis--this 
weekend is another example--where we undermine policies that 
enable us to responsibly develop our own energy resources that 
can benefit us as a nation and our National security?
    General Keane. Well, certainly, energy independence for the 
United States and the rapid growth that's taken place, you 
know, most recently, is certainly an added measure of our 
National security. And I'm delighted to see it. And my own view 
of it--I'm not an energy expert--is that certainly we should do 
whatever we can to ensure that independence--and I'm convinced 
we can still protect the environment while we're doing it.
    Its relationship to the world is significant. I mean, you 
hit on it. Europeans are tied like an umbilical cord to Putin 
and Russia because of the energy dependence. We can help with 
that if we changed our policies, in terms of particularly 
exporting natural gas, as you know.
    But, also we have to be realistic. Radical Islam and what 
is taking place in these countries, laid out on this map, is a 
fundamental geopolitical movement, and they're operating in 
countries where there are not democracies and where there are 
significant conditions that have--providing a groundswell for 
this kind of activity. They would be doing that, regardless of 
Saudi oil, or not. That--we've got to understand that. So, if 
we pull the plug of any dependence in the Middle East on oil, 
which we're on the way to doing, it doesn't change the harsh 
reality of Iran's march to regional domination and radical 
Islamist march to geopolitical control of Muslim countries. 
That's still there, and that threat to Europe and to the United 
States as a result of it would exist, regardless.
    Senator Sullivan. Thank you.
    I'd like to move from the strategic to the tactical. I've 
had the honor, the last 18 months, as serving as a commanding 
officer of 6 ANGLICO in the Marine Corps Forces Reserves. In 
fact, I was just out with some of my ANGLICO marines, Fort 
Lewis, Washington, this past weekend.
    General Mattis, the marines of 6 ANGLICO send their 
greetings.
    As you know, that mission is--of the ANGLICO units is to 
deploying small forces with foreign armies, calling airstrikes, 
other supporting arms.
    General Mattis, this question is for you. To make progress 
on the ground against ISIL, is there any scenario that you 
could see that would not include integrated supporting arms 
firepower? And are there foreign forces that can do that, or is 
that something that is an area that is pretty much needed to 
have American troops, whether ANGLICO units or Special Forces 
units, doing that kind of mission?
    General Mattis. Senator, there are other forces--the 
Australians, Canadians, British, French--that can do the close-
air coordination integration, but no one has the capacity or 
probably the frequency of training that permits us to do it 
best. I would only suggest that, as you look at this and the 
kind of forces that can work with allies, this committee should 
prioritize them, whether they be the Army Green Berets, the 
Marines ANGLICO, and even to the point of looking at our Army 
brigades today, our Marine battalions, differently than we 
looked at them as just conventional warfighters 10 years ago. 
They have capabilities to do much of this and to give a--kind 
of steel the spine of the allied forces if we have the 
political will to put them in.
    Senator Sullivan. Great. Thank you very much.
    Senator Ayotte. Senator Hirono.
    Senator Hirono. Thank you very much, Madam Chair.
    And I want to thank all three of you for your very 
substantive and provocative testimony.
    General Keane, you described life in Mosul, where schools 
are just set up to radicalize the population, where just 
everyday life has changed. And one wonders how long ISIL can 
so-called ``govern'' in this way. So, you're indicating that we 
need to be--``we,'' the United States--should have people on 
the ground, not in--boots on the ground, when the people in 
Iraq finally get to the point where they want to fight ISIL. 
Now, the question becomes, then, When is that time? And would 
you say that that is perhaps a major role for our intelligence 
community, to inform us as to when that critical point is that 
we need to be there to help the people fight back?
    And I'd also like to ask that question of General Keane, 
because, General Keane, you noted the importance of our 
intelligence community in establishing priorities.
    General Keane. Yeah, the--listen, that's a very tough 
question, Senator. The only thing I can--in helping you with 
that, is just look back a little bit.
    We had an insurgency begin in Iraq in the spring and summer 
of 2003. The al-Qaeda--led by Saddam Hussein and his people--
the al-Qaeda fell in on that very quickly. And then in 2006, 
some 2 and a half, 3 years later, Sunni tribes began to--who 
were aligned with them initially--began to push back. And much 
of it was literally driven by women, frankly, because the women 
were putting pressure on the tribal leaders, that they did not 
want their children and their grandchildren to live like this 
for generations to come, with seventh-century Talibanism, under 
the foot of what al-Qaeda was doing, controlling every aspect 
of their life, from diet to costume, behavior, Shari'ah law, et 
cetera.
    That frustration is already there. I do believe that, given 
the fact that, particularly in Anbar Province, this has existed 
before, the accelerant will be faster and not take 3 years.
    I'm going to make an assumption that our intelligence 
community, with the use of informants and others, are 
monitoring what is taking place, and we have some sense of what 
the conditions are, and, more importantly, what the attitude 
and behavior are of the people, themselves.
    But, let's also be honest, that there's just so much those 
people in Mosul will be able to do against a well-armed and 
well-equipped force, as ISIS is, in Mosul and in its suburbs. 
To eject them out of there will take a conventional military 
force to do that, supported by air power and some pretty good 
intelligence on where people are.
    The attitude and support of the people will be a factor, 
but I don't believe, in of itself, it will be decisive. What 
will be decisive is the use of military force to defeat that 
military organization that's there.
    Senator Hirono. And the conventional military force should 
be the Iraqi military, themselves, with----
    General Keane. Yes.
    Senator Hirono.--possible air support from----
    General Keane. Yes----
    Senator Hirono.--from allies.
    General Keane.--very much so. Well, it's--Peshmerga, as you 
know, who is the militia from Kurdistan, who have the will to 
fight, and the skill--they don't have all the weapons they 
need--Iraqi Army--and, by the way, the Iraqi Army probably is 
in a little bit better shape, based on some recent reports I 
just got this weekend from people who returned, than many of 
the media reports are suggesting. But, second--and thirdly 
would be the Sunni tribes.
    Now, the Shi'a militia are a part of this, and they have 
strengthened the Iraqi Army very considerably. The best 
fighters in the Shi'a militia are Iranian-backed Shi'a militia.
    Senator Hirono. General, I'm sorry to cut you off.
    General Keane. Go ahead, I'll stop.
    Senator Hirono. I have a couple of other questions, 
particularly with reference to the rebalance to the Asia-
Pacific.
    And, General Mattis, I think you indicated in your 
testimony the importance of the Navy. And clearly, Admiral 
Fallon, you have a familiarity with what's going on in the 
Asia-Pacific area, because of your previous position.
    So, the Navy is intending to put 60 percent of our ships in 
the Asia-Pacific area. So, for the two of you, I'd like to 
know, How is this viewed by China? How is it--how is this kind 
of resource placement, due to our rebalance, seen by our allies 
and by our enemies? Just very briefly, if--please comment.
    General Mattis. Senator, I think, very briefly--this is a 
little bit speculative, now--I think 60 percent of too few is 
probably still too few. But, I think that anything we can do to 
reassure our ally that their economic, territorial future is 
not going to be under the veto of the Chinese would be welcome 
out in the Pacific.
    Senator Hirono. Admiral Fallon?
    Admiral Fallon. Aloha, Senator.
    Senator Hirono. Aloha.
    Admiral Fallon. I think this whole discussion of the pivot 
has been distorted and not handled particularly well at all. 
So, just a couple of facts:
    So, 60 percent versus 50 percent, which is what we in the 
Navy--and we'll just stick to the Navy now--the Navy was pretty 
well split 50-50 during the cold war. As soon as the cold war 
ended, internal Navy leadership started to press to rebalance, 
way before this became a recent political slogan, and--because 
it made sense, because of the vast size of the Pacific, and so 
forth. But, that 10 percent, if you just take one 
denomination--aircraft carriers--that's one aircraft carrier, 
based on today's fleet. And, by the way, that carrier is 
already in the Pacific. So, much of this is just chatter, 
pretty mindless. Again, take another measure, the entire fleet, 
at 280 ships, 10 percent of that's 28. So, what are we really 
talking about? Not a whole lot.
    But, the perceptions are all over the place. And, depending 
on who you are and in what country you are in Asia--if you're 
Chinese, you use this as a great example of, ``See? We knew 
that you guys are coming to, you know, encircle us. It's yet 
another blah, blah, blah,'' and a justification, in some 
respects, for them to push to increase their military 
capabilities.
    So, I think it's a--it's overblown. The reality is, we need 
to be engaged in the Far East, in the Asia-Pacific. And, given 
the size and scope of the place, it makes all the sense in the 
world to have our fleet tilted that way, given the realities in 
the world. We need to work very closely with our long-term 
allies out there--the Japanese, the Australians, and others, 
and those who support us. But, at the same time, we have got to 
work this difficult task of trying to figure out how we 
collaborate, in ways that make sense, with the Chinese for the 
long term. It's a huge country, huge impact, blah, blah, blah. 
You know the impact economically in this country.
    And so, we don't need to have another cold war. We don't 
need to have another road to conflict with these guys. We have 
very interesting, deep relationships in every aspect, except 
the military-to-military. That's where the emphasis needs to 
be. I think our leadership, particularly the military 
leadership in our country, is working this right now, and we 
need to continue it.
    Senator Hirono. Thank you very much.
    My time is up.
    Senator Ayotte. Senator Tillis.
    Senator Tillis. Gentlemen, thank you for your leadership 
and your extraordinary record of service.
    General Mattis, you made a comment that we seem to be at 
about a low point with our Middle East policy or effectiveness 
over the last four decades. Can you point to anything, say, 
over the last 6 or 8 years, that you think is something 
positive that we've done that we should build on, and in the 
context of the number of things that you've said that are not 
working?
    General Mattis. Yes, sir, I can. We've been somewhat in a 
strategy-free environment for quite some time. It didn't start 
with this administration. And so, we've been wandering. We have 
policies that go on and come off. But, I think if you were to 
look at the fact that Maliki was pushed out of office, with our 
full support there inside Baghdad, I think that was a positive 
step. We cannot get Iraq to fight this enemy when they have a 
Prime Minister who's basically declared Kurds and Sunni persona 
non grata in their own country. I think the engagement--the 
President going to Saudi Arabia as we speak is certainly a 
positive point.
    You know, I'd have to think more, Senator, but I'll take it 
for the record. If I think of something more, I'll get back to 
you. We've disappointed a lot of friends out there, from Tel 
Aviv to Riyadh, from Abu Dhabi to Cairo.
    Senator Tillis. General Keane, you mentioned the need to 
equate, I think, radical Islamists to Nazis and Communists of 
the past. Why do you think it's important to use those words? 
And why do you think it's dangerous not to?
    General Keane. Well, I use it because it's something we 
coped with in the past rather successfully, and they were 
ideologies, themselves, you know, that another generation had 
to deal with. We built--we beat Naziism with brute force. And I 
think Communist ideology that expresses simplistically--it's 
only more sophisticated than that--but, simplistically, I think 
we beat it with better ideas. I think it's a combination of 
both of those that we need, to deal with radical Islam. We 
obviously need to use force. But, that alone will not solve 
this problem.
    And it--the ideology also has to be dealt with. After all, 
what they are running from and why they do not want the United 
States in the region, it's not because--just because of our 
guns. It's because of our ideas. It's democracy and capitalism 
that is an anathema to them, and they don't want our ideas 
polluting those governments that they're attempting to 
overthrow so that they move in a direction of those ideas.
    So, that's why I used that, because we want to run from the 
ideological aspect of this thing, and you have to face it, and 
you have to explain it, and you have to undermine it, and you 
have to counter it.
    Senator Tillis. Admiral Fallon?
    Admiral Fallon. Senator, I think that one of the problems 
today with this radical jihadist stuff is that we give it 
unmerited credibility. I don't view this problem in the same 
context as I view, for example, the need to make sure this 
country is fundamentally sound in its political, economic, and 
other aspects going forward for our future, nor do I think that 
it's in the same relative merit as our long-term relationship 
with China.
    And the extent to which we hype everything that seems to 
happen with these characters, I think, is one of the reasons 
why they're attractive to the disenfranchised and the folks who 
are struggling in other countries that see this as a chance to 
gain glory and go help out the crusade.
    So, I think we'd be well served to try to tamp this stuff 
down. This army, if you would, in Iraq and Syria is certainly 
not the 82nd Airborne or the 1st Marine Division, by any means. 
It's a pickup band of jihadists that share blah, blah, blah--
we've gone through that. They are not in the same league with 
our capabilities. And I think the extent to which we continue 
to hype them is really counterproductive to what we're doing, 
or what we should be doing.
    Senator Tillis. Thank you.
    You know, there's been a lot of discussion in the Middle 
East. Some of you touched, in your opening statements, on 
Russia's incursions. What more attention should we focus on, 
and what should we expect, if you had a crystal ball, to see in 
the Ukraine and other areas in that region if we don't act? 
What specific steps should we be taking, beyond what we've 
done, to send the message--we talked about economic actions, 
but other actions--to send the message to the Russians that 
what they're doing is unacceptable and that we're better 
positioned to react to them?
    General Keane. Well, I said--mentioned some of those in my 
remarks. I think we have to admit that--to ourselves, that our 
diplomatic efforts, using sanctions as the mainstream, have 
certainly not dissuaded Putin from what he's attempting to 
achieve, what I think is a new political order in Eastern 
Europe, post-cold war. You know, whether he's a strategic 
thinker or a tactical thinker and he's impulsive and he reacts 
to sort of current events, I think, is beside the point. I 
don't think we should waste a lot of time about that. I mean, 
the fact of the matter is, he is acting, and he is taking 
advantage of the situation. It is a huge opportunity for him. 
He senses that Europe has feckless leadership and is probably 
not going to respond. And he also puts the United States in 
that category. And he's advantaging himself as a result of it.
    What do we have to do? We have to convince him that we're 
serious, that NATO really matters to us, that Eastern Europe 
does really matter to us. Otherwise, I think he keeps coming. 
And certainly, we want to avoid a military conflict with them. 
And I think there are steps that we can prudently take to do 
that. One is what was discussed before about helping with 
energy and removing some of the energy dependence that the 
Europeans have on them. But, second, listen, the threat has 
shifted. So, we have a threat in Eastern Europe, on NATO's 
eastern flank. Let's shift NATO forces to that area, not just 
temporarily in and out, but let's put some permanent bases 
there and demonstrate to him that Article 5 really does matter.
    I'm absolutely convinced, in his conference room, he has 
people sitting around the table with him saying, ``Do we really 
believe that Anglo-America will respond to a threat that we 
impose with disguised soldiers in Estonia?'' And they're 
answering that question. But, we don't want that question on 
the table. We want to take that question off the table. And I 
think we can do that.
    Now, whether we put the missile defense back into where we 
took it out at the beginning of this administration, I think 
that needs to be relooked. I'm not confident that that was all 
right, to begin with, dealing with what that threat was. It was 
the Iranian ballistic missile threat. So, I think that needs to 
be relooked, in terms of where we place it.
    But, certainly, it is a disgrace that we haven't been able 
to provide arms to the Ukrainians, who want to push back and 
have a history of courageous military interaction to protect 
their own people. They're not asking for anything else. They're 
not asking for our troops, they're not asking for air power. 
All they wanted was some weapons. And we've stiffed them on it. 
Makes no sense to me whatsoever. What a message that sends to 
Putin. It's not surprising he's on the move again in eastern 
Ukraine.
    The--our diplomatic efforts have not worked, because they 
don't have anything behind it. We need to put some things on 
the table that will strengthen our diplomatic efforts, and we 
haven't been doing that.
    Senator Tillis. Thank you, Madam Chair.
    Senator Ayotte. Senator Manchin.
    Senator Manchin. Thank you very much.
    Let me thank all three of you for your service, but, more 
importantly, for the testimonies you've given today. You've 
been very frank and direct.
    I think that what General Fallon said--Admiral Fallon said, 
basically, is, we have to deal with the future in what we're 
doing today and what we're going to do in the future. But, 
hindsight being 20-20, you know, you look at the All-Volunteer 
military that we have today--I run into an awful lot of people 
in our little State of West Virginia who have served because 
they were drafted or because they enlisted, but they were 
serving. Today, that's less likely, with the volunteer, and 
they all believe that if we had had some intermingling of a 
volunteer versus draft, that we wouldn't have had a 13-year 
war, we've had better decisions, better direction, if you will, 
because the people would have demanded it.
    Hindsight being 20-20--I get this question asked a lot--we 
took out Saddam Hussein in Iraq. Should we have ever entered 
Iraq? Should we have declared war on Iraq? And we went in and 
took him out. Is Iraq better, safer than it was before? 
Qadhafi, we took Qadhafi out. Is Libya in better shape than it 
was before? And now we're in this thrones of Syria. What do we 
do in Syria? Do we take out Assad? And what would that leave in 
Syria?
    Also, we're going to be dealing the fact--do we sign on 
with the sanctions of Iran, double down? Do we give the 
President the ability to negotiate up to March 24th, then 
double down?
    And you all have been forthright with some of your 
comments, and I'd love to know what you think about the--first 
of all, Iraq. Should we, or should we have not? Should we in 
Syria? And how much effect do you think we'll have trying to 
find people that'll fight. ISIL will then turn and fight Assad. 
And our commitment--as I'm understanding it, the Saudis and the 
Turks and everybody else want us to commit to fighting and 
taking out Assad if they're going to help us fight and take out 
ISIL.
    So, with that, I'll open the door and see where you all go 
with it. And we'll just start down the row--down the aisle--
we'll start with you, Admiral Fallon, first.
    Admiral Fallon. Well, Senator, I would not go back and 
speculate on the merits of how good or how bad each of those 
decisions were, based on where we are, except to say that----
    Senator Manchin. Well, the reason I've asked that, sir, is 
because we have to make a decision of--Syria is close to making 
that same decision. Do you learn from whatever we've done?
    Admiral Fallon. So----
    Senator Manchin. Okay.
    Admiral Fallon. So, I think the lesson I would take is, 
okay, we made a decision, and where are we now?
    Senator Manchin. Gotcha.
    Admiral Fallon. And, you know, what are the chances that 
we're going to be in a different place if we take a similar 
decision, whatever.
    But, I'd like to go back, if I could, to your opening 
comment, because I think it's the most important thing, to me, 
that--maybe not the most important--the thing that concerns me 
the most for the long term as I look at our country and our 
ability to address national security issues and the future 
health of this nation. And that is the very, very small 
percentage of this population that is in any way, shape, or 
form actively engaged with the uniformed services. So, we got a 
lot of rhetoric in the last, you know, half-dozen years or so 
about this, but, as we go forward, what I see that really 
concerns me is that there's a growing gap between the few that 
are actively engaged in this--and I get the feeling that a lot 
of people kind of think, ``That's just--it's a job. You know, 
this is their job. They're going to go fight this thing.'' So, 
is that what we really want to have in this country? And are--
do you think we're going to make better decisions if we have 
that view, that we have this paid professional army that goes 
off and takes care of business while everybody else does their 
own thing? I think that's a huge problem, and we ignore it at 
our peril.
    Thank you, sir.
    Senator Manchin. General Keane?
    General Keane. Yeah. Starting with the All-Volunteer Force, 
I served, as Jim and Fox did also, in a draft military, and 
transitioned to our Volunteer Force, post-Vietnam. And, as a 
result of that, I think, by anybody's judgment, that force is 
probably the best this country has ever put together, and 
there's nothing quite like it anyplace else in the world. I 
attribute that to a couple of reasons. One, the force looks 
like America in its diversity, ethnicity, et cetera. And, two, 
they want to be there, and they want to accept the burden and 
the responsibility that goes with it.
    In that draft military, we had so many there that didn't 
want to be there, it was frustrating to deal with them. We did 
a lot of social rehabilitation for people. I don't believe 
that's what a global power is about, frankly. I think the 
skills that are needed of the military today, it's a 
prerequisite that we have the kind of people in the 
organization that are willing to make the sacrifice.
    I accept what Fox is saying. I have similar concerns. One 
percent are involved, and, you know, we've grown apart from the 
American people as a result of a Volunteer Force. But, 
nonetheless, I don't think going back to revisit the draft and 
conscription is the answer to that.
    Second, on Iraq and Syria, Iraq itself--I was a four-star 
at the time. I didn't think we should--I was shocked that, in 
the first week in December of 2001, we had made the decision to 
go to war in Iraq. Just after we toppled the Taliban, I was 
asking the question, ``Why?'' and ``When?''--et cetera. I could 
see the need for it, at some point, certainly, because of the 
WMD issue, but I--my view at that time was to stay on top of 
the al-Qaeda, which was the reason we were in Afghanistan, and 
run these guys into every hole that they're in until we get rid 
of them. That's kind of where I was. And if that meant dealing 
with Pakistan and their resistance, so what? But, after what 
took place here, that was my motivation.
    In Syria, listen, Syria is as complex a thing as we've had 
on our plate. And you can be on any side of this issue and make 
reasonable sense. The only thing that concerns me about this--
and I respect Jim when he says, ``I want to know what the 
political end state is.'' I think what we try to achieve in 
Syria is, Assad goes, some form of that government stays, in 
partnership with moderate forces, to help run that country. So, 
you're looking towards a political solution.
    But, I just know that we're on a collision course that--
right now in Syria, with ISIS expanding control and dominance 
inside the country at the same time we're trying to push back 
on them with our ground forces that's being pounded by the 
Assad regime. And if we continue to let that happen, the Free 
Syrian Army and the force that we're trying to support is going 
to go away. And that's the reality of it. Do you do something 
about that? Do you try to make some attempts to do that, 
dealing with all of the geopolitical complications that that 
entails? My answer to that is yes. I think we should try.
    And listen, it is hard. I'm not suggesting it's not. But, 
like most human endeavors, it's not hopeless, either.
    Senator Manchin. Madam Chair, may I just indulge and ask 
the--General Mattis if he would--
    General Mattis. Thank you, Senator.
    Senator Manchin.--on the volunteer versus the--
    General Mattis. Yes, sir. Sir, I think the Volunteer Force 
has been good for the military. I think it's been bad for the 
country.
    I would only add, on the decision to invade a country, to 
go into a--I don't know what our policy is on Syria, I don't 
know what the political end state is that people want to 
accomplish. And if you wander into a war without knowing that, 
you're probably going to get lost on your way to somewhere.
    I would just tell you that the--we should never go into 
these countries unless we have a reasonable chance of a better 
outcome. And war is fundamentally unpredictable, so that means 
a long-term commitment with a clear political end state and a 
fully resourced, sound strategy to get there. And otherwise, 
don't go in and then look at Libya in your rearview mirrors, 
anywhere else, and wonder what you've done.
    Senator Manchin. Thanks, Madam Chair.
    Admiral Fallon. Senator, could--I don't want to leave this 
with the impression that I endorse a return to conscription. I 
don't, at all. But, I think that we ought to be seriously 
considering how we motivate people for service in this country, 
not just in the military, but in a range of things. But, the 
way we're headed right now causes me a lot of concern.
    Senator Manchin. I keep thinking it can be a blend between 
the volunteer that we have now, with a pool of--draft, if you 
will--or--
    Admiral Fallon. If we had a--an atmosphere in which we 
encouraged service in this country, I think we'd have no 
difficulty filling the ranks of the Armed Forces with people 
that would volunteer. If that were the mindset of the majority 
of the people in this country.
    Senator Manchin. Well, people have just said that, 
basically, if we had--if we showed the volunteer--if we had an 
All-Volunteer Army during Vietnam, we'd still be in Vietnam.
    Senator Ayotte. Senator King.
    Senator King. Thank you, Madam Chair.
    Somebody asked me, up in Maine recently, what my job 
consisted of. And I thought for a minute, and I said, ``It's 
applied history with a minor in communications.'' And your 
testimony today has been ample evidence that this is really all 
about history. And I've got a lot of favorite quotes from Mark 
Twain, but my alltime favorite is that, ``History doesn't 
always repeat itself, but it usually rhymes.'' And that's what 
we're talking about here today.
    Talking about history. Would you all agree--and I don't 
need lengthy answers--that leaving Afghanistan prematurely 
would be a major strategic mistake for this country?
    General Mattis. Yes, sir.
    General Keane. Yes.
    Senator King. Admiral Fallon? You agree?
    Admiral Fallon. Yes.
    Senator King. I--to me, it's--given all the progress--and I 
don't think the American people realize the amount of progress 
that's been made in Afghanistan, in terms of the lives of the 
people. It's fumbling the ball on the 5 yardline. And a modest 
additional commitment, in terms of people and treasure, would 
maintain those benefits. And I think--General Keane, you 
testified--without that, it's lost.
    Admiral Fallon. I think one of our problems--the legacy in 
Afghanistan is that we've already done this twice, been there 
and bailed out. And there's a lot of concern that we could do 
it again.
    Senator King. Well, particularly when we finally have a 
leader in the country that we can work with and has some hope 
of real political leadership in the country.
    Second question. I couldn't help but hear echos--General 
Keane, particularly in your testimony--we're talking about 
ISIS, we're talking about radical Islam, and the--all the 
language could be applied to the Communists in the 1940s and 
1950s--a radical ideology that was bent on world domination, 
putting America out of business, all of those kinds of things. 
The strategy then was essentially containment. We never invaded 
Russia. We didn't have direct military confrontation. But, 
the--George Kennan's famous strategy was containment until 
eventually it imploded because of--its ideas weren't as good as 
ours. Isn't that a guide, anyway, for a strategy with regard to 
this threat that we're facing today?
    General Keane. Well, I definitely agree with the--what a 
broad strategy and the political and military alliances that we 
form to deal with it. But, the facts are, this movement has 
attacked us, and it's crushing our interests in the region, as 
well, by physical means. So, that has changed the dimension of 
it quite a bit.
    Senator King. General Mattis?
    General Mattis. Senator, I think that, in a globalized 
world today, where there--we're perhaps one airline seat away 
from somebody exporting this right into Paris or wherever 
else--we have to be very, very careful thinking that we can 
contain this without having ramifications on our economy, on 
our friends. For example, we may be energy independent in North 
America, or will be very soon, but the global price of oil on a 
globally traded commodity will be set out of the Middle East. 
The world's economy would--and it would immediately impact from 
Maine to California if it got, you know, the oil cut off there. 
The fact that we are oil independent, energy independent, would 
not change. So, the idea we could contain this in that region 
and let all hell break loose there, you know, I don't think 
that would work in this case, even though you--I do agree with 
you that the internal contradictions inside Communism and the 
internal contradictions inside Islamic--political Islamic 
jihadist thinking will rot them from the inside out, just like 
with the Communists.
    Senator King. But, I--I think you're right, the--where the 
historic parallel breaks down is the nonstate-actor piece of 
this, and also communications and--I think you mentioned 
seventh-century. I don't know which century it is, but the 
danger we're in now is that we're dealing with people with 
seventh-century ethics and 21st-century weapons. It strikes me 
that intelligence is absolutely one of the key elements in this 
battle, perhaps more so than ever.
    Let me conclude with a couple of questions about Iran. What 
are--what do you--we're engaged in this negotiation that's 
going to come to some kind of conclusion, we believe, in the 
next 2 or 3 months. I don't think there's much likelihood of an 
additional extension. What if those negotiations fail? What are 
our next steps if we end up with either no deal or a deal that 
is just not acceptable, in terms of containing Iran's 
ambitions?
    General Mattis. Senator, we have to limit their ability to 
enrich fuel. That's critical. And we have to have an--a 
rigorous inspection regime that ensures that we have confidence 
in it, knowing the denial and deceit they've used to hide this 
weapons program in the past.
    If it fails, I think we would have to reenergize and 
elevate the economic sanctions, perhaps even to the point of a 
blockade, to--and then we should move strongly against the 
situation with Lebanese Hezbollah and Syria. I think that a 
defeat of Iranian interests in that area could reverberate 
right back into Tehran, and the Iranian people would be in a 
position, like with the Green Revolution, perhaps to come out 
in the streets. But, the oppressive powers are strong, and the 
alternative to the economic and some of these peripheral 
efforts working would be--would probably end up being war.
    Senator King. It was interesting--I was just in the Middle 
East last weekend, and--in talking with people in the Gulf 
states--it was interesting to me--again, in history--we know 
that we're dealing, in some ways, with a--an ancient civil war 
between Sunnis and Shi'ites, but it--in--the Gulf states are 
very worried about Iran's expansionism, even outside of the 
nuclear area. And we're now talking about an ancient civil war 
between Persians and Arabs. I think many people don't realize 
that Iranians are not Arabs and that this is--this goes back to 
Darius. I mean, you've got--in some ways, you've got people 
trying to recreate the Ottoman Empire, and other people trying 
to create the Persian Empire. And here we are, trying to wend 
our way through 2,000-year-old disputes.
    That's not really a question, but, General Keane, your 
thoughts.
    General Keane. Well, I think our behavior with Iran through 
the years has been pretty atrocious. Frankly, you know, they 
bombed our marine barracks, as Jim mentioned, using proxies. 
They took down our Embassy in Lebanon. They took down the 
Annex. They took down the Kuwait Embassy. They took down Air 
Force barracks in Khobar Towers. General Lloyd Austin, who 
commands CENTCOM, believes that Iranian-trained militia by 
battalion commanders in--from Hezbollah, who did it at two 
training bases in Iran--we knew where those bases were--are 
responsible for killing close to 2,000 of the 4400 Americans 
killed in Iraq, because they developed an IED exclusively to be 
used only against Americans, not against Iraqi military and not 
against the Iraqi people.
    These are the things that we have already accepted. Not a 
single--
    Senator King. Through a whole series of--
    General Keane.--Republican or Democratic President has ever 
counted any of that.
    Senator King. Yeah, I was going to make the point that it's 
a nonpartisan nonresponse. A bipartisan nonresponse.
    General Keane. It is a bipartisan nonresponse.
    So, here we go into negotiations by a regime that--whose 
stated objective is to dominate the region. They are beginning 
to do that. And they want nuclear weapons to guarantee their 
preservation and also to help in their geopolitical objectives. 
The beginning of these negotiations--we've already given up too 
much. We're permitting the highly enriched uranium and 
thousands and thousands of centrifuges as the going-in deal. 
We're already behind. The only negotiation that should have 
been done was, ``Dismantle the program and we'll take off the 
sanctions.'' But, that's not where we are.
    So, I believe, if it fails, we go back to tough, crippling 
economic sanctions, bring in the National Security Agency, have 
the Director there lay down in front of them what they could do 
to get after Iran to change its behavior. We're on a collision 
course with them. I don't agree with Fox, that we can sit down 
and have more dialogue with these guys and somehow we'll work 
towards mutual interests in the region, when their stated 
interests are truly regional domination and we have already 
given up too much to them as we speak.
    Thank you.
    Senator King. I want to thank these gentlemen, Madam Chair. 
This has been one of the most informative, provocative, and, I 
think, helpful hearings that I've participated in since I've 
been here.
    Thank you so much for your direct and honest testimony.
    Thank you, Madam Chair.
    Senator Ayotte. I couldn't agree more with what Senator 
King just said. And appreciate all of you. I think we've got a 
couple of second-round questions, and appreciate all of you 
staying here.
    I wanted to follow up, General Mattis, on testimony that 
you gave about our detention policy. You had said, ``We've 
observed the perplexing lack of detention--detainee policy that 
has resulted in the return of released prisoners to the 
battlefield. We should not engage in another fight without 
resolving this issue up front, treating hostile forces, in 
fact, as hostile.''
    Could you help us understand, What are the consequences of 
a lack of detention policy, in terms of our National security? 
And, as I count it, we know we've confirmed at least 107 
terrorists, that were formerly detained at Guantanamo, have now 
been confirmed to have reengaged in terrorist activity, and an 
additional 77 are suspected of doing so. So, what are the 
implications of this lack of detention policy? Why does it 
matter to us? And also, what does it impact us, in terms of 
gathering intelligence, as it relates to interrogation policy?
    General Mattis. Ma'am, the implication, first and foremost, 
I believe, is that we go into a fight and we're not even 
certain of ourselves enough to hold as prisoners the people 
that we've taken in the fight. For example, in 1944, we didn't 
take Rommel's troops, who were in POW camps in Texas, and let 
them go back and get another shot at us at Normandy. We kept 
them until the war was over. We didn't start this war. And if 
an enemy wants to fight or be a truckdriver, we didn't say his 
radio operators could be released because they didn't have a 
significant role. If you sign up with this enemy, they should 
know, ``We're coming after you'' if the President, the 
Commander in Chief, sends us out there, and, ``If taken 
prisoner, you'll be prisoner until the war is over.'' I mean, 
this is pretty--this is not Warfighting 301 or Advanced 
Warfighting. This is kind of 101, ma'am.
    The biggest concern I have, having been in the infantry for 
many years--if our troops find that they are taking someone 
prisoner a second time and they have just scraped one of their 
buddies off the pavement and zipped him into a bag, the 
potential for maintaining the ethical imperative we expect of 
our Armed Forces is going to be undercut if, in fact, the 
integrity of our war effort does not take those people off the 
battlefield permanently if taken prisoner. In other words, they 
will take things into their own hands under the pressures of 
warfare.
    So, I think that what we have to do is have a repeatable 
detainee policy so that, when we take them, we hold them, and 
there's no confusion about their future, not among the enemies' 
minds, certainly not among our own. I would go by the Geneva 
Convention and maintain them, with Red Cross oversight, until 
the war was over.
    Senator Ayotte. Thank you, General.
    I wanted to follow up. Let me just say, General Keane, I 
fully agree with what you have said about providing defensive 
arms to Ukraine. I think that it absolutely is a disgrace, and 
I can't understand why this administration has not provided 
these arms so that they can defend themselves against Russian 
aggression. And I think we're sending the wrong message there.
    And I think the other consideration for all of us in this 
is: In signing the Budapest Memorandum, why would any nation, 
again, give up its nuclear weapons when we won't provide basic 
defensive arms when they are faced with aggression on their own 
territory? And I would like you to comment on, you know, What 
are the implications of that, as we ask, for example, other 
nations to give up their nuclear weapons? I don't understand 
why they would do it, when they see our behavior here.
    General Keane. Well, I totally agree. I mean, we went back 
on an agreement, we went back on our word. I believe that's one 
of the reasons that Putin is looking at NATO, itself, and he's 
saying to himself, ``Is this still the organization that helped 
force the collapse of the Soviet Union back in '91, or is--has 
this organization lost its moral fiber?'' So, I think when we 
break agreements like that, even though Ukraine was not a 
member of NATO, clearly the deal that was made was in their 
interest as well as the world's interest, and we foreclosed on 
it. And shame on us, you know, for doing that. And I do believe 
it has significant implications, not just to the--to other 
countries who we're--we believe are our friends, but because it 
does embolden and encourage Vladimir Putin. I mean, common 
sense tells you it does, and his behavior certainly underscores 
that.
    Senator Ayotte. Wanted to follow up on the discussion on 
Iran. And looking at their behavior--I think, General Keane, 
you had said that we've already--we're already behind on this 
deal, in terms of what we've agreed to. So, as we look at this, 
the negotiations that are going on, what does a good deal look 
like? And, given the implications of this for our National 
security, I firmly believe that Congress should have a say in 
that agreement and what is a result. But, what does a good deal 
look like, one that we can ensure that they can't immediately 
gear up their nuclear weapons program again?
    And finally, I don't see, in any of these negotiations, any 
resolution whatsoever to their missile program, their seeking 
IBM--ICBM capability that, obviously, can hit our East Coast, 
and also their activities as the largest state sponsor of 
terrorism.
    So, can you help us understand, What should we be looking 
for? And what about those two other issues that I think are 
very important to us, as well, in terms of their activities?
    General Keane. Well, as I've said, I don't think there is a 
good deal, here, at all, because what we're arguing over is the 
technology that will drive the time to develop a weapon. So, 
our negotiators are trying to pull out some of those 
technologies to extend the amount of time it will take to 
develop a weapon.
    But, we've been in this dance step before with the 
Iranians, going back 15 years in these negotiations, and it's 
always two steps forwards and one step back. And that's where 
we are. I have absolutely no confidence that, if we made a 
deal, that the Iranians will not undermine that and move fast-
forward to be able to develop a nuclear weapon much faster than 
what we think. And I think history is on the side of that 
argument, frankly.
    So, I am not optimistic at all about this. The--I will give 
the administration credit for well-intentioned motivations, 
because--I don't want to get into that. And I can't, because 
you have to get into people's heads. But, the fact of the 
matter is, we should be very concerned about a bad deal, here, 
because I believe we're on the path--on a path to it.
    Let's be honest with ourselves. This regime is--the Supreme 
Leader is not giving up on having a nuclear weapon. Anybody 
that thinks that is incredibly delusional and naive. He is on a 
path to it. He will achieve it. He has got in charge now, not 
Ahmadinejad, you know, who most people had no respect for, even 
inside his own country. He has got a sophisticated leader that 
is working this very well to achieve his objectives, 
geopolitically. And I believe he is on that path.
    So, I'm not confident at all. And the only deal that makes 
any sense to me is, dismantle the program and verify it's 
dismantled, and pull the sanctions. But, we're not there. We 
will--this administration will not do that. We are already past 
that.
    Senator Ayotte. I wanted to--yes, go ahead.
    General Mattis. Madam Chair, I think the economic sanctions 
that drove them to the negotiating table worked better than I 
ever anticipated, and the administration had to try. It gave us 
credibility with the international community. There wasn't a 
rush to war. It also, I think, puts us in a position to define 
what a good deal is, which goes to the heart of your question. 
I think it's a rigorous inspection regime that gives us 
confidence that they will not have a breakout capability and no 
ability to enrich uranium, beyond peaceful purposes, at all. 
Now, if that cannot be achieved, then we've got a bad deal.
    Senator Ayotte. Admiral Fallon?
    Admiral Fallon. Somebody made the point earlier that 
history doesn't exactly repeat itself. But, during the cold 
war, we were squared off against a Communist ideology that was 
based in the Soviet Union that was diametrically opposed to 
everything we believed and the political and economic and 
individual freedoms that we held very dear to ourselves. And 
yet, we recognized that we had interests to try to ensure that 
we didn't get plunged into yet another conflict with staggering 
potential consequences in the negative. And so, we ended up 
negotiating with the Soviets. We didn't trust them, they didn't 
trust us, and--but, we thought that there were some longer-term 
higher objectives that needed to be achieved.
    And I think we're not in a dissimilar situation, here. It's 
not the Soviet Union. We shouldn't give them that credibility. 
But, it's a problem that we just can't keep ignoring. If we 
come up with an agreement that the negotiators feel is 
reasonable, then the key thing is going to be an ability to 
verify the key aspects of that, to the best of our ability. And 
I think that's what's really important.
    Senator Ayotte. Senator Reed.
    Thank you.
    Senator Reed. Well, thank you very much, Madam Chairwoman.
    And I will echo Senator King's remarks. This has been 
extremely useful. And thank you, gentlemen.
    One of the thoughts I had, listening to Senator King's 
question, was that, you know, this--that history always sort of 
drives us. And in the cold war, we had an existential enemy, 
the Soviet Union. They were engaged and doing a lot of 
provocative activities, sponsoring national liberation 
movements here and there, they invaded Hungary in the 1950s, 
they were attempting to establish offensive nuclear missiles 90 
miles from our shore in the 1960s, et cetera. And yet, we 
continued to negotiate with them. And again, I think Admiral 
Fallon pointed out, we did it with the same kind of skepticism 
that we all have towards the Iranians. So, no one, I think, 
trusted Khrushchev that much and trusted his successors, et 
cetera.
    But, I think it's important, as has been suggested by 
some--I think all of you--that we follow through on these 
negotiations with the Iranians until we get to a conclusion. I 
think General Mattis made a very excellent point. We've 
positioned ourselves now where we really are on the high road. 
You know, we've defined what the good solution is, we have 
international support. And if they cannot make that standard, 
then we're in a much stronger position to move, collectively. I 
think that is important to note.
    But, let me ask a question which--it goes to this notion of 
what I think you said, General Mattis, that we've got to be 
very clear-eyed of when we start something, you know, where 
it's going go, which, since you raised the issue of escalation, 
the notion that if we take a step, it's going to--it's the 
solution, we've solved the problem; when, in fact, many--in 
every situation I can think of, the first step will prompt a 
counter-response by--the other side will respond, counter-
response by us, et cetera.
    So, with respect to the Ukraine, a simple question. If we 
were to give defensive weapons to the Ukrainians, which is 
something that's being seriously considered, what do you think 
Putin would do? Simply pull his troops out and say, ``Okay, 
you've seen--you know, I raised you, you saw me, I--and I 
fold?'' Or do you think it would be something else? And again, 
will we get into an escalatory situation, where we find 
ourselves in a much more precarious position?
    And I'll just ask all, and then I'll yield to Senator 
Shaheen.
    General Mattis. Senator Reed, every action has a reaction. 
It's a fundamentally unpredictable situation, but we have to 
wargame it, look ahead. I think that, in light of the worsening 
economic situation, Putin's ability to act independently with 
some of the things he's been doing are going to start becoming 
circumscribed. But, they can take a lot more stoic view of this 
inside Russia, as I understand it.
    And so, I would--I believe that it may very well lead to a 
higher level of violence. But, at the same time, I think that 
it could become akin to Napoleon's bleeding ulcer in Spain. The 
Ukraine could become the--kind of the--a fulcrum on which his 
foreign policy is now hammered back in line with the 
international order of respect for state boundaries and that 
sort of thing as he starts having a higher physical cost, more 
troops coming home dead from this sort of thing.
    But, it's going to be a tragedy, so long as Russia decides 
to continue what they're doing. And we're just asking 
ourselves, ``Are we willing to support the Ukrainian people, 
who want to defend themselves?'' And on that one, I'm pretty 
one-way about it. Of course we support them.
    Senator Reed. General Keane.
    General Keane. Yes, I'm--and I think, you know, the Putin 
strategy is quite clever, and maybe even brilliant, when you 
think about it. You know, he's using soldiers in disguise as 
special operations forces. They come in, in civilian clothes, 
they create an uprising that's not even there. And then they 
appeal for more military assistance, and he provides people who 
don't identify them--in uniform, but they don't identify 
themselves as what country they come from, so-called soldiers 
in disguise. So, he's trumped up everything, to include the 
requirement for a military response. And he puts the onus then 
on us, that it's up to us to escalate, because this is really 
only this is--it's an uprising. And it's an interesting 
phenomenon, and I think we're going to continue to see it again 
and again.
    So, one is, we need to deal with this strategy that he's 
using, and what should we do about it? And, number two, I think 
the harsh reality is that Putin has done all of the escalation, 
himself. And he is the one that brought paramilitary forces in, 
he is the one that brought conventional military forces in. 
Very sophisticated equipment. He's the one that brought 
multiple armor and mechanized divisions and put them on the 
border, and then rushed them across the border--tanks, BMPs, 
artillery, antiaircraft. It is his forces that shot down an 
airliner--his weapon systems, at least. So, all of the 
escalation has really been done by him.
    And I believe that providing some assistance to the 
Ukrainians, as much as that would be material assistance, 
because I always believe that conflict is fundamentally a test 
of wills--and Sun Tzu taught us that, the ultimate objective of 
war is to break your opponent's will--I'd give arms and 
assistance to the Ukrainians, not just for the physical 
capability that a--it enhances them, but also to demonstrate 
that we're behind them, to help them with their will and their 
spine. And they have this natural fortitude, knowing their 
history, to stand up to it.
    So, that's where I am on it. And I--and I'm not concerned 
about escalation, because Putin has done all of that already.
    Senator Reed. Admiral Fallon, can you comment, please? My 
time is running out, but please.
    Admiral Fallon. Shortly.
    When we think about Russia, I think it's a great example of 
a place where we ought to be thinking a little more 
strategically and not be channeling ourselves into, ``He did 
this, and so we're going to have to do this.'' Sounds like the 
guy is very opportunistic. He took advantage of an interesting 
situation. He's aggressive. He's got ego. You could--whatever.
    But, what else might we do to get this guy's attention? 
First of all, remember that this country has some very 
significant internal problems. Look at birth rates, look at 
health and longevity, look at the reality that it's a one-trick 
economic pony, and right now the trends are not going in the 
right direction.
    So, it was highlighted earlier, we've got a phenomenal new 
energy card in our National capabilities, here. What--how might 
we think about using that, that might get this guy's attention 
and get him to back it off? He thought he was pretty clever. He 
went to the Chinese and said, ``Well, let's go make a deal,'' 
and the Chinese, ``Hey, you know, it's a way to play off the 
Americans.'' So, again, we might think about coming around and 
working things with the Chinese.
    So, I think there's more than one way to skin the cat, 
here. Yes, we stand up for things that we think are important. 
But, I don't think that the only solution, here, is just to 
go--to throw troops at it. We may think it's in our--decide 
it's in our best interest to give support to the Ukrainians. I 
think we might think very seriously about support to our other 
Eastern European NATO allies as a priority task. But, I think 
we ought to be thinking a little bit bigger in dealing with 
Russia, and a little bit longer-term.
    Senator Reed. Thank you.
    Senator Ayotte. Senator Sessions.
    Senator Sessions. Well, thank you all. And I was able to 
hear all of your opening statements. And I think there's--a 
finer group of statements we've had here in a long time, and it 
goes to the core of decisions this Congress needs to make and, 
really, the administration, our Commander in Chief, needs to be 
making. And we are on a path that's--it's not going to be 
successful at the path we're on. And I want to thank you for 
your honest and direct statements about that.
    I am more hopeful than some, and I think we can make some 
progress here. General Keane, I think you acknowledged that 
it's important that Iraq get its act together with regard to 
the Shi'a and the Sunni and the Kurds, and be more effective in 
working together. And that's a critical part of it. But, I 
don't take that to be a statement that we should not seek to be 
offensive as soon as possible, even right now. It seems to me 
that--you talked about will. I see a recent article by Major 
General Scales, who talks about will and diminishing hope, 
showing ISIS and ISIL that they're not going to be successful. 
What are the prospects of us, in your opinion, beginning to 
retake more territory in Iraq and removing this hope that's out 
there that seems to be attracting more soldiers from around the 
region to the ISIS cause?
    General Keane. Well--I think I understand what you're 
saying. I certainly agree with the policy that we should use 
local ground indigenous forces, as well as coalition air, to 
attempt to retake lost territory. There has been some modest 
retaking of territory already, but nowhere near what needs to 
be done to return the integrity and sovereignty to Iraq. That 
will only take place by a counteroffensive campaign up those 
two river valleys, one to the west and one to the north, to 
retake Mosul and Fallujah and Anbar Province.
    All that said, I do think it's prudent to do that with 
those indigenous forces, but to be robustly assisted, not in 
the way we are planning to do now, with front-line advisors who 
will be down where the fighting takes place, which means they 
are at risk. They're not in direct combat, but they're in 
combat units that will be fighting. And that's a given.
    Senator Sessions. So, that's what you think has got to be 
done.
    General Keane. Yes. I think that's a prudent measure. Look 
it, can we retake Mosul and Anbar Province if we put combat 
brigades on the ground with some coalition brigades now? Can we 
do that? Yes. Yes, we can do that. But, here's the problem with 
that. One is, I have great difficulty looking U.S. soldiers in 
the face again to go do something like that after what happened 
after 2011 and we pulled out of there, because policy decisions 
squandered the gains. Two, it's not just the issue of retaking 
Mosul and Fallujah. It's the issue of being able to hold it. 
ISIS will not stand down after we drive them out of there. We 
have known enough about this war in Iraq and Afghanistan. You 
drive an enemy out. That's one thing. And then we have to make 
certain we hold it and prevent that enemy from coming back.
    And so, that is why I do believe it's the right thing to 
try to use these local forces, even though we know that's not a 
strong a hand as we would like. Strengthen that hand to the 
maximum capability we can without introducing ground combat 
forces, and then put emphasis on, once we clear it out, holding 
what is there. That will be the challenge, because ISIS will 
come back and undermine it.
    And that's why I don't think combat forces now is the right 
answer--United States combat forces. But, if we have any lack 
of confidence that we're going to be able to retake that lost 
territory, and we still believe it's strategically important 
for us in Iraq to do that, then I would have combat brigades on 
Reserve in Kuwait as a backup to accomplish the mission if the 
mission does fail. And that would be coalition brigades, as 
well.
    Senator Sessions. Well, the three of you have commanded 
CENTCOM. It just strikes me as--let's compare this to Libya--it 
strikes me, we've got a--quite a different situation. We stood 
shoulder-to-shoulder with the Iraqis. We lost thousands of 
American troops in this effort. And, to me, to say that we 
won't even embed a few soldiers, not in the front of the 
advance, at this point, to preserve what I think you agree is 
possible, and to oust ISIL, would be a colossal mistake.
    General Mattis, do you feel a special strategic bond with 
the Iraqis that we worked with for over a decade?
    General Mattis. Senator, I do. However, in giving you 
strategic advice, I try to divorce myself from it. We have to 
be very pragmatic about this. I would tell you that the 
military--the senior military officers, we all explained that 
the successes we had achieved by 2010-2011 were--and this is a 
quote--``reversible,'' that the democratic processes and the 
military capability were too nascent to pull everyone out at 
one time. What has happened here was foreseeable. The 
intelligence community was actually very blunt about this 
potential.
    And so, what we have to look at now is, we play the ball 
where it lies. And right now, I believe we should embed our 
forward air controllers and our--those who can help plan these 
operations. We're going to have to put them together--
    Senator Sessions. And that could present gains? I mean, 
doing that would, in your professional opinion, allow us to see 
gains occur from that. It's not a----
    General Mattis. I would, sir, because you're----
    Senator Sessions.--hopeless effort.
    General Mattis.--because you're integrating the air and 
ground effort right at the point of contact, so you would see a 
much faster decision process. So, yes, sir, it would.
    Senator Sessions. My time is up, thank you. And I certainly 
share the view that it was a colossal error in 2011 to 
completely withdraw. And this was predictable, as Senator 
McCain and others predicted.
    Senator Ayotte. Senator Blumenthal.
    Senator Blumenthal. Thanks, Madam Chairwoman.
    And I want to join in my thanking Senator McCain for 
convening this hearing, which I think has been extremely 
valuable. I've been following it while here and then while in a 
variety of meetings away. And I think your insights and 
experience reflect your--each of your extraordinary service to 
our Nation. And I thank you for what you've done to make sure 
that we are strong and that our security is as robust as 
possible.
    And I agree with the point that's been made, I think, 
fairly repeatedly, that we should be doing more to assist 
Ukraine. The Congress agrees, as well, because we passed, and 
the President signed, the Ukraine Freedom Support Act of 2014, 
which as yet, to my knowledge, really has not been implemented.
    So, my question to each of you, because this act is very 
broad in what it authorizes by way of weaponry and defensive 
services and training, using that $350 million, what 
specifically do you think would be most helpful to the 
Ukrainians? You know, there's a lot of artillery that's being 
used against them. You've made reference to the Russian troops 
disguised as civilians. What specifically can we provide? Is it 
antitank missiles? Is it more body armor? Can you be more 
specific as to what you would advise the President to provide?
    General Mattis. Senator, I cannot--I am not familiar enough 
with the specifics on that battlefield. I think that something 
that gives them more intelligence about where they're being 
fired from--counterartillery radar, for example--might be very 
helpful. But, I'm not the right person to answer that, I'm 
sorry.
    Senator Blumenthal. General Keane?
    General Keane. What they have been asking for is, they want 
more intelligence than what they currently have. And I believe 
we have begun to help them with some of that. They do want 
antitank weapons. And those are shoulder-fired missiles, 
essentially. And they also want heavy crew-served weapons.
    One of the problems we have here is, under the previous 
regime in Ukraine, because of the significant amount of 
corruption that took place in all the agencies of government, 
what took place inside the Ukraine military is outrageous, in 
terms of the rip-off of funding and the capabilities that they 
used to have and no longer have. I mean, they're a mere shadow 
of their former self, to be frank about it.
    So, while I know some of their desires, I don't know the 
entire list of what they want.
    Admiral Fallon. Nor do I, Senator. I have no idea what the 
laundry list is or what really makes sense. I would just 
caution that, again, whatever we decide to do, here, will be 
effective or not, in large measure based on what the people in 
the Ukraine do. And what they do is going to be based on the 
confidence they have, and the leadership. It's been abysmal up 
to now. I'm not sure where they are. But, absent that, we could 
dump stuff in there all day long, and we're probably not going 
to be successful. So, understanding what's really going on in 
that country at the political level is really an essential 
prerequisite to any of this stuff.
    Senator Blumenthal. Admiral, I'd like to ask you, on a 
different area--and the premise of my question is that you've 
done a fair amount of work on climate change and environmental 
issues. But, in light of your experience--and I'd open this 
question to others, as well--how big a threat to our National 
security is, potentially, what we see happening in climate 
disruption, the impacts on the availability of sea lanes and 
water resources in the Middle East, and food resources in 
Africa? To what extent is climate disruption a national 
security threat?
    Admiral Fallon. I think it's a very, very important 
national security issue. It's one that we understand very 
little about, in my opinion. Ramifications of the continuation 
of the current trends provide all kinds of interesting 
scenarios. So--and one that we've talked about here, the 
revanchist Russia and Putin's opportunism and what the 
Russians--what Putin may have in mind for us. He's going to 
have some significant options pretty soon. When the Arctic 
continues to lose its icepack and become, basically, accessible 
12 months of the year, it gives them very, very interesting 
opportunities to move things around and act in ways that they 
were significantly inhibited in, in the past. It may give them 
some other opportunities, economically, who knows?
    The melting of the icecaps, rising sea levels, you pick 
your scenario here, but the trends are pretty clear that 
water's coming up and land's going to disappear, and the 
implications for us in this country--more importantly, 
probably, for those that are really in danger, places like 
Bangladesh that are marginally above sea level right now--and 
the turmoil that that--because--
    So, all these problems we deal with, almost every single 
one of them, has its roots in instability and insecurity at a 
very basic level--not armies, not ISIS running around, and 
pick-me-up trucks with 50-caliber guns. It's what people feel 
very close to them. And so, if they feel threatened in their 
livelihoods, in their families, in their ability to--then 
things start to get unraveled. And that's the potential that I 
think we face.
    I don't want to, you know, lie awake at night, wringing my 
hands over all this stuff. However, are there things we could 
be doing, I think, to try to reverse the trends that appear to 
be moving on pretty strongly? So, that's probably another topic 
for hours' discussion.
    But, it gets back to one of my points about credibility, 
our credibility as a country. As the world grapples with these 
things that apply to all of us, I think that U.S. leadership 
ought to be paramount, ought to be in the forefront. And, in 
fact, sometimes we're not there. We're not there. We're not 
voting, we're--you know, whether we're denying or avoiding or 
just defaulting to somebody else. And, despite the sometimes 
incessant gnawing of people, ``Well, the U.S. is always trying 
to get into this and push''--on another hand, they really 
need--the world needs our leadership and involvement. And this 
is an area where we could actually probably do some good if we 
put our minds to it.
    Senator Blumenthal. Thank you very much for that answer, 
and to all of you for being here today. Thank you.
    Thank you, Madam Chairwoman.
    Senator Ayotte. Senator Shaheen.
    Senator Shaheen. Thank you, Madam Chair.
    And thank you all very much. I know that you've been here a 
long morning. And so, we very much appreciate that.
    I have just one fundamental question for each of you. And I 
had a chance to hear your opening statements, but not--was not 
here for most of the questioning. So, I don't think anybody has 
covered this aspect of my question.
    You all are probably aware that DOD recently released a 
study, done by the RAND Corporation, that is titled ``Improving 
Strategic Competence: Lessons from 13 Years of War.'' And there 
have been a number of fairly high-profile articles that have 
addressed this question, as well. And one of the conclusions 
from the study, as you all know, is that the types of war that 
the U.S. has fought since World War II have changed. They're no 
longer conventional combat wars against state actors, but 
they're more unconventional, irregular warfare by joint forces 
against nonstate actors.
    And the report--one of the statements in the report says, 
and I quote, that, ``The joint force and the U.S. Government as 
a whole have displayed an ongoing ambivalence about, and a lack 
of proficiency in, the noncombat and unconventional aspects of 
war and conflict against nonstate actors.'' The report goes on 
to point out seven lessons from its review, and I won't go 
through all of them, but the first two seem particularly 
relevant, I think, to today's discussion. One is that the U.S. 
Government displays a persistent weakness in formulating 
national security strategies, and that this weakness is due, in 
part, to the lack of an effective civilian/military process for 
effective national security policymaking.
    So, I wonder if each of you could comment on whether you 
agree with this conclusion and whether this is something that 
can be addressed by changing personalities, or do we really 
need to improve our process for national security 
decisionmaking? And if you have thoughts about how to do that.
    Admiral Fallon, you want to go first?
    Admiral Fallon. Sure, I'll throw myself in front of this 
train.
    I agree with it. And I think that--my observation of 
several changes in Washington--you get to be this old, you hang 
around for enough time, you see a lot of transitions--and one 
of the weaknesses, I believe, is a belief that an effective 
national security policy can be created after things are 
settled down and people get in their places. And, you know, it 
all sounds nice. Let's get a Secretary of State, let's get a 
Secretary of Defense, and get it in there. But, my experience 
is, it's too late. There's no way you're going to be able to 
come up with--that I've seen--to come up with comprehensive, 
long-term, thoughtful, effective policies once the gun goes off 
and that--once the inauguration starts, you're off and running. 
And the reality is, something happens all the time, every 
single day. Look at all these things, in the communication, 
blah, blah, blah. So, all these pressures make it virtually 
impossible to think strategically, in my observation, once you 
get in the game.
    And so, a prerequisite for this is a very thoughtful 
process in advance, using whatever resources are available. A 
lot of smart people around this country and the world that can 
inform some pretty good decisions. Again, can't solve 
everything, but pick a few big ones, decide they're the ones 
you're going to focus on, would be my advice, and go for it.
    Senator Shaheen. Thank you.
    General Keane?
    General Keane. Yes, sure.
    Well, there's a couple of things that aren't correct. First 
of all, the most predominant form of warfare since war started 
is unconventional warfare. And that's been well documented. 
And, interesting enough, the prosecutors of unconventional 
warfare usually lose far more than they win. That is best 
documented, if you want to see the best reference on it, by Max 
Boot's sort of history of all of this. He's out of the Council 
on Foreign Relations and is a prolific, articulate, thoughtful 
writer.
    In terms of your comment in dealing with the application of 
force and also government, dealing with this kind of experience 
that we're facing today, I agree that we have not taken a 
whole-of-government approach in dealing with some of the 
challenges we face. What is--what I observed, in countless 
visits over the 13-year experience, you know, in Iraq and 
Afghanistan, that much of the nonkinetic things that needed to 
be done in dealing with an unconventional enemy defaulted, not 
to other parts of our government, but largely to the United 
States military. Even though they--while they're intelligent 
and have enormous personal attributes and skill sets that they 
can apply against anything to be successful, it's not something 
they were trained and necessarily had experience in. But, they 
became very good at it. And we would always be looking around, 
Where is the rest of our government, here, to help us do some 
of these things?
    So, in that regard, I do believe there's much that we can 
learn from this 13-year experience, in how to take a more 
comprehensive approach and to recognize, while kinetic actions 
have a value all of their own, certainly--and that's blatantly 
obvious--nonkinetic actions do, as well. And we can do much 
better at that than what we have done.
    Senator Shaheen. Thank you.
    General Mattis, I--my time is up, but do you have anything 
you want to add to that?
    General Mattis. Just very quickly, Senator. I would just 
point out that we have to improve the process, assuming there 
is a process. I've been unable to identify one recently. I 
think it starts with the essential--we must develop a sound 
strategy or we're going to waste lives and our treasury and our 
country's future.
    I think, two, we need to move authority back to the Senate-
confirmed Secretaries of State and Defense, and not concentrate 
it in a small, but mushrooming at the same time, national 
security staff that does not have the Foreign Service officers 
and the trained military officers who can actually develop what 
you're looking for, here.
    I don't think we can adopt one preclusive form of warfare. 
And here--my point is, the enemy will always try the kind of 
warfare they think we're less--least ready for. One of the 
reasons you can say--or the RAND study can say we did not have 
state-on-state warfare is because we probably prevented it. 
That's a pretty great war, from my point of view, the one that 
never happened, because we were ready for it.
    And last, I would just point out that unconventional 
warfare always takes a long time. The United States Cavalry 
against the American Indian, from 1850 to 1905, was decades 
long. And this sense of rushing things--for example, setting 
withdrawal dates and telling the enemy in advance when we're 
leaving--probably contributes to the endless wars that we get 
into. And we're engaged in a violent political argument with 
political Islam right now, and we need the diplomatic and 
developmental tools alongside our military. And for a country 
that could put up Voice of America and send the truth right 
inside the Iron Curtain, we're not fighting the war anywhere 
near as smartly as we did back during the cold war. I think 
you're--you should aggressively go after these areas that 
you're bringing up, ma'am.
    Senator Shaheen. Thank you all very much.
    Senator Ayotte. Senator Graham.
    Senator Graham. Thank you.
    You all have really probably--we probably have violated the 
Geneva Convention, when it comes to the three of you all. But, 
you've been terrific. I've really enjoyed this.
    Back to Iraq, looking forward. Let's assume that we can get 
a more cohesive government, that the new Prime Minister is 
better than the old, that we can get a Iraqi-trained force, the 
Kurds help us, eventually we take back Mosul, Anbar Province 
gets solidified once again. That's a big ``if.'' If they ask 
us, in the future, to leave a residual force, would you 
recommend that we honor that request?
    Admiral Fallon. Yes, sir. Oh, absolutely.
    General Keane. Absolutely.
    Admiral Fallon. I mean, they're going to ask, for sure, 
Senator. And how could we say no to that, given the 
circumstance?
    Senator Graham. And what I want to tell the American 
people, the best I can, it's in our interest for Iraq to turn 
out well. Do you all agree with that? Whether we should--going 
in or not is behind us. We're there. And I guess my theory of 
all of this is--a line of defense for America is best achieved 
by having allies in the region that we can work with, that will 
fight this radical ideology at its core. And the hardest part 
of getting this war won, I believe, is just the patience--
strategic patience that comes from investing in others. As 
unreliable as they are and as frustrating as they are, the 
alternative is fortress America, and I just don't believe that 
works.
    Now, as we get ready to go into Mosul, I think, General 
Keane, you said that the Iraqi timetable is probably different 
than ours. Just imagine for a moment, as an American 
politician, that there was a town in your State occupied by a 
foreign force, and the Federal Government was telling you, or 
some outside entity was telling you, that it may be a year or 
two before you can go back in. I think the new Sunni Defense 
Minister is in a real spot, here. How long is he going to allow 
his people in Mosul to suffer under the hands of a vicious 
enemy?
    So, we have to realize, politically, that an Iraqi 
politician has a different calculation than an American 
political leader, here. But, it is in our advantage, don't 
you--in our interest--to make sure the Iraqis do this right. Is 
that correct?
    General Keane. Yes.
    Senator Graham. They're not ready by this spring, are they?
    General Keane. I'm not on the ground, but, talking to 
people who are, I don't think so. Not even close.
    Senator Graham. Admiral Fallon, would you be worried about 
a spring offensive?
    Admiral Fallon. I don't know what the timing is, because I 
haven't been in dialogue with these guys. But, my sense is, 
there are probably things we can do in advance if you accept--
    Senator Graham. Sure.
    Admiral Fallon.--that they're not ready in a large force.
    Senator Graham. Right.
    Admiral Fallon. I think there are some things we can 
continue to do. And, just last week, it's--the sense is that 
the--you know, we're starting to go back and claw back. When I 
say ``we,'' our allies over there. So, maybe they're not ready 
for the big thing. But, then again, I have a hard time, 
frankly, envisioning the kind of activity that we saw when we 
had to retake Fallujah for the second and third times, going in 
there, street-to-street. I'm not sure that's what's--that's a 
scenario that makes a lot of sense.
    Senator Graham. Yeah. I agree. But, somebody's going to 
have to take Mosul back, right? And we want it to be Iraqis.
    Do you agree with the idea of--maybe 10,000 is the right 
number to have, in terms of support? General Mattis, does that 
make sense to you?
    General Mattis. I'd look more at the capabilities, sir. 
But, we've got to have enough forward air controllers, enough 
trainers, enough advisors--
    Senator Graham. Okay.
    General Mattis.--to actually make a difference.
    Senator Graham. Does that make sense to you, Admiral 
Fallon, whatever----
    Admiral Fallon. Yeah, I have----
    Senator Graham.--``enough'' is?
    Admiral Fallon.--no idea what the exact number is, but 
you've got have people with the right skill sets to----
    Senator Graham. So, just--to the American people, we're 
going to have some boots on the ground if we want to get this 
right. The hope is that we don't have to have the 82nd Airborne 
going back in.
    Real quickly with Syria. I can understand how we get there 
in Iraq. I really don't understand how we're going to get there 
in Syria, unless we have a regional force to supplement 
whatever Free Syrian Army we can muster. Very quickly, how do 
we dislodge ISIL from Syria? And, if you don't, how can you 
sustain your gains in Iraq?
    And finally, the end game is a real problematic situation 
in Syria. How do you salvage a Syria with Assad still in power?
    So, how do you go in and get them out on the ground? Who 
does it? And should we leave Assad in power as an end state? 
And, if we do, what can we expect from that?
    General Keane. Well--I'll try to answer that as--we've 
tried to answer it in the past, and--and this is tough, 
complicated, and very uncertain. But, here's what I believe.
    First of all, the mission that we have right now is not to 
destroy ISIS in Syria. It is to degrade it, but to destroy ISIS 
in Iraq and retake lost territory. I believe that is not a very 
good mission, because I don't think you separate Syria and 
Iraq. I think you see them as a whole cloth, in terms of what 
you have to do against that enemy.
    All that said, if you--if our intent is to destroy ISIS in 
Syria, the only way that can be done will be with ground force 
supported by air power. And there is no ground force in sight 
with the capability to do that. And you know better than I, 
because of the briefing you got from General Nagata, at the 
pace we're doing that, 5,000 or so a year, we're not going to 
get there. We're not even close.
    So, in my mind, you have to push back on Assad, because of 
what he's doing to the--what exists of the Free Syrian Army. 
That brings in the coalition very strongly in support of what's 
taking place in Syria. Then you bring Turkey to the table, you 
bring UAE to the table, you bring Jordan to the table, and you 
bring Saudi Arabia to the table. Now they're at the table, and 
you've got their interest. They have got to be the coalition 
force that's going to drive ISIS out of there, with our 
assistance.
    Senator Graham. Do the other--do the two of you agree with 
that?
    Admiral Fallon. The question is, How do you convince these 
people to actually go do that----
    Senator Graham. Right, right.
    Admiral Fallon.--is going to be the real challenge.
    Senator Graham. General Mattis, do you agree with that 
concept?
    General Mattis. I do, Senator. But, the devil's in the 
details. And we have got to figure out what it looks like, or 
what we want it to look like at the end. Is Assad still there, 
or not? There are some who say we can't put Syria back together 
if Assad's part of it. There's others who say he's the best of 
the worst options. We've got to get this straight in our heads 
first, and then we can give you a lot of answers, sir, about 
how best to accomplish it.
    Senator Ayotte. Senator King.
    Senator King. I'm fine, thank you.
    Senator Ayotte. You're all set? Thank you.
    Senator Reed.
    Senator Reed. Well, thank you, Madam Chairwoman.
    And this has been an extraordinarily useful hearing.
    I just have one comment to make. And we have repeatedly 
talked about the need for residual forces in a condition-based 
situation in Afghanistan and other places when we commit 
ourselves. And, in looking at 2011--we're all looking back--and 
I think it's important to note that the stage was probably set 
in 2008, when the United States and the Government of Iraq 
entered into a formal agreement to remove all troops by 2011. 
That was signed by President Bush and Prime Minister Maliki. 
And it was signed under the threat that, if they didn't, our 
troops would be out even sooner. I think, December 31st of 
2008, our international protections expired. And it goes to 
General Mattis' point, is--when we sign something formally 
saying, you know, ``We're out,'' even though there was an 
expectation that we might be able to negotiate, it's awful 
tough, once you get a deal between the U.S., our President, 
their Prime Minister, signed by--ratified by their Parliament, 
to reverse. Also particularly difficult if we signed in '08 
with 100,000 troops on the ground and we're already down to a 
much smaller figure by 2011.
    And I think it's important to put this in context, because 
this issue of residual forces with a condition-based sort of 
level is something we have to, you know, consider as we look--
again, as Senator Graham suggested--going forward in Iraq, and 
also going forward in Afghanistan.
    And I want to thank you. I don't necessarily need a 
comment. You can write me--mail me, email me.
    I want to thank the chairwoman for running an excellent 
hearing.
    Senator Ayotte. I want to thank Senator Reed.
    And I appreciate all three of you being here today. I think 
it was evident, your tremendous military experience. And all of 
us appreciated a very substantive hearing and your best advice, 
and we really appreciate everything that you've done and 
continue to do for our country. So, thank you all. And thank 
you all--we're very impressed with your endurance, as well.
    [Whereupon, at 12:45 p.m., the hearing was adjourned.]


   GLOBAL CHALLENGES AND THE UNITED STATES NATIONAL SECURITY STRATEGY

                              ----------                              


                       THURSDAY, JANUARY 29, 2015

                                       U.S. Senate,
                                Committee on Armed Services
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Graham, Cruz, Reed, Nelson, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, and Kaine.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning, all.
    [Audience disruption.]
    Chairman McCain. The committee will stand in recess until 
the Capitol Police can restore order. I ask the police to 
restore order. Could I ask our Capitol Police to help restore 
order here? Can someone find out where the Capitol Hill Police 
is?
    I would like to say to my colleagues and to our 
distinguished witnesses this morning that I have been a member 
of this committee for many years, and I have never seen 
anything as disgraceful and outrageous and despicable as the 
last demonstration that just took place about--you know, you 
are going to have to shut up or I am going to have you 
arrested. If we cannot get the Capitol Hill Police in here 
immediately--get out of here you low-life scum.
    [Applause.]
    Chairman McCain. Dr. Kissinger, I hope on behalf of all of 
the members of this committee on both sides of the aisle--in 
fact, from all of my colleagues, I would like to apologize for 
allowing such disgraceful behavior towards a man who served his 
country with the greatest distinction. I apologize profusely.
    The Senate Armed Services Committee meets today to receive 
testimony on global challenges and U.S. national security 
strategy. This is the third hearing in a series designed to 
examine the strategic context in which we find ourselves, one 
characterized by multiplying and accumulating threats to our 
National security, and how that should inform the work of this 
committee and Congress.
    We have had previous testimony from General Brent 
Scowcroft, Dr. Brzezinski, General Mattis, General Keane, and 
Admiral William Fallon, and we have heard consistent themes:
    Our foreign policy is reactive.
    We need to repeal sequestration.
    We should not withdraw from Afghanistan on an arbitrary, 
calendar-based timeline.
    We need a strategy that matches military means to the 
President's stated goal of degrading and destroying the Islamic 
State of Iraq and Syria [ISIS].
    We will explore these topics and many more with today's 
outstanding panel of witnesses. I am honored to welcome three 
former Secretaries of State, among our Nation's most admired 
diplomats and public servants: Dr. Henry Kissinger, Dr. George 
Shultz, and Dr. Madeleine Albright.
    Our Nation owes each of these statesmen a debt of gratitude 
for their years of service advancing our National interests. 
Secretary Shultz has held nearly every senior position of 
importance in our Federal Government during his illustrious 
career. Dr. Albright was an instrumental leader during key 
points in our Nation's history, influencing policies in the 
Balkans and the Middle East.
    Finally, I would be remiss if I did not acknowledge the 
personal debt of gratitude that I owe to Dr. Kissinger. When 
Henry came to Hanoi to conclude the agreement that would end 
America's war in Vietnam, the Vietnamese told him they would 
send me home with him. He refused the offer. ``Commander McCain 
will return in the same order as the others,'' he told them. He 
knew my early release would be seen as favoritism to my father 
and a violation of our code of conduct. By rejecting this last 
attempt to suborn a dereliction of duty, Henry saved one of my 
important possessions, my honor. For that, Henry, I am 
eternally grateful.
    Thank you again to all of our witnesses for being here 
today and I look forward to your testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    Let me join you in welcoming Secretary Kissinger, Secretary 
Shultz, and Secretary Albright. You have provided extraordinary 
leadership to this Nation in so many different capacities, and 
we are deeply appreciative that you are joining us this 
morning. It is an extraordinary opportunity to hear from 
individuals who have witnessed and shaped history over the 
course of many, many years, and thank you again for joining us.
    I also want to commend Senator McCain for this series of 
hearings that have allowed us to look very carefully at the 
strategy of the United States in view of many complex problems 
that face us today. You all have done so much. Again, let me 
reiterate our appreciation and our thanks.
    Each of you throughout your careers have demonstrated an 
in-depth understanding of the historical, economic, religious, 
ethnic, and political factors affecting foreign policy and 
international security. Each of you emphasized the need to use 
all instruments of national power, not just military power, but 
also diplomacy and economic power, to address the challenges 
facing the United States.
    The breadth and complexity of challenges to the 
international order and the United States today seem as complex 
and vexing as any we have faced previously. We would be 
interested in your perspective on these challenges and the 
principles that should guide our security strategy.
    On Iran, in a recent hearing that Senator McCain mentioned 
with General Scowcroft and Dr. Brzezinski, both of them urged 
Congress to hold off on additional sanctions in order to give 
multilateral negotiations on Iran's nuclear program sufficient 
time to reach a conclusion. Indeed, the Senate Banking 
Committee is considering that issue in a few moments, and I 
will have to depart and participate in that markup. But we 
would certainly be interested in your perspectives on this 
critical issue.
    Regarding the Middle East, during a hearing Tuesday on the 
military aspects of the United States security strategy, 
General Mattis emphasized the need to have a clear 
understanding of what our political objectives are in the 
region. He also made clear that any attempt to impose a purely 
military solution to these conflicts would come at a very high 
cost. General Scowcroft and Dr. Brzezinski talked about the 
importance of the region but also warned against the United 
States, in their words, ``owning it.'' We have to be very 
careful going forward.
    All of these issues and many, many more from Russia's 
behavior in Crimea to the impact of cyber on national security 
policy--I think we would benefit immensely from your advice and 
from your wisdom. Thank you very, very much.
    Again, thank you, Senator McCain.
    Chairman McCain. Thank you. We will begin with Dr. 
Albright. Welcome, Dr. Albright, and thank you for being here 
today.

    STATEMENT OF DR. MADELEINE K. ALBRIGHT, CHAIR, NATIONAL 
       DEMOCRATIC INSTITUTE AND FORMER SECRETARY OF STATE

    Dr. Albright. I am delighted to be here, Chairman McCain, 
Senator Reed, and members of the committee. Thank you very much 
for inviting me to participate in this important series of 
hearings. I am very pleased to be here alongside with my 
distinguished colleagues and very dear friends, Secretaries 
Kissinger and Shultz.
    I want to commend this committee for initiating this timely 
discussion of U.S. national security strategy because these 
hearings embody this chamber's best traditions of 
bipartisanship and foreign policy, and I think they can be 
tremendously helpful in framing the issues facing our country.
    As someone who began her career in public service working 
as chief legislative assistant to the great Senator from Maine, 
Ed Muskie, I have long believed that Congress has a critical 
role to play in our National security. When I became Secretary 
of State, I valued my regular appearances before the Senate 
Foreign Relations Committee, then headed by Senator Jesse 
Helms. He and I did disagree on many things, but we respected 
each other and built an effective partnership because we both 
believed America had a unique role to play in the world. That 
belief still shapes my worldview and informs the perspectives 
that I bring to our discussion today.
    It does not take a seasoned observer of international 
relations to point out that we are living through a time of 
monumental change across the world. We are reckoning with new 
forces that are pushing humanity down the path of progress 
while also unleashing new contradictions on the world scene.
    One of these forces is globalization, which has made the 
world more interconnected than ever before but also added new 
layers of complexity to the challenges of statecraft. With 
globalization, it is impossible for any single nation to 
insulate itself from the world's problems or to act as the lone 
global problem-solver.
    Another force is technology, which has unleashed 
unprecedented innovation and benefited people the world over 
while also amplifying their frustrations and empowering 
networks of criminals and terrorists.
    Globalization and technology are reshaping and disrupting 
the international system which is struggling to keep pace with 
change. Nowhere is this more apparent than in the Middle East 
where century-old state boundaries are unraveling, a rising 
wave of violence and sectarianism is producing the world's 
largest refugee crisis in 70 years, and a dangerous competition 
is playing out between Iran and Saudi Arabia for regional 
primacy.
    Another key test lies in Europe where Russia's ongoing 
aggression against Ukraine has fundamentally changed security 
calculations on the continent and marked the first time since 
World War II that European borders have been altered by force. 
Events of recent days have shown that what many have assumed 
would become a frozen conflict is still in fact red hot.
    Meanwhile, in Asia, the region's growth and the rise of new 
powers are creating new opportunities for the United States in 
areas such as trade, but these developments are also testing 
security arrangements that have ensured peace and stability 
since the end of World War II.
    None of these challenges pose an existential threat to the 
United States, but the intensity and complexity of them can 
seem daunting, particularly after we have been through more 
than 13 years of protracted war and threats such as climate 
change, nuclear proliferation, disease, and food and water 
shortages also looming on the horizon.
    Still, they cannot be ignored. The American people may be 
tired, but we must avoid another danger lurking in this new 
era, the temptation to turn inward, because for all the turmoil 
this young century has brought, America remains by far the 
world's mightiest economic and military power with a resurgent 
economy and an energy revolution giving us newfound confidence 
in our future. We are the only nation with not just the 
capacity and will to lead but also the ideals to do so in a 
direction that most of the world would prefer to go towards 
liberty, justice, peace, and economic opportunity for all.
    As the President said last week, the question is not 
whether America should lead but how it should lead. That in 
many ways is the focus of today's hearing. Let me just suggest 
a few basic principles that might help guide this discussion.
    First, we are the world's indispensable nation, but nothing 
about the word ``indispensable'' requires us to act alone. 
Alliances and partnerships matter, enhancing our power and the 
legitimacy of our actions. Our national security strategy must 
always encompass the security of others and, where possible, we 
should work through coalitions of friends and allies.
    Second, given the fluid nature of today's threats, we must 
make wise use of every foreign policy option from quiet 
diplomacy to military force to protect America's national 
interests.
    Third, the foundation of American leadership must remain 
what it has been for generations: our belief in the fundamental 
dignity and importance of every human being. We should not be 
shy about promoting these values, and that is why I am proud to 
be chairman of the National Democratic Institute. I know you, 
Mr. Chairman, are very proud of your leadership of the 
International Republican Institute and the things that we do 
together. Working with allies and partners, balancing our 
diplomatic, economic, and military tools of national power, 
staying true to our ideals, these will all be critical in 
navigating today's challenges. This means in the Middle East, 
we must continue working with European and regional allies to 
apply direct military pressure against the Islamic State while 
making clear that these violent extremists are guilty not of 
Islamic terrorism but of crimes that are profoundly un-Islamic. 
We must aid the millions of innocent refugees in Syria and its 
neighbors that have fled both the terror of ISIS and the 
depravity of the Assad regime.
    Another key challenge in the region remains Iran. The 
President has rightly made it the policy of the United States 
to prevent Iran from obtaining a nuclear weapon. He has taken 
no options off the table to achieve that goal, and the 
administration is exploring a diplomatic resolution. If these 
negotiations fail or if Iran does not honor its commitments, 
then the United States should--and I believe will--impose 
additional costs on Tehran with strong support internationally. 
But I believe it would be a mistake to do so before the 
negotiations run their course.
    In Europe, we must reinforce our North Atlantic Treaty 
Organization (NATO) allies and stand united and firm against 
Putin's aggression even as we continue to engage Russia as a 
global power on issues of shared interest. But until Russia 
honors its commitments and withdraws its forces from Ukraine, 
there can be no sanctions relief. If Russia continues its 
pattern of destabilizing actions, it must face even more severe 
consequences.
    On economic reforms, the administration has made strong 
pledges with Ukraine to work with our allies, however, to 
secure more commitments in the areas on banking and energy, but 
we do have to help them in terms of military assistance so that 
they can defend themselves. We should not make the road forward 
harder by suggesting that we see Ukraine's future subject to 
Russia's veto.
    I have many other comments but I would like to Reserve the 
rest to put in the record. I thank you very much for your 
kindness in asking all of us to come and speak.
    [The prepared statement of Dr. Albright follows:]
               Prepared Statement by Madeline K. Albright
    Chairman McCain, Senator Reed, members of the committee: thank you 
for inviting me to participate in this important series of hearings.
    I am pleased to be here alongside my distinguished colleagues and 
dear friends, Secretaries Kissinger and Shultz.
    I want to commend this committee for initiating this timely 
discussion of U.S. national security strategy. These hearings embody 
this chamber's best traditions of bipartisanship in foreign policy, and 
I think they can be tremendously helpful in framing the issues facing 
our country.
    As someone who began her career in public service working as chief 
legislative assistant to Senator Ed Muskie, I have long believed that 
Congress has a critical role to play in our national security.
    So when I became Secretary of State, I valued my regular 
appearances before the Senate Foreign Relations Committee--then headed 
by Senator Jesse Helms.
    He and I disagreed on many things, but we respected each other and 
built an effective partnership because we both believed that America 
had a unique role to play in the world.
    That belief still shapes my worldview, and informs the perspective 
I bring to our discussion today.
    It does not take a seasoned observer of international relations to 
point out that we are living through a time of monumental change across 
the world.
    We are reckoning with new forces that are pushing humanity down the 
path of progress, while also unleashing new contradictions on the world 
scene.
    One of these forces is globalization, which has made the world more 
interconnected than ever before, but also added new layers of 
complexity to the challenges of statecraft.
    With globalization, it is impossible for any single nation to 
insulate itself from the world's problems, or to act as the lone global 
problem solver.
    Another force is technology, which has unleashed unprecedented 
innovation and benefited people the world over, while also amplifying 
their frustrations and empowering networks of criminals and terrorists.
    Globalization and technology are reshaping and disrupting the 
international system, which is struggling to keep pace with the change.
    Nowhere is this more apparent than in the Middle East, where 
century-old state boundaries are unraveling, a rising wave of violence 
and sectarianism is producing the world's largest refugee crisis in 70 
years, and a dangerous competition is playing out between Iran and 
Saudi Arabia for regional primacy.
    Another key test lies in Europe, where Russia's ongoing aggression 
against Ukraine has fundamentally changed security calculations on the 
continent--and marked the first time since World War II that European 
borders have been altered by force. Events of recent days have shown 
that what many have assumed would become a frozen conflict is still, in 
fact, red hot.
    Meanwhile, in Asia, the region's growth and the rise of new powers 
are creating new opportunities for the United States in areas such as 
trade, but these developments are also testing security arrangements 
that have ensured peace and stability since the end of World War II.
    None of these challenges pose an existential threat to the United 
States, but the intensity--and complexity--of them can seem daunting . 
. . particularly after we have been through more than 13 years of 
protracted war, and threats such as climate change, nuclear 
proliferation, disease, and food and water shortages also loom on the 
horizon.
    Still, they cannot be ignored. The American people may be tired, 
but we must avoid another danger lurking in this new era--the 
temptation to turn inward.
    Because for all the turmoil this young century has brought, America 
remains by far the world's mightiest economic and military power--with 
a resurgent economy and an energy revolution giving us newfound 
confidence in our future.
    We are the only nation with not just the capacity and will to lead, 
but also the ideals to do so in a direction that most of the world 
would prefer to go--towards liberty and justice, peace and economic 
opportunity for all.
    As the President said last week, the question is not whether 
America should lead, but how it should lead. And that, in many ways, is 
the focus on today's hearing.
    Let me suggest a few basic principles that might help guide this 
discussion.
    First, we are the world's indispensable nation, but nothing about 
being indispensable requires us to act alone. Alliances and 
partnerships matter, enhancing our power and the legitimacy of our 
actions. Our national security strategy must always encompass the 
security of others, and where possible we should work through 
coalitions of friends and allies.
    Second, given the fluid nature of the today's threats, we must make 
wise use of every foreign policy option--from quiet diplomacy to 
military force--to protect America's national interests.
    Third, the foundation of American leadership must remain what it 
has been for generations--our belief in the fundamental dignity and 
importance of every human being. We should not be shy about promoting 
these values, and that is why I am proud to be the Chairman of the 
National Democratic Institute, and I know that you, Chairman McCain, 
are equally proud of your leadership of the International Republican 
Institute.
    Working with allies and partners; balancing our diplomatic, 
economic, and military tools of national power; staying true to our 
ideals--these will all be critical in navigating today's challenges.
    That means in the Middle East, we must continue working with 
European and regional allies to apply direct military pressure against 
the Islamic State, while making clear that these violent extremists are 
guilty not of Islamic terrorism but of crimes that are profoundly un-
Islamic.
    We need to help the people of the region build governing 
institutions that offer legitimacy and an alternative to violence. That 
includes continuing to support the people of Afghanistan through NATO's 
Resolute Support mission. And we must aid the millions of innocent 
refugees in Syria and its neighbors that have fled both the terror of 
ISIS and the depravity of the Assad regime.
    Another key challenge in the region remains Iran. The President has 
rightly made it the policy of the United States to prevent Iran from 
obtaining a nuclear weapon. He has taken no options off the table to 
achieve that goal, and the Administration is exploring a diplomatic 
resolution.
    If these negotiations fail, or if Iran does not honor its 
commitments, then the United States should--and I believe will--impose 
additional costs on Tehran, with strong support internationally. But it 
would be a mistake to do so before the negotiations run their course.
    That would fracture the international coalition and let Iran avoid 
its responsibility, leaving the United States and our closest allies 
isolated.
    In Europe, we must reinforce our NATO Allies and stand united and 
firm against Putin's aggression, even as we continue to engage Russia 
as a global power on issues of shared interest. But until Russia honors 
its commitments and withdraws its forces from Ukraine, there can be no 
sanctions relief. And if Russia continues its pattern of destabilizing 
actions, it must face even more severe consequences.
    Our support for Ukraine must enhance its security capabilities and 
support the new government's ambitious reforms, because Ukraine will 
need to restore security and implement dramatic economic changes to 
emerge from the current crisis.
    On economic reforms, the Administration has made strong pledges and 
worked with our allies to secure more commitments in areas such as 
banking and energy. However, we must remember the lessons we learned in 
the Balkans and in other post-conflict states: aid and technical help 
in good governance must be accompanied by political guidance to avoid 
side deals that can subvert reform.
    Ukraine has chosen to make its own path. It wants a future with 
Europe, while maintaining a relationship with its neighbor. We should 
not make its road forward harder by suggesting that we see Ukraine's 
future as subject to Russia's veto.
    The United States should also stay vigorously engaged in Asia, 
where the administration's rebalance has reinforced commitments to 
allies such as Japan and the Republic of Korea, built stronger 
partnerships with India and the nations of Southeast Asia, created new 
opportunities for regional trade, and helped expand engagement with 
China on economic, diplomatic, and military issues. The President's 
historic trip to India this week cemented the positive progress we are 
making in strengthening another vital relationship in the region.
    In Africa we should help nations such as Nigeria and Cameroon deal 
with the challenges of terrorism, and invest in the continent's 
unmatched potential for growth and opportunity. And in Latin America, 
we should pursue the opening to Cuba but keep issues of human rights 
and democracy front and center in all discussions with the regime, 
while expanding our partnerships throughout the hemisphere in order to 
deal with threats to human security such as transnational crime.
    On a global level, the United States must also seize the 
opportunity of this year's UN Conference in Paris to assert our 
leadership on the issue of climate change, which the Pentagon recently 
highlighted as an urgent national security threat. While more tough 
work lies ahead, the agreements reached with China and India have laid 
the groundwork for global action on this defining challenge of our 
time.
    Trade presents another area of enormous opportunity for the United 
States. The agreements under negotiation by the administration in the 
Pacific and in Europe would not only benefit our economy, they would 
strengthen our national security and should be viewed through that lens 
as well.
    In his speech to the nation last week, the President appealed to 
the American people not to let our fears blind us to the opportunities 
that this young century presents.
    For all the anxieties and turmoil that surround us, I must say that 
I remain an optimist tough I am an optimist who worries a lot.
    Around the world, America remains the brightest beacon of human 
liberty. We are diverse, we are entrepreneurial, and we are resilient. 
No other country is in a better position to succeed in this new era 
than we are but to succeed, we must stay globally engaged.
    The greatest danger is becoming so intent on enjoying our freedom, 
that we neglect our responsibility to defend it.
    That brings me to an area of special concern to this committee the 
steep cuts to defense spending that will take place under the sequester 
mechanism later this year, jeopardizing our military's global reach.
    The President, military leaders, and congressional leaders of both 
parties have all said that these cuts would cause undue harm to our 
national security.
    I agree, and so I urge Congress to repeal these cuts.
    But I would be remiss if I did not also mention the troubling gap 
in funding between military and non-military foreign affairs programs 
that have persisted for far too long.
    For any strategy to be successful, we must provide all elements of 
our national security establishment defense, diplomacy, development, 
and democracy promotion--with sufficient resources. Both the 
administration and Congress must come together and make the tough 
compromises necessary to renew and revitalize all of our instruments of 
power. A close partnership between the executive and legislative 
branches of government is the only way to protect our interests and 
sustain our leadership in this dangerous world.
    Thank you again for the invitation to be here today. I look forward 
to your questions.
    Chairman McCain. Thank you, Madam Secretary.
    Secretary Shultz?

STATEMENT OF DR. GEORGE P. SHULTZ, THOMAS W. AND SUSAN B. FORD 
 DISTINGUISHED FELLOW, HOOVER INSTITUTION, STANFORD UNIVERSITY 
                 AND FORMER SECRETARY OF STATE

    Dr. Shultz. Thank you, Mr. Chairman.
    Chairman McCain. I think you have to push the button.
    Dr. Shultz. I appreciate the privilege of being here. You 
can see I am out of practice.
    [Laughter.]
    Dr. Shultz. I have not been here for 25 years. I used to 
appear a lot. We had the idea when I was in office, if you want 
me with you on the landing, include me in the takeoff. We did 
lots of consultation, and I found I always learned from it. I 
appreciate the chance to appear.
    What I thought I would do is start by setting out basic 
ideas that we used and President Reagan used in thinking out 
his foreign policy and defense policy and then try to apply 
those ideas to four areas that are important right now.
    First of all is the idea of execution. You have to arrange 
yourself and the way you go about things so that you execute 
the ideas that you have in mind, make them effective.
    I remember when I returned to California after serving. 
President Reagan knew I had served as Secretary of Labor and 
Director of the Budget and Secretary of Treasury. I knew him 
somewhat, and I got a phone call inviting me to Sacramento. He 
was Governor then. I got a 2 and a half hour drilling on how 
the Federal Government worked. How do you get something to 
happen? How does the President set up his policy? How does he 
get people to follow that policy? How does the budget get put 
together? What does the President do? What do the cabinet 
officers do? What does the budget director do and so on? I came 
away feeling this guy wants to be President but he wants to do 
the job and make things work.
    I remember not long after he took office, you may recall 
the air controllers went on strike--the air traffic 
controllers. People came running into the Oval Office saying, 
Mr. President, Mr. President, this is very complicated. He 
said, it is not complicated. It is simple. They took an oath of 
office and they violated it. They are out. All over the world, 
people said, is he crazy firing the air traffic controllers? 
But he had surrounded himself and he had over in the 
Transportation Department a man named Drew Lewis who had been 
the chief executive of a large transportation company and Drew 
knew how to keep the planes flying, which happened. So all over 
the world, the message went, hey, the guy plays for keeps. You 
better pay attention. But it was execution.
    The second thing in his playbook was always be realistic. 
Do not kid yourself. No rose-colored glasses. Describe the 
situation as it is. That does not mean you are afraid to 
recognize an opening when you see it, but do not kid yourself. 
A very important principle.
    Then next, be strong. The military, of course. I do not 
know, sequestration seems to me like legislative insanity. You 
cannot run anything on a percentage basis. You have to be able 
to pick and choose. You better get rid of that.
    But at any rate, we need a strong military, but we need a 
strong economy, something vibrant, something going to draw on. 
We need to have that kind of self-confidence that Madeleine 
talked about. Do we have the winning hand? Do we have the right 
ideas? All of that adds to your strength.
    The next thing, of course, is to think through your agenda 
so when you get to negotiating, you know you are negotiating 
from your own agenda not the other guy's agenda. Do not spend 
any time thinking about what he might accept or she might 
accept. Stick to your agenda. Figure it out what it is and that 
is what you are after.
    I remember when President Reagan proposed the so-called 
zero option on the the Intermediate-Range Nuclear Forces Treaty 
(INF). People said you are crazy. The Soviets have 1,500 
missiles deployed. We have none. You are out of your mind. We 
went through a lot of pain and agony, but we wound up with 0-0. 
Our agenda won. We stuck to it.
    I think it is very important to be very careful with your 
words. Mean what you say. Say what you mean. I remember, Mr. 
Chairman, at the start of World War II, I was in Marine Corps 
boot camp. The sergeant hands me my rifle. He says take good 
care of this rifle. This is your best friend. Remember one 
thing: never point this rifle at anybody unless you are willing 
to pull the trigger. Senator Sullivan, you went through the 
same experience, I am sure, in boot camp. No empty threats. You 
can translate that into when you say you will do something, do 
it. If you have that pattern of behavior, people trust you. 
They can deal with you. If you do not do what you say you are 
going to do, they cannot deal with it. They do not trust you. I 
think this has been a very important principle.
    Then once you have all these things in place, negotiate, 
engage with people. Do not be afraid to engage with your 
adversaries, but do it on your agenda and from your strengths. 
That is the outline.
    Now, let me turn first to something that I do not know 
whether it is really on your agenda or not but I think it 
should be and that is our neighborhood. I always felt and 
President Reagan felt that our policies start in our 
neighborhood. This is where we live. Canada and Mexico. It is 
worth pointing out that since the North American Free Trade 
Agreement (NAFTA) was signed 20 years ago, trade between these 
three countries has blossomed. Canada is our biggest trading 
partner. Mexico is third. We are their biggest trading partner. 
Listen to this, our imports from Canada are 25 percent United 
States content, and our imports from Mexico are 40 percent 
United States content. There is an integrated process going on 
here.
    Furthermore, in terms of people, there are a million 
Canadians living in California. That is fine. There is no 
problem.
    Fertility in Mexico now is down to a little below 
replacement level. When we had that crisis not long ago with 
all these kids showing up on our border, none of them were 
Mexican. It only underlines the point that the border that we 
need to be worrying about is Mexico's southern border, and we 
need to be worrying about how can we help them. Why is it that 
conditions are so bad in El Salvador, Honduras, and Guatemala 
that parents send their children north to see if they cannot 
get something better? We have to pay attention down there. That 
is all a part of this problem of illegal immigration. It is not 
just ranting about our border. It is much more diverse than 
that.
    I want to turn to Iran. What is the reality? Let us start 
with reality. The first point to remember is Iran is the 
leading state sponsor of terrorism. It started right away when 
they took people in our embassy hostage for close to a year. 
One of their first acts also was to try to blow up the Grand 
Mosque in Mecca. They act directly. They act indirectly through 
Hezbollah. I think it is probably a fair statement to say that 
if it were not for Hezbollah, Assad would not be in Syria right 
now. But Hezbollah is an Iranian entity, and we should not kid 
ourselves about that. They perpetrate terror. That is point 
number one about what they are like.
    Point number two, they are developing ballistic missiles. 
They are pretty advanced in that as far as I can figure out. 
That is a menacing military item.
    Number three, internally there is a lot to be desired in 
the way they run themselves. There are lots of political 
executions in Iran and that continues.
    Fourth, they are trying to develop nuclear weapons. There 
is no sensible explanation for the extent, the money, the 
talent they have devoted to their nuclear thing other than that 
they want a nuclear weapon. It cannot be explained any other 
way. We are negotiating with them. At least as far as I can 
see, they have not the table set yet. There is nothing going on 
about ballistic missiles, nothing going on about terrorism, let 
alone their internal affairs. It is just about the nuclear 
business. We had innumerable United Nations (UN) resolutions in 
the Security Council calling on Iran to dismantle its nuclear 
capabilities. Now we seem to have granted that. As I say, we 
have granted the right to enrich. Already they pocketed that 
and we are just talking about how much.
    I think it is also the case if you said to yourself what is 
their agenda, their agenda is to get rid of the sanctions, and 
they are doing pretty well. The sanctions are eroding. The more 
you kick the can down the road, the more the sanctions erode. 
They are not so easy to put back. I hear people talk about 
snap-back. There is very little snap-back. If you have ever 
tried to get sanctions imposed on somebody, you know how hard 
it is. You are trying to persuade people who are making a 
perfectly good living out of trade with somebody to stop doing 
it, and it is not easy.
    I am very uneasy about the way our negotiations with Iran 
are going on. I think it is not a bad thing if they are 
reminded that sanctions can be put on and will be tough.
    Then let me just say a word. Madeleine has covered it 
already well about Russia. I think, in addition to the obvious 
things about it, Russia is showing a lack of concern about 
borders. It is, in a sense, an attack on a state system. It is 
an attack on agreements. Remember when Ukraine gave up nuclear 
weapons, there was an agreement with us, with the Russians, and 
with the British that they would respect the borders of 
Ukraine. You do not even hear about that agreement anymore. It 
does not mean a thing. All their neighbors are nervous. Why? 
Because they are showing a disrespect for borders.
    I want to come back to this issue because--and let me just 
turn to the question of terrorism and ISIS because it is 
related in an odd way to what Russia is doing. I think the ISIS 
development is not simply about terrorism. It is about a 
different view about how the world should work. They are 
against the state system. They say, we do not believe in 
countries. In that sense, there is an odd kind of relationship 
with what Russia is doing and what they are doing.
    What do we do about it? First of all, I think we do have to 
understand the scope of it. It is the scope that matters.
    We had at the Hoover Institution at Stanford where I work 
the other day the guy who is the head military person in 
Pakistan. He was more worried about terrorism than he was about 
India. He was worried about ISIS establishing itself in 
Pakistan. It was not just the Middle East. This idea of no 
countries is something that is their ideology. They are trying 
to pursue it.
    So what do we do? I think we, obviously, need to recognize 
that this has been around a long time. I brought along--perhaps 
I could put it in the record, Mr. Chairman.
    Chairman McCain. Without objection.
    Dr. Shultz. A speech I gave in 1984 just to make the point 
that terrorism has been around a while. In this speech--I will 
read a couple of things from it.
    ``The terrorists profit from the anarchy caused by their 
violence. They succeed when governments change their policies 
out of intimidation. But the terrorist can even be satisfied if 
a government responds to terror by clamping down on individual 
rights and freedoms. Governments that overreact, even in self-
defense, may only undermine their own legitimacy.''
    I am saying we have to figure out how to react but not give 
away the store in the process.
    I say, ``The magnitude of the threat posed by terrorism is 
so great that we cannot afford to confront it with half-hearted 
and poorly organized measures. Terrorism is a contagious 
disease that will inevitably spread if it goes untreated.''
    ``We cannot allow ourselves to become the Hamlet of 
nations, worrying endlessly over whether and how to respond.''
    But we have to be ready to respond. What should we do?
    A pretty good set of proposals is by your friend, Mr. 
Chairman, former Senator Joseph Lieberman. I do not know 
whether you saw the piece he had in ``The Wall Street 
Journal?'' recently.
    Chairman McCain. I did.
    Dr. Shultz. It was a very good piece.
    Chairman McCain. We will include it in the record.
    Dr. Shultz. He sets out things that we should do, which I 
agree. If you could put this in the record, I think that would 
be helpful.
    Chairman McCain. Without objection.
    Dr. Shultz. But in addition to military things that we 
should be doing, I think we also have to ask ourselves how do 
we encourage members of the Islamic faith to disavow these 
efforts. The President of Egypt made reportedly a very 
important speech that we need to build on.
    But I would like to call your attention to something that 
has come out of San Francisco. Of course, I am a little 
oriented that way. I know you people on the East Coast think we 
are a bunch of nut balls, but we have a good time.
    [Laughter.]
    Dr. Shultz. But there is a man in San Francisco named Bill 
Swing. He is the retired Episcopal bishop of California. He 
started something called the United Religion Initiative. His 
idea is to get people--he found it was hard to get the people 
running these religions, but if you get the people together and 
getting them to talk together about subjects of interest to 
them, they basically forget about their religion and they try 
to get somewhere with these subjects. By this time, he has what 
he calls cooperation circles in 85 countries. He got millions 
of people involved. He has a big list of religions involved. 
The most important in numbers are Christians and Islam, and 
that is followed by Hinduism and Jewish, but a whole bunch of 
others. The kind of things they talk about are like economic 
development, education, health care, nuclear disarmament, 
refugee and displacement issues, and so on.
    I think things like this are to be encouraged because they 
get people from different religions and say there are things 
you can get together on and work on together, and that tends to 
break things down.
    He has given me a little handout on it, and I would like to 
put that in the record also, Mr. Chairman.
    Chairman McCain. Without objection.
    Dr. Shultz. So thank you for the opportunity to present 
some views.
    [The information follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
    Chairman McCain. Thank you very much, Mr. Secretary.
    Secretary Kissinger?

  STATEMENT OF DR. HENRY A. KISSINGER, CHAIRMAN OF KISSINGER 
            ASSOCIATES AND FORMER SECRETARY OF STATE

    Dr. Kissinger. Mr. Chairman, thank you for this invitation 
and to appear together with my friend of 50 years, George 
Shultz, from whom I have learned so much, and with Madeleine, 
with whom I have shared common concerns for many decades and 
who put me in my place when she was appointed as Secretary of 
State. I introduced her at a dinner in New York, and I said, 
welcome to the fraternity. And she said, the first thing you 
have to learn that it is no longer a fraternity.
    [Laughter.]
    Dr. Kissinger. Now a sorority.
    Mr. Chairman, I have taken the liberty--I agree with the 
policy recommendations that my colleagues have put forward--to 
try to put forward the conception statement of the overall 
situation, and I will be happy in the question period to go 
into specific policy issues.
    The United States finds itself in a paradoxical situation. 
By any standard of national capacity, we are in a favorable 
position to achieve our traditional objectives and to shape 
international relations.
    Yet, as we look around the world, we encounter upheaval and 
conflict and chaos.
    [Audience disruption.]
    Dr. Shultz. Mr. Chairman, I salute Henry Kissinger for his 
many efforts at peace and security.
    Chairman McCain. Thank you, Doctor.
    [Standing ovation.]
    Dr. Kissinger. Thank you very much.
    The United States has not faced a more diverse and complex 
array of crises since the end of the Second World War. One 
reason is that the nature of strategy has shifted from an 
emphasis on objective power to include also psychological 
contests and asymmetric war. The existing international order 
is in the process of being redefined.
    First, the concept of order within every region of the 
world is being challenged.
    Second, the relationship between different regions of the 
world is being redefined.
    Third, for the first time in history, every region now 
interacts in real time and affects each other simultaneously.
    The problem of peace was historically posed by the 
accumulation of power, the emergence of a potentially dominant 
country threatening the security of its neighbors. In our 
period, peace is often threatened by the disintegration of 
power, the collapse of authority into non-governed spaces 
spreading violence beyond their borders and their region. This 
has led to the broadening of the challenge of terrorism from a 
threat organized essentially from beyond borders to a threat 
with domestic networks and origins in many countries of the 
world.
    The current international order, based on respect for 
sovereignty, rejection of territorial conquest, open trade, and 
encouragement of human rights is primarily a creation of the 
West. It originated as a mechanism to end Europe's religious 
wars over 3 centuries ago. It spread as European states 
advanced technologically and territorially. It evolved in the 
decades since World War II, as the United States became its 
guarantor and its indispensable component.
    In key regions of the world, that order is in the process 
of change. In Europe, after two cataclysmic wars, the leading 
states set out to pool their sovereignty, and crises cast the 
question of Europe's identity and world role into sharper 
relief and, along with it, the definition of the transatlantic 
partnership, which in all the post-World War II period has been 
the keystone of American foreign policy. Europe is suspended 
between a past that it is determined to overcome and a future 
still in the process of redefinition, with a willingness to 
contribute to so-called soft power and a reluctance to play a 
role in the other aspects of security. The Atlantic partnership 
faces the challenge of adapting from an essentially regional 
grouping to an alliance based on congruent global views.
    Russia, meanwhile, is challenging the strategic orientation 
of states once constrained in its satellite orbit. The West has 
an interest in vindicating the independence and vitality of 
these states that ended their satellite status. But Russia is 
now mounting an offensive on the border on which paradoxically 
it is least inherently threatened. On many issues, especially 
Islamist extremism, American and Russian interests should prove 
compatible. We face a dual challenge to overcome the immediate 
threats that are posed along the borders, especially of 
Ukraine, but to do so in a manner that leaves open a context 
for Russia's long-term role in international relations where it 
is needed to play an essential role.
    In Asia, many economies and societies are flourishing. At 
the same time, there exist local conflicts for which there is 
no formal arrangement to constrain the rivalries. This 
introduces a measure of volatility to seemingly local disputes.
    A special aspect of any Asian system will be the 
relationship between the United States and China. It is often 
described as one between a rising power and an established 
power analogous to the relationship between Germany and Britain 
before the war. Two successive American and Chinese presidents 
have announced their joint aim to deal with this matter on the 
basis of cooperation. Yet, it is also true that significant 
spokesmen have stressed the adversarial aspect in both 
countries.
    Now, India is entering this equation. With its vast 
economic potential, a vibrant democracy, and cultural links to 
Asia, the Middle East, and the West, India plays a growing role 
that the United States will naturally welcome. The emphasis 
should be on social and political alignments, not strategic 
groupings.
    In the Middle East, multiple upheavals are unfolding 
simultaneously. There is a struggle for power within states, a 
conflict between states, a conflict between ethnic and 
religious groups, and an assault on the international system as 
it was constituted. These various conflicts often merge, and 
they have produced the phenomenon of ISIS, which challenges all 
established institutions and which in the name of a caliphate 
is establishing a territorial base explicitly designed to 
undermine all the existing patterns of legitimacy. The 
continuation of a territory under terrorist control that avows 
its aim the overthrow of all existing institutions is a threat 
to security, and the conflict with ISIS must be viewed within 
that context and not within the context of individual episodes 
and the ability to overcome that.
    Iran has exploited this turmoil to pursue positions of 
power within other countries beyond the control of national 
authorities and sometimes constituting a state within a state, 
for example, in Lebanon and Iraq and elsewhere, and all this 
while developing a nuclear program of potentially global 
consequences. Nuclear talks with Iran, which I welcome, began 
as an international effort by three European countries 
buttressed by six UN resolutions. The United States joined in 
only in 2006. Their avowed purpose has been of all these 
countries, together with the six resolutions of the Security 
Council, to deny Iran the capability to develop a military 
nuclear option.
    These negotiations have now become an essentially bilateral 
negotiation over the scope of that capability, not its 
existence, through an agreement that sets a hypothetical limit 
of 1 year on an assumed breakout. The impact of the exchange 
will be to transform the negotiations from preventing 
proliferation to managing it and from the avoidance of 
proliferation to its limitations. These stages need to be 
considered in assessing whatever agreement emerges.
    In all of these regions, the old order is in flux while its 
replacement is uncertain.
    The role of the United States is indispensable. In a time 
of global upheaval, the consequence of American disengagement 
is magnified and requires larger intervention later. The United 
States, working together with Mexico and Canada in an economic 
partnership and with its other allies, can help shape the 
emerging world in both the Atlantic and Pacific regions.
    All this calls for a long-term bipartisan definition, and 
we should ask ourselves the following questions. What is it we 
seek to prevent, no matter how it happens, and if necessary 
alone? What do we seek to achieve, even if not supported by any 
multilateral effort? What do we seek to achieve or prevent only 
if supported by an alliance? What should we not engage in, even 
if it is urged by other groups? What is the nature of the 
values we seek to advance? The answers require a process of 
public debate and education. But we must understand that the 
answers will be determined by the quality of the questions we 
ask.
    American military power has and will continue to play an 
essential role in upholding a favorable international balance, 
restraining destabilizing rivalries and providing a shield for 
economic growth and international trade to follow. The sense of 
basic security that a strong and consistent American political 
presence provides has made possible many of the great strides 
of the post-World War II era. It is even more important today.
    The United States, as your chairman has often pointed out, 
should have a strategy-driven budget, not a budget-driven 
strategy. In that context, attention must be given to the 
modernization of our strategic forces.
    America has played in its history a role as stabilizer and 
it is a vision for the future. All great ideas and achievements 
are a vision before they become a reality. I would like to 
thank you, Mr. Chairman and Mr. Ranking Member, for conducting 
hearings that hopefully lead us in this direction.
    I am happy to answer your questions. Thank you.
    [The prepared statement of Dr. Kissinger follows:]

              Prepared Statement by Dr. Henry A. Kissinger
    Mr. Chairman, Ranking Member Reed:
    Thank you for this invitation to address the Committee as a new 
Congress begins.
    The United States finds itself in a paradoxical situation. By any 
standard of national capacity, we are in a position to achieve our 
objectives and to shape international affairs.
    Yet as we look around the world, we encounter upheaval and 
conflict. The United States has not faced a more diverse and complex 
array of crises since the end of the Second World War.
    One reason is that the nature of strategy has shifted--from an 
emphasis on objective strength, to include a major component defined by 
psychological contests and asymmetric war. A second reason is that the 
existing international order itself is being redefined:

    <bullet>  First, the concept of order within every region of the 
world is being challenged or revised.

    <bullet>  Second, the relationships between the different regions 
of the world are being redefined.

    <bullet>  Third, for the first time in history, every region now 
interacts in real time and affects each other simultaneously.

    <bullet>  And finally, the nature of security threats has expanded 
and become more fluid. The problem of peace was historically posed by 
the accumulation of power--the emergence of a potentially dominant 
country threatening the security of its neighbors. In our period, peace 
is often threatened by the disintegration of power--the collapse of 
authority into ``non-governed spaces'' spreading violence beyond their 
borders and their region. This has led to the broadening of the 
challenge of terrorism--from a threat organized essentially from beyond 
borders, to a threat with domestic networks and origins.

    The current international order--based on respect for sovereignty, 
rejection of territorial conquest, open trade, and encouragement of 
human rights--is primarily a creation of the West. It originated as a 
mechanism to end Europe's religious wars over three centuries ago. It 
spread as European states advanced technologically and territorially. 
And it evolved in the decades since World War II, as the United States 
became its guarantor.
    Yet for most of history, the other regions of the world were 
ordered by different patterns. Their experience was central empire 
(such as classical China), or universal theocracy (as in the Islamic 
caliphate), or a hybrid system of authoritarianism (for example, 
czarist Russia).
    In key regions of the world, the present order is in the process of 
change:

    <bullet>  In Europe, after two cataclysmic wars the leading states 
reconceived their objective. They set out to pool their sovereignty and 
turned to tasks of internal construction. Now crises cast the question 
of Europe's identity and world role into sharper relief--and along with 
it, the definition of transatlantic partnership. Europe is suspended 
between a past it is determined to overcome and a future still in the 
process of redefinition. The Atlantic partnership faces the challenge 
of adapting from an essentially regional grouping to an alliance based 
on congruent global views.

    <bullet>  Russia meanwhile is challenging the strategic orientation 
of states once constrained in its satellite orbit. The West has an 
interest in vindicating their independence and vitality. Still, Russia 
is mounting an offensive on the border on which, paradoxically, it is 
least inherently threatened. On many other issues--for example, 
Islamist extremism--American and Russian interests may prove 
compatible. We need to address the immediate challenges Russia poses 
while also defining a context for its long-term role in the 
international equilibrium.

    <bullet>  In Asia, many economies and societies are flourishing. At 
the same time, a number of these countries are contesting with each 
other over territorial claims, so far without clear limits or 
arrangements to constrain their rivalries. This introduces a measure of 
volatility to even seemingly local disputes.

       A special aspect of any Asian system will be the relationship 
between the United States and China. It is often described as one 
between a rising power and an established power. Two successive 
American and Chinese presidents have announced their joint aim to deal 
with this matter on the basis of cooperation. Significant spokesmen in 
both countries have stressed the adversarial aspect. The direction 
taken will play a defining role in our period.

       Now India is entering this equation. With vast economic 
potential, a vibrant democracy, and cultural links to Asia, the Middle 
East, and the West, India plays a growing role that the United States 
will naturally welcome. The emphasis should be on social and political 
alignments, not strategic groupings.

    <bullet>  In the Middle East, multiple upheavals are unfolding 
simultaneously. There is a struggle for power within states; a contest 
between states; a conflict between ethnic and sectarian groups; and an 
assault on the international state system. One result is that 
significant geographic spaces have become ungovernable, or at least 
ungoverned.

       Iran has exploited this turmoil to pursue positions of power 
within other countries beyond the control of national authorities, such 
as in Lebanon and Iraq, and while developing a nuclear program of 
potentially global consequences. Nuclear talks with Iran began as an 
international effort, buttressed by six UN resolutions, to deny Iran 
the capability to develop a military nuclear option. They are now an 
essentially bilateral negotiation over the scope of that capability 
through an agreement that sets a hypothetical limit of one year on an 
assumed breakout. The impact of this approach will be to move from 
preventing proliferation to managing it.
    In each of these critical regions, the old order is in flux while 
the shape of the replacement is uncertain.
    The role of the United States is indispensable. Especially in a 
time of global upheaval, the consequence of American disengagement is 
greater turmoil. This tends to require intervention later, but as an 
emergency measure and at heavier cost. The United States, especially 
working together with Mexico and Canada in an economic partnership, can 
help shape the emerging world in both the Atlantic and Pacific regions.
    All this calls for a long-term, bipartisan definition of the 
American national interest and world role. So we should ask ourselves:

    <bullet>  What do we seek to prevent, no matter how it happens, and 
if necessary alone?

    <bullet>  What do we seek to achieve, even if not supported by any 
multilateral effort?

    <bullet>  What do we seek to achieve, or prevent, only if supported 
by an alliance?

    <bullet>  What should we not engage in, even if urged by a 
multilateral group or an alliance?
    <bullet>  And what is the nature of the values we seek to advance? 
Which applications of them are absolute, and which depend in part on 
circumstance?

    The answers require a process of public debate and education. But 
we must recognize that the answers will be determined by the quality of 
the questions we ask.
    Let me close with a few words on a topic at the heart of this 
Committee's mission.
    American military power plays an essential role in upholding a 
favorable international balance, restraining destabilizing rivalries, 
and providing a shield for economic growth and international trade to 
flourish. The sense of basic security that a strong and consistent 
American political presence provides has made possible many of the 
great strides of the post-World War II era. It is no less important 
now.
    Therefore the United States should have a strategy-driven budget, 
not budget-driven strategy, as your Chairman has emphasized. And 
serious attention must be given to the lagging modernization of our 
strategic forces.
    I know that this Committee will make important contributions to the 
understanding of these issues, and to the strong American defense that 
underpins so many of our great aspirations and achievements. Thank you, 
and I welcome any questions you may have.

    Chairman McCain. Thank you very much, Doctor. Thank you for 
your compelling statement. I thank all the witnesses.
    I will be brief so that my colleagues can have a chance to 
answer questions. We will probably have to break within about a 
half hour or so since we have votes on the floor of the Senate.
    Secretary Albright, should we be providing defensive 
weapons to the Ukrainian Government?
    Dr. Albright. Mr. Chairman, I believe that we should. I 
think that they are moving forward with a reform process, which 
I think can be healthy, but their security needs to also be 
ensured. I do believe that countries have a right to defend 
themselves. We should be careful about a confrontation 
ourselves, but I do think that we should be providing defensive 
weapons to the Ukrainians.
    Chairman McCain. Dr. Kissinger, you described it--you and 
Secretary Shultz--rather well. But I am not sure that the 
average American understands the Iranian ambitions, and maybe 
both of you could explain perhaps to the committee and to, 
frankly, the American people what are the Iranian ambitions and 
why should we care? Maybe beginning with you, Secretary Shultz.
    Dr. Shultz. Their ambitions are to have a dominant role at 
least in the Middle East to continue their pattern of terrorism 
directly and through Hezbollah and to enhance their position by 
the acquisition of nuclear weapons. They give every indication, 
Mr. Chairman, that they do not want a nuclear weapon for 
deterrence. They want a nuclear weapon to use it on Israel. It 
is a very threatening situation, I think. Actually a nuclear 
weapon used anywhere would dramatically change the world. 
Everybody would say we have to do something about these awful 
things. But it can wipe out a state like Israel.
    Chairman McCain. Dr. Kissinger?
    Dr. Kissinger. Every country is in part a result of its 
history, and there are three strengths in Iranian history. As a 
national state in the region, in this capacity its interests 
and those of the United States are quite parallel, and the 
United States and previous Iranian governments found a reliable 
partner and that is a goal towards which one can strive.
    Secondly, Iran reflects a history of empire that spreads 
across the entire Middle East and that was one of the major 
themes of its history, extending into the 19th century.
    Third, Iran was the first state advocate of the Islamic 
jihad uprising that sweeps away national borders and based its 
foreign policy on the domination of the particular 
interpretation of religion. Iranian foreign policy since the 
event of the Ayatollah regime has been a combination of the 
religious and imperial element and has asserted a dominant 
position towards neighboring states and towards states well 
beyond it, and of course, with respect to the eradication of 
Israel.
    With respect to the current negotiations, insofar as they 
are state-to-state negotiations, they have a positive basis, 
but the existing Iranian regime has never disavowed its 
policies that include Persian imperial and religious 
domination. It is supporting now groups like the Hezbollah 
which are states within the state in other countries. We have 
just heard this week of a Hezbollah attack from Syrian 
territory into an Israel border patrol.
    When one speaks of political cooperation, the question is 
whether the political orientation of that regime has been 
altered. It cannot be judged alone by the nuclear agreement in 
which the removal of sanctions is a great Iranian interest. 
That is the challenge we face and that we can only assess when 
we know the terms of the outcome of the negotiations.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all very much for your service to the country and 
for being here today.
    I want to begin with a report that was asked to be done by 
the Department of Defense that the RAND Corporation did looking 
at the last 13 years of war and what lessons we have learned 
from those 13 years. The report draws a number of conclusions. 
I will not go through all of them.
    But first it suggests that the U.S. Government has 
displayed a weakness in formulating national security 
strategies and that the weakness is really due to a lack of 
effective civilian-military process for national security 
policymaking. You all talked about the need to have a clear 
strategy for what we are doing.
    I wonder if you could comment on whether you think those 
conclusions are going in the right direction in thinking about 
how we address future foreign and military policy or if you 
think that is totally off base. Secretary Albright, do you want 
to begin?
    Dr. Albright. Thank you very much. It is a pleasure to be 
here.
    Let me just say I have not read the RAND report, but I do 
think that one of the bases of our Government are civilian-
military relations, the control of the civilian controlling the 
military. I think that the decision-making process is one in 
which the military has to be heard, in which there may be 
different opinions, but the whole basis of the National 
security system in the United States is that different voices 
are heard. I think that there needs to be a process whereby--
and I agree in this in terms of what George Shultz said--is 
there have to be ideas and then execution. While there may be 
voices at times that disagree, ultimately it is important to 
get a common policy.
    I do think the last 13 years have been particularly 
difficult in terms of determining why we were in two wars and 
try to figure out what the decision-making process really was 
in getting into those wars, not in terms of rehashing them but 
in terms of trying to figure out what the appropriate decision-
making process is, what the channels are. Are there those that 
operate outside the channels? I do think I am very much in 
favor of a process where civilian and military opinions are 
both regarded, but ultimately civilian control over the 
military.
    Senator Shaheen. Thank you.
    Dr. Shultz?
    Dr. Shultz. I recall a time when President George H.W. Bush 
deployed forces, along with coalition forces, to expel Saddam 
Hussein from Kuwait. That was a clear mission, endorsed by 
votes in Congress, as well as in the UN. When that had 
happened, he stopped. It was one of the most dramatic examples 
of not allowing mission creep to control what you are doing. 
There was a mission. It was accomplished and he stopped. He 
took a lot of heat for that. Oh, you should have gone on to 
Baghdad or you should have done this or should have done that. 
But I thought it was a very important moment.
    If you take Afghanistan, I think after 9/11 it was 
practically a no-brainer that we should go and try to do 
something there. We did and we succeeded brilliantly. Then our 
mission changed and we are there forever because of mission 
creep. I think to a certain extent we failed to take some 
advice on Iraq of some of the generals who said you have to 
have a greater amount of manpower there so that you have some 
control. If there is looting, it shows you are not in control, 
and there was a lot of looting. I think that was a case of we 
would have been better off if we had taken more military 
advice.
    But in terms of the decision to go ahead in both cases, it 
would seem to be very well taken because the evidence, at 
least--it turned out not to be so, but the evidence seemed to 
be clear that Iraq was moving on weapons of mass destruction 
and we had, of course, 9/11 in Afghanistan.
    I think we have to be very careful in these things. I sat 
in the situation room many times and there is a mission and the 
military say you have to tell me more precisely what the 
mission is. Then I can tell you what it takes to do it. That 
gets decided and then you go and you are successful. Then you 
have to be careful that the mission does not change into 
something that you did not provide for to begin with.
    Senator Shaheen. Thank you very much.
    My time has ended. I do not know, Dr. Kissinger, if you had 
anything you wanted to add to that.
    Dr. Kissinger. The question has two aspects. Is the 
organization adequate to give every significant group an 
opportunity to express itself?
    But the second challenge we have faced in defining a 
national strategy is that we in our National experience have 
had a different experience than most other nations. We have 
been secured behind two great oceans. For Americans, security 
presented itself as a series of individual issues for which 
there could be a pragmatic solution, after which there was no 
need for further engagement until the next crisis came along. 
But for most nations and for us now more than ever, the need is 
for a continuing concept of national strategy. We think of 
foreign policy as a series of pragmatic issues. Other 
countries, for example, the Chinese, do not think in terms of 
solutions because they think every solution is an admissions 
ticket to another problem.
    It is a question of national education in answering the 
question, what are our objectives. What are the best means to 
achieve these objectives? How can we sustain them over a period 
of time?
    I have lived now so long that I have experienced six wars, 
and in the five wars after World War II, we began them with 
great enthusiasm and then had great national difficulty in 
ending them. In a number of them, including the last two 
especially, withdrawing became the only definition of strategy 
or the principal definition of strategy. We have to avoid that 
in the future. We must know the objective when we start and the 
political strategy with which to culminate it. That I think is 
our biggest challenge.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you. Thank you, Mr. Chairman.
    First of all, I just have to say I am just overwhelmed to 
be before the three of you. There is nothing I can say that 
would thank you enough for all that you have done. Thank you so 
much.
    The only major thing I wanted to accomplish at this hearing 
was to try to describe to the American people, because they do 
not know. You probably assume they do know the current 
condition of our military. Now, I am going to read something 
that you will remember, and this is going to be to Dr. Shultz 
and Dr. Kissinger.
    This is 1983. It was Ronald Reagan. He was talking about 
how we should budget for our National security. I am going to 
quote him. ``We start by considering what must be done to 
maintain peace and review all of the possible threats against 
our security. Then a strategy for strengthening peace, 
defending against those threats must be agreed upon. Finally, 
our defense establishment must evaluate to see what is 
necessary to protect against any and all potential threats. The 
cost of achieving these ends is totaled up and the result is 
the budget for national defense.''
    Does that sound good to you?
    Dr. Shultz. Right on the mark.
    Senator Inhofe. Dr. Kissinger, do you agree with the 
statement in 1983 of President Reagan?
    Dr. Kissinger. Yes.
    Senator Inhofe. Thank you.
    The problem we are having right now is we have watched what 
is happening to our force structure and people do not realize. 
In a minute, I do want to ask you about the Ukraine. But when 
you think about the places where we should be and we could be 
and all of that, we have to consider that we do not have the 
capability that we have had in the past. We have always had 
that capability.
    Our policy has been to be able to defend America on two 
regional fronts--roughly that. They changed the words around a 
little bit--at the same time, two regional conflicts at the 
same time. We are not where we can do it right now.
    I would like to ask the two of you how you evaluate our 
current condition of our military capability, starting with 
you, Dr. Kissinger.
    Dr. Kissinger. With respect to Ukraine?
    Senator Inhofe. No, no. Our overall military capability of 
our United States military. End strength.
    Dr. Kissinger. I think our capability is not adequate to 
deal with all the challenges that I see and which some of the 
commitments into which we may be moving and needs to be 
reassessed carefully in the light of the shrinkage that has 
taken place on budgetary grounds in the recent decade.
    Senator Inhofe. Dr. Shultz, do you agree with that?
    Dr. Shultz. I think you have to recognize that a prime 
responsibility of the Federal Government is to provide for our 
security. That is number one. As you read from Ronald Reagan, 
one of the things he did was build up our military. He got a 
lot of objections from his budget director. But he said this is 
the number one thing. As our economy improved, things got 
better budgetarily. But still, let us build up our military. 
When he took office, we had the Vietnam syndrome, and our 
people were not even wearing their uniforms into the Pentagon. 
He said stand up straight, be proud of yourself, wear your 
uniform. Then we had a military buildup of considerable size. 
The statement was peace through strength. We actually did not 
use our forces very much because it was obvious to everybody 
that if we did, we would win. So you better be careful. Do not 
mess with us.
    Senator Inhofe. An excellent statement.
    Dr. Albright, I do agree with your position on Ukraine for 
probably a different reason. I happened to be there at the time 
of the election in November. A lot of people do not realize 
what really happened, not just Poroshenko but Yatsenyuk and the 
rest celebrating the first time in 96 years that they have 
rejected any Communist seat in the parliament. It has never 
happened before.
    Now, in light of that, the free world is looking at what is 
happening in Ukraine. What effect do you think that has on many 
of our allies, the action that we have not taken there?
    Dr. Albright. I think that we do need to help them defend 
themselves. Senator Ayotte and I were there also for elections, 
and they took very many brave steps. The people of Ukraine had 
been disappointed by what had happened after the Orange 
Revolution in terms of their capability of being able to bring 
reforms into place.
    I think that generally--and the larger question--people do 
look at how we react when one country invades another and takes 
a piece of territory. As both my colleagues here have said, it 
is breaking the international system. Therefore, I do think 
that it is important to take a strong stand there by providing 
capability of Ukrainians to defend themselves, but also that 
NATO, in fact, can and is taking steps in other parts of 
Central and Eastern Europe of providing some forces that move 
around, and NATO has been a very important part.
    I do think, if I might say to the questions that you asked 
the others, that I am very concerned about sequestration and 
the deep cuts that have been taken, and I hope very much that 
this committee really moves on that because I do think it 
jeopardizes America's military reach.
    As somebody who worked for Senator Muskie at the beginning 
of the budget process, I do know about function 150 and 050, 
having defended 150 a long time. I also admire what Secretary 
Gates had said about the importance of providing some money for 
the foreign policy aspect of our budget because in answer to 
many questions here, I think we are in the Middle East for a 
long time. The military part of this is important, but we also 
have to recognize--and it is a little bit to what you said, 
George--in terms of longer-term aspects there where we need to 
figure out what the environment is that has created this 
particular mess and be able to use other tools of our policy to 
deal with that.
    Senator Inhofe. Thank you very much. My time has expired.
    If I could just ask one question for the record from Dr. 
Shultz. You outlined, I thought, a very good course of behavior 
for us in the United States. I would like for the record for 
you to submit how we are doing relative to that course of 
behavior that you recommend. Thank you very much.
    Dr. Kissinger. Could I say a word about the military? In 
considering the Ukraine issue, in my view we should begin with 
the definition of the objective we are trying to reach and then 
see which measures are the most suitable. I am uneasy about 
beginning a process of military engagement without knowing 
where it will lead us and what we are willing to do to sustain 
it in order to avoid the experience that I mentioned before. 
Ukraine should be an independent state, free to develop its own 
relationships with perhaps a special aspect with respect to 
NATO membership. It should be maintained within its existing 
borders, and Russian troops should be withdrawn as part of a 
settlement.
    But I believe we should avoid taking incremental steps 
before we know how far we are willing to go. This is a 
territory 300 miles from Moscow and therefore has special 
security implications. That does not change my view of the 
outcome, which must be a free Ukraine. It may include military 
measures as part of it, but I am uneasy when one speaks of 
military measures alone without having the strategy fully put 
forward.
    Chairman McCain. Dr. Shultz, do you want to add to that?
    Dr. Shultz. Yes, I would like to add to that. I am totally 
with Henry's statement of where we want it to wind up as a 
free, independent Ukraine. But I think we have to be active in 
trying to help that come about, and I would point to two 
particular things that we should be doing.
    Number one, we should be organizing an energy effort to see 
to it that the countries around Russia are not totally 
dependent on Russian oil and gas, which has been used as a 
weapon. I am interested to know that there is an LNG receiving 
ship in a port in Lithuania, and I think they are getting their 
LNG from Norway. But we have a lot of gas in this country. We 
should be ready to have LNG and get it there. There is plenty 
of oil around that should get there. We want to relieve those 
countries of this dependence on Russian oil and gas, and maybe 
it would teach them a little bit of lesson because, in addition 
to the low oil prices, they will lost market share probably 
permanently.
    Then I would not hesitate--I think I am here in Madeleine's 
camp. Let us do everything we can to train and equip decently 
the Ukrainian armed forces. They have boots on the ground. They 
are their boots, but let us help them be effective because 
there are Russian boots on the ground. Don?t anybody kid 
themselves about what is going on.
    Chairman McCain. Thank you.
    Dr. Albright, I will suggest that you become a member of 
the Budget Committee again. We can use your expertise and 
experience.
    [Laughter.]
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman, for this 
outstanding hearing.
    Thank you for attending, the three of you. It is just such 
an honor to have you all here with your expertise and your 
knowledge and the history of where we are as a country and 
hopefully help us get to the place we need to be.
    With that, Dr. Kissinger, you said in your testimony the 
United States has not faced a more diverse and complex array of 
crises since the end of World War II. I look around at all of 
our generations. My generation is Vietnam. The generation of 
today is 9/11, Afghanistan, Iraq. It has kind of gone into 
another direction of concern that we all have.
    I would like to hear from the three of you. I think you all 
have touched on it and about how we would approach it. But when 
you start looking at where is the United States of America 
truly willing to spend its treasure and contribute its blood, 
which is a horrible thing for any of us to have to ask 
Americans to do, but if we are going to be doing treasure and 
blood of where we are going to be addressing the greatest 
threats that we have and we are limited in such an array of 
complex problems that we have, which ones would you identify 
first?
    I would ask simply this, we had gone to Afghanistan because 
of 9/11. We turned left and went to Iraq, and we can talk about 
that all day. We have Iraq that did not do what we thought it 
would do, and we have ISIS in Syria. We have all of that going 
on right now and we have Ukraine and Russia. Do we try to do a 
little bit of everything, or should we really be pinpointing 
something that we should be focused on right now? Whoever would 
like to start. Dr. Kissinger, if you would like to start on 
just pinpointing what you think our greatest concerns may be 
and where our efforts should be put.
    Dr. Kissinger. My thinking on international relations was 
formed during the Cold War. In terms of danger, the conflict 
between a nuclear-armed Russia and a nuclear-armed America was 
greater than any single danger we face today. The most 
anguishing problem one could face was what happens if the 
strategic plans of both sides had to be implemented or were 
implemented by accident or whatever. But it was a relatively 
less complex issue than we face today where we have a Middle 
East whose entire structure is in flux.
    As late as the 1973 Middle East war, American policy could 
be based on existing states in the region and achieve 
considerable successes in maneuvering between them. Today 
Middle East policy requires an understanding of the states, of 
the alternatives to these states, of the various forces within 
the states, a situation like Syria where the two main 
contenders are violently opposed to America, violently opposed 
to each other, and a victory for either of them is not in our 
interest.
    The rise of China, apart even from motivations of leaders, 
presents a whole new set of problems, an economic competitor of 
great capacity, a state that is used in its tradition of being 
the central kingdom of the world as they knew it, that by its 
very existence we and they are bound to step on each other's 
toes, and the management of this--but it is a different problem 
from the Middle East problem.
    Senator Manchin. The Middle East is the most dangerous one 
that you think we are facing right now, a nuclear Iran?
    Dr. Kissinger. And then we have nuclear Iran. I would say 
the most immediate, short-term problem is to get rid of a 
terror-based state that controls territory. That is ISIS. We 
must not let that degenerate into another war that we do not 
know how to end.
    But more long-term problems also exist. The challenge to 
our country is not to switch from region to region but to 
understand the things we must do and separate them from the 
things we probably cannot do. There is a novel challenge in 
that magnitude for the current generation.
    Senator Manchin. Mr. Chairman, would it be possible that 
Dr. Shultz might answer? Dr. Shultz, would you just give us 
your idea of what you think our most greatest concerns are 
right now?
    Dr. Shultz. Of course, I agree with what Henry has said, 
but let me put some additional points in it.
    I think we tend to underestimate the impact of the 
information in the communication age. It changes the problem of 
government because people know what is going on everywhere. 
They can communicate with each other and organize, and they do. 
You have diversity everywhere, and it has been ignored or 
suppressed but it is asserting itself.
    Remember in Iraq with Maliki was he had to govern over 
diversity, but he wanted to stamp it out. He did not understand 
at all how you govern over diversity.
    You have that problem which tends to fragment populations 
and make governments a little weaker, just as that is 
happening, the problems that demand international attention are 
escalating.
    I think as Henry said, as I said in my initial testimony, 
there is an attack on the state system going on. The attack on 
Ukraine is part of it. ISIS is a major part of it. They are a 
major challenger to the state system. They want a different 
system.
    I have a sense, Henry, that China is drifting into a kind 
of sphere of influence and way of thinking. That is different 
from the state system. So that is a challenge.
    I see nuclear weapon proliferation coming about. That is 
devastating. A nuclear weapon goes off somewhere. Even my 
physicist friends say that the Hiroshima weapon was just a 
little play thing. Look at the damage it did. A thermonuclear 
weapon would incinerate the Washington area totally. The spread 
of nuclear weapons is a really big threat. We were making 
progress but that has been derailed and we are going the wrong 
way right now.
    I think and I gather in Washington it is very 
controversial, but I have a friend at Hoover who is a retired 
Chief of Naval Operations, Gary Roughead. We have started a 
project on the Arctic. Senator Sullivan knows about the Arctic. 
There is a new ocean being created there. That has not happened 
since the last Ice Age. There are big melts all over the world 
taking place. The climate is changing. There are consequences. 
So that is happening. We will never get anywhere with it unless 
we are able to somehow have actions that take hold on a global 
basis.
    I might say sort of parenthetically I have the privilege of 
chairing the Massachusetts Institute of Technology (MIT) 
advisory board on their big energy initiative, more or less the 
same thing at Stanford. I see what these guys doing research 
and development (R&D) and girls doing R&D are doing, and it is 
really breathtaking. We had an MIT scientist come to Hoover the 
other day, and I think he has cracked the code on large-scale 
storage of electricity. That is a game-changer because it takes 
the intermittency problem out of solar and wind. Also, we must 
know how vulnerable our grid is, and if you have some energy 
stored where you can use it, you are much safer. At any rate, I 
think these energy R&D things are beginning to get somewhere. 
But that is a big threat.
    These three things are huge concerns of ours, and we need 
to have a strong military. We need to have a strong economy, 
and we need a strength of purpose in our country.
    We have probably done the best job with all our problems of 
dealing with diversity because we started out that way. We are 
the most diverse country in the world, and our Constitution 
provided that. I have been reading Lynn Cheney's book on 
Madison. It is a wonderful book. It is clear that George 
Washington, having suffered because the Continental Congress 
would not give him the money to pay his troops, wanted a strong 
government. But he and his colleagues saw that they would never 
get the Constitution ratified unless they provided a lot of 
role for States and communities. So our Federal structure 
emerged, and it is a structure that allows for diversity. It is 
very ingenious. You can do something in Alaska. We do not have 
to do it in San Francisco, and they certainly do not want to do 
the same thing in New Mexico. There is a difference. Let the 
differences prevail.
    We have these big problems, and then in a sense you look at 
them and say tactically how do we handle Iran, how do we handle 
Ukraine, how do we handle ISIS. It falls within this broader 
framework.
    Dr. Albright. Can I just say a word? I do think the biggest 
threat is climate change and its national security aspects, as 
has been described. It leads me to say the following thing. Our 
problem is that not everything can be handled militarily and 
that we also have a short attention span. These are very long-
term problems. Also, Americans do not like the word 
``multilateralism''. It has too many syllables and ends in an 
``ism''. But basically it is a matter of cooperating, and if 
you look at these issues, it will require American leadership 
within a system that other countries play a part in. Otherwise, 
I agree with everything that both Henry and George have said. 
But I do think short attention span and multilateral ways of 
dealing with it.
    Senator Manchin. I am sorry, Mr. Chairman.
    Chairman McCain. Not at all.
    Senator Sessions?
    Senator Sessions. Thank you.
    Thank you all.
    It is time for us to think about our role, what our 
strategy will be, and what we can realistically accomplish in 
the future. The longer I have been around these issues, the 
more less dreamy I become.
    Dr. Kissinger, I am reading ``World Order,'' and thank you 
for your contribution to the world with that book. I think you 
quote Bismarck. Maybe you can get it correctly. Unhappy is the 
statesman who is not as happy after the war as he was before 
the war, something to that effect. We just have to be careful 
about power and how we use it. Sometimes long-term thinking can 
avoid short-term problems. I thank all of you for contributing 
to that.
    Our subcommittee, the Strategic Forces Subcommittee, deals 
with nuclear weapons. I am very concerned about proliferation, 
Dr. Shultz, as you indicated. I am worried that our allies are 
losing confidence in our umbrella and they may expand. Of 
course, Iran will clearly likely kick off proliferation if they 
achieve a weapon. As one of you noted, I think Dr. Kissinger, 
you have indicated we move from Iran not having a nuclear 
weapon to Iran could get close to having a nuclear weapon but 
not have one. You expressed some concern about that. Would you 
expand on that a little bit? Yes, Dr. Kissinger?
    Dr. Kissinger. I am concerned, as I pointed out, the shift 
of the focus of negotiations from preventing Iran from having 
the capability of building a nuclear weapon to a negotiation 
which seeks to limit the use of their capability in the space 
of 1 year. That will create huge inspection problems. But I 
will Reserve my comment on that until I see the agreement.
    But I would also emphasize the issue of proliferation. 
Assuming one accepts the inspection as valid and takes account 
of the stockpile of nuclear material that already exists, the 
question is what do the other countries in the region do. If 
the other countries in the region conclude that America has 
approved the development of an enrichment capability within 1 
year of a nuclear weapon and if they then insist on building 
the same capability, we will live in a proliferated world in 
which everybody, even if that agreement is maintained, will be 
very close to the trigger point. I hope and I would wish that 
this proliferating issue be carefully examined because it is a 
different problem from not having a capability at all to having 
a capability that is within 1 year of building a weapon, 
especially if it then spreads to all the other countries in the 
region and they have to live with that fear of each other that 
will produce a substantially different world from the one that 
we knew and from the one in which the negotiations were begun.
    Dr. Shultz. It should be pointed out that a bomb made from 
enriched uranium is much easier to make. The Hiroshima bomb was 
an uranium enrichment bomb. It was not even tested. The 
Nagasaki bomb was a plutonium bomb. That was tested. But you 
can make an unsophisticated bomb from enriched uranium fairly 
easily. That is not a big trick. The enrichment process is key.
    Senator Sessions. In the short term then, Dr. Kissinger, I 
think I hear you saying--short term being the next several 
years--this could be one of the most dangerous points in our 
foreign policy, this Iranian nuclear weapon, because it goes 
beyond their capability to creating proliferation within the 
area, the threat to Israel, and a danger that we do not need to 
be facing, if we can possibly avoid it.
    Dr. Kissinger. I respect the administration's effort to 
overcome that problem, but I am troubled by some of the 
implications of what is now publicly available of the 
implications of the objective on the future evolution of 
nuclear weapons in the region and the impact of all of this on 
an international system where everybody is within a very short 
period of getting a nuclear weapon. Nobody can really fully 
trust the inspection system, or at least some may not. That is 
something that I would hope gets carefully examined before a 
final solution is achieved.
    Dr. Shultz. We have historically tried to draw a strong 
line between access to the technology to produce a nuclear 
power plant and access to enrichment technology. We have tried 
to put that line in there very strongly. We have cast that line 
already in the Iran negotiations.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to the witnesses for the very instructive 
testimony.
    Really just one question. A week from Sunday, we begin the 
seventh month of a war, the war on ISIS, as described by the 
President and by others in the administration. American service 
personnel have lost their lives in Operation Inherent Resolve 
and those from coalition partners have as well. There has been 
no congressional debate or vote upon this war. I think all 
agree that it will likely last for some period of time. It was 
justified by the administration based on two authorizations for 
use of military force that were passed at different times under 
different circumstances under slightly different geographies 
under a different administration and under a vastly different 
Congress.
    As former Secretaries of State, would you agree with me 
that it is more likely that the Nation will sustainably support 
a war if there is a full debate on it before Congress and if 
Congress, in fact, weighs in as constitutionally contemplated 
with respect to any war being waged by this country?
    Dr. Shultz. My experience is, as an administration 
official, you get a much better policy and you get a much 
better ability to execute that policy if it is discussed and 
there is consultation between the administration and Congress. 
As I said in my testimony, our watchword was if you want me 
with you on the landing, include me in the takeoff. I think the 
consultation will provide a better policy and a better 
execution.
    But I would say this war that we are now talking about--it 
started a long time ago. I read testimony from 1984. That is 30 
years ago. I think this is a deep problem that goes beyond 
terrorism. Terrorism is a tactic. The object is to change the 
state system. We need to understand what these people are up 
to, and that will help us design the kind of policies that are 
needed.
    Dr. Albright. The President has asked in his State of the 
Union message that there be an authorization of the use of 
military force. I do agree that there needs to be discussion of 
it and consultation. I think it is very important for there to 
be more education of the American public as to what the stakes 
are.
    Dr. Kissinger. I agree with what my colleagues said. 
Congressional authorization should be sought. But I want to 
reemphasize the point I made earlier. We should not let this 
conflict with ISIS slide into the pattern of the previous wars 
which start with support and after a while degenerate into a 
debate about withdrawal, especially since the existence of a 
territorial base for terrorists, which has not existed before. 
A country that asserts that its global objective is the 
eradication of the state system--once America has engaged 
itself, victory is really an important objective.
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to the witnesses.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank each of you for all that you have done for 
the country and your leadership.
    Secretary Albright, it was a privilege to be in Ukraine 
with you during the presidential elections. So thank you.
    I wanted to follow up to ask you about NATO presence in the 
Baltics. We had Dr. Brzezinski before the committee the other 
day, and he had talked about putting a small number of United 
States ground combat forces, in conjunction with NATO obviously 
as part of a NATO contingency, in the Baltics to ensure that 
there would be a trip wire, but the force would obviously be of 
a size that would not be one where we are trying to send a 
conflict message. I wanted to ask you what you thought about 
that in terms of NATO's presence in the Baltics and what you 
think we should be doing in addition to providing defensive 
arms to Ukraine to help buttress NATO?
    Dr. Albright. I do think that when we were in Kiev and 
Ukraine generally together, I think we understood, as we 
together met with the leadership, the importance of American 
support for what they are doing there.
    On NATO in the Baltics, I agree with Dr. Brzezinski. I do 
think that it is important, the Baltic countries are members of 
NATO, and I think it is very important to show that kind of 
support. The question is whether they are kind of rotating 
troops or there permanently. I do think that the United States 
needs to be a part of a grouping which also requires other 
countries from NATO to be there. I know Dr. Brzezinski spoke 
about the importance of the Germans, the Brits, et cetera also 
being there. I do think that it is an important aspect of our 
common approach to this through NATO.
    I also do think that NATO is at a stage where--we were 
talking about organizations that have been started many years 
ago--that our support for NATO and getting the other NATO 
countries to pay up what they are obligated to do under the 2 
percent of the GDP for activities. But I think, as I have 
understood the new Secretary-General, he is talking a lot about 
the necessity of this rapid reaction force really making NATO 
more capable to deal with the kinds of problems that are 
evident in the region.
    Senator Ayotte. Thank you.
    Secretary Shultz, I wanted to follow up on what you said 
about Iran's program, particularly their intercontinental 
ballistic missile (ICBM) program. I wrote a letter with others 
on this committee to ask the President to include in the 
negotiations the missile program because our estimates are that 
they will have ICBM capabilities--what we have heard from our 
defense intelligence leaders--perhaps by this year. I wanted to 
get your thoughts. As we look at these Iran negotiations, do 
you believe that their missile program, their ICBM capability, 
should be included as part of a result that is important in 
terms of our National security interests?
    Dr. Shultz. Certainly. I think their support for terrorism 
should also be on the table because you get a weapon and you 
are going to use it.
    Senator Ayotte. As I look at these negotiations, those two 
pieces are missing, and they are very important.
    I was also very interested to hear what both you and 
Secretary Kissinger have said in terms of concessions that have 
already been made on enrichment that make, I think, a very 
difficult outcome for a good result that does not lead to some 
kind of race within the Middle East, a Sunni-Shia race, in 
terms of a nuclear arms race if we are going to allow a certain 
amount of enrichment.
    Dr. Shultz. You have to remember the Iranians are not known 
as rug merchants for nothing. They are good bargainers. They 
have already crossed lines. They have already out-maneuvered us 
in my opinion. We have to watch out.
    Senator Ayotte. Secretary Kissinger, I wanted to follow up 
on something that you had testified before the
    Senate Foreign Relations Committee on the New Strategic 
Arms Reduction Treaty (START) and you had called attention to 
the disparity between Russian and American tactical nuclear 
weapons at the time. I wanted to get your thoughts on what we 
have learned.
    According to the State Department, Russia is developing a 
new mobile nuclear ground-launched cruise missile in direct 
violation of the 1987 INF Treaty that, of course, Secretary 
Shultz has referenced as well, and that this missile was likely 
in development even during these New START negotiations, if you 
look back in the time window. I wanted to get your thoughts on 
what our response should be to the development of this ground-
launched cruise missile.
    As I look at this, in our response, it is not just a 
response of a treaty violation, but what are the Russians? 
interests in developing this type of cruise missile.
    Dr. Kissinger. The direction, motivation for developing 
this weapon is that--as I said in my statement, I have said 
that the western border is the least threatened border of 
Russia paradoxically, but it has a long border with China with 
a huge inequality of population and a long border with the 
jihadis? regions of the world. The motivation undoubtedly is to 
use nuclear weapons to balance the numerical inferiority of 
Russian forces along many of its borders.
    But to the extent that it is incompatible with signed 
agreements, the United States, even if it theoretically 
understands the motivation, cannot accept that nuclear arms 
control treaties are violated because a new strategic 
opportunity develops. I believe that we have to be very firm in 
insisting on carrying out these agreements.
    Senator Ayotte. Thank you all.
    Chairman McCain. I want to say to the witnesses--I have 
asked you to stay longer than I originally bargained for, and I 
apologize for that. This has been a very important hearing not 
only for this committee but also for the Members of Congress 
and the American people. With the benefit of your many years of 
wisdom and experience, you have provided us with important not 
only information but guidance as to how we should conduct not 
only this hearing but our National security policy. We are 
honored by your presence, and we thank you.
    This hearing is now adjourned.
    [Whereupon, at 11:22 a.m., the hearing was adjourned.]


  GLOBAL CHALLENGES, U.S. NATIONAL SECURITY, AND DEFENSE ORGANIZATION

                              ----------                              


                       THURSDAY, OCTOBER 22, 2015

                               U.S. Senate,
                                Committee on Armed Services
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Ayotte, 
Fischer, Cotton, Ernst, Tillis, Sullivan, Reed, Nelson, 
McCaskill, Manchin, Shaheen, Gillibrand, Donnelly, Hirono, 
Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Senator McCain. Well, good morning.
    The Senate Armed Services Committee meets today to build 
upon the major oversight initiative we have begun on the future 
of defense reform.
    Yesterday, Dr. Robert Gates provided an excellent overview 
of the many issues we intend to cover in this series of 
hearings.
    Today, we will start at the highest level with a 
geopolitical outlook and net assessment that can help to 
establish the strategic context for our inquiry. We will assess 
America's enduring national interests and role in the world, 
the long-term threats and opportunities we face and how they 
should be prioritized, the roles and missions of the U.S. 
military in achieving these priorities, how to mobilize our 
ways and means to achieve our policy ends, and perhaps most 
importantly, how well our current defense organization is 
positioned to achieve our objectives now and in the future.
    These are the fundamental questions that must be considered 
before there can be a meaningful discussion of defense reform. 
If we do not understand what we need a military and defense 
organization to do for our Nation, it is impossible to know how 
to set them up to be maximally successful. Our witnesses are 
ideally suited to help us better understand the strategic 
predicament we now confront and what it means for our defense 
policy, strategy, and organization.
    Professor Eliot Cohen, a military historian at Johns 
Hopkins School of Advanced International Studies and former 
Counselor to the United States Department of State from 2007 to 
2009, is one of the Nation's foremost experts on civil-military 
relations and military strategy.
    Professor Walter Russell Mead of Bard College, the Hudson 
Institute, and The American Interest, is one of the keenest 
observers of geopolitics today and has written eloquently about 
U.S. national security policy for decades.
    Professor Thomas Mahnken is Senior Research Professor at 
the School of Advanced International Studies and former Deputy 
Assistant Secretary of Defense for Policy Planning from 2006 to 
2009, where he supervised the Quadrennial Defense Review and 
National Defense Strategy for Secretary Gates.
    Finally, Dr. Kathleen Hicks, Senior Vice President and the 
Henry A. Kissinger Chair of the Center for Strategic and 
International Studies, served from 2009 to 2013 as Deputy Under 
Secretary of Defense for Strategy, Plans, and Forces where she 
led the development of the 2010 Quadrennial Defense Review and 
2012 Defense Strategic Guidance.
    Yesterday, Dr. Gates noted that while today's national 
security threats are incredibly complex and daunting, such 
threats have been the norm rather than an aberration in our 
Nation's history since World War II. He also observed that any 
coherent strategy to address the threats must begin with an 
assessment of our interests, what we must protect, what we must 
choose to do without, and how we balance today's urgent 
requirements and tomorrow's strategic imperatives.
    Unfortunately, the United States is not succeeding in this 
basic task. This is certainly true today. But as Dr. Gates also 
observed, it is also largely true that our country has not had 
a coherent national security strategy since the Cold War.
    Part of this failure is material, the imposition of 
arbitrary caps on our national defense spending through the 
Budget Control Act and sequestration, a flawed acquisition 
system, and a defense organization that has grown bloated with 
overhead and bureaucracy while its war-fighting capacity has 
steadily reduced.
    We are also challenged, however, at the level of ideas and 
imagination. Part of this is what Dr. Gates mentioned 
yesterday, our Nation's perfect track record of failure in 
predicting the type and location of the next war, but worse 
than that, our cyclical belief that, having finished with a 
present conflict, we can take a holiday from history, pull back 
from the world, slash our spending on and preparations for our 
own defense, and that somehow disaster will not seek us out yet 
again.
    In addition, there is the problem that plagues us now, the 
seeming inability or unwillingness to think about our national 
security challenges as anything other than a litany of 
individual crises requiring ad hoc, micro managed responses. 
Indeed, as our witnesses all make clear in their prepared 
testimony, the major challenges we face, Russian aggression and 
expansionism, an increasingly assertive China, the collapse of 
order in the Middle East, the rise of an even more virulent 
form of violent Islamist extremism, escalating cyber attacks 
from state and non-state actors, none of these challenges are 
limited to individual regions of the world, and they are 
becoming entangled in dangerous ways.
    Three decades ago, this committee led a comprehensive 
review of our national defense organization that resulted in 
one of the most sweeping reforms of the Department of Defense 
in its history. Much about our world and our country has 
changed since then. We must ensure that the Department of 
Defense is positioned to be the most agile, innovative, 
effective, and efficient organization it can be now and in the 
future. That is the purpose of our work now.
    We thank our witnesses for graciously offering us the 
benefit of their thoughts today.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    First, let me thank you for scheduling this important 
hearing to discuss the global strategic environment, the 
challenges facing the United States, and the appropriate role 
of the Defense Department in addressing these challenges. The 
committee will be conducting a series of similar hearings 
throughout the fall to gain greater insight and understanding 
on these critical issues. I believe these are questions that we 
must ask ourselves regularly, and I look forward to working 
with the chairman and his staff and this committee on this 
extraordinarily important endeavor.
    I would also like to thank our witnesses for their 
participation in today's hearing. You all are superbly prepared 
as national security scholars and practitioners, and I welcome 
your ideas and your insights today very much.
    Yesterday, as the chairman pointed out, former Secretary of 
Defense Robert Gates testified before this committee. As 
always, his astute assessment of the current state of our 
Department of Defense was insightful and candid. His thoughtful 
observations for how to streamline and reform defense 
structures and processes have merit, and I know the committee 
will give them careful consideration in the months ahead.
    As General Brent Scowcroft, former National Security 
Advisor, testified earlier this year, again at the invitation 
of the chairman, the international security environment has 
changed significantly since the end of the Cold War. The 
centuries-old nation-state structure and the international 
institutional order, which the United States helped put in 
place following World War II, are increasingly challenged by 
the forces of globalization, the flow of goods, people, and 
most importantly, communications and technology across borders.
    In the last few years, we have seen how the ability of 
people to connect using social media has empowered individuals 
on the street to express their desire for democratic social 
change, whether in the Maidan in Ukraine, in Dara'a, Syria, or 
across the Middle East and North Africa. Yet, we have also seen 
that in the absence of capable institutions at the nation-state 
level, these upheavals have resulted in massive instability and 
insecurity, as in Libya, Syria, and elsewhere.
    We have also seen how these forces of globalization have 
been harnessed by violent extremist organizations to promote 
their destructive agendas and carry out attacks against the 
United States, our allies, and our respective interests. Non-
state actors like al Qaeda and the Islamic State have been able 
to take advantage of ungoverned or under-governed spaces in 
South Asia, the Middle East, and North Africa to seize 
territory and control the population through brutality and an 
extreme ideology promoted through the Internet.
    In Iraq and Syria, the breakdown of the nation-state system 
has allowed the reemergence of centuries-old divisions, 
creating a vastly complex situation. Syria presents us with a 
series of intermingled conflicts, including the counter-ISIL 
[Islamic State of Iraq and the Levant] fight, a Syrian civil 
war, a regional proxy war between the Gulf States and Iran, a 
sectarian Sunni-Shia conflict, and with the intervention of 
Russia, a great powers struggle. Our top priority must be 
ensuring that ISIL's expansion and external plotting is halted. 
Of course, I would welcome the witnesses? recommendations and 
insights regarding this very complex situation in Syria and 
throughout the Middle East.
    Probably no country has been more destabilizing to the 
international security environment than Russia, not only in 
Europe but also in the Middle East, the Arctic, and elsewhere. 
Russia continues its provocative behavior in Europe while at 
the same time deploying Russian troops and military equipment 
to Syria to directly support the failing Assad regime. Putin 
has shown his willingness to use all the tools at his disposal, 
including economic pressure, an intensive propaganda machine, 
and military power to achieve his goals. We would, of course, 
be interested in hearing from the witnesses on this important 
topic also.
    China presents a number of strategic challenges. Again, 
your insights would be extremely appreciated, as it asserts 
itself in the South China Sea and many other areas, including 
cyber operations.
    We are also in the age of nuclear proliferation. Regional 
nuclear arms races in South and East Asia threaten to increase 
instability globally. Of course, at the same time, North Korea 
has demonstrated its capacity at least to detonate a nuclear 
device. That is another issue of concern.
    Cyber complicates our lives dramatically, and again, we 
would expect you are able to weave all of these into a coherent 
response to our perhaps less than coherent questions.
    We are all facing these challenges. We have to face them 
together and thoughtfully. That is why the chairman's plan, so 
far extraordinarily successful, to bring scholars first and 
then to bring practitioners and then to think creatively 
together is very important. I look forward to working with you 
on this important task.
    Thank you, Mr. Chairman.
    Senator McCain. Thank you.
    I welcome the witnesses. Professor Cohen, welcome back 
before the committee.

    STATEMENT OF PROFESSOR ELIOT A. COHEN, ROBERT E. OSGOOD 
   PROFESSION OF STRATEGIC STUDIES, JOHNS HOPKINS SCHOOL OF 
                 ADVANCED INTERNATIONAL STUDIES

    Dr. Cohen. Thank you, Senator McCain. Thank you for 
inviting me here, Senator Reed. It is really an honor to be at 
a set of hearings which I think have the potential to be at 
least as consequential as those of, say, the Jackson committee 
in 1960 or the hearings that led to the 1986 Goldwater-Nichols 
Act.
    I have a longer written testimony which I would like to 
submit. I just thought I would touch on some of the highlights.
    Senator McCain. Without objection. All written statements 
will be made part of the record.
    Dr. Cohen. Thank you, sir.
    I would like to start a little bit differently in some ways 
than Secretary Gates suggested, and that is by starting with 
the nature of the military that we have today because I think 
understanding just how deeply geopolitical assumptions from 
years past are embedded in that military is really 
indispensable if we are then going to think about how do we 
adjust to the challenges of today and tomorrow.
    I would say that today's military is the product chiefly of 
75 years of history in three phases: the first, World War II; 
the Cold War; and then the relatively brief period of 
uncontested American supremacy.
    World War II is still with us. It is why we have the 
Pentagon. It is why we have a Marine Corps which is much larger 
than any other comparable organization in any other military.
    But I think it is primarily the 45 years of the Cold War 
and the period thereafter, the period of unchallenged American 
preeminence, that have most left their mark.
    Our military hardware is, as you know, platforms that were 
largely acquired during the Cold War or designed in it. That 
is, of course, even true of platforms such as the F-35, whose 
design parameters reflected assumptions about a very different 
world than the world in which we now find ourselves.
    I think even deeper than that are certain assumptions about 
what war is and how it should be waged. The Cold War military 
was largely, obviously not entirely, a deterrent military. Its 
conventional tasks, in particular, were assumed to be extremely 
intense but short, nothing like the multiyear wars of the mid-
20th century. Our conception of naval power is very different 
from what it will probably be in the future in a world in which 
the United States Navy was really unquestionably supreme around 
the world.
    When the Cold War ended and the Soviet Union fell apart, a 
period of unchallenged supremacy began, which lasted about 15 
years. It too has left legacies chiefly of thought and of 
action but also of organization, the rise, for example, of our 
special operations forces.
    Somewhat more troubling to my mind are a set of mind sets 
on the part of senior military commanders to include a 
tremendous amount of emphasis on military diplomacy and what 
the military sometimes calls phase 0 as opposed to phase III, 
war. I think to some of the mind sets that were developed 
during that period, we can attribute what were to my mind very 
poor decisions such as importing a NATO [North Atlantic Treaty 
Organization] command structure into Afghanistan when it was 
clearly not suited for it.
    So I think we need to be quite self-conscious about the 
extent to which we are dealing with a legacy military whose 
technology and in many ways whose ideas are very much rooted in 
our recent past. Most of those assumptions I think have to be 
cast aside. Instead of the Cold War when we faced one major 
enemy with a set of clients and supporters, we face four major 
strategic challenges today.
    The first is China because the sheer size and dynamism of 
its economy causes it to pose a challenge utterly unlike that 
of the Soviet Union and in a very different environment than in 
Europe.
    Secondly, our jihadist enemies in the shape of al Qaeda, 
the Islamic State, and similar movements have been at war with 
us for at least a decade and a half and they will be at war 
with us for decades to come. We will be operating in a state of 
chronic war I think through the rest of my lifetime, and that 
is very different from where we have been in the past.
    Our third set of challenges emerge from the states that are 
hostile to us, hostile to our interests, and often in a 
visceral way to our institutions, and that would include at the 
moment countries like Russia, Iran, and North Korea, all of 
which have or will have, I believe, nuclear weapons that can 
reach the United States.
    Our fourth strategic challenge is securing, as the great 
naval historian and naval theorist Alfred Thayer Mahan once 
said, ``the great commons,'' the ungoverned spaces. Now, those 
are no longer just the physically ungoverned spaces in places 
like Yemen but includes outer space, cyberspace, the High 
North. Our ability to control or at least exercise some sort of 
benign influence over those ungoverned spaces has really been 
critical to world order.
    This means that our strategic problems are quite unlike 
those of the previous two periods in a profound way. For 
example, I think we now live in a world, we will be living in a 
world in which we cannot assume that the United States itself, 
the continental United States, will not be at risk from 
conventional attack and certainly from terrorist attack.
    We live in an era when our old strategic partners are in 
many cases getting much more weak. You have only to look at the 
case of Great Britain, whose military has been in a sad state 
of decline for quite some years now.
    Of course, our domestic politics is even more deeply 
divided than it has been--in some ways than it has since the 
Vietnam War.
    I could extend this analysis indefinitely but will not. 
After the Cold War, there was a resizing of the military, a 
reconfiguring of its basing structure and some realignment, but 
the sheer busyness of that period of American preeminence when 
we were doing many things in the world in many ways deferred a 
fundamental rethinking of what kind of military we need and to 
what ends. Now, it seems to me, is really the time for that.
    Well, let me offer just four thoughts about directions that 
the committee might go. I know you will have a very wide set of 
hearings, and what I want to do is just emphasize those which 
do not involve a lot of money. Naturally, of course, most of 
the focus, quite understandably, in both government and outside 
of it is on the big-ticket items. I would like to suggest that 
the real importance may also lie in some things that do not 
cost much money at all. So I have four thoughts.
    One is that we review our system for selecting and 
promoting general officers. When we look at the great periods 
of military creativity in our past--think, for example, of the 
early Cold War--we think of people like Arleigh Burke or 
Bernard Schriever or Jim Gavin. Our problem today is that our 
promotion systems, partly because of the natural tendencies of 
bureaucracies and partly because of the wickets that we 
ourselves have created, to include Congress, make it much 
harder than it was in the past to find exceptional general and 
flag officers and promote them rapidly. Think of it. General 
Curtis LeMay, who, whatever one thinks of his politics, was a 
great military leader, became head of Strategic Air Command at 
the age of 42. I recall, as I am sure many here do how 
President Carter was able to pass over the heads of scores of 
generals in the United States Army to promote General Edward C. 
``Shy'' Meyer to the position of Chief of Staff in 1979. I am 
not sure that we could do those things today. I am not sure 
that we could find, for example, a Hyman Rickover to design a 
completely different approach to naval power. So I think that 
would be one thing to look closely at, what kind of general 
officers and flag officers are we growing and how do we bring 
them up.
    My second thought is it would be a very good thing to 
overhaul, in fact, to scrap, our current system for producing 
strategy documents on a regular basis. I say this knowing that 
at least two of my colleagues seated to my left bore direct 
responsibility for this. But I believe as an outside observer 
that the Quadrennial Defense Review [QDR] system, which 
consumes vast amounts of labor and emotional energy, is pretty 
much worthless. The reason why it is worthless is because the 
world does not cooperate with our planning cycle. The year 2000 
QDR was obsolete as soon as it hit the streets because of 9/11. 
I think a much more useful system would be to imitate the 
Australian or, dare I say it, the French white paper system, 
which is much more irregular in terms of its scheduling but 
much more in depth and much more thoughtful, and those 
documents really repay a look and a thought about whether we 
might be able to do that.
    A third thought, the rediscovery of mobilization. When one 
looks back at the grand sweep of American history back to 
colonial times, we have always understood that the military 
that would wage the next war would not be a simple minor, 
plussed-up version of what we already had. We understood that 
we would need not only to grow more of what we had, we would 
have to grow different kinds of forces. Mobilization thinking 
in that sense died pretty much in the 1950s. We encountered a 
great success and Secretary Gates by sheer force of personality 
was able to increase the production of MRAPs [Mine-Resistant 
Ambush Protected]. That is not mobilization or adding a couple 
of brigade combat teams to the United States Army. That is not 
mobilization. I think there is room to think much more 
creatively about how we bring different kinds of people into 
the military and intelligence system once a crisis occurs, how 
we grow new and different kinds of organizations. But it really 
requires an art that we have not really practiced, although we 
did until, as I said, the 1950s.
    Finally, I would like to suggest that you look closely at 
our system for professional military education at the very top. 
I have taught, as has my colleague, Dr. Mahnken, at the Naval 
War College. I lecture regularly at the others. Our war 
colleges do a capable job at the mission of broadly educating 
senior officers at the
O-5 and O-6 levels and helping to create a network of foreign 
officers who have been exposed to our system. But they do not 
create a cadre of strategic thinkers and planners from all the 
services in the civilian world.
    To do that, you would need a different educational system, 
or at least a different insert into the current educational 
system. You would have to do things that would be anathema to 
the current military personnel system. For example, something 
that we do at Johns Hopkins and indeed any decent university, 
competitive examinations to get in, small class size, no 
foreign presence.
    I think does this point in the direction that people have 
always shied away from, the idea of a joint general staff of 
some sort? Perhaps it gets closer to it than some might wish. 
But the fact is that our current professional military 
education system, with some notable exceptions, produces 
extremely able tacticians. It produces well-rounded military 
officers. But it has not produced in significant numbers 
officers who have made their name as deep thinkers about the 
nature of modern war. Yet, surely that is at the heart of the 
military profession. While it is flattering to think that 
academics or think tanks can fill that void, the fact is that 
we cannot.
    These are but preliminary thoughts. I just want to conclude 
by saying that I am quite convinced that although we have 
always faced uncertainty, our country faces a much more 
turbulent international environment than at any time since the 
end of World War II. It is in some ways a more dangerous world 
in which our children or grandchildren may live to see nuclear 
weapons used in anger, terrorism that paralyzes great 
societies, war in new guises brought to the territory of the 
United States, as has indeed already happened, the shattering 
of states, and the seizure of large territories by force.
    As in the last century, the United States will be called 
upon to play a unique role in preventing those things from 
happening, maintaining some sort of standards of order and 
decency and leading a coalition of like minded nations. We have 
and we will have a strong hand because of the Government under 
which we live and the spirit of the American people. But that 
does not mean that we can take our military power for granted 
or neglect thinking hard and creatively about how to mold it in 
the interval of peace that we now have, such as it is.
    Thank you.
    [The prepared statement of Dr. Cohen follows:]
               Prepared Statement by Dr. Eliot A. Cohen*
    Senator McCain, Senator Reed, thank you for inviting me here today. 
It is an honor to be asked to speak at these hearings, which have the 
potential to be at least as consequential as those held by Senator 
Henry Jackson in 1960 on national security organization, or those which 
gave birth to previous major legislation such as the Goldwater Nichols 
Act of 1986.
    Our task on this panel, as I understand it, is to bring together 
three things: a view of our international circumstances and American 
foreign policy; an assessment of the adequacy of our defense 
organization; and suggestions for directions this committee might 
pursue in exploring the possibilities of reform. This is a daunting 
assignment: I will do my best to approach it from the point of view of 
someone who has studied and worked with the American military in 
various settings for over thirty five years, drawing on what I know as 
a military historian and what I have seen during service at senior 
levels in government.
--------
    * Eliot A. Cohen is Robert E. Osgood Professor of Strategic Studies 
at Johns Hopkins SAIS. In addition to having taught at Harvard 
University and the Naval War College, he has served in various 
government positions including as Counselor of the Department of State, 
2007-2009. His books include Supreme Command (2003) and Conquered into 
Liberty (2011); The Big Stick, a study of military power and American 
foreign policy will appear in 2016.
  the roots of our current defense organization and strategic posture
    The theory taught at our war colleges--and I have taught at them 
myself--would say that we should begin by looking at our interests and 
policies, and then design a military to meet them. I am going to start 
the other way, with what kind of forces we have, for two reasons. 
First, as we all know, you do not get to redesign your forces afresh 
unless you experience utter calamity, and some times not even then. 
Secondly, because it is important to recognize the ways in which the 
military experiences and geopolitical assumptions of the past shape 
even seemingly technical questions today. It will be helpful to begin 
by appreciating how peculiar, from an historical point of view, many of 
the features of the armed forces that we take for granted, really are.
    Today's military is the product chiefly of seventy-five years of 
history. World War II, of course, not only provided a great deal of its 
physical infrastructure, to include the Pentagon, but has left 
organizational legacies. No other country in the world, to take the 
most striking example, has a Marine Corps remotely sized like ours--
today, it is larger than the entire British army, navy, and air force 
put together. That is a result of the Marines' performance in World War 
II, and the legacy of raising a force six divisions strong for that 
conflict.
    But it is primarily the roughly forty five years of the Cold War, 
and some fifteen years of unchallenged American preeminence thereafter, 
that have most left their mark.
    The Cold War has left us many, indeed most of the platforms that 
equip the military today, M-1 tanks, B-2 or B-1 bombers, or AEGIS class 
cruisers. Even weapon systems coming into service today such as the F-
35 reflect Cold War assumptions about which theaters we planned to 
fight in, what kind of enemies we thought we might encounter, what kind 
of missions we would be required to conduct. From the Cold War as well 
emerged our highly professional career military built on the ruins of 
the draft military of the Vietnam war. Our weaving together of reserve 
and National Guard units with the active duty military reflects ideas 
first expressed in the late 1970's.
    Even deeper than these things go certain assumptions about what war 
is, and how it should be waged. The Cold War military was largely a 
deterrent military, designed to put up a credible defense against 
Soviet aggression, while taking on lesser included tasks such as 
peacekeeping and humanitarian intervention.
    The conventional tasks were assumed to be extremely intense but 
short--nothing like the multi-year wars of the mid-twentieth century. 
The result was an Army, for example, that honed its skills in armored 
warfare at installations like the National Training Center to a level 
never seen in a peacetime military, even as it shunted aside the tasks 
of military governance that had characterized it through the nineteenth 
and twentieth centuries. In this world, a large nuclear arsenal was 
designed for deterrence of more than use against the USSR. Naval power 
was to be used chiefly to protect the sea lanes to Europe and to 
project power abroad, not to contest command of the seas with a major 
naval power.
    When the Soviet Union fell and the Cold War ended, a period of 
unchallenged supremacy began: it has lasted barely fifteen years, and 
although the United States is still the world's strongest power, that 
supremacy is now contested. I doubt we will ever get it back. But it 
too has left legacies of thought and action. With great reluctance, a 
military that had pledged to itself after Vietnam that it would not do 
counterinsurgency again (as it similarly pledged to itself after Korea 
that it would not do land war in Asia) embarked on a mission that it 
found strange and distasteful in Afghanistan and Iraq. It learned, or 
rather re-learned old lessons, but at a cost.
    One organizational legacy of this period has been the rise of 
special operations forces, particularly after the 9/11 attacks and the 
ensuing conflicts. Others include the tremendous emphasis placed by 
combatant commanders on the conduct of military diplomacy, giving rise 
to multinational exercises that are less substantive than political in 
nature. Similarly, today's senior officers often dwell on the 
importance of what they call Phase 0 operations--acts of military 
diplomacy to set the conditions where we might fight. I believe that 
much of this focus has come at the expense of hard thinking about Phase 
III--war.
    From the transitional period between Cold War and the age of 
supremacy arose strategic doctrines too, characterized by terms such as 
``end state'' and ``exit strategy'' that previous generations would 
have found meaningless and that today are downright dangerous. In this 
period, as in the past, the heart of America's strategic alliance 
system was to be found in Europe. Thus, it was (absurdly) with a NATO 
command structure that we have attempted to fight a war in Afghanistan. 
Thus too, it was that officers dismayed by the unfamiliar challenges of 
irregular warfare came to blame all other departments of government for 
failing to be able to understand problems and provide capabilities 
that, history should have taught them, would have to be found within 
the military itself.
                         the new world disorder
    The assumptions of both the Cold War, and the brief period of 
American supremacy must now be cast aside. Instead of one major enemy, 
the Soviet Union, and its various clients and supporters, we face four 
major strategic challenges.

    1.  China, because of the sheer size and dynamism of its economy 
poses a challenge utterly different than that of the USSR, and, unlike 
the Soviet Union, that challenge will take place in the Pacific, in an 
air, sea, and space environment unlike that of Europe.
    2.  Our jihadist enemies, in the shape of al-Qaeda, the Islamic 
State, and like movements, are at war with us, and we with them. This 
will last at least a generation, and is quite unlike any other war that 
we have fought.
    3.  We face as well an array of states that are hostile to our 
interests and often, in a visceral way, to our political system as 
well: these include, most notably Russia, Iran, and North Korea, but 
others may emerge. All of these states are, or will be, armed with 
nuclear weapons that can reach the United States.
    4.  Finally, while our policy in the past has been to secure ``the 
great commons,'' as Alfred Thayer Mahan once put it, for the use of 
humanity, today ungoverned space--to include outer space, the high 
North, and cyberspace--poses new and deepening problems for us.

    This means that our strategic problems are quite unlike those of 
the previous two periods. We can imagine, for example, conventional 
conflict with China that might not end after a few days, or be capped 
by nuclear threats. We are, right now, engaged in protracted 
unconventional warfare that is likely to spread rather than be 
contained. New technologies, from cyber-weapons to long range cruise 
and ballistic missiles and unmanned aerial and maritime vehicles mean 
that defending the homeland against conventional, or semi-conventional 
attack must again be a mission for the armed forces.
    We live in an era when our old strategic partners are weakening. 
One need only look at the appalling decline of the British military--
the Royal Navy, which struggles to man the ships it does have, has a 
fleet less than half the size of semi-pacifist Japan's just now--to 
measure the self-inflicted weakness of old allies. At the same time, 
new partners are emerging, particularly in Asia, with Japan, Australia, 
and even India coming into closer association with us.
    It is not just the external politics of security that has changed: 
our domestic politics is more deeply divided by questions of the use of 
force today than at any time since the worst periods of the Vietnam 
War. On the one hand, every President from now into the indefinite 
future has to accept that he or she will be a war President, ordering 
the pinpoint killing of terrorists in far corners of the earth, and 
probably sending our armed forces into harm's way every few months. On 
the other, at no time since the 1970's have the American people been so 
reluctant to commit large forces abroad, or rather, so uncertain about 
the purposes that would justify it.
    I could extend this analysis indefinitely, but will not. After the 
Cold War there was a resizing of the military, a reconfiguring of its 
basing structure, and some realignment, but the sheer busyness of the 
post 1989 period has in many ways deferred a fundamental rethinking of 
what kind of military we need, and to what ends. Now is the time for 
such a rethinking.
           new directions for defense policy and organization
    The time, then, is ripe for what you are undertaking. Of course, 
one scholar can only offer so much by way of recommendations, but I 
would like to suggest four, which flow from this fundamental diagnosis: 
that our problems will be so complex, so large, and so different from 
the past that we need to design a system that is much better at 
redesigning and reinventing itself than what we have got. It will not 
do, in other words, to conceive a new pattern of organization and 
impose it upon the Department of Defense. We will assuredly fail to 
foresee the crises and opportunities to come. We need, rather, to 
recover the creativity and institutional adaptability that produced in 
astonishingly short time the riverine flotillas of the Civil War, the 
massed bomber and amphibious fleets of World War II, the Polaris 
program and espionage from space of the early Cold War.
    Here, then, are four ideas.
    First, remake our system for selecting and promoting general 
officers. Nothing, but nothing is more important than senior 
leadership--the creative leaders like Arleigh Burke or Bernard 
Schriever in the early Cold War. Our problem is that our promotion 
systems, in part because of the natural tendency of bureaucracies to 
replicate themselves, and in part because of the wickets (including 
joint service) all have to pass through, is making it hard to reach 
deep and promote exceptional talent to the very top.
    We take it for granted that some of the best leaders of World War 
II were field grade officers when it began. For some reason, however, 
it does not occur to us that maybe there was something good about such 
a system that we should be able to imitate. Other large organizations--
businesses and universities, among others--can seek out exceptional 
young leaders and bring them to the top quickly. We are long past the 
day when General Curtis LeMay could become head of Strategic Air 
Command at age 42, after having led one of the most important campaigns 
of World War II in his late thirties. It was a minor miracle when 
President Carter passed over scores of Army generals to make General 
Edward C. ``Shy'' Meyer Chief of Staff of the Army in 1979--I am not 
sure whether we could even do that today. Moreover, we need to find 
ways to promote and retain general and flag officers who are so 
unorthodox, so off the usual career path, that the system left to its 
own devices would crush them. Where would the nuclear Navy be without 
that unique, exceptionally difficult man, Hyman Rickover, for example? 
And where will the next one come from?
    Second, overhaul the current system for producing strategy 
documents on a regular basis. The Quadrennial Defense Review system, 
which consumes vast quantities of labor in the Pentagon and much wasted 
emotional energy as well, seems to be predicated on the notion that the 
world will cooperate with our four year review cycle. It does not. The 
2000 QDR, to take one example, was invalidated as soon as it hit the 
streets by 9/11. So too will any document that has a fixed schedule. 
Moreover, most public documents, to include the National Security 
Strategy of the United States are the vapid products of committees. A 
much better system would be something like the White Papers produced by 
the Australian and French systems, not on a regular basis but in 
reaction to major international developments, and composed by small, 
special commissions that include outsiders as well as bureaucrats.
    Third, re-discover mobilization. Throughout most of the history of 
the United States, and into its colonial past, a key assumption was 
that the forces we would have at the outbreak of war would be 
insufficient in number and composition for the challenges ahead. Since 
the 1950's, mobilization thinking and planning has languished. To be 
sure, under pressure from an active Secretary of Defense the Department 
can acquire mine-resistant vehicles or speed up the production of some 
critical guided weapon, but that is hardly the same thing.
    Serious military planning not only for expansion of the existing 
force, but for the creation of new capabilities in event of emergency, 
would be a worth while effort. For example, had serious thought been 
given before 2003 to identifying civilians who might contribute to 
military government in an occupied country, and thinking through the 
organizations needed, the Iraq war might have looked very different in 
2004 and 2005 than it did. Mobilization thinking and preparation would 
require a willingness to contemplate unorthodox measures (direct 
commissioning, for example) on a scale that the Department is unwilling 
to consider in peacetime. Worse yet, it would require some brave 
thinking about the kinds of crises that might require such measures.
    Fourth, renew professional military education at the top. Our war 
colleges do a capable job at the mission of broadly educating senior 
officers at the O-5 and O-6 level, even as they help create a network 
of foreign officers who have been exposed to our system. But they do 
not create an elite cadre of strategic thinkers and planners from all 
the services and the civilian world. To do that, measures would have to 
be taken that would be anathema to personnel systems today: competitive 
application to attend a school, rather an assignment to do so as a kind 
of reward; extremely small class sizes; no foreign presence, or only 
that of our closest allies; work on projects that are directly relevant 
to existing war planning problems. A two year institution would 
graduate no more than thirty or forty top notch officers a year who 
would, in all but name, help constitute a real joint general staff. Of 
course, to manage the careers of such officers would require further 
departures from our current personnel system.
    Our current professional military education system produces 
extremely able tacticians and unit leaders; it does not produce, at 
least not in large numbers, officers who make their names as deep 
thinkers about the nature of modern war. Yet surely that is the heart 
of the military profession. You will see very few books or even deeply 
serious articles on modern war written by serving officers; fewer yet 
that transcend a service perspective. That is a pity, and a deficiency.
    While it is flattering to think that academics or think tanks can 
fill that void, the truth is that they can only do so much without the 
current knowledge, exposure to the most sensitive secrets, and sense of 
professional responsibility of top notch officers. In the long run, a 
revitalized American armed forces requires that senior leadership, in 
Congress as well as the executive branch, pay a great deal of attention 
to military education, whose budget is trivial, but whose impact is, 
potentially tremendous.
    These are, inevitably, but preliminary thoughts which will not be 
welcome in some quarters. But of this I am quite convinced: our country 
faces a more turbulent world than it has at any time since the end of 
World War II. It is, in many ways, a more dangerous world, in which our 
children or grandchildren may live to see nuclear weapons used in 
anger, terrorism that paralyzes great societies, war in new guises 
brought to the continental United States, the shattering of states and 
seizure of large territories by force. As in the last century, the 
United States will be called upon to play a unique role in preventing 
those things from happening, maintaining some general standards of 
order and decency, and leading a coalition of like minded nations. As 
ever, we will have a strong hand, thanks to the institutions of 
government under which we live, and the spirit of the American people. 
But that does not mean that we should take our military power for 
granted, or neglect thinking hard and creatively about how to mold it 
in the interval of peace that we have, such at is. New crises await, 
and alas, may not be far off.

    Senator McCain. Professor Mahnken?

   STATEMENT OF PROFESSOR THOMAS G. MAHNKEN, SENIOR RESEARCH 
PROFESSOR AND DIRECTOR OF THE ADVANCED STRATEGY PROGRAM, JOHNS 
        HOPKINS SCHOOL OF ADVANCED INTERNATIONAL STUDIES

    Dr. Mahnken. Senator McCain, Senator Reed, thank you for 
the opportunity to testify before the committee today. You are 
embarked on an important effort, and I am honored to be a part 
of it.
    As with Professor Cohen, I have longer written remarks, but 
I really want to, in the time I have, focus on three things.
    First, I would like to address the challenges that the 
United States faces in an increasingly contested global 
environment, and these include not only the threats posed by 
adversaries and competitors, but also the structural 
impediments that we must overcome if we are to develop an 
effective strategy to safeguard U.S. interests in an 
increasingly threatening world.
    I would also like to talk for a few minutes about some of 
the United States? enduring strengths--and I think they are 
considerable--and the opportunities that they provide us.
    Then I would like to conclude by offering some thoughts on 
what we might do to improve our strategic position.
    First, as to challenges, the United States faces a growing 
and increasingly capable set of adversaries and competitors, 
including great powers such as China and Russia, as well as 
regional powers such as Iran and North Korea. United States 
defense strategy needs to take into account the need to compete 
with these powers over the long term and in peacetime, as well 
as to plan for the possibility of conflict with them.
    Great powers. The tide of great power competition is rising 
whether we like it or not. China and Russia possess growing 
ambitions and, increasingly, the means to back them up. They 
possess sizeable and modernizing nuclear arsenals and are 
investing in new ways of war that have been tailored, at least 
in part, to challenge the United States. I think the challenges 
posed by these powers are only likely to grow over time.
    We also face regional challenges, challenges from states 
such as Iran and North Korea. North Korea appears to be 
developing a sizeable nuclear arsenal and the ability to 
deliver it against the United States. Pyongyang has also 
demonstrated a willingness to sell nuclear technology to other 
states such as Syria. Iran has growing reach and influence in 
the Middle East, and its nuclear program is at best frozen. Its 
missile program continues apace.
    Third, we face a long war with al Qaeda and its affiliates. 
We remain engaged in a war, whether we choose to call it that 
or not, with al Qaeda, its affiliates, and other jihadist 
groups that threaten the United States and its allies. I agree 
with Professor Cohen. It is a war that is likely to continue 
for the foreseeable future.
    Then finally, we face the challenge of an uncertain future, 
threats to our security that we either do not see or cannot 
recognize today. History is a strong antidote to those who 
confidently predict the contours of the future.
    As if these global challenges were not enough, we face a 
series of internal, structural barriers that will need to be 
addressed if we are to have the resources to shape and respond 
to an increasingly challenging security environment. These 
barriers include a sharpening tradeoff between guns and butter. 
The tradeoff between national security and social spending is 
already painfully apparent and is likely to become even more 
acute over time as the U.S. population ages.
    As if that were not enough, we face cost growth in weapon 
systems. Most new weapon systems provide increased capability 
but often at increasing cost. As a result, we can afford fewer 
of them for a given expenditure.
    This is further magnified by long-term cost growth in 
personnel. As I need not remind the members of this committee, 
we face long-term growth in personnel costs, which further 
exacerbates these other trends.
    So even as the international environment is becoming more 
threatening, we face real constraints, internal constraints, on 
our abilities to meet it.
    Now, all is not beyond hope, however. The United States has 
a series of enduring advantages. If I have a criticism here, it 
is in our imperfect ability to tap into what are some 
substantial advantages. These include our strategic geography. 
As an insular power, we have enjoyed security from attack 
throughout most of our history. With friendly powers to the 
north and south, we have not had to worry about the threat of 
invasion for 2 centuries. Our alliances compound this 
advantage, allowing us to work together with our friends to 
meet the threats that we face far from our shores.
    We also possess great economic strength, the world's 
largest economy and the world leader in innovation.
    American society is also the source of great advantage. For 
example, we possess demographic strengths that are nearly 
unique in the world. Our population includes immigrants from 
literally every country in the world who speak the full breadth 
of the world's languages. More importantly, ours is one of only 
a handful of states that has the ability to bring new 
immigrants to its shores, weave them into the fabric of our 
society, and make them full members of that society within an 
individual's lifetime. That gives us unique advantages.
    Our military power remains a source of strength, the 
world's largest nuclear force, and the world's most capable 
army, navy, marine corps and air force, a combination that is 
historically unique, I would point out. Great powers in the 
past have had strong navies but weak armies or strong armies 
but weak navies. We have the world's best army, navy, marine 
corps, and air force.
    Last, but certainly not least, our alliances and our 
partnerships. Our allies include some of the most prosperous 
and militarily capable states in the world in Europe and in 
Asia.
    All too often, however, we fail to exploit these strengths 
to the extent that we could or we should. Rather, we have 
focused on how others, including our adversaries, can leverage 
their strengths against our weaknesses rather than how we can 
best use our strengths to exploit the weaknesses of our 
competitors.
    Well, where does that take me in terms of implications? I 
have three implications I would like to draw from this.
    First, given both the increasingly threatening security 
environment and the limits that we face at home, we need to 
think more seriously about risk than we have in recent years. 
Strategy is all about how to mitigate and manage risk. However, 
over the past quarter century, we have grown unused to having 
to take risks and bear costs. We have become risk averse. All 
too often, however, the failure to demonstrate a willingness to 
accept risk in the short term has yielded even more risk in the 
long term. As a result, our competitors increasingly view us as 
weak and feckless.
    Among other things we need a serious discussion of risk 
within the United States Government and with the American 
people because I think we are entering a period where we are 
going to have to begin to take actions that are risky and 
costly both to demonstrate to our competitors that we are 
serious but also to demonstrate our resolve to our allies. We 
need to start having that discussion about risk now.
    Second, as I noted at the beginning of my remarks, we face 
a series of long-term competitions with great powers and 
regional powers. China and Russia, Iran and North Korea have 
been competing with us for some time. We have not been 
competing with them. As a result, we find our options 
constrained and we find ourselves reacting to their 
initiatives.
    If we hope to achieve our aims over the long term, we first 
need to clarify what those aims are and to develop a strategy 
to achieve them. Such a strategy should seek to expand the menu 
of options available to us and constrain those that are 
available to our competitors. It should seek to impose costs 
upon our competitors and mitigate their ability to impose costs 
upon us. It should give us the initiative, forcing them to 
respond to our actions, not the other way around. Now, that is, 
of course, easier said than done in Washington in 2015, but it 
must be done if we are to gain maximum leverage with our 
considerable but limited resources.
    As part of this effort, we need to do a better job of 
understanding our competitors. To take just two examples, the 
Chinese military publishes a vast number of books and articles 
on how it thinks about modern war, strategy, and operations. 
These books are freely available for purchase in Chinese 
bookstores and can be ordered on the Chinese version of 
Amazon.com, but they remain beyond the reach of scholars and 
officers who do not read Mandarin Chinese because the United 
States Government has yet to make translations of them broadly 
available.
    Similarly, in past decades, the United States Government 
invested vast sums in building intellectual capacity on Russia 
and the Russian military. Today it is painfully apparent that 
that capital has been drawn to dangerously low levels. So we 
are surprised or misunderstand Russian actions that should be 
neither surprising nor mysterious. Additional investments in 
this area are sorely needed.
    Finally--and here, some of my comments will echo what 
Professor Cohen has said--we need to take seriously the 
possibility of great power competition and potentially great 
power conflict. This means that we need to think seriously 
about a host of national security topics that we have ignored 
or neglected for a generation or more. These include the role 
of nuclear weapons in U.S. national security strategy. It 
includes how best to mobilize the Nation's resources for the 
long term and the need to wage political warfare and to counter 
the propaganda of our competitors. We will also--again, I agree 
with Professor Cohen--need to rethink the educational 
requirements of an officer corps that has experienced little 
but counterinsurgency throughout its career and to reeducate 
policymakers who came of age after the Cold War.
    In short, we face mounting challenges but we also have 
great opportunities if we can only seize them. Part of the 
answer, no doubt, will consist of acquiring new capabilities, 
but a substantial part of it will lie in developing 
intellectual capital and formulating and implementing an 
effective strategy to harness the considerable strengths that 
we possess in the service of our aims.
    Thank you.
    [The prepared statement of Dr. Mahnken follows:]
                Prepared Statement by Thomas G. Mahnken*
    Senator McCain, Senator Reed, thank you for the opportunity to 
testify before the Committee today. In the time I have I would like to 
address the challenges that the United States faces in an increasingly 
contested global environment. These include not only the threats posed 
by adversaries and competitors, but also the structural impediments 
that we must overcome if we are to develop an effective strategy to 
safeguard U.S. interests in an increasingly threatening world. I would 
also like to examine some of the United States' enduring strengths and 
the opportunities that they provide us. I would like to conclude by 
offering some thoughts on what we might do to improve our strategic 
position.
                             i. challenges
    The United States faces a growing and increasingly capable set of 
adversaries and competitors, including great powers such as China and 
Russia as well as regional powers such as Iran and North Korea. United 
States defense strategy should take into account the need to compete 
with these powers over the long term in peacetime, as well as plan for 
the possibility of conflict with them.
--------
    * The views that follow are mine and mine alone and do not reflect 
those of any organization with which I am affiliated.
Great Powers
    The tide of great power competition is rising. China and Russia 
possess growing ambitions and, increasingly, the means to back them up. 
They possess sizeable and modernizing nuclear arsenals and are 
investing in new ways of war that have been tailored, at least in 
part,to challenge the United States.
Regional Powers
    Iran and North Korea. North Korea appears to be developing a 
sizeable nuclear arsenal and the ability to deliver nuclear weapons 
against the United States. P'yongyang has also demonstrated a 
willingness to sell nuclear technology to other states, such as Syria. 
Iran has growing reach and influence in the Middle East. Its nuclear 
program is at best frozen; its missile program continues apace.
The War with al-Qaeda and its Affiliates
    We also remain engaged in a war,whether we choose to call it that 
or not, with al-Qaeda, its affiliates, and other jihadist groups that 
threaten the United States and its allies. That war is likely to 
continue for the foreseeable future.
An Uncertain Future
    Finally, we will face threats to our security that we either do not 
see or cannot recognize today. History is a strong antidote to those 
who confidently predict the contours of the future.
    As if the global challenges we face were not enough, we also face a 
series of internal, structural barriers that will need to be addressed 
if we are to have the resources to shape and respond to an increasingly 
challenging security environment.

    <bullet>  A sharpening tradeoff between guns and butter: The 
tradeoff between national security and social spending is already 
painfully apparent, and is likely to become even more acute as the U.S. 
population ages.
    <bullet>  Cost growth in weapon systems: Most new weapon systems 
provide increased capability, but often at increasing cost. As a 
result, we can afford fewer of them.
    <bullet>  Cost growth in personnel: Similarly, as I need not remind 
the members of this committee, we face long-term cost growth in 
personnel, which further exacerbates the trends I have outlined above.
                        ii. enduring advantages
    All is not beyond hope, however. The United States enjoys a series 
of enduring advantages, including those provided by our strategic 
geography, economic strength, society, military power, and alliances 
and partnerships.
Strategic geography
    As an insular power, the United States has enjoyed security from 
attack throughout much of our history. With friendly powers to the 
north and south, we have not had to worry about the threat of invasion 
for two centuries. Our alliances compound this advantage, allowing us 
to work together with our friends to meet threats far from our shores.
Economic strength
    We possess the world's largest economy and are also the world 
leader in innovation. We produce culture that much of the rest of the 
world finds attractive.
American society
    American society is the source of other advantages. For example, we 
possess demographic strengths that are nearly unique in the world. Our 
population includes emigrants from literally every country in the world 
who speak the full breadth of the world's languages. More importantly, 
ours is one of only a handful of states that has the ability to bring 
new immigrants to its shores, weave them into the fabric of the 
society, and make them full members of that society within an 
individual's lifetime.
Military Power
    We possess the world's largest nuclear force, the world's most 
capable Army, Navy, Marine Corps, and Air Force--a historically unique 
combination. We have been able to exploit space for intelligence, 
reconnaissance, and surveillance; communications; and precision 
navigation and timing. The US space capability has multiplied the 
effectiveness of US ground, sea, and air forces. We are also the world 
leader in exploiting the cyber dimension to support military 
operations.
Alliances and partnerships
    U.S. allies include some of the most prosperous and militarily 
capable states in the world. These include the members of the North 
Atlantic Treaty Organization in North America and Europe as well as 
Japan, Australia, South Korea,the Philippines, and Thailand in the 
Pacific. Beyond formal allies, the United States also possesses 
friendly relationships with a number of key states.
    All too often, however, we have failed to exploit these strengths 
to the extent we could or should. We have focused on how others can 
leverage their strengths against our weaknesses rather than how we can 
best use our strengths to exploit the weaknesses of our competitors.
         iii. implications for defense policy and organization
    Three main implications flow from this assessment. First, we need 
to think more seriously about risk than we have in recent years. 
Strategy is all about how to mitigate and manage risk. However, over 
the past quarter century, we have grown unused to having to take risks 
and bear costs. We have become risk averse. All too often, however, the 
failure to demonstrate a willingness to accept risk in the short term 
yields even more risk in the long term. As a result, our competitors 
increasingly view us as weak and feckless.
    Among other things, we need to have a serious discussion about risk 
within the United States Government and with the American people. And 
we are going to have to begin to take actions that are risky and costly 
to us to demonstrate our resolve to both our allies and our 
adversaries.
    Second, we face a series of long-term competitions with great 
powers and regional powers. China and Russia, Iran and North Korea have 
been competing with us for sometime; we have not been competing with 
them. As a result, we find our options constrained, and we find 
ourselves reacting to their initiatives.
    To achieve our aims over the long term, we first need to clarify 
what our aims are and then develop a strategy to achieve them. Such a 
strategy should seek to expand the menu of options available to us and 
constrain those that are available to our competitors. It should seek 
to impose costs upon our competitors and mitigate their ability to 
impose costs upon us. And it should give us the initiative, forcing 
them to respond to our actions and not the other way round. That is, of 
course, easier said than done in 2015 Washington, but it must be done 
if we are to gain maximum leverage from our considerable but limited 
resources.
    We need to do a better job of understanding our competitors. For 
example, the Chinese military publishes a vast number of books and 
articles how it thinks about modern war, strategy, and operations. 
These books are freely available for purchase in Chinese book stores 
and on the Chinese version of Amazon.com, but remain beyond the reach 
of scholars and officers who do not read Mandarin Chinese because the 
United States Government has yet to make translations of them broadly 
available. Similarly, in past decades the United States Government 
invested vast sums in building intellectual capital on the Russian 
military. Today that capital has been drawn down to dangerously low 
levels, so that we are surprised by or misunderstand Russian actions 
that should be neither surprising nor mysterious. Additional 
investments in this area are sorely needed.
    Finally, we need to take seriously the possibility of great power 
competition and conflict. This means that we need to think seriously 
about a host of national security topics that we have ignored or 
neglected for ageneration or more. These include the role of nuclear 
weapons in U.S. national security strategy, how best to mobilize the 
nation's resources for war, and the need to wage political warfare and 
counter its use by our competitors. We will also need to re-think the 
educational requirements of an officer corps that has experienced 
little but counter-insurgency and policymakers who came of age after 
the Cold War.

                                        * * * *

    In short, we face mounting challenges, but also have great 
opportunities, if we can only seize them. Part of the answer, no doubt, 
will consist of acquiring new capabilities, but a substantial part of 
it will lie in developing intellectual capital, and formulating and 
implementing an effective strategy, to harness the considerable 
strengths that we possess in the service of our aims.

    Senator McCain. Professor Mead?

   STATEMENT OF PROFESSOR WALTER RUSSELL MEAD, DISTINGUISHED 
       SCHOLAR IN AMERICAN STRATEGY, THE HUDSON INSTITUTE

    Mr. Mead. Mr. Chairman, Senator Reed, thanks for the 
invitation to appear before this committee. The work that the 
Senators on this committee do is of immense consequence not 
only to the safety, the security, the prosperity, and the 
liberty of people in this country but to hundreds of millions 
and billions of people outside our borders. The hard work and 
dedication that this committee puts into its tasks is a real 
inspiration. It is an honor to be here again before you today.
    When I think about the American strategic debate since the 
end of the Cold War, I am reminded of an old hymn that I used 
to sing in church as a kid in the South, ``Shall I be carried 
to the skies on flowery beds of ease while others fought to win 
the prize and sail through bloody seas?'' Since 1990 in the 
United States, that has no longer been a question. Many people 
in our intellectual and policy worlds have thought, ``I shall 
be carried to the skies on flowery beds of ease.'' All of that 
difficult defense of liberty, all of those risks, all of those 
painful tradeoffs--that is in the past. In the future, the 
inexorable laws of history, the spread of prosperity and 
democratic institutions will smoothly carry us to the skies. We 
can kick back, sip on a margarita as the rising tide lifts us 
on up to paradise. That has been one side of our strategic 
debate.
    The other side has been it is all over, we are in decline. 
The world of the 21st century is too complex, the challengers 
too aggressive, the threats face too dire, and so we really 
have to scale back our commitments, settle for less. The old 
ambitions of trying to build a world order are too much.
    If you have followed a lot of our political debates over 
the last 25 years, I think you will just see a rapid 
oscillation between those two extremes that says more about the 
mood swings of our political and intellectual elite than it 
does about realities on the ground.
    It seems to me the truth is actually less dramatic, in some 
ways perhaps more hardening, though there are perhaps bloody 
seas ahead. That is, at the end of the Second World War, the 
United States rather reluctantly came to the conclusion that we 
needed to replace Great Britain, what Woodrow Wilson's friend, 
Colonel House, once called the gyroscope of world order. We 
were not doing this as some kind of philanthropic project, 
though it is philanthropic, it is beneficial to many people who 
are not Americans. We were doing it because a sober assessment 
of American economic and security interests told people in both 
political parties that we need--for our economy to prosper, we 
needed an open global trading and investment system where we 
could enjoy the benefits of trading with people all over the 
world. Particularly in a nuclear era, our security interests 
required we could no longer ignore threats overseas until they 
reached some kind of critical mass and then intervene. We had 
to take a more forward-leaning posture, try to nip problems in 
the bud before they became global threats.
    That I think remains the case. Those still are our 
interests. It is not, again, because we seek some kind of 
global power. Most Americans would be only too happy to spend 
less time worrying about, thinking about, spending money on, 
and taking risks over things that are happening beyond our 
frontiers. But it is still the case that the prosperity of the 
American economy and the security of the American people are 
intimately bound up with events overseas. Let me take one 
example.
    We have heard some talk in the last few years, particularly 
as the situation in the Middle East has grown, as Senator Reed 
I think very explicitly and wisely pointed out, far more 
complex and dangerous than in the past. There has been some 
talk, well, do we really need to pay so much attention to the 
Middle East, in part because with United States unconventional 
gas and shale resources we seem to becoming more energy 
independent, and that is true. But I would say to the committee 
so far we have been able to watch war spread in the Middle East 
and the price of oil is $45 a barrel because the war has been 
in some parts of the Middle East and, by and large, the oil has 
been in other parts.
    But it is not written in any heavenly books that I am aware 
of that that is going to remain the case. If the security 
situation in the Middle East continues to deteriorate, the 
supply of oil not so much that we physically depend on but our 
allies in Europe and Japan and others around the world depend 
on, our trading partners--and I ask this committee what would 
happen to all of our economic and security problems if 
instability in the Middle East pushed the price of oil up to 
$200 a barrel, if instability in some of the large oil-
producing countries interrupted either the production or the 
supply, or if, for example, the Saudi Government, losing faith 
in our willingness to defend it, decided it would not have a 
better bargain by reaching an agreement with Russia and Iran on 
production cutbacks in order to raise the price.
    For those who wonder why is Putin in the Middle East? What 
possible objective could he have other than propaganda 
victories at home and making Russia look like a great power? 
Think what it would mean for Putin's prospects and Russia's 
prospects, short- and medium-term, if his foreign policy could 
engineer a substantial increase in oil.
    I am not prophesying that these things are going to happen 
tomorrow, but I am trying to remind the committee and others 
who will follow these hearings that we cannot write off regions 
of the world simply because they are inconvenient or difficult 
or it is hard to know exactly what to do. American foreign 
policy planning, American strategic planning has to keep these 
unpleasant but very real facts in mind.
    So if the situation is in fact so difficult and we are 
still committed to this global foreign policy, global strategic 
vision, why am I confident that the United States retains the 
ability to act, that we do not have to resign ourselves to an 
inevitable decline in the face of competition, in the face of 
growing complexity? My colleagues on the panel have noted some 
of these, but American society remains extraordinarily 
inventive and adaptive. Our technology continues to lead the 
world. Our resource base is unmatched. No country in the 
history of the world has had the kind of network of alliances 
and bilateral relationships that the United States does. No 
country has had military forces of such a high capacity. No 
country has had the ability to integrate people who come to us 
from all over the world into a united body of citizens. The 
strengths of this country are immense. In fact, the conditions 
of the 21st century, the rapid transformation of social and 
economic institutions in the face of unprecedented 
technological change are uniquely favorable to the classic 
strengths of the United States. For 200 years, we have been a 
country which prospers and adapts to change, even difficult 
change, in a way that other countries find it difficult to do. 
With 50 different States, we explore 50 different avenues into 
the future. We reform. We change our institutions as conditions 
change. Over time, this means the United States somehow manages 
to stay ahead. I do not see any sign in this country that we 
have lost the ability or the will to do that.
    Well, what could we do given the painful reality that we 
can no longer count on being carried gently to the skies on 
flowery beds of ease? How do we raise our game? How do we 
develop the ways of thinking? How do we organize our military, 
our foreign policy in order to adjust and adapt to these 
changes?
    I would leave the committee, which I know is at the 
beginning of a long process of deliberation, with three things 
to think about that I hope you will add into your thoughts.
    First, we do need to invest in the future. We need to 
continue to renew our military. The technology and the 
acceleration of technology around the world forces us to 
continue to invest. We cannot get locked into a model where we 
are simply trying to hold onto what we have.
    Second, the thought about the future cannot just be about 
technology. Societies around the world are changing. People are 
online. They are connecting to each other. People around the 
world, as their own economies are disrupted by the force of 
changes, as migrant flows change the makeup of countries--
societies change. Conflict is a social act, and changing in 
society will force us to think about new kinds of conflicts, 
new strategies, new tactics. Again, we have to keep investing 
in understanding and preparing for the future.
    Finally, we should look at our military and realize the 
immense variety of missions that we ask our armed services to 
carry on. At one and the same time, our military may be working 
with Nigerian armed forces in trying to deal with Boko Haram. 
Maybe on the next tour of duty, an officer will go from the 
back country of Nigeria to the halls of Brussels or Paris or 
Berlin working in a completely different context or be in 
Okinawa or preparing to face the Chinese navy in a very high-
tech and high-stakes competition. What kind of organization, 
what kind of training--it will not look very much like the 
World War II Army, like the Cold War Army, like the Army that 
we developed in the last few years with counterinsurgencies. 
Our armed forces are going to continue to need to evolve. This 
committee will have a great deal to do with that.
    The second large area is we need to think--again, as some 
of my colleagues have pointed out, the spaces between have 
historically been key to our strength and the strength of Great 
Britain before us. Think of Great Britain in the 18th century 
assuring the safe communication of trade and goods across the 
seas and the role of the British navy. In the 19th century, the 
British add to that the development of a world economic system 
under the gold standard based in London, of a world 
communications system based on international undersea cables 
with instantaneous telegraphic communication. In the 20th 
century, there is a further proliferation in the complexity of 
these spaces between and in their importance to international 
life.
    The fact that we cannot pick up the paper today without 
reading about some new unbelievable and hideous breach of 
security of some of this country's most important secrets 
suggests that at the moment we are not doing an adequate job of 
protecting some of the spaces in between, and we need to think 
very hard. These challenges are not going away and the cost of 
failing to address these challenges is not diminishing.
    Finally, let me close by suggesting to this committee that 
the United States Congress in the 21st century is going to need 
to equip itself with a much stronger capacity for oversight and 
engagement in the realm of strategic policy. I have suggested 
the formation of something almost analogous to the 
Congressional Budget Office [CBO], a congressional office of 
strategic assessment where Congress can get the kind of depth 
of analysis and reflection--a nonpartisan, may I say, analysis 
and reflection--access to the best advice, deepest knowledge in 
a way that even a committee staff and certainly the individual 
staff of Senators and Members just cannot do. Given the 
complexity of the issues that you must engage with the 
executive with, given the vast disparity in the size of the 
executive branch activities that you are expected to oversee, 
and the thin resources, and as you are all much more familiar 
than me, the many demands on the time of Members and staff, it 
is well worth thinking about how can Congress do a more 
effective job of oversight. How can Congress provide itself 
with the resources and the depth of expertise and knowledge 
that could make, I think, restore the ability of the 
legislature to play its role.
    The legislature plays an immense role not simply by 
opposing the executive on this or that issue. But the public 
debate on American strategic policy, on American foreign policy 
is carried primarily by the Representatives and the Senators, 
not simply a speech from the President. It is your 
communication with the American people, with your constituents 
that helps build the public opinion, the consensus that allows 
the United States to undertake some of the very significant 
investments that need to be done for the common good and 
security. Deepening the Congress? capacity to play this role I 
think can result in the construction of a stronger, deeper, and 
more effective consensus behind a smarter, more effective 
policy.
    But thank you again, Senators, for offering me the 
opportunity to speak today.
    [The prepared statement of Mr. Mead follows:]
               Prepared Statement by Walter Russell Mead
    Mr. Chairman, Ranking Member Reed, and members of the committee:
    It's a great honor to be invited to testify again before this 
august committee and its distinguished members. It is also encouraging 
to know that in a time of decreasing attention spans and in a political 
climate increasingly focused on ``winning the news cycle'', members of 
both parties are taking seriously the long-term strategic planning 
needs of the Republic. My aim today will be to clarify the geopolitical 
situation we face in the early 21st century, the challenges and 
opportunities that are likely to arise going forward, and the grand 
strategy concerns of the United States that derive from these.
                               background
    After the Second World War, the United States replaced Great 
Britain as, in Col. House's phrase, the ``gyroscope of world order.'' 
The U.S. assumed the burdens of global leadership not because we 
desired power--in fact, we had spent twenty years before the war, and 
two after it, trying to avoid global responsibilities--but because 
Americans needed the benefits of a stable world order to be safe and 
prosperous at home. Maintaining an open global economic system is vital 
to continued American prosperity. Maintaining a stable geopolitical 
order is vital to continued American security. And promoting values of 
freedom and self-determination worldwide is a critical element of these 
two missions.
    These realities are still the basis of American foreign policy and 
national strategy today. While there are many disagreements about how 
these principles should be translated into policy, and while some 
Americans seek to turn their backs on the difficult tasks of global 
engagement, on the whole, the commitment to the principles of liberal 
world order building that have framed American foreign policy since the 
Truman administration continues to shape our thinking today. As the 
world becomes more integrated economically, and as new threats like 
cyberwar and jihadi terrorism combine with old fashioned geopolitical 
challenges to create a more dangerous environment, this postwar 
American foreign policy tradition is more important than ever, but we 
must think long and hard about how we address our vital interests in an 
increasingly turbulent and dynamic world.
    The question before us today is whether we can continue to afford 
and manage the global commitments this policy requires. If, as I 
believe, the answer is that we can, we must then address questions of 
strategy. How do we harness the means we possess to secure the ends we 
seek, what priorities do we need to establish, what capabilities do we 
need to cultivate, and to what allies can we look for help as we seek 
to promote a peaceful and prosperous world amid the challenges of the 
21st century?
    We can begin by examining some of the advantages and disadvantages 
that the United States and its allies have as we consider how to adapt 
a 20th century strategy to the needs of the contemporary world.
                       disadvantages & advantages
    Surveying the global landscape, we can see several disadvantages 
that make it difficult to maintain the global system we've built into 
the 21st century. At the most basic level, one of the chief 
disadvantages facing the U.S. is the never-ending nature of our task. 
America's work is never done. Militarily, whenever the United States 
innovates to gain an advantage, others quickly mimic our developments. 
It is not enough for us to be ahead today; we have to continue to 
innovate so we are ready for tomorrow and the day after.
    The U.S. is challenged by the products of its own successes in ways 
that extend far beyond weapons systems. The liberal capitalist order 
that the United States supports and promotes is an engine of 
revolutionary change in world affairs. The economic and technological 
progress that has so greatly benefitted America also introduces new and 
complicating factors into world politics. The rise of China was driven 
by the American-led information technology revolution that made global 
supply chains possible and by the Anglo-American development of an open 
international economic system that enabled China to participate on 
equal terms. The threat of cyberwar exists because of the extraordinary 
development of the ``Born in the U.S.A.'' internet, and the 
revolutionary advances that it represents.
    In this way, American foreign policy is like a video game in which 
the player keeps advancing to new and more challenging levels. 
``Winning'' doesn't mean the end of the game; it means the game is 
becoming more complex and demanding. This means that simply in order to 
perform at the same level, the United States needs to keep upping its 
game, reforming its institutions, improving its strategies, and 
otherwise preparing itself to address more complex and challenging 
issues--often at a faster pace than before, and with higher penalties 
for getting things wrong.
    America's competitors are becoming more capable and dynamic as they 
master technology and refine their own strategies in response to global 
change. The world of Islamic jihad, for instance, has been transformed 
by both the adaptation of information technology and adaptation to 
previous American victories. In both these regards, al-Qaeda 
represented a great advance over earlier movements, al-Qaeda in 
Mesopotamia yet another advance, and ISIS a further step forward.
    In the world of international geopolitics, Russia has also made 
much of information control and its current leadership possesses a keen 
eye for the weaknesses of American-fostered successes such as the 
European Union. And China is also emerging as new kind of challenge, 
one that on the one hand plays ``within'' the rules much more than 
Russia or ISIS, but on the other, is still willing to break the rules--
viz. the OPM hack or industrial espionage--when Beijing feels it is 
necessary. Far more than America's other competitors, China has used 
this combination to develop its own economy and to lay the foundations 
for long-term power.
    Meanwhile, many of America's traditional allies in Europe are 
losing ground in the global economic race, and NATO, the most 
successful military alliance in world history and the keystone of the 
worldwide American alliance network, is in trouble. Many of Europe's 
leading economies--which is to say, many of the top-ten economies of 
the world by GDP--are stagnating, and have been for some time. This has 
corrosive, follow-on effects on the social fabric of nations like 
France, Italy, and Spain. Further, the EU's organizational mechanisms 
have proven inadequate to both the euro monetary crisis and the current 
refugee crisis, and secession movements (whether from the EU itself, as 
in ``Brexit'', or within EU nations, e.g. Scotland or Catalonia) are 
likely to strain them even more going forward. Finally, prospects for 
European adaptation to the 21st century tech economy are dimmer than 
one would like. Entrenched interests are using the force of government 
to repress innovation, start-ups are thin on the ground, and major new 
tech companies--``European Googles''--are nowhere to be seen.
    Since the Great Recession, the European members of NATO cut the 
equivalent of the entire German military budget from their combined 
defense expenditures. Many of our mainland European allies are also at 
least somewhat ambivalent about the extent of their commitment to 
defend other NATO members, particularly the new member-states in the 
Baltics--a fact that has not escaped Russia's notice.
    More broadly, the international security system promoted by the 
United States is based on two principles, alliance and deterrence, that 
greatly amplify our military capacity--and which we have undermined in 
recent years. Our alliances allow us to do more with less; they also 
repress competition between our allies. For instance, mutual alliances 
with America help to keep Japanese-South Korean tensions in check today 
just as the American presence helped France and Germany establish 
closer relations based on mutual trust in the past. Deterrence is key 
to the alliance system and also to minimizing the loss of U.S. lives as 
we fulfill our commitments around the world.
    Recent events in the Middle East demonstrate what happens when 
alliances fray and deterrence loses its force. Iranian and Russian 
adventurism across the region has undermined the confidence of American 
allies and increased the risks of war. American allies, like Saudi 
Arabia, who fear American abandonment, have grown increasingly 
insecure. Saudi freelancing in Syria and Yemen may lead to great 
trouble down the road; Riyadh is not institutionally equipped to take 
on the burdens it is attempting to shoulder.
    Another significant disadvantage facing U.S. policymakers is that 
the international order is based on institutions (like the UN) that are 
both cumbersome to work with and difficult to reform. As we get further 
and further from the circumstances in which many of these institutions 
were founded, they grow more unwieldy, but for similar reasons, nations 
who were more powerful then than now grow more deeply opposed to 
change. The defects of the world's institutions of governance and 
cooperation are particularly problematic for an order-building, 
alliance-minded power like the U.S.
    Meanwhile, many of our domestic institutions relating to foreign 
policy are not well structured for the emerging challenges. From the 
educational institutions that prepare Americans for careers in 
international affairs (and that provide basic education about world 
politics to many more) to large organizations like the State 
Department, the Department of Homeland Security, and the Pentagon, the 
core institutions on which we need to rely are not well suited to the 
tasks they face.
    In the Cold War era, the challenges were relatively easy to 
understand, even if developing policies to deal with the threats was 
often hard. Today, the policy challenges are no less difficult, but the 
threats themselves are more diverse. A revanchist Russia, competing 
radical Sunni and Shia jihadist movements, and a rising China all 
represent important challenges, but they cannot be addressed in the 
same way or with the same tools. Americans, particularly those in 
public service but also the engaged citizens whose votes and opinions 
sway foreign policy, will have to be more nimble and nuanced in their 
understanding of the problems we're facing than ever before.
    In spite of these serious disadvantages and problems, the United 
States is much better positioned than any other country to maintain, 
defend, extend and improve the international system in the 21st 
century. We should be sober about the tremendous challenges facing us, 
but we should not be pessimistic. We cannot do everything, and we will 
not do everything right, but we can be more right, more often than our 
adversaries.
    The United States remains an adaptable society that embraces 
change, likes innovation, and adjusts to new realities with enthusiasm 
(and often, an eye to enlightened self-interest). Indeed, in many ways, 
these truisms are more true now than ever. We remain on the cutting 
edge of technological development. We're better suited than our global 
competitors to weather demographic shifts and absorb new immigrants. 
And despite significant resistance to change among some segments of 
society (in particular, ironically, the ``public-service'' sector), we 
are already starting to re-engineer our institutions for the 21st 
century.
    One of the United States' greatest advantages is our exceptional 
array of natural resources. We possess a tremendous resource base with 
energy, agriculture, and mineral wealth that can rival any nation on 
earth. Hydraulic fracturing and horizontal well drilling have 
fundamentally transformed the American energy landscape overnight. Oil 
production is up 75 percent since 2008, and new supplies of shale gas 
have millions of Americans heating their homes cheaply each winter. New 
U.S. oil production has been a big part of the global fall in oil 
prices, and shale producers continue to surprise the world with their 
ability to keep up output, even in a bearish market. In 2014, the U.S. 
was the world's largest producer of oil and gas, according to the U.S. 
Energy Information Administration. Energy policy debates have shifted 
from issues of scarcity to those of abundance: we're now discussing 
what to do with our bounty. Do we sell LNG abroad? End the ban on crude 
oil exports? These are good problems to have.
    The United States also retains the most advantageous geographical 
position of any of the world's great powers. We have friendly, 
resource-rich neighbors; Canada is a rising power with enormous 
potential, and Mexico and many other countries in Latin America have 
made substantial progress. We face both of the world's great oceans, 
which allow us to engage in trade while still insulating us from many 
of the world's ills.
    The United States has an unprecedented network of alliances that 
gives us unmatched global reach and resilience. The vast majority of 
the world's developed nations are U.S. allies. In fact, of the top 50 
nations by GDP according to the World Bank, only four--China, Russia, 
Venezuela, and Iran--are adversaries. Likewise, only two of the top 
fifteen military spenders are not friendly to the U.S. Largely, we have 
the kind of friends one hopes to have.
    Moreover, the world can see that The United States stands for 
something more than its own power and wealth. The democratic ideals we 
honor (even if we do not always succeed in living up to them) resonate 
far beyond our frontiers. The bedrock belief of American society that 
every woman and every man possesses an innate and inalienable dignity, 
and our commitment to ground our institutions and our laws on that 
truth inspire people around the world. The American creed is one that 
can be shared by people of all faiths and indeed of no faith; our 
society's principles stand on common ground with the world's great 
religious and ethical traditions. This American heritage gives us a 
unique ability to reach out to people in every land and to work 
together to build a more peaceful and prosperous world.
    The United States also has a favorable climate for investment and 
business that ensures we will remain (if we don't screw up) a major 
destination for investment. These factors include: America's 
traditional devotion to the rule of law; long, stable constitutional 
history; excellent credit rating; large internal market; 50 competing 
states offering a range of investment possibilities; rich science and 
R&D communities; deep financial markets adept at helping new companies 
grow; stable energy supplies (likely to be below world costs given the 
advantages of pipeline gas compared to LNG); and an educated workforce. 
We're not at the top of every one of these measures globally, but no 
country can or likely will match our broad strength across them.
    This might not be the most popular thing I've ever told a room full 
of politicians, but one of the biggest ways in which America is 
fortunate is that, as I've written elsewhere, ``the ultimate sources of 
American power--the economic dynamism of its culture, the pro-business 
tilt of its political system, its secure geographical location, its 
rich natural resource base and its profound constitutional stability--
don't depend on the whims of political leaders. Thankfully, the 
American system is often smarter and more capable than the people in 
office at any given time.''
    One way to look at our position is this: at the peak of its global 
power and influence in the 1870s, the United Kingdom is estimated to 
have had about nine percent of the global GDP. America's share today is 
more than double that--and likely to remain at or close to that level 
for some time to come.
    American power today rests on strong foundations. Those who argue 
that the United States must accept the inevitability of decline, and 
that the United States can no longer pursue our global interests do not 
understand America's strengths. The United States, in association with 
its growing and dynamic global alliance system, is better placed than 
any other country or combination of countries to shape the century that 
lies before us.
                       opportunities & challenges
    The U.S. has several opportunities in the coming years to 
significantly advance its interests around the world. In Asia, a large 
group of countries want the same kind of future we do: peaceful, full 
of opportunities for economic growth, and with no one country 
dominating the rest. Two generations ago, this was a poor, 
dictatorship-ridden region; today, it's full of advanced, high-income 
economies and contains many more stable democratic states than in the 
past. The regional response to China's assertive policies in the East 
and South China Seas demonstrated that many countries are willing and 
indeed eager to work with the United States and with each other to 
preserve the way of life they have created from regional hegemonic 
threats.
    In Europe, despite some quarrels and abrasions, our longstanding 
allies have worked together to build the kind of zone of democratic, 
peaceful prosperity that the U.S. hopes the whole world will someday 
enjoy. But what we're finding, not for the first time in our history, 
is that Europe works best when America remains engaged with it. While 
it's tempting to think that a bunch of first-world, prosperous 
democracies can handle their own corner of the world (and perhaps some 
of the neighboring bits, please?), America is the secret ingredient 
that keeps this historically contentious, rivalry-ridden area, full of 
states of differing size and capacity, with different attitudes toward 
economics, defense, social organization, and much else, working 
together. When Europe works well, it's the best advertisement for the 
American vision to the rest of the world. It offers us the chance to 
work together with partners who share our belief in rule of law and 
human rights. And fortunately, the fixes that our relationships with 
European nations need are relatively cheap, easy, and even pleasant: 
more time, more engagement, more mutual cooperation.
    Perhaps the biggest opportunity in the 21st century is not 
geopolitical, however, but economic and social. The tech revolution has 
the potential to boost standards of human happiness and prosperity as 
much as the Industrial Revolution did. It will likely give our 
grandchildren a higher standard of living than most of us today can 
imagine.
    We should not underestimate either the extent of this coming 
transformation, or the enormous power it has to make our lives better. 
Take, for instance, the environment: 21st-century technology is moving 
the economy into a more sustainable mode. The information service-
driven economy is rising even as the manufacturing economy becomes less 
environmentally problematic and shrinks as a portion of the total 
economy. From telework to autonomous cars, innovations are likely to 
cut down on emissions in the new economy, even while improving 
standards of living across the world.
    The information economy will be more prosperous, more 
environmentally friendly, and more globally interconnected than what 
came before it. The U.S. can lead this transition--not by hampering 
economic growth or by instituting expensive subsidies, but by promoting 
and accelerating the shift toward a greener but richer and more 
satisfying economy.
    Filled with opportunity as it is, the new century also contains 
threats: conventional threats like classic geopolitical rivals 
struggling against the world order favored by the United States and its 
allies, unconventional threats like terror movements spurred by jihadi 
ideology, regional crises like the implosion of much of the Middle East 
and a proliferation of failed and failing states, emerging threats like 
the danger of cyber war, and systemic problems like the crises in some 
of the major institutions on which the global order depends--NATO, the 
EU, and the UN for example. The United States government itself is not 
exempt from this problem; whether one looks at the Pentagon, the 
Department of Homeland Security or the State Department one sees 
organizations seeking to carry out 21st-century missions with 20th or 
even 19th-century bureaucratic structures and practices.
    Additionally, the United States faces a challenge of strategy. 
While the United States has enough resources to advance its vital 
interests in world affairs, it does not have the money, the military 
power, the know how or the willpower to address every problem, 
intervene in every dispute, or to dissipate its energies in futile 
pursuits.
    The United States faces an array of conventional and unconventional 
threats, as well as several systemic dangers. Our three principal 
conventional challengers are China, Russia, and Iran. All aim to revise 
the current global geopolitical order to some extent. In the years to 
come, we must expect that revisionist powers will continue to challenge 
the existing status quo in various ways. Moreover, the continuing 
development of ``second generation'' nuclear weapons states like 
Pakistan ensures that geopolitical competition between regional powers 
can trigger global crises.
    Meanwhile, we are also confronted by an array of unconventional 
threats. Despite the fondest hopes of many Americans, Sunni jihadism 
has not proven to be a passing phase or fringe movement. Al-Qaeda was 
more resourceful and ambitious than the previous generation of radical 
salafi groups; its Mesopotamian offshoot (AQIM) was still more 
effective; today, ISIS has leaped ahead to develop capabilities and 
nourish ambitions that earlier jihadi groups saw only in their dreams. 
Unfortunately, the radical movements have lost inhibitions as they 
gained capacities. Wholesale slaughter, enslavement, barbaric and 
spectacular forms of execution: these testify to a movement that 
becomes more depraved, more lost in the pornography of violence, even 
as it acquires more resources and more fighters. This movement could 
become significantly more dangerous before it begins to burn out.
    Yet radical jihadis may well prove to be less of a threat than the 
emerging dangers of the cybersphere. Cyber conflict is a new arena of 
action, one in which non-state, quasi-state and state actors are all 
present. With almost every day bringing stories of utterly lamentable 
failures of American cyber security, it must be clearly said that the 
United States Government has allowed itself to be made into a global 
laughingstock even as some of our most vital national security (and 
corporate and personal) information is captured by adversaries with, 
apparently, impunity.
    But problems like these are pinpricks compared to the damage that 
cyber war can cause. Not only can industrial sabotage disrupt vital 
systems, including military command and control systems as well as, for 
example, the utilities on which millions of Americans depend for their 
daily necessities, cyberwar can be waged anonymously. Threats of 
retaliation lose their deterrent power when the attacker is unknown. 
Worse, the potential for destabilizing first strikes by cyber attacks 
will complicate the delicate balance of terror, and leaders could find 
themselves propelled into conflict. Cyber war could accelerate the 
diplomatic timetable of the 21st century much as railroad schedules and 
mobilization timetables forced the hands of diplomats in 1914.
    Beyond that, one can dimly grasp the possibility of biologically 
based weapons as a new frontier in human conflict. It is far too soon 
to know what these will be like or how they will be used; nevertheless 
one must postulate the steady arrival of new kinds of weapons, both 
offensive and defensive, as the acceleration of human scientific 
understanding gives us greater access to the wonders of the life 
sciences.
    Finally, there are systemic or generic threats, which is to say, 
dangers that are not created by hostile design, but emerge as 
byproducts from existing and otherwise benign trends that are likely to 
pose significant challenges to the United States' interests and 
security in coming decades. We do not usually think of these as 
security problems, but they can create or exacerbate security threats 
and they can degrade our abilities to respond effectively.
    For all its promise, the tech revolution entails an accelerating 
rate of change in human communities that has destabilizing effects. In 
the United States, and especially in Europe, these take the relatively 
benign, but still problematic, form of the breakdown of what I have 
called the ``blue social model''--a tightly integrated economic-social 
model built during the 21st century that linked lifetime employment and 
fixed pensions into a socio-economic safety net. Now, the structures 
that were designed to secure prosperity and economic safety in the 20th 
century are often constraining it in the 21st.
    But elsewhere, the strains of the modern economy may yet be worse, 
and produce more malign results. In the Middle East and North Africa, 
government institutions and systems of belief are overwhelmed by the 
onslaught of modernity. For better or worse, the pressures of modernity 
will increase on societies all around the world as we move deeper into 
the 21st century. To date, the United States has demonstrated very 
little ability to help failed or failing states find their feet. 
Failing states provide a fertile environment for ethnic and religious 
conflict, the rise of terrorist ideologies, and mass migration. The 
United States will need to be ready to deal with the fallout--fallout 
that in some cases could be more than metaphorical.
    Finally, the United States and its allies must recognize and 
overcome a crisis of confidence. The West's indecision, weak responses, 
mirror imaging of strategic competitors who do not share our values, 
and our tendency to rely upon process-oriented ``solutions'' in the 
face of growing, violent threats have encouraged a paradox: our enemies 
and challengers have become more emboldened, and disruptive to the 
world order, exploiting the opportunities that the open order supported 
by the United States and its allies provides.
    Western societies have turned inward, susceptible to ``there's 
nothing we can do'' and ``it's not our problem'' political rhetoric. As 
history shows, the combination can carry a very high cost and take many 
years to unwind. Grand strategy has to take this into account: American 
leadership is critical to highlighting and thwarting problems that may 
fester into major global threats. Even the best strategic planning and 
the best procurement of equipment to meet serious strategic threats is 
insufficient should current Western leaders lack the wit to recognize 
and the will to meet challenges as they arise.
                            recommendations
    What can the United States Congress and the armed services do to 
prepare the country for the strategic challenges of the future? The 
Committee invited me to look beyond the day to day problems and to take 
a longer view. Here are some thoughts:
1. Invest in the future.
    The apparently inexorable acceleration of technological and social 
change has many implications for the armed services of the United 
States. It is not just that weapons and weapon platforms must change 
with the times, and that we must continue to invest in the research and 
development that will enable the United States to field the most 
advanced and effective forces in the world. Technological change drives 
social change, and conflict is above all a social activity. Military 
forces must develop new ways of organizing themselves, learn to operate 
in different dimensions, understand rapidly-changing cultural and 
political forces and generally remain innovative and outward focused.
    New tech does not just mean new equipment on the battlefield. As 
tech moves into civil life, the structure of societies change. 
Insurgencies mutate as new forms of communication and social 
organization transform the ways that people interact and communicate.
    The need for flexibility is heightened by the diversity of the 
world in which the Armed Forces of the United States, given our 
country's global interests, must operate. American forces must be ready 
to work with Nigerian allies against Boko Haram, maintain a base 
presence in Okinawa while minimizing friction with the locals, operate 
effectively in the institutional and bureaucratic culture of the 
European alliance system, while killing ruthless enemies in the world's 
badlands. Our combat troops must work in a high tech electronic 
battlefield of the utmost sophistication even as they work to win the 
hearts and minds of illiterate villagers.
    The armed services must continue to reinvent themselves to fit 
changing times and changing missions, and they must be given the 
resources and the flexibility necessary to evolve with the world around 
them. The bureaucratic routines of Pentagon business as usual will be 
poorly adapted the kind of world that is growing up around us. A focus 
on re-imagining and re-engineering bureaucratic institutions is part of 
investing in the future. Private business has often moved more quickly 
than government bureaucracy to develop new staffing and management 
patterns for a more flexible and rapidly changing environment. 
Government generally, and the Pentagon in particular, will need 
aggressive prodding from Congress to adapt new methods of management 
and organization. Investment in better management and organizational 
reform will be vital.
2. Address the interstitial spaces and the invisible realms.
    The United States, like Great Britain, is a power that flourishes 
in the `spaces between'. In the 18th century, think of sea power and 
the world markets that sea power guaranteed. Britain rose to world 
power by mastering the `spaces between' the world's major economic 
zones. In the 19th century Britain added telegraph and cable 
communications to its portfolio, developing and defending the world's 
most extensive network of instantaneous communications. Similarly, the 
British build a global financial system around the gold standard, the 
pound, and the Bank of England. Again, the focus was less on dominating 
and ruling large land masses than on facilitating trade, communications 
and investment among them.
    In the 20th century, the nature of this space changed again: air 
power, radio and television broadcasting, satellites and, in the 
century's closing years, the internet created new zones of 
communication. The United States was able to retain a unique place in 
world affairs in large part because it moved quickly and effectively to 
gain a commanding position in the development and civil and military 
use of these forms of communication. Whether it is the movement of 
goods or of information or of both, Anglo-American power for more than 
three centuries has been less about controlling large theaters of land 
than about securing and expediting trade and communication in the 
`spaces between'.
    This type of power, most evidently present today in the world of 
cyberspace, remains key not only to American power but to prosperity 
and security in the world. Information is becoming the decisive 
building block of both economic and military power.
    American defense policy must remain riveted on the developments in 
communications and information processing that are creating the 
contemporary equivalent of the sea lanes of the 18th century and the 
cable lines of the 19th. The recent series of high profile hacker 
attacks against key American government and corporate targets suggests 
that we have lost ground in one of the most vital arenas of 
international competition.
    This needs to change; cyber security is national security today and 
at the moment, we don't have it.
3. Establish a Congressional Office of Strategic Assessment.
    In order to perform its oversight functions more effectively, the 
Congress should consider establishing a professional, nonpartisan 
agency that can be a source for independent strategic research and 
advice, and which can evaluate executive branch policies in a more 
systematic and thorough way than current resources allow. Similar in 
some ways to the CBO, a COSA would provide in-depth analysis and other 
resources to members and staff. Such an office would ideally be able to 
analyze anything from the strategic consequences of a given trade 
agreement to the utility of a proposed weapons system. This office 
would also allow a much more sustained and effective form of 
Congressional oversight, restoring a better balance to the relationship 
between the Executive and Legislative branches of government.
    The intersection of military, political, social, technological and 
economic issues in our world is constantly creating a more complex 
environment for both military and political strategic policy and 
thought. Even the most dedicated members with the hardest working staff 
cannot fully keep up with the range of problems around the world and 
their impact on American interests and policy. Yet effective 
Congressional oversight is necessary if the American system of 
government is to reach its full potential in the vital field of 
national security policy.
    A non-partisan office under Congressional control that had a strong 
staff and the ability to engage the best minds in the country on 
questions of national strategy would help Congress fulfill its 
responsibilities in this new and challenging environment.

    Senator McCain. Thank you.
    Dr. Hicks?

 STATEMENT OF DR. KATHLEEN HICKS, SENIOR VICE PRESIDENT; HENRY 
 A. KISSINGER CHAIR; DIRECTOR, INTERNATIONAL SECURITY PROGRAM, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Hicks. Good morning. Chairman McCain, Senator Reed, 
distinguished members of the committee, I appreciate the 
opportunity to testify before you today.
    The scope of this hearing, to discuss the global security 
environment, the national security strategy, and defense 
organization, is a daunting one. I will focus my opening 
statement on the implications of a changing U.S. role in the 
world, on our national security strategy, and our general 
strategic approach. I think you will find a remarkable degree 
of consistency between my remarks and thoughts and those 
expressed already.
    Every day it seems Americans awaken to a new international 
crisis or other sign of a world out of their control. In 
Europe, our allies and partners are coping with Russian 
aggression, which is taking forms as diverse as cyber attacks, 
energy coercion, political subversion, all the way to 
conventional military might and a renewed emphasis on nuclear 
weapons.
    At the same time, Europeans grapple with the world's most 
significant migration crisis since World War II.
    In Asia, satellite images of China's aggressive island-
building activities are widely viewed as corroborating that 
nation's designs to control the air and sea space far from its 
shores.
    Meanwhile, Kim Jung-un continues his family's legacy of 
dangerous provocations and nuclear ambition.
    As significant as the security situation is in these two 
regions, no area of the world is in greater turmoil than the 
Middle East. From the destabilizing role of Iran, to the chaos 
of Libya, to the complete destruction of Syria and its 
implications for Iraq, Jordan, Turkey, and beyond, the upheaval 
seems endless.
    The international system is shifting and in ways not yet 
fully understood. The well-worn frames of ``the unipolar 
moment,'' ``the post-9/11 era,'' or even ``globalization'' 
cannot singularly explain the seeming growth of coercive 
tactics from major powers, manifest as provocations that fall 
short of conventional war, or the upheaval and appeal of a 
quasi-state espousing militant Islamist ideology. Indeed, no 
single compelling frame may exist that adequately captures the 
complexity and breadth of the challenges that we face. As we 
seek to understand more fully the implications of changes now 
underway, however, we can already identify several important 
insights that should help guide policymakers devising a 
national security strategy and the structure that supports it, 
and I will talk about five today.
    The first key factor is the paradox of enduring super power 
status combined with lessening global influence. The United 
States will likely remain the world's sole super power for at 
least the next 15 years. As has already been stated by several 
others, the Nation boasts enviable demographics, economic and 
innovative capacity, natural resources, cultural reach, and of 
course, military power. At the same time, our Nation's ability 
to shape the behavior of other actors is lessening. How well 
the United States can wield power and how much it chooses to do 
so will vary by region, issue, and leadership. Non-state 
problems, for instance, are particularly difficult to tackle 
with existing U.S. foreign policy tools.
    A second factor that shapes the likely U.S. role in the 
world is the constancy of American public support for 
international engagement. If there is one theme in American 
grand strategy that has persisted for at least the past 70 
years, it is that taking a leading role in the world is 
generally to the benefit of U.S. interests. Those U.S. 
interests have themselves remained remarkably constant: 
ensuring the security of U.S. territory and citizens; upholding 
treaty commitments, to include the security of allies; ensuring 
a liberal economic order in which American enterprise can 
compete fairly; and upholding the rule of law in international 
affairs, including respect for human rights. Each presidential 
administration has framed these interests somewhat differently, 
and of course, each has pursued its own particular path in 
seeking to secure them. But the core tenets have not varied 
significantly. An isolationist sentiment will always exist in 
American politics, but in the near future, it is unlikely to 
upend the basic consensus view that what happens elsewhere in 
the world can affect us at home and therefore requires our 
attention.
    Equally important is a third factor that policymakers 
should take into account when thinking through the U.S. role in 
the world: a selective engagement approach to U.S. foreign 
policy is almost unavoidable. Despite the enduring, modern 
American consensus for international engagement, the United 
States has never had the wherewithal nor the desire to act 
everywhere in the world, all the time, or with the same tools 
of power. We have always had to weigh risks and opportunity 
costs and prioritize, and the current budget environment makes 
this problem even harder. Realizing greater security and 
military investment through increased budgets and/or more 
aggressive institutional reforms and infrastructure cost cuts 
should be pursued. I am encouraged by this committee's 
attention to the connection between reform and realizing 
strategic ends.
    Another imperative for U.S. national security strategy is 
to pursue an engagement and prevention approach. Driving long-
term solutions, such as improved governance capacity in places 
like Iraq, takes a generational investment and typically a 
whole-of-government and multinational approach. Problems are 
seldom solvable in one sphere nor by one nation alone. The 
United States needs all instruments of power, diplomatic, 
economic, informational, and military, to advance its 
interests. It also needs to work closely with the private 
sector, NGOs [non-governmental organizations], as well as 
allies and partners abroad. The United States has proven 
neither particularly patient for nor adept at such lengthy and 
multilateral strategies in part because it is difficult to 
measure the success of such approaches in ways that can assure 
taxpayers and their representatives of their value. Our 
national security strategy needs to put action behind a 
preventative approach, to include developing ways to measure 
the results of such efforts.
    A fifth insight we are learning about the security 
environment is that opportunism by nations and other actors is 
alive and well. Although we have an excellent record of 
deterring existential threats to the United States, we face the 
deterrent challenge for so-called ``grey area'' threats. The 
United States must be better able to shape the calculus of 
states and actors that wish to test our response to ambiguous 
challenges. This will mean clearly communicating our interests 
and our willingness and capacity to act in defense of them. It 
also means carrying out threats when deterrence fails. Without 
that commitment, the value of deterrence will continue to erode 
and the risk of great power conflict will rise.
    The five insights I list here are realities that American 
policymakers would be wise to take into account. They create 
imperatives for national security strategy and for the tools of 
foreign policy. Discerning the shifting nature of the 
international system and designing an effective set of American 
security tools within it are monumental tasks, but they are not 
unprecedented. It is the same task that faced the so-called 
``wise men'' who helped shape the U.S. approach to world 
affairs at the end of World War II. Our circumstances today are 
equally challenging, requiring a similar reexamination of our 
strategies and capabilities for securing U.S. interests. Self-
imposed burdens, especially sequestration, threaten to 
undermine our defense policy from within. Ensuring the Nation 
is prepared to lead effectively and selectively will require 
adequately resourcing any strategy we choose to pursue. 
Finally, successful national security strategy necessitates 
leadership from Washington and partnership with like minded 
nations and entities around the world.
    Thank you very much.
    [The prepared statement of Dr. Hicks follows:]
                Prepared Statement by Kathleen H. Hicks
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the committee, I appreciate the opportunity to testify before you 
today. The scope of this hearing--to review the global security 
challenges, the national security strategy, and defense organization--
is a daunting one. I will focus this written statement on the key 
challenges to the international security environment, the implications 
of a changing US role in the world, and the key takeaways for national 
security strategy development. I will end by emphasizing that whatever 
strategy the United States chooses to pursue, it must resource that 
strategy.
        key challenges in the international security environment
    Every day, it seems Americans awaken to a new crisis signifying a 
world out of their control. In Europe, our Allies and partners are 
coping with Russian aggression, ranging from cyberattacks and energy 
coercion to conventional military might and a renewed emphasis on 
nuclear weapons. There are two important doctrinal trends occurring in 
Russian military thought. First, it has shifted its doctrine over the 
past five years to the high-risk proposition of relying on its 
significant strategic capabilities--nuclear, cyber, and space--at the 
outset of conflicts. Its goal is to deter US and NATO intervention by 
adopting an early escalation strategy. In short, Russia may seek to de-
escalate conflicts quickly by escalating them to the strategic realm at 
the outset. Second, Russia has been steadily improving its means for 
unconventional warfare, as we saw in Crimea. This includes extensive 
information operations capabilities, development and use of proxy 
forces, and funding for sympathetic local movements. The seeming goal, 
successful in the case of Crimea, is to achieve Russian security 
objectives without need for a costly and domestically divisive 
traditional military campaign.
    At the same time, Europe grapples with the world's most significant 
migration crisis since World War II. The prospects for European 
political cohesion are uncertain. The debt crisis has fueled popular 
support for extremist political parties, including some with strong 
ties to Moscow. Freedom House's 2014 Nations in Transit report found 
that only two out of ten Eastern and Central European countries (Latvia 
and the Czech Republic), which joined to the EU in 2004 and 2007, have 
improved their overall democracy ``score card'' since their accession.* 
Russia's annexation of Crimea to NATO's east and its military maneuvers 
in Europe's north compete with the threats posed by ISIS and others to 
NATO's south for priority. All this is occurring in an overall 
environment of declining resources, although since NATO's Wales Summit, 
there have been modest defense spending increases among some allies. 
NATO leaders hope that the Alliance can ``walk and chew gum''--
attending to disparate threats in various geographical regions--but the 
real test for European cohesion is occurring over migration, which is 
less directly a NATO issue and more centrally a test for the European 
Union.
    In Asia, satellite images of China's aggressive island building 
activities are widely viewed as corroborating that nation's designs to 
control the air and sea space far from its shores. These efforts by 
China are significant. China has been schooling the United States about 
its territorial interests in East Asia for some time and has slowly 
eroded international norms regarding freedom of the air and seas along 
its periphery. It has also embarked on an extensive military 
improvement plan, focused largely on air and maritime capabilities. 
China will be the pacing challenge for the United States in most areas 
of high-end military capability over the coming decades, although 
Russia is likely to be at least an equal challenges in nuclear, cyber, 
and space capabilities. Meanwhile, Kim Jung Un appears to be building 
on his family's
--------
    * Sylvana Habdank-Kolaczkowska, Nations in Transit 2014: Eurasia's 
Rupture with Democracy (Washington DC: Freedom House, 2014) 19. https:/
/freedomhouse.org/sites/default/files/NIT2014%20booklet_WEBSITE.pdf
legacy of dangerous force provocations and nuclear ambition. Although 
North Korea's large conventional military is probably no match for 
South Korean combined armed forces, and certainly no match for the 
United States military, the North Korean threat today is worrisome not 
because of its sizable manpower but because of its increasing missile 
capability, emergent nuclear technology, special operations forces, and 
likely reliance on chemical and biological weapons.
    As significant as the security situation is in these two regions, 
no area of the world is in greater tumult than the Middle East. From 
the destabilizing role of Iran, to the chaos of Libya, to the complete 
destruction of Syria and its implications for Iraq, Jordan, Turkey, and 
beyond, the upheaval is dramatic. Iran has some impressive conventional 
military capabilities, especially with regard to conventional missiles, 
but they are currently not on par with the United States.
    The most concerning threat posed by Iran today is instead its use 
of unconventional capabilities, manifest largely in its support for 
terrorist groups, to threaten US interests throughout the greater 
Middle East and beyond, and its ability to create a crisis in the 
Arabian Gulf due to its strategic position along the Strait of Hormuz.
    Beyond those regional challenges, the global interconnectedness of 
peoples will continue to grow. However, the very tools that support 
globalization, especially social media, will also facilitate increasing 
segmentation along ideological, religious, familial, and other lines 
that individuals and small groups may choose to create. Moreover, 
individuals and small groups who are bent on using violence will more 
easily be able to acquire the means to do so, with militarily-relevant 
technology increasingly coming from the commercial sector, in 
accessible ways, and at accessible prices.
    Moreover, we should expect to see some national security effects 
from climate change by the middle of this century, particularly the 
potential for conflict over changing natural resources and food and 
attendant migration patterns as well as worsening natural disasters. 
The growth of megacities on the littorals is a particular concern in 
this regard, as they are more at risk from disasters. The United States 
will also need to address challenges that arise when the Arctic begins 
to experience greater commercial, scientific, and military traffic.
             implications for us national security strategy
    As this brief recitation of the international security environment 
demonstrates, the international system itself is shifting in ways not 
yet fully understood. The well-worn frameworks of ``the unipolar 
moment,'' ``the post-9/11 era,'' or even ``globalization'' cannot 
singularly explain the seeming growth of coercive tactics from major 
powers--manifest as provocations that fall short of traditional war--or 
the appeal of a quasi-state espousing militant Islamist ideology. 
Indeed, no single, compelling frame may exist that adequately captures 
the complexity and breadth of the challenges we face. As we seek to 
understand more fully the implications of changes now underway, we can 
already identify five important insights that should help guide 
policymakers devising a national security strategy.
    Changing Power Dynamics The first key factor shaping the role of 
the United States today is the paradox of enduring superpower status 
combined with lessening global influence. The United States will likely 
remain the world's sole superpower for at least the next fifteen years. 
The nation boasts enviable demographics, economic and innovative 
capacity, natural resources, cultural reach, and of course military 
power. At the same time, its ability to shape the behavior of other 
actors is lessening. How well the United States can wield power, and 
how much it chooses to do so, will vary by region and issue. Non-state 
problems, for instance, are particularly difficult to tackle with 
existing United States foreign policy tools. On the other hand, where 
there is an assertive nation-state competitor--such as Iran, Russia, 
North Korea or China--traditional United States security strengths tend 
to be more influential. Even in these cases, however, the United States 
has had difficulty deterring a wide range of provocations and coercive 
actions that run counter to its security interests.
    Enduring American Support for Engagement A second factor that 
shapes the likely U.S. role in the world is the constancy of American 
public support for international engagement. If there is a theme in 
American grand strategy that has persisted for the past seventy years, 
it is that taking a leading role in the world is generally to the 
benefit of U.S. interests. Those interests have themselves remained 
remarkably consistent: ensuring the security of U.S. territory and 
citizens; upholding treaty commitments, to include the security of 
Allies; ensuring a liberal economic order in which American enterprise 
can compete fairly; and upholding the rule of law in international 
affairs, including respect for human rights. Each presidential 
administration has framed these interests somewhat differently, and of 
course each has pursued its own particular path in seeking to secure 
them, but the core tenets have not varied significantly. An 
isolationist sentiment will always exist in American politics, but it 
is unlikely to upend the basic consensus view that what happens 
elsewhere in the world can affect us at home and, therefore, requires 
our attention.
    The Reality of Selective Engagement Equally important is a third 
factor that policy-makers should take into account when thinking 
through the U.S. role in the world: a selective engagement approach to 
U.S. foreign policy is unavoidable. Despite the enduring, modern 
American consensus for international engagement, the United States has 
never had the wherewithal nor the desire to act everywhere in the 
world, all the time, or with the same tools of power. We have always 
had to weigh risks and opportunity costs and prioritize. The current 
budget environment makes this problem harder. Realizing greater 
security and military investment, through increased budgets and/or more 
aggressive institutional reforms and infrastructure cost cuts, should 
be pursued. Nevertheless, when it comes to the use of American force to 
achieve our ends, we should be prepared to surprise ourselves. As 
Robert Gates famously quipped in 2011, we have a perfect record in 
predicting our next crisis--we've never once got it right. Democracies, 
including the United States, can prove remarkably unpredictable. 
Policy-makers need to understand this reality and not lead the public 
to expect a universal template that governs when and where the nation 
may act in support of its interests.
                 importance of preventative approaches
    Another imperative for US national security strategy is to pursue 
an engagement and prevention approach. Driving long-term solutions, 
such as improved governance capacity in places like Iraq, takes a 
generational investment and typically a whole-of-government and 
multinational approach. Problems are seldom solvable in one sphere nor 
by one nation alone. The United States needs all instruments of power--
diplomatic, economic, informational, and military--to advance its 
interests. It also needs to work closely with the private sector and 
non-governmental partners as well as allies and partners abroad. The 
United States has proven neither particularly patient for nor adept at 
such lengthy and multilateral strategies. It is also difficult to 
measure the success of such approaches in ways that can assure 
taxpayers and their representatives of their value. Our national 
security strategy needs to put action behind a preventative approach, 
to include developing ways to measure the results of such efforts. 
Importantly, a whole-of-government approach also means ensuring 
sufficient funding for intelligence, diplomacy, and development. This 
is why the uniformed military is often the most vocal proponent for 
adequately resourcing the intelligence community, United States State 
Department, USAID, and other non-military foreign policy tools.
                        challenges to deterrence
    The March 2014 events in Ukraine were a stark reminder that state-
based opportunism is alive and well. If the United States ignores the 
challenges posed by major powers such as Russia, China, North Korea, 
and Iran, it does so at its own peril. Although we have an excellent 
record of deterring existential threats to the United States, we face a 
deterrence challenge for so-called ``grey area'' threats. The United 
States must better shape the calculus of those states that wish to test 
our response to ambiguous challenges. This will mean clearly 
communicating those interests and our willingness and capability to act 
in defense of them. It also means carrying out threats when deterrence 
fails. Without that commitment, the value of deterrence will continue 
to erode, and the risk of great power conflict will rise.
                               conclusion
    The paradox of superpower status yet lessening influence, the 
American inclination toward international engagement, and the near-
inevitability of selective engagement are realities that American 
policy-makers and prospective presidents would be wise to understand. 
They create imperatives for national security strategy and for the 
tools of foreign policy. Discerning the shifting nature of the 
international system, and designing an effective set of American 
security tools within it, are monumental tasks, but they are not 
unprecedented. It is the same task that faced ``the wise men'' who 
helped shape the U.S. approach to world affairs at the end of World War 
II. Our circumstances today are equally daunting, requiring a similar 
re-examination of our strategies and capabilities for securing U.S. 
interests. Self-imposed burdens, especially sequestration, threaten to 
undermine our defense policy from within. Ensuring the nation is 
prepared to lead effectively--and selectively--will require adequately 
resourcing any strategy we chose to pursue. Finally, successful 
national security strategy necessitates leadership from Washington and 
partnership with likeminded nations and entities around the world.

    Senator McCain. Thank you very much.
    I guess to pick up on what you just said, Dr. Hicks and 
members of the committee, sequestration is doing not 
irreparable but would you say most serious harm to our ability 
to address the challenges which you all have described? Would 
you agree, Dr. Hicks?
    Dr. Hicks. I do agree. I enjoyed Professor Cohen's comments 
on the QDR. I actually agree with them mostly. But the biggest 
problem with strategic planning today is not the failure of our 
QDR process, it is the inability to have any stability of 
foresight on what that funding profile looks like to create a 
strategy against it. It is paralyzing this Nation's ability to 
plan.
    Senator McCain. Professor Mead?
    Mr. Mead. I would agree. It is very difficult to think of 
any positive things on sequestration. I would also emphasize 
that countries around the world are looking at that as a--you 
know, can the Americans govern themselves' Can they actually 
adopt a serious strategy? How seriously should we take them? 
The message that we are sending by this paralysis is the worst 
possible one.
    Senator McCain. Professor Mahnken?
    Dr. Mahnken. I completely agree. It is not just the budget 
cuts but also the consciously thoughtless way in which they are 
structured almost to cause the greatest damage to the 
Department as possible.
    Dr. Cohen. Without question. My colleagues have put it 
better than I could.
    Senator McCain. Before the committee, several witnesses 
were asked an interesting question. I have forgotten which 
Senator asked General Dunford, our new Chairman of the Joint 
Chiefs, what is our greatest area of risk or challenge. Some of 
us were interested to hear General Dunford, not the first one, 
saying Russia. I wonder, beginning with you, Professor Cohen, 
if you would agree with that.
    Dr. Cohen. I would say Russia is a big problem, but I do 
not think you can actually do that. In fact, I would say the 
fundamental challenge that we have is that we have got 
multiple, major strategic challenges, Russia, Iran, North 
Korea, China, and the jihadists in particular, and not all the 
forces that we have to bring to bear on one are fungible 
against the other. I think coming to terms with that 
fundamental fact that we are not really going to be able to say 
this is absolutely the number one is going to be particularly 
helpful.
    I think I would probably say actually as problematic as 
Russia is, I worry even more about China in terms of a great 
power competitor. But my main point would be we have got a 
bunch of problems.
    Dr. Mahnken. I think it is a difficult question to answer 
in a succinct manner. Russia remains the only country capable 
of annihilating the United States with its nuclear arsenal. So 
that qualifies. But Russia's power is waning, not waxing. So I 
would agree. Over the mid- to long-term, I think China is a 
much greater challenge, a much greater multidimensional 
challenge to American power than Russia.
    Then there is the growing rank of lesser actors that are, 
nonetheless, going to be able to do us great harm and may face 
much lower inhibitions to harming us, whether it is al Qaeda, 
its affiliates, a nuclear-armed North Korea with ICBMs 
[intercontinental ballistic missiles], or Iran through its 
various proxies. So they are varied threats and they require 
varied responses.
    Senator McCain. Professor Mead?
    Mr. Mead. Well, long-term I think I would agree that China 
certainly has greater power potential. But the very fact that 
Russia is a waning power means that I am afraid that President 
Putin is a man in a hurry. For him, the clock is ticking. China 
can look at any unresolved issue and say, you know, we can come 
back to this in 10 years or 20 years and be in a better 
position. The Russians--I do not feel that they have that 
luxury and also for President Putin himself and the security of 
his regime, I think there is a closer connection between 
foreign policy success and the stability of the regime. So that 
while Russia is not in potential the greatest threat to the 
United States, at the moment Russia is the great power which is 
devoting the most time and attention and is on the most 
aggressive timetable to try to compete with American power and 
displace it where possible.
    Senator McCain. Dr. Hicks?
    Dr. Hicks. I think that is a very good way to put it. China 
clearly has the most power potential over the long term, but 
the actions, the intent being displayed by Russia currently is 
a far greater concern in the near term even though there are 
things that the Chinese are doing that are problematic to say 
the least. What Russia is doing in the near term creates 
significant problems for the United States with regard to its 
interests, particularly in terms of Article 5 commitments to 
NATO, but then also beyond that in the Middle East.
    Senator McCain. Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me thank the panel for an extraordinarily thoughtful 
presentation. Thank you very much.
    Professor Cohen, one of the comments you made intrigued me. 
It is about the need or the ability to mobilize, and let me tie 
that to something else, which is, you know, phase III 
operations were incredibly effective. No one, I think, does it 
as well. Phase IV, putting things together again, is where we 
see to fall down dramatically, and that is the longest and 
maybe most expensive part of the operation.
    So when you are talking about mobilization, is that a 
subtle reference to the draft? Is it in the context of going 
forward, not individual soldiers and sailors, it is 
technicians, cyber specialists, engineers, all those people 
that can do phase III?
    Dr. Cohen. Thank you, Senator. I do not think we are going 
to need a draft. I do not think it would be practicable.
    But I think you have hit on a very good example of what 
difference mobilization thinking might have made. I think we 
should have clearly anticipated before the Iraq War that we 
were going to need major capacity in terms of military 
government. You know, during World War II, we did a wonderful 
job of getting city managers, politicians, even future Senators 
into uniform in pretty short order, you know, 3 months, 6 
months of training, and then they were out there doing it. 
There is no reason why you could not have done it in 2003-2004.
    You know, I was struck right after 9/11. After that crisis, 
there is no question in my mind the United States Government 
could have tapped the service of just about any citizen in this 
country. As Dr. Mahnken pointed out, we have got an amazing 
array, unparalleled array, of talents. Our system was just 
incapable of doing that in the intelligence community, in the 
military. It is not as though we have not done it before. We 
did it in World War II.
    Senator Reed. Dr. Mahnken, Professor Mead, then Dr. Hicks, 
any comments?
    Dr. Mahnken. No. I would agree. I think historically our 
military has been based on a relatively small active component 
and the ability to expand as needed. But in recent years, we 
have gone to a highly proficient, highly capable standing 
capability with not much behind it. That is true when it comes 
to phase IV, as you talked about. It is also true with the 
industrial base. Just think about when we needed to mobilize in 
World War II, all the industry that we were able to tap into to 
build tanks, to build bombers, to build ships. I hazard a guess 
that if we had to do that today, if we had to mobilize for an 
era of a protracted war involving precision weapons and cyber, 
we would have a much more difficult time doing it. We have just 
gotten out of the habit of thinking in those terms. For better 
or worse, we are going to need to get back into that habit.
    Senator Reed. I would love to entertain comments, but my 
time is short.
    One point that you raised, Professor Mead--and I will get 
Dr. Hicks? comments also--is that you made the comment, you 
know, what would be the consequences of the $200 a barrel oil? 
One would be that President Putin would be in much better 
shape. So that sort of drives the other side of the argument, 
bluntly how do we keep oil at $45 so his aspirations are not 
funded by huge oil. That raises the issue of part of the 
national security policy has to be a whole-of-government, 
including energy policy, proactive diplomacy, et cetera. If you 
and Dr. Hicks would comment on the general themes I would 
appreciate it.
    Mr. Mead. Yes, sir, Senator. I think there is a connection 
in a way between the first part of your questions and this 
part, that the strength of the United States has been the 
strength of our society which, through a representative system 
of government, is not completely separate from what the 
government wants or does. This is the American people speaking 
and acting through many different institutions.
    But absolutely the success of American energy policy, of 
regenerating our position as a major world producer of oil and 
gas, is an extraordinary example of the kind of strength that 
the United States brings to this multilevel, multifaceted 
strength. We do need to think consciously what is the 
connection between our energy policy and our foreign policy. 
How do we, for example, ensure that some of our allies in 
Europe and Asia can rely on North America? We talk about our 
Canadian and Mexican friends also. North America is really 
positioned to be the swing producer in hydrocarbons for the 
21st century. This can be an extraordinarily beneficial 
geopolitical reality. But our Government needs to be thinking 
together about what are the policies that make that possible. 
This is partly, sir, why I think some kind of office of 
strategic assessment in Congress that could pull together these 
very disparate ideas and considerations would be of enormous 
benefit.
    Senator Reed. Could I ask for a quick comment from Dr. 
Hicks?
    Dr. Hicks. Sure. I also think there is a lot of consistency 
both with your first question in framing it about phase IV, 
which is one of the clearest examples of how inadequate we are 
as a Nation pulling together the different threads of 
capability because phase IV operations are the place where you 
are trying to bring together the military instrument with 
development, diplomacy, one of those places where we try to do 
that. We really struggle.
    Similarly, we really struggle anytime the issue set demands 
that we cross our traditional stovepipe cultures inside either 
the executive branch or even committee structures and try to 
build coherent, integrated approaches.
    It is a real challenge for us and it is getting worse, as I 
tried to point out in my statement, because the problem sets 
are increasingly testing us in those areas. We are not fast at 
it, and we are also not great at it even over a long period of 
time. But it is what the future will require.
    Senator Reed. Thank you, Mr. Chairman.
    Senator McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, with this committee's--I would say the 
chairman--I compliment him on the quality of people coming 
forth. My gosh, we had the very best minds in Kissinger, 
yesterday Bob Gates, the four of you. I have to say this about 
your opening statements. Confession is good for the soul I 
guess. It is the first time that I have ever started reading 
opening statements and I could not put them down. It was like a 
scary but true novel. I appreciate the straightforwardness in 
which you have done this.
    It is very clear I think to me--and I will not ask you--
well, I will ask you to respond. We are in a weakened condition 
right now that we have not been in relative to the threat that 
is out there, at least in the 20-plus years that I have been 
here, when you have the Chairman of the Joint Chiefs of Staff 
talking about how the risk is so great and we are so unready 
that it would be immoral to use force and you have the Vice 
Chairman saying that for the first time in my career, we could 
be met with a crisis and we would have to say we cannot. So 
these things are going on now, and I really believe it is true.
    I like one of the quotes, many of the quotes, of President 
Reagan. One of them is none of the four wars in my lifetime 
came about because we are too strong. It is weakness that 
invites adventurous adversaries to make mistaken judgments.
    Going across from you, Professor Cohen, do you agree with 
that statement?
    Dr. Cohen. I certainly would. The only thing, though, I 
would say, unfortunately, is President Reagan did an 
extraordinary job presiding over a major defense buildup and 
very clearly and powerfully articulating American values.
    Senator Inhofe. The question is strength.
    Dr. Cohen. Right.
    The one caution I would add is although I am very much of a 
view that we need some major plus-ups in the defense budget and 
I am very much in favor of Presidents articulating American 
values, we are not going to have something like the Reagan 
recovery.
    Senator Inhofe. Thank you very much. I will not ask the 
rest of you that.
    Professor Mead, you wrote back in 2013--I mentioned this to 
you before--that Putin and Khamenei believe--and the quote 
was--they are dealing with a dithering and indecisive American 
leader. That was 2 years ago. Do you still think they believe 
that? Is that still true today?
    Mr. Mead. Senator, I am afraid they do believe that, and 
that I think is a factor in some of the risks they have been 
willing to run.
    Senator Inhofe. Well, I think so too.
    Dr. Kissinger, when he was here, he said the role of the 
United States is indispensable. At a time of global upheaval, 
the consequences of American disengagement magnifies and 
requires larger intervention later.
    Professor Mead, are you not saying about the same thing in 
your statement when you said America is the secret ingredient 
that keeps this historically contentious rivalry-ridden area 
full of states of differing size, capacity, with different 
attitudes toward economics, defense, social organizations, and 
much less working together. Is that not simply what--you are 
agreeing with Dr. Kissinger?
    Mr. Mead. I am agreeing with Dr. Kissinger. I think if we 
look back at the 20th century, sir, we can see that even if we 
look at times the United States intervened and perhaps it was 
unwise and the results were not successful, overall far more 
people die, far more damage is done when the United States 
evades responsibility than when it moves forward.
    Senator Inhofe. Thank you also for bringing up in your 
statement and restating it verbally when you talk about one of 
the United States? greatest advantages is our exceptional array 
of natural resources. You go on and talk about our shale 
revolution, things that we are in the middle of right now, and 
horizontal fracturing--hydraulic fracturing and horizontal well 
drilling. By the way, the first hydraulic fracturing was 1948 
in my State of Oklahoma. You probably knew that.
    But with that being significant--and then you end up that 
statement by saying do we sell LNG [liquid natural gas] abroad. 
Do we end the ban on crude oil exports? I say resoundingly yes, 
because we want to keep this thing going. Would you agree with 
that?
    Mr. Mead. Yes, sir. I think it is good national economic 
policy and good strategic policy.
    Senator Inhofe. Thank you very much.
    Professor Mahnken, my time is running out here. You talked 
about sharpening the tradeoff between guns and butter. I like 
that statement. I like the way you are saying that because that 
is exactly what we are doing right now with sequestration. 
Yesterday when Gates was in here, he talked about in 1961 
defense consumed 51 percent of the budget in 1961. Today it is 
15. Now, when we try to do something about sequestration, there 
is a demand by this administration that you are not going put 
one more nickel back into defense unless you also put it into 
the social programs.
    So I would ask each one of you the question. Do you think 
we have too much butter and not enough guns? Let us start with 
you, Professor Mahnken.
    Dr. Mahnken. I think one of the core duties of the 
Government is to provide for the common defense. Nobody else 
can do that.
    Senator Inhofe. That is what the Constitution says.
    Dr. Mahnken. So I think national security spending is key. 
Now, we can try to get more bang for our buck, and we can do 
that also on the butter side as well through reform. But it is 
an inescapable responsibility of the United States Government 
to defend the United States and its people.
    Senator Inhofe. Professor Cohen?
    Dr. Cohen. I do not know whether or not we are spending the 
right amount of money on butter, but I am quite sure we are not 
spending enough on guns.
    Senator Inhofe. A good way of putting it.
    Professor Mead?
    Mr. Mead. I think Professor Cohen had it exactly right, 
sir.
    Senator Inhofe. Dr. Hicks?
    Dr. Hicks. I agree with that. Dr. Gates also had a saying 
he liked to use both here on the Hill and also with his staff, 
which is we are a rich Nation. We are a capable Nation. We 
should be able to provide for the common defense at the same 
time we are providing for the citizens? needs at home.
    Senator Inhofe. I thank all four of you.
    Senator Reed [presiding]. Thank you.
    On behalf of Senator McCain, Senator Hirono?
    Senator Hirono. Thank you very much.
    Secretary Gates yesterday and the panel today both 
acknowledged I think the elephant in the room, which is 
basically congressional dysfunction and our inability to 
eliminate sequester and to provide the kind of long-term 
decisions with regard to the budget that enable good planning 
to be done both on the defense and non-defense side. So that is 
our responsibility.
    I was interested in Dr. Cohen's suggestion that we overhaul 
the current system for producing strategy documents because, as 
you all indicated today in your testimony, we are really living 
in an unpredictable environment and lots of things happen. If 
we are just relying on a Quadrennial Review and those kinds of 
approaches, that may not be the best way to go.
    So I would like to start with Dr. Hicks because I believe 
that you were involved in crafting the 2012 Defense Strategic 
Guidance and the 2010 QDR. So would you agree that we should 
create a more flexible way to develop strategic documents to 
enable all of us to make better decisions?
    Dr. Hicks. The Department absolutely needs a flexible way 
to plan.
    I would say that the 2012 Defense Strategic Guidance 
process was an example of essentially what Dr. Cohen is arguing 
for, which is an incident- or situation-dependent desire and 
then creation of a strategy and associated budget outside of 
the QDR process. So the QDR process can keep going along if it 
is helpful for it to exist, but it cannot constrain strategic 
thinking in the Department. In point of fact, it does not. I 
think the key question is what is most useful in terms of 
documents or processes that the Hill would like to mandate upon 
the Department for its use. But in terms of the Department's 
own agility and ability, it needs to be doing that, and the DSG 
I think was an example of where it recognized that it could not 
wait for the next QDR to do a major strategy review. So it did 
one.
    Senator Hirono. Well, that was in 2012. We are in 2015 now 
and lots of other things have happened. So has there been an 
update of the Defense Strategic Guidance?
    Dr. Hicks. There has. There was a 2014 QDR. So you had a 
2010 QDR, a 2012 DSG, and a 2014 QDR. So basically at this 
point, we are on an every 2-year schedule.
    Senator Hirono. Dr. Cohen, do you think that that is 
adequate?
    Dr. Cohen. No. First, I think it is actually good to get 
rid of reports that consume an enormous amount of time and 
energy from people like my very talented colleagues, Dr. Hicks 
and Dr. Mahnken.
    But also, I think there is a lot to be said for a white 
paper kind of system for two reasons. First, if you look at 
both the Australian and the French examples that I mentioned, 
they do a very good job of integrating both civilians and 
military together as opposed to having a process that is much 
more divided. The French, in particular, also do a much better 
job of holding some open hearings, getting some outside experts 
involved, and then producing a large and really quite serious 
document. The Australians have done this as well. I think it is 
important some part of this be an open process, some part of it 
be a closed process. You probably need something that would 
force the Government to do it at least once every--I do not 
know--5 or 7 years, something like that. But I would be in 
favor of a much radical restructuring of how we do this.
    Senator Hirono. So that relates to external to Congress? 
ability to engage in this kind of strategic assessment, 
although that is what this hearing and hearings like this are 
supposed to do.
    Dr. Cohen, do you have any response to the idea that we 
should establish a congressional office of strategic assessment 
as a tool for us?
    Dr. Cohen. That is hard for me to say. You have the 
Congressional Research Service, which I have got a lot of 
respect for, and the CBO as well. I suppose the one thing I 
would be somewhat concerned about is how do you really keep 
things like that truly nonpartisan. Now, in some ways, just 
this very panel, which includes both a former Obama 
administration official, two former Bush administration 
officials, and one genuinely nonpartisan expert--and there is a 
lot of consensus here--might be encouraging. But I think if I 
was in your shoes, that would be one concern that I would have.
    Senator Hirono. I am running out of time. But I was very 
interested in all of you acknowledging that while Russia is 
moving ahead right now, maybe in the long term they are not as 
much of a challenge or concern for us as China. Although I am 
running out of time, I perhaps would like to ask you all, what 
do you think is the long-term strategy for China? Because if 
their intention is to become the preeminent power in the world 
from a multidimensional standpoint, diplomatically, 
economically, militarily, how long is it going to take them to 
overtake the United States? If I can frame it in that way. Very 
briefly.
    Dr. Cohen. Well, just real quickly, we need to remember the 
Chinese have some great weaknesses as well as strengths, 
demographic, economic, societal and so forth. But I would say 
the key for us is really three things. One, we really do need a 
robust military presence in Asia. You cannot substitute for 
things like gray hulls.
    Secondly, it is working on a different set of alliance 
relationships than in the past to include developing a 
relationship particularly with India but also deepening the 
relationship with Japan and Australia.
    I think, thirdly--and this gets to something that Dr. 
Mahnken said earlier--it is very important to articulate 
American values. I am not sure whether the phrase ``political 
warfare'' is right or something like that. We need to be much 
more forceful, I believe, than we have been in laying out those 
basic values of human rights and representative government and 
rule of law that everybody, Democrats and Republicans alike, 
really believe in. That is a very important part of our power 
in the world, and we should never forget that.
    Senator Hirono. Well, if you do not mind, Mr. Chairman, can 
I have at least one other panel member just respond? Who? Dr. 
Mahnken.
    Dr. Mahnken. First off, I am not willing to concede that 
China is going to surpass the United States. I think we have 
had in our past all sorts of predictions along these lines that 
have not come true. But I think we should focus on what the 
aspects of China's rise are that really do concern us. I 
actually do not think it is economic growth per se. I think it 
is the fact that China is a non-status quo power. It is the 
fact that China has expanded to its maritime littorals and 
threatened our territory and that of our allies. It is a whole 
pattern of behavior, and ultimately it is an authoritarian 
political system. I think if you were to get China to buy into 
major aspects of the status quo, to focus much more of its 
attention on the Asian continent rather than offshore Asia, and 
to be more pluralistic, the economic part of it would not 
matter nearly as much. So if I am thinking about United States 
strategy for addressing China, I would be focused on those 
aspects of Chinese behavior and not merely China's rise or 
Chinese growth.
    Senator Reed. Thank you.
    On behalf of the chairman, Senator Ayotte.
    Senator Ayotte. Thank you very much, Chair.
    I want to thank you all of you for being here. This is very 
helpful and especially your written statements as well.
    Professor Cohen, I was struck in not only your testimony 
here today but in your prepared statement that you predict that 
Iran will be armed with nuclear weapons that can reach the 
United States. So can you explain to me why you believe that 
conclusion is in light of what we have been told, that there 
has been a deal entered into that somehow is going to prevent 
Iran from having that capacity?
    Dr. Cohen. Senator Ayotte, when I was at the State 
Department, I kept on my desk a 50,000 rial note, an Iranian 
bank note. When you hold it up to the light, what you see is 
the watermark. The watermark is the sign of an atom right over 
the center of the country, which tells you something about the 
nature of their commitment.
    I think everything that we know about the Iranian program 
is they have had not just a very active enrichment program--we 
all know about that, including clandestine dimensions--but a 
very active warhead development program at Parchin and, of 
course, a very active ballistic missile program. I understand 
the different positions people have taken on the current 
agreement. But under the best circumstances--under the best 
circumstances--15 years from now, they really are out there 
free. They will be able to build a nuclear arsenal. I believe 
that is what they will do. All of their behavior supports only 
that interpretation. That is under the best set of assumptions. 
We can have a long discussion, of course, about the agreement. 
I think that is the optimistic assumption.
    Senator Ayotte. Can I also follow up with you, Professor 
Mahnken, related to Iran based on a statement that you have in 
your testimony that essentially says that Iran's missile 
program continues apace? One thing I have been very interested 
in and focused on is the recent October 10th test by Iran of 
the ballistic missile capable of delivering a nuclear weapon. 
Of course, that has also been confirmed by Ambassador Power, 
our U.S. Ambassador to the United Nations, as a clear violation 
of UN [United Nations] Security Council 1929.
    I have written the President about this, along with Senator 
Kirk. I wanted to get your thought on their testing. If they do 
not believe that there are any consequences for currently 
violating UN resolutions on this topic that under this 
agreement apparently will not be lifted till 8 years, what are 
your thoughts on this violation and how should it be addressed?
    Dr. Mahnken. Well, in a way the violation is not 
surprising. It is part of an ongoing pattern of behavior by 
Iran. We could extend this and talk about North Korea as well. 
They are both building intercontinental ballistic missile 
capability. In the case of North Korea, they have the nuclear 
weapons, and in the case of Iran, they will at some point 
likely get the warheads to go atop----
    Senator Ayotte. I mean, just so we are clear, they want 
ICBM capability--right--because ``I'' is ``intercontinental,'' 
as Secretary Carter shared with us, so they can hit us.
    Dr. Mahnken. Yes.
    Senator Ayotte. Or Europe.
    Dr. Mahnken. Yes.
    Senator Ayotte. They do not even need that to hit Europe.
    Dr. Mahnken. Yes. They can already hit Europe.
    Iran and North Korea have a pattern of cooperation on a 
variety of matters as well.
    So, yes, whether they get the warheads now or a few years 
from now, they will have the means.
    Senator Ayotte. So here is my question I guess to everyone 
on the panel. Should there not be some consequences for if they 
are already testing in violation of the UN resolutions, which, 
I mean, there was--I disagreed with the administration lifting 
the missile resolutions whatsoever in the 8 years. In fact, the 
Chairman of the Joint Chiefs of Staff said that this should not 
be done under any circumstances. But there does not seem to be 
any response from the administration. Should we not have a 
response? I would like to get everyone's thought on this.
    Dr. Hicks. I will start on that. Obviously, I do not 
represent the administration.
    But I think there is absolutely no doubt, whether it is 
Iran or others that we are trying to prevent from proliferating 
to nuclear weapons, we have to demonstrate that they are better 
off without nuclear weapons. In the case of North Korea, I 
think that has failed. I think the fact of the matter is North 
Koreans believe they are better off with nuclear weapons. That 
makes the challenge with Iran that much harder.
    So putting aside the deal--I am happy to talk about that, 
but putting that aside for the moment, I am in favor of the 
deal, but I do think there needs to be absolutely consequences 
to demonstrate that Iran sticking to its agreement and staying, 
if you will, inside parameters that are non-nuclear are very 
important to the United States and are important to Iran's own 
security.
    Senator Ayotte. Other thoughts? Also, I do not view the 
ICBM issue as non-nuclear. Let me just say that.
    Dr. Cohen. The Supreme Leader was very clever. He just 
announced that any kind of sanctions of any sort would 
invalidate the deal. So clearly, what the Iranians would like 
to do is to kind of be able to engage not just in this but in 
other nefarious activities without any consequences whatsoever. 
So I think even as a symbolic statement that we are not going 
to accept that construction of this agreement, we need to do 
something.
    Senator Ayotte. Any other comments on that? I know my time 
is up, but I know it is an important issue.
    Mr. Mead. Well, I do think that in a sense the problem with 
the nuclear deal is that it does not solve our most urgent 
problem with Iran, which is its geopolitical ambitions in the 
region and, in fact, may provide Iran with more economic 
resources to pursue a destabilizing policy in the region, which 
it is clearly doing. If we add then that we do not, at the 
moment, seem to have an active strategy of containing or 
offsetting or checking Iran in the region and then we add to 
that that we seem unable to come up with a response to a 
violation of a UN Security Council resolution, we are really 
inviting the kind of behavior from Iran that is very dangerous 
and would be very unwelcome.
    Dr. Mahnken. I agree.
    Senator Ayotte. Thank you all.
    Senator Reed. On behalf of the chairman, Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, and thank you all 
very much for your very thought-provoking testimony this 
morning.
    I just wanted to follow up a little bit on some of the 
budget uncertainty concerns that have been raised. Most of you 
talked about it in the context of sequestration and the 
potential impact that that has on our defense budget. But do 
you agree that the current uncertainty around a budget in 
general for the country and uncertainty about our willingness 
to raise the debt ceiling and to invest in things like our 
infrastructure and our research and development, our 
educational system also contributes to our ability to address 
national security threats to the country? Professor Cohen?
    Dr. Cohen. I guess I would say two things.
    One, I think it is generally--first, I think the core 
issues in some ways, in addition to the specific damage to 
defense planning, it is the reputational cost abroad, which I 
think is very real. Most people do not understand our system of 
divided powers. So they are frequently baffled by that. But I 
think, to the extent that there is a national security issue, 
what they are focused on, what they really notice is our 
inability to really have defense budgets and make long-term 
decisions. As a citizen, do I care about the nature of the 
political deadlock that we have here at home? Absolutely. But I 
think if you were to ask me in terms of the reputational issue 
abroad, that I am not as sure about.
    Dr. Mahnken. Yes. What I get when I am abroad when I am 
speaking to allies and friends is that this reflects poorly 
on--appears to reflect poorly on our ability to get things 
done. Now, historically we have been able to get a bipartisan 
consensus on defense, even when there have been very profound 
disagreements on other things. I think if we are unable to do 
that, if we are unable to push a defense budget forward and get 
it signed, that will be yet another distressing sign to many of 
our allies and maybe comforting to those who wish us ill.
    Senator Shaheen. Do either of you disagree with that?
    Dr. Hicks. I do not disagree. I just wanted to add that 
the--which I think will be shared by others, that the long-term 
security of the country also relies on having strong education 
systems and innovation and a tech sector that is vibrant, 
infrastructure that functions and is above a D grade level for 
the Nation. All those things also matter in the long term, as 
does the debt ceiling, the national debt.
    Senator Shaheen. Professor Mead?
    Mr. Mead. Yes. I think there is a certain reputational 
damage internationally that we seem--you know, if we are unable 
to agree on a basic budget, but it becomes much more focused 
when defense is part of that general imbroglio. So we need to 
think about how do we--well, we may also need to sort of try to 
carve up the defense budget a little bit. There are sort of 
payment of past wars, which would be veterans benefits and 
pensions and things like that, and then what do we need to do 
to fulfill our needs right now and possibly there are ways to 
think about those things in budget terms. I am not sure.
    But in any case, there is a reputational damage to us and 
to the idea of democracy when the United States appears unable 
to manage its own affairs well, but it is exacerbated when our 
defense budget is made a kind of a political football.
    Senator Shaheen. Thank you.
    The 2015 National security Strategy states that--and I am 
quoting--climate change is an urgent and growing threat to our 
national security, contributing to increased natural disasters, 
refugee flows, and conflicts over basic resources like food and 
water. Do you all agree? I was surprised that nobody mentioned 
this as part of potential threats to not only our national 
security but to the global world order. Does anyone wish to 
comment? Dr. Hicks?
    Dr. Hicks. Thank you. It is in my written statement. I did 
not highlight it in my brief oral statement. But in my written 
statement, I do talk about the effects of climate change 
increasingly as a national security issue. I might use 
different adjectives than were used in the National Security 
Strategy, but for certain, there will be increasing conflicts 
over natural resources. Of course, we have the effects on the 
Arctic, especially as it becomes ice-free over the summers by 
mid-century as predicted. That creates a whole new challenge 
space with scientific and commercial vessels and, of course, 
military--the possibilities of military use in the Arctic.
    Then to the extent that you have at the same time the 
effects of mega-city growth and urbanization happening, which 
is largely happening along waterways--on the littorals is where 
those mega-cities are going. To the extent that countries and 
states are not able to control and govern those areas well when 
disaster hits, I do think it greatly increases some of the 
risks in areas that the United States may decide it needs to 
care about with military force.
    Dr. Cohen. If I could, I think I actually disagree in that 
not all really important issues are national security issues. 
Environmental degradation is important. Climate change is 
important. Education is important. But I think there is a real 
danger--we can end up just diluting what we mean by national 
security and take our eye off the ball.
    I remember when the Commander of Pacific Command got up and 
said climate change is the most important national security 
threat we have got, my reaction was, you know, your job is 
really to be focused on China and let other people deal with 
climate change.
    So I think particularly if this committee is going to stay 
focused on the central task, I think it should be focused on 
issues which really involve the use or potential use of force. 
Although they may be indirect connections between climate 
change and use of force, I think we run the risk of blurring 
our focus if we extend it too widely.
    Senator Shaheen. I am out of time, but I would respectfully 
disagree with you. I think when we have reports that come out 
that show that China is losing its wetlands at a rate that 
means that it is no longer going to be able to feed its 
population, that it is going to look elsewhere to do that and 
that that will have significant security risks. So while I 
appreciate what you are saying, I think if we are talking about 
a national security strategy that focuses on things like 
energy, that we certainly ought to be focused also on the 
impact of the threats to our climate.
    Thank you, Mr. Chairman.
    Chairman McCain [presiding]. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Thank you, panelists. It is a really, really impressive 
display of knowledge here.
    Professor Cohen, just to be clear, you mentioned what the 
Supreme Leader had recently said. It is actually in the 
agreement that any type of reimposition of sanctions allows 
Iran to walk away from the deal. That is in the agreement. So 
our administration negotiated that. The Senators who voted for 
this agreement agreed with that. I think it is outrageous, but 
it is in the agreement. It is not just what they are saying. So 
I just wanted to be clear on that.
    I really appreciated all of you talking about the 
advantages that we have, the comparative advantages that we 
have. I do not think that is emphasized enough.
    Professor Mead and others, your focus on energy is also 
one. You know, we have had General Jones, former NATO 
Commander, Commandant of the Marine Corps. Even Secretary 
Carter has come here and talked about how important energy is. 
Yet, we cannot put together an energy strategy at all with this 
administration because I just think they do not like 
hydrocarbons. They do not like talking about exporting LNG and 
oil. It is not only a way to create jobs and energy security in 
America but to dramatically increase our national security. So 
I think we need to do that. I appreciate all of you talking 
about that.
    You know, the other issue that I was surprised did not come 
up at all--as a matter of it, it is something that as a new 
Senator I do not think we talk about nearly enough--is economic 
growth and the importance of that. You know, we have had this 
recovery which is by any historical measure the most anemic 
recovery in U.S. history, about 1.5 percent, maybe 2 percent 
GDP [gross domestic product] growth if we are lucky. They call 
it the ``new normal'' here in Washington, which I think is a 
very dangerous comment, dangerous idea that we should be 
satisfied with growth that is so traditionally off the 4 
percent GDP growth standard that we have had for at least 100 
years in this country.
    How much better would our national security be if we were 
able to bust out of this 1.5 percent growth and get back to 
traditional levels of American growth, 3.5-4 percent GDP 
growth?
    Dr. Mahnken. Quite honestly, Senator, at those levels of 
growth, many of the discussions that we are having in
    Washington, D.C. right now about guns versus butter would 
not exactly go away, but would become much less pressing. I 
mean, what has enabled China's tremendous military buildup? It 
has been a booming Chinese economy. What has stymied the 
Russian military since the end of the Cold War? It has been 
variable economic growth. So you get economic growth up. It is 
a lot more resources, including for national security.
    Senator Sullivan. I am going to address a much more 
specific issue. We have been talking a lot about China, and we 
have had a number of--the PACOM [U.S. Pacific Command] 
Commander and Secretary Carter talking about the importance of 
being able to sail, fly anywhere we want. The Secretary gave a 
very good speech in Singapore. The chairman and the ranking 
member and I were there at the Shangri-La Dialogue where he 
talked about that submerged rocks do not provide sovereignty 
that we need to respect.
    So there has been a lot of discussion about sending Navy 
ships within the 12-mile zone of these islands. As a matter of 
fact, you probably saw last week a lot of leaks in the paper--I 
am not sure where they are from--saying we are going to do this 
any moment. Yet, we are here--and I at least heard a rumor that 
maybe Secretary Kerry vetoed that because they want to get 
better negotiations in the climate change negotiations with 
China.
    If that is true, if we are saying we are going to do this, 
we are going to do this, we are going to do this--the military 
clearly wants to do this Admiral Harris pretty much implied in 
testimony here. Then they leak it. We are going to do it any 
minute. Then we do not. What is that going to do to our 
credibility in Asia and what is that going to do with our 
credibility with regard to the Chinese? But importantly, what 
is that going to do to our credibility with regard to our 
allies in the region who, to be honest, are quite supportive of 
a little more American leadership in the South China Sea? I 
open that up to everybody.
    Dr. Cohen. I completely agree with that. It is going to be 
very important for us to sail within 12 miles of those new 
Chinese bases. I think what your comment brings out is there 
are really two dimensions to think about these strategic 
issues. You know, there is the material side, how many ships 
were deployed, war plans, that sort of stuff. But there is also 
a reputational side. I think we need to understand that 
reputational dimension of our national security posture and pay 
attention to it because it has taken a beating in recent years.
    Dr. Mahnken. I agree. You know, whether we should be 
trumpeting the fact or not, we should be doing it. We should 
have been doing it all along. The United States has a decades-
long commitment to freedom of navigation, and the United States 
has during that period undertaken objectively must riskier 
operations to demonstrate freedom of navigation, including 
against the Soviet navy in the height of the Cold War. The fact 
that we appear unwilling to do it under these circumstances 
does not serve us well.
    Senator Sullivan. Professor Mead?
    Mr. Mead. Certainly freedom of navigation is a key to 
America's global position, to our vital interests, to those of 
our allies. We cannot leave anybody in doubt around the world 
about how seriously we take this. If you look at the history of 
American wars, the single largest cost of America entering into 
foreign wars historically has been a tax on our shipping 
abroad, really going back to the War of 1812. If we seem 
uncertain or hesitant about this, people overseas may well 
conclude that we are hesitant about many other things. It is a 
bad signal to send.
    Dr. Hicks. I completely agree, and I would particularly 
associate myself with the way that Dr. Mahnken formulated it. 
You do not wait for a crisis. You need to be routinely 
exercising this freedom of the seas.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator McCain. We have a couple of our members who are on 
their way back as well, including one of the more older and 
senile members. So we want to keep this open.
    But in the meantime, Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to all of you. Your written testimony was very, very 
good. Because of other committee hearings, I missed a lot of 
the Q and A.
    But I just kind of wanted to get you all to address an 
issue. Sunday, this Sunday, is the 70th anniversary of one of 
my favorite moments in presidential history. Harry Truman, who 
was a great wartime President, nobody's softy by any means, on 
the 25th of October 1945 called the press corps into his 
office, and he showed them that he had redesigned the seal of 
the presidency of the United States. The seal had changed over 
time, but the basic features of the seal were the eagle with 
the olive branches of diplomacy and peace in one claw and the 
arrows of war in the other. FDR had actually started the 
project, but he had completed it to create a seal where the 
eagle faces to the position of honor to the right but faces the 
olive branches of diplomacy and peace instead of the arrows of 
war. That was a change from earlier tradition.
    Now, Harry Truman was nobody's softy. He had fought in 
World War I. He had made very difficult decisions, especially 
maybe the most momentous single decision a President has had to 
make, which is whether to use the atomic bomb with respect to 
Hiroshima and Nagasaki. But he definitely believed that America 
is the kind of nation that should always lead with diplomacy, 
that strong diplomacy actually increases your moral authority 
if you have to use military action. But he also believed it the 
other way too, that strong military power increased your 
ability to find diplomacy.
    I would wonder if each of you would just address--and then 
Truman, you know, true to form--and other Presidents since this 
have done that--have really viewed the levers of American power 
to include in a significant way multilateral diplomacy, whether 
it was his role moving forward with the UN or the creation of 
NATO or the creation of the International Monetary Fund. We see 
issues today. We go up to the Trans-Pacific Partnership or a 
deal with Iran that is a multilateral deal. The U.S. has been 
the principal architect of the post-World War II edifice of 
rules, norms, and institutions. We have benefited from that, 
but the whole world has benefited from it. I sometimes worry 
that our commitment to these sort of multilateral, broadly 
diplomatic efforts is either fraying or maybe we do not 
completely get the benefits that we have achieved by it.
    But I would just like as an element of kind of the way we 
should look at the challenges that you each laid out in our 
National Security Strategy, if you would talk about the role of 
the U.S. plain leadership in kind of broad, multilateral--this 
post-World War II, multilateral, diplomatic effort.
    Dr. Cohen. Senator, if I could add a little gloss to that 
story. Winston Churchill traveled with President Truman across 
the United States in the presidential train to give the Fulton 
Address. President Truman showed him the redesigned seal, and 
Winston Churchill's response was, I see the point but I think 
the eagle's head should be mounted on a swivel----
    [Laughter.]
    Dr. Cohen.--to point either to the arrows or to the olive 
branch as required. I think actually that is really the right 
approach.
    Diplomacy is a very important tool. It is a tool of foreign 
policy, as indeed is military power.
    More immediately to your point, I think it is really 
important to remember that multilateral diplomacy is not an end 
in itself. That is all it is, a tool. I think a kind of 
reflexive multilateralism could get us in trouble. Again, I 
would cite, as I did in my testimony, the example of 
introducing NATO into Afghanistan, which was a big mistake.
    The challenge I think we are going to have, particularly in 
Asia, is going to be knitting together a different set of 
multilateral relationships particularly with partners that we 
have not worked as closely with before, and the key one is 
India. That is a matter of personal interest. So I think there 
are going to be a lot of challenges for American diplomats 
ahead, working very much in conjunction with the American 
military.
    Dr. Mahnken. I think multilateral diplomacy is most 
effective and has been most effective historically when it is 
backed by military strength. I am concerned today that the 
fraying of multilateral diplomacy I think can be traced back to 
some of the erosion of our military strength. Look at NATO 
today. Is NATO more healthy today with or without strong U.S. 
support? We were talking about the South China Sea just a 
minute ago. We support multilateral resolution of competing 
claims in the South China Sea. Is that more likely if we choose 
not to challenge China's creation of artificial features, or is 
it more likely if we do respond vigorously? I think the latter 
is the case.
    Mr. Mead. Well, Senator, when I think about this and 
actually that image of the eagle and the two claws with 
different offerings, it struck me earlier in this hearing this 
morning that if we think about the American position vis-a-vis 
China, to take one of the issues we have discussed, I think we 
need to be presenting as a country to China the idea that there 
are two choices. There is the olive branch, that is, if China 
chooses a path of peaceful integration, trade with the world, 
becoming more and more a responsible member of the 
international system, the door is open to a kind of continued 
growth of prosperity, security, respect, influence that is 
extraordinary for China in the same way, say, for Germany and 
Japan after World War II. The option of integration and 
cooperation gave them a future brighter than could have been 
imagined. Then, on the other hand, there is the other choice, 
and that other choice is risky, dangerous, costly, ugly.
    The eagle needs to make both of those statements as clearly 
as possible, not letting one overshadow the other, but the 
Chinese and others need to understand cooperation with the 
United States will make your life significantly better for you, 
your people, your country's place in the world. Opposition will 
make no one happy. As long as we can send that message, then I 
think we have a reasonable chance that things may go well.
    Dr. Hicks. So I am not willing to give up any tools of 
national power. I do not think any of the other folks are 
either. I want as many as possible. So I put as many arrows and 
I would pull those claws together more frequently so that they 
are integrated and we are thinking through how the various 
instruments can operate together.
    To draw on Dr. Cohen's comment, we really do have to be 
thinking about the multilateral structures that we have 
developed under U.S. leadership, adapting them where we can, 
but also going beyond them where we need to. Asia is a place 
where we can start to build, I think, some new approaches with 
our allies and partners, and we do need to have a strong NATO 
in Europe but think through how that transatlantic relationship 
might have to go beyond simply the NATO piece which is confined 
somewhat to the military sphere.
    So I would rather have all the instruments together, and 
they do mutually reinforce one another, as you suggest.
    Senator McCain. Senator Cotton?
    Senator Cotton. Thank you all very much for your very 
important and quite interesting testimony this morning.
    Professor Mead, I want to go back to an answer you gave in 
response to Chairman McCain's question about our gravest threat 
in the world. Many generals and admirals, as you know, have 
said that Russia is our number one enemy and that is in part, 
implicitly they have said, explicitly they have said, because 
of Russia's nuclear arsenal also because of Putin's highly 
personalized source of autocratic power. Many of the witnesses 
this morning said that it is China that is the rising power, 
that China is going to be the long-term challenge that we face.
    I heard a little bit of a dissent from you, that Russia, 
because of the highly personalized power, because of their 
nuclear arsenal, but also they are a declining power actually 
poses a more immediate threat to the United States. Is that 
correct?
    Mr. Mead. Yes, Senator. You know, it is that Russia is in a 
hurry. A power that can afford to be patient, can delay 
provocative actions, can time its strategy, and can actually 
sort of temporize and make agreements, but a country that feels 
it does not have time on its side is a country that is going to 
move quickly. For President Putin, I think he feels if he does 
not act now, when can he act. When he began this process, the 
price of oil was much higher. He sees the European Union in 
disarray because of the euro crisis and other things. He sees 
the United States perhaps turning away, at least temporarily, 
from some of the global engagement that we saw in the past. So 
I believe he saw an opportunity and felt he had no choice but 
to seize it.
    While the Chinese might--for example, suppose we are 
successful in demonstrating our commitment to freedom of 
navigation in the South China Sea. They might move away. We 
have seen actually the Chinese have moderated vis-a-vis Japan 
and have stopped being quite so provocative in the north, even 
as they continue to push in the south. So there is a little bit 
more flexibility there.
    Senator Cotton. You said that he has got a limited amount 
of time. He is in his early 60s. The last time I watched him 
playing hockey or riding a tiger in a judo outfit, he seemed to 
be in pretty good health. Given the longevity of dictators, 
maybe we can be looking at another 20 to 25 years of Vladimir 
Putin. So could you say a little bit more what you mean about a 
limited amount time?
    Mr. Mead. He is not worried about term limits curtailing 
his period in the Kremlin, no, or his own old age. But his 
concern is actually for Russian national power. Russia, since 
the Cold War, has failed to develop an effective modern 
economy. It remains a gas station rather than an integrated 
economy. Without hydrocarbons, it does not have levers.
    At the same time--and we should not forget that the rise of 
China is a much more worrisome thing for Russia than it is for 
the United States. We can think about historical claims that 
China has to Russian territory in the Far East. We can think 
just in general about an empty Siberia facing a rising China 
that Russia is concerned. The rise of jihadi ideology is a much 
greater threat to Russia with not only a large internal 
minority of sometimes alienated Sunni Muslims, but also its 
interest in Central Asia, its historical concerns there.
    So Russia looks at a threatening international environment. 
From Putin's point of view, if you are going to have a kind of 
a center of geopolitical power somewhere between Berlin and 
Beijing, he feels he has a limited amount of time to build 
this. The odds are not in his favor. He needs to move quickly. 
He needs to move aggressively. One could compare him in some 
ways to General Lee in the American Civil War who felt that in 
a long war, his side would lose. So even though he was 
strategically on the defensive, he had to try things like the 
attacks at Antietam and Gettysburg to have a hope of winning 
the war. He had to be a dazzling tactician to overcome the 
balance of forces which was not in his favor. I think President 
Putin is thinking in those terms, Senator.
    Senator Cotton. The long-term confrontation that we have 
with Russia--today we have it. We had it throughout the Cold 
War. But the clash of interests has been clear. I mean, 
Tocqueville wrote at the end of the first book of ``Democracy 
in America'' that because of our modes of thought and our 
social organization and points of departure, it is inevitable 
that we would each hold half the world's hands in our futures.
    Given that long-term rivalry, what would an ultimate 
integration of Russia into the world system look like? How 
might the United States help bring that about?
    Mr. Mead. Well, I think the most interesting possibility is 
that if we can help the people in Ukraine who want to modernize 
and build a modern, law-based, commercial free state in Ukraine 
and free society, that would demonstrate to millions of people 
inside Russia that Orthodox Slavs do not have to accept 
dictatorship, poverty, hostility, that kind of thing, that in 
fact the ideas that have created prosperity in France and 
Germany, Poland can also work in Russia. There is a place where 
we could show the Russian people that they have a different 
choice. The future can be different. I think it is in Ukraine. 
I think it would be a tragedy if we do not do what we can to 
help the Ukrainian people build the kind of future they seem to 
want.
    Senator McCain. Senator King?
    Senator King. I want to welcome you as unpaid faculty 
members of McCain University.
    [Laughter.]
    Senator King. I want to compliment the chair, seriously. 
Abraham Lincoln was once asked what he would do if he were 
given an hour to split a cord of wood, and his answer was I 
would spend the first 15 minutes sharpening my axe. These 
hearings have been the sharpening of our intellectual axes 
rather than just doing and voting and working on the details to 
give us a chance to reflect and think with you on some of these 
larger issues. Secretary Gates, Henry Kissinger, Madeleine 
Albright, Brzezinski--has been really illuminating and very 
helpful.
    Mr. Mead, I want to take off on something you just said, 
which I think is incredibly important, and it goes to this 
issue of sequester and how we balance the relief from 
sequester. It has been characterized that it is defense or 
social programs. I do not consider the FBI [Federal Bureau of 
Investigation] a social program or the Department of Homeland 
Security or NIH [National Institutes of Health] or the 
infrastructure of our country, law enforcement across the 
country. You made the point that ultimately the power is in the 
strength of the economy and the strength of the society, not 
just in guns and jet airplanes. Would you agree with that?
    Mr. Mead. Yes, sir, I would. I think, though, you are going 
to have to--in Congress you have to think about this, that we 
might talk about there are essential costs. I do not think all 
of those essential costs are necessarily defense costs. But are 
we going to say that every dollar the Federal Government spends 
is of equal importance to every other dollar, that there is 
nothing that cannot be treated----
    Senator King. Of course, not, and I do not think anyone 
asserts that.
    But Dr. Hicks used one of the most wonderful phrases. It is 
going to become part of my lexicon, that the sequester was 
consciously thoughtless. ``Consciously thoughtless.'' What a 
wonderful phrase. We need to go back to the history of the 
sequester. It was designed because in 2011, they could not 
figure out where to get the last trillion dollars of deficit 
reduction. So they said you, Congress, through the special 
committee, will find the solution, and if you do not, we will 
give you this consciously thoughtless, really stupid 
alternative that no one will want to have happen, and 
therefore, you will find a solution. Somehow over the years, it 
has metamorphosed into holy writ that somehow the sequester is 
part of the deficit reduction strategy when in fact it was a 
part of the incentive to drive us to a better solution 
involving all sides of the equation. That was why it was 
developed that way.
    But I think the idea that we have to choose between defense 
and non-defense--and the point I was making about the FBI and 
Homeland Security is there are national security items that 
will be affected by the sequester.
    Dr. Hicks, you talked about migration in Europe as being a 
national security threat, the greatest migration. I worry that 
looking into the future, migration, not necessarily because of 
Syria but because of economic conditions in the developing 
world, can be a huge national security problem for this country 
and for Europe. People are going to want to get from poor 
places to rich places. We dealt with this on the Mexican border 
a year or so ago with these undocumented immigrants from 
Central America trying to escape dangerous, hopeless places.
    Do you see this as a long-term issue? I just see pressure 
building up as people can see how much better it is and they 
look around and they say my government does not work and it is 
hopeless and there are no jobs and I am going to get out of 
here.
    Dr. Hicks. I do think it is a long-term issue. It has also 
obviously been an issue throughout the course of human history. 
So we should not expect that the future will be better in this 
regard. It depends so much on the strength of the societies 
into which these migrants are moving and, of course, the 
strength of the societies to keep them from wanting to move. 
That gets to the point I was trying to make in my statement 
about having these long-term approaches, to be able to think 
long-term about where you might see such an impetus and how the 
United States, along with likeminded nations, can help nations 
strengthen themselves against that kind of tendency or current 
of migrants is important and then on the receiving end.
    Senator King. Interestingly, illegal immigration from 
Mexico has declined over the last several years, mostly because 
of improving economic conditions in Mexico. I think that is 
exactly the point that you are making.
    I have to mention that I recently learned--we talked about 
China, a lot of talk about China and what their society is 
like--that their government will not allow the Magna Carta to 
be publicly displayed, and to fear an 800-year-old document 
written in medieval Latin strikes me as a real indictment of 
their confidence in their system.
    I want to thank you all again for your testimony. Very 
illuminating, very helpful.
    Thank you, Mr. Chairman.
    Senator McCain. Thank you, Senator King.
    I would just like to ask one kind of mechanical question. 
As you know from your testimony today, many of these challenges 
transcend international boundaries. I think it was much simpler 
30-40 years ago when we set up these various combatant commands 
[COCOMs]. Do you think that that is now applicable? Should we 
look at a reorganization of this kind of situation, which was 
really far more effective in the days of the Cold War when we 
had a European Command, a Pacific Command. Now we have a 
proliferation of commands actually. Every time there seems to 
be a crisis, we create another command and, by the way, another 
four-star general. But maybe we could ask if you have specific 
thoughts on that, beginning with you, Dr. Hicks.
    Dr. Hicks. Sure. As I know you know, no less than every 2 
years, there is an effort inside DOD [Department of Defense] to 
look at the unified command plan. But the effort that goes into 
the strategic piece of that, I would say, is not--I guess the 
word ``anemic'' might come to mind, which is a little unfair. 
But I think it is very good for you to think about this issue 
strategically. Too often people think of this as a budget 
cutting issue, and there is not a lot of money to be made on 
the combatant command side. So coming at it from the strategic 
perspective of what is the presence that the United States 
needs in the world and what is the role and responsibility of 
the unified commands is important.
    Having said that, every time we have played with changing 
the UCP [Unified Command Plan] tremendously in a way to take 
down commands, I think there has always been a little bit of a 
regret factor. This goes overall with any kind of structural 
changes that you think through, you always have to be thinking 
to second and third order effects, you know, what are the 
downstream consequences that break more value than I gain by 
the rework.
    So we did things like stand up, of course, U.S. Northern 
Command. There has been talk over time about taking that down. 
We have talked about taking down AFRICOM [U.S. African Command] 
or even merging EUCOM [U.S. European Command], because Europe 
was not important, into AFRICOM, and then suddenly the Russians 
are important, and in the case of NORTHCOM [U.S. Northern 
Command] or SOUTHCOM [U.S. Southern Command], the same type of 
thing can happen.
    So I do not have a particular change I would recommend 
right now. I think it is important to always be thinking about 
it, to be open to changes, but to be thinking about, much as I 
think Professor Mead said about not being able to discount a 
region of the world--you know, life is going to surprise us. We 
should have combatant command structures that are flexible and 
adaptable to the future.
    Senator McCain. Well, thank you.
    Before you answer, Professor Mead, I think probably the 
most graphic example of this is NORTHCOM and SOUTHCOM. When we 
have an immigration problem or a drug problem that begins in 
Colombia, should the problem be handed off from the Guatemalan-
Mexican border to those that look at Mexico, I mean, and 
Canada? That to me is a graphic example of redundancy. Maybe I 
am wrong.
    Go ahead, Professor.
    Mr. Mead. Well, Senator, I am no expert on military 
organization, but I just would say that when the world is 
changing as quickly as it is and the kinds of issues that we 
face are becoming more difficult, more complicated all the 
time, it would be unusual if we had invented in the past a 
structure of organization that never needed to be reformed. I 
also think that from inside a bureaucracy, it is unlikely that 
the kind of reform that one would seek would naturally emerge. 
So I think without committees like this one and external 
reviews, I think it is unlikely that our military structure 
would be suitable to what we need. So I wish you every success 
as you think about this.
    Senator McCain. Professor?
    Dr. Mahnken. Like Dr. Hicks, I am the grizzled veteran of 
multiple unified command plan revisions, and I am also a 
survivor of the creation of AFRICOM. I would actually urge you, 
I think, and the committee that it might be worthwhile to take 
a look at the birth and the growth of AFRICOM because that was 
a command that was intended from birth to be different, to be 
small, light footprint, and yet I think as it has evolved--and 
I think this is a very understandable tendency--it has come to 
be much more of a command just like any other. So I think there 
are very real tendencies that drive these commands to be 
bigger, more expansive.
    Senator McCain. More staff.
    Dr. Mahnken. Exactly. More aircraft flying around various 
places. So any reform effort I think really needs to take those 
very real considerations into account.
    Look, I think the challenges that we have outlined--many of 
them are truly global challenges. Our concerns about China are 
not solely focused in the USPACOM AOR [area of responsibility]. 
They extend to Africa. They extend to the Central Command 
region. They extend to EUCOM, also to NORTHCOM as well. The 
same thing with Russia. It is worth remembering that in the 
Cold War, when we were focused on the Soviet Union, the Soviet 
Union itself was not part of a combatant command.
    So I think we do need to rethink these things, and I would 
certainly commend you and the committee for their efforts to do 
that.
    Senator McCain. Thank you very much.
    Professor Cohen?
    Dr. Cohen. I would agree that one of the sure indicators of 
military sclerosis is a multiplication of headquarters. Just 
look at NATO. Every time there is a crisis, including the 
recent crisis, the response is let us create another 
headquarters. You know, what is at the point of the spear may 
be an armored company going on a driving holiday somewhere in 
Eastern Europe, but it is not generating real military power.
    I would add a couple of things. One is we are increasingly 
moving into a world in which regional powers have global reach, 
and this segmentation actually gets in our way. This is not 
new. Think about the Iranians and the Buenos Aires bombing. But 
this is just going to get worse. So we are going to be dealing 
with regional actors who will be operating across multiple 
commands.
    The third point I would make--and I am sorry Senator Kaine 
is not here--the multiplication of these COCOMs with rather 
grandiose headquarters and fleets of G-5s and so forth actually 
diminishes in many ways the potency of our diplomacy because 
the assistant secretary gets kind of dumped out of tourist 
class in the back of a commercial flight. The COCOM comes in 
with a fleet of airplanes, you know, a vast retinue. Guess who 
the locals pay more attention to? So I think that is a third 
issue.
    The last thing I would say is, as you can tell, I think 
this is very much worth looking into. DOD will flinch from this 
because of all the equities involved. So this is something that 
really needs to be looked at from the outside. It would have to 
be a very, very serious look. It would not, I think, be the 
kind of thing you could do in this setting, but something that 
would be really worth commissioning a hard look at, perhaps 
coming up with multiple options. Absolutely, I think it would 
be a great idea.
    Senator McCain. Well, I thank you. I want to apologize to 
the witnesses that we are having votes on the floor, which 
accounts for the rotating presence here.
    It has been very helpful, and we will continue these series 
of hearings. At some point probably I would imagine, maybe in 
the month of December, we will start floating some proposals on 
this whole issue of reform, and we will be calling on you to 
give us your best advice and counsel.
    It is my intention--and I am happy to tell you that this 
committee, as you know, has a long tradition of bipartisan 
behavior--that we will be working together to try to address 
these issues that cry out for reform. When we look at the 
numbers, the hearing that we had with Secretary Gates showed 
some very interesting trends, decreases in brigade combat 
teams, increases in staff, personnel costs, all of those 
things. It is a little bit like in some ways our entitlement 
programs overall. We all know that by 2035, or whatever it is, 
we will be paying for the entitlement programs and interest on 
the debt. If we do not stop this dramatic increase in non-
essential, non-warfighting costs, we are going to be facing a 
similar situation.
    By the way, I also have been and will be working closely 
with Chairman Thornberry in the House. Despite our superior 
feelings, we do have to work in a bicameral fashion.
    So I thank all of you for being here. It has been very 
helpful, and we will be calling on you in the future. Thank 
you.
    This hearing is adjourned.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
